                                                                                                                                                                                            sigar
        SIGAR
        Special Inspector General                                                                                                                                                                            Special Inspector General for    Jul 30




                                                                                                                   SIGAR | Quarterly Report to the United States Congress | July 30, 2014
        for Afghanistan Reconstruction
                                                                                                                                                                                                             Afghanistan Reconstruction        2014
        2530 Crystal Drive
        Arlington, VA 22202

        www.sigar.mil




        FRAUD, WASTE, OR ABUSE MAY BE REPORTED TO SIGAR’S HOTLINE
                                                                                                                                                                                             Quarterly Report to the United States Congress
        By Phone: Afghanistan
        Cell: 0700107300
        DSN: 318-237-3912 ext. 7303
        All voicemail is in Dari, Pashto, and English.

        By Phone: United States
        Toll Free: 866-329-8893
        DSN: 312-664-0378
        All voicemail is in English and answered during business hours.

        FRAUD,      WASTE, OR ABUSE MAY BE REPORTED TO SIGAR’S HOTLINE
        By Fax: 703-601-4065
        By E-mail: sigar.hotline@mail.mil
        By  phone:
        By Web        Afghanistan
                Submission:    www.sigar.mil/investigations/hotline/
        Cell: 0700107300
        DSN: 318-237-3912 ext. 7303
        All voicemail is in Dari, Pashto, and English.

        By phone: United States
        Toll-free: 866-329-8893
        DSN: 312-664-0378
        All voicemail is in English and answered during business hours.

        By fax: 703-601-4065
        By e-mail: sigar.hotline@mail.mil
        By Web submission: www.sigar.mil/investigations/hotline/report-fraud.aspx




                                                                                                                   3
                                                                                    sigar
                                                                                    Report Fraud, Waste or Abuse




FINAL_Jul2014_Cover.indd 1                                                                                                                                                                                                                        7/16/2014 1:22:13 PM
                             The National Defense Authorization Act for FY 2008 (P.L. 110-181)
                             established the Special Inspector General for Afghanistan
                             Reconstruction (SIGAR).
                             SIGAR’s oversight mission, as defined by the legislation, is to provide for the
                             independent and objective
                             •	 conduct and supervision of audits and investigations relating to the programs
                                and operations funded with amounts appropriated or otherwise made available
                                for the reconstruction of Afghanistan.
                             •	 leadership and coordination of, and recommendations on, policies designed
                                to promote economy, efficiency, and effectiveness in the administration of the
                                programs and operations, and to prevent and detect waste, fraud, and abuse
                                in such programs and operations.
                             •	 means of keeping the Secretary of State and the Secretary of Defense fully
                                and currently informed about problems and deficiencies relating to the
                                administration of such programs and operation and the necessity for and
                                progress on corrective action.                                                                                        A landfill containing furniture and other materials from the facilities at Camp
                             Afghanistan reconstruction includes any major contract, grant, agreement,                                                Leatherneck, Helmand Province, that are not being returned to the USA or transferred to
                             or other funding mechanism entered into by any department or agency of the                                               the government of Afghanistan. (SIGAR photo by Greg Bauer)
                             U.S. government that involves the use of amounts appropriated or otherwise made
                             available for the reconstruction of Afghanistan.

                             Source: P.L. 110-181, “National Defense Authorization Act for FY 2008,” 1/28/2008.


                             (For a list of the congressionally mandated contents of this report, see Section 3.)




                                                                                                                         Quarterly Report Staff

                                                                                                                         Michael Bindell, Economic and Social Development Subject Matter Expert   Emmett Schneider, Senior Data Analyst/Senior Auditor
                                                                                                                         Meredith Chen, Student Trainee                                           Deborah Scroggins, Director of Research and Analysis Directorate/Editor
                                                                                                                         Clark Irwin, Senior Writer/Editor                                        Solange Toura Gaba, Research Assistant
                                                                                                                         Vong Lim, Visual Information Specialist                                  Daniel Weggeland, Governance Subject Matter Expert
                                                                                                                         Jennifer Manzullo, Program Manager                                       Genevieve Wilson, Security Subject Matter Expert
                                                                                                                         Olivia Paek, Visual Information Specialist                               Joseph Windrem, Deputy Director of Research and Analysis Directorate/Editor
                             Cover photo:
                                                                                                                         Thomas Scherer, Student Trainee
                             A Coalition soldier looks over a valley in Kabul Province, Afghanistan. (U.S. Army photo)




FINAL_Jul2014_Cover.indd 2                                                                                                                                                                                                                                                      7/16/2014 1:22:14 PM
                          SPECIAL INSPECTOR GENERAL           FOR

                          AFGHANISTAN RECONSTRUCTION




I am pleased to submit to Congress, and to the Secretaries of State and Defense, SIGAR’s
24th quarterly report on the status of the U.S. reconstruction effort in Afghanistan.
    On my most recent trip to Afghanistan in June, I was repeatedly reminded that the suc-
cess of the $104 billion reconstruction effort in Afghanistan hinges on President Hamid
Karzai being able to peacefully transfer power to a democratically elected successor.
When I arrived, Afghanistan had just held a runoff election between presidential candi-
dates Ashraf Ghani and Abdullah Abdullah, despite Taliban threats to violently disrupt
it. Unlike the first round of elections, however, in which the leading candidates largely
accepted the results, the Abdullah campaign contested the results of the runoff and
accused the Afghan election bodies of massive fraud.
    With Abdullah’s supporters threatening to set up a parallel government, Secretary
of State John Kerry brokered an agreement between the two candidates to conduct
an audit of all 8.1 million ballots cast and to form a government of national unity once
the winner is declared. The audit was still under way when this report went to press.
Because the effectiveness and legitimacy of government is a key element in determining
the success of reconstruction, SIGAR, along with other Executive Branch agencies, will
be watching closely to see how the election dispute is resolved.
    Earlier this quarter, President Obama announced that if the next Afghan president
signs a Bilateral Security Agreement with the United States, 9,800 U.S. forces will remain
in Afghanistan after U.S. combat operations end in December, and will draw down to
roughly 4,900 by the end of 2015. By the end of 2016, the force will be reduced to a small
military presence at the U.S. Embassy in Kabul.
    The U.S. effort to bring its men, women, and materiel home from Afghanistan already
is proceeding at a tremendous pace, as I witnessed on my trip. At Kandahar Airfield and
Camp Leatherneck in Helmand Province, I saw vast amounts of equipment being read-
ied for return to the United States. I saw trucks and Mine-Resistant Ambush-Protected
(MRAP) vehicles being disassembled. Everything from metal poles to canvas tent cov-
ers was being sorted into boxes to be sent home or sold as scrap. The retrograde has
been called the greatest feat of military transport in recent history. Those in charge of it
deserve our nation’s gratitude.
    With the United States’ military drawdown, the Afghan National Security Forces (ANSF)
will be responsible for securing Afghanistan. To determine if the ANSF has the ability to
sustain its recent military successes and keep the country from again becoming a launch-
pad for terrorist attacks, SIGAR is conducting a number of audits of ANSF capabilities. For
example, this quarter SIGAR issued an audit finding that, largely because of security con-
cerns, a U.S. contractor was unable to provide the Afghan National Army (ANA) with the
training and maintenance needed to operate its Mobile Strike Force Vehicles. Another audit
raised concerns about the ANA’s ability to account for some 465,000 U.S.-provided small
arms. SIGAR has ongoing audits of ANSF personnel data, the ANA Engineering Brigade’s
equipment, the effectiveness of the Counter Narcotics Police of Afghanistan, and U.S. sup-
port for the Afghan Air Force. SIGAR also announced a new audit this quarter of the Afghan
Local Police program, which trains local Afghans to defend their communities against
insurgents and other illegal armed groups.
   SIGAR is also initiating a new series of lessons-learned reports to extract useful guid-
ance for future operations of the most expensive reconstruction effort ever underwritten by
the U.S. taxpayer. One of my concerns is that U.S. agencies often lack metrics for determin-
ing whether their projects and programs are contributing to the achievement of overall U.S.
strategic objectives. By contrast, SIGAR’s lessons-learned reports will assess the extent
to which spending in Afghanistan did or did not help the United States achieve its recon-
struction goals. As the only oversight agency with the mandate to oversee all U.S.-funded
projects and programs in Afghanistan, SIGAR is in a unique position to draw conclusions
for the U.S. government to consider when planning any future large-scale development and
military-assistance efforts. Most experts agree that any future such assistance efforts will
follow a “whole of government” approach.
   Section 1 of this report discusses a key issue facing the next Afghan government: the
recurring, multibillion-dollar fiscal gap between its domestic revenues and its costs,
particularly the costs of its army and national police. This year, donor grants will make
up most of the shortfall, but aid to Afghanistan has been falling since 2010, and history
suggests it will fall even more sharply after U.S. and Coalition troops are withdrawn.
Government budget shortfalls could severely undermine the central government and
overall political stability. This quarter an Afghan Local Police unit cut the power lines
from Kabul to eastern Laghman and Nangahar Provinces in retaliation for not being paid
for three months. This could be a sign of the turmoil to come if the Afghan government
cannot meet payrolls.
   Large areas of the country—larger even than SIGAR anticipated last year—will soon
be off limits to U.S. personnel due to base closures and troop withdrawals. SIGAR plans
to produce new oversight-access maps showing the areas in which U.S. government
employees are still able to conduct in-person site visits. Nevertheless, we will continue
to provide aggressive oversight of the U.S. reconstruction effort by using satellite imag-
ery and by hiring Afghans and third-country nationals to augment our ability to carry out
site visits.
   The 30 audits, inspections, special projects, and other reports SIGAR issued this quar-
ter examined programs and projects worth approximately $18.2 billion. Unfortunately,
most uncovered poor planning, shoddy construction, mechanical failures, and inad-
equate oversight.
   For example, an inspection of Baghlan Prison revealed that the $11.3 million facility
requires extensive repairs due to severe damage. Another inspection found that although
Afghan and U.S. military personnel at Shindand Airbase had been provided with incin-
erators, they were burning waste in open-air burn pits in violation of Department of
Defense regulations. A third inspection determined that a U.S.-funded cold- and dry-stor-
age facility was not being used. On the positive side, another audit found that the State
Department had successfully implemented a large percentage of SIGAR’s audit recom-
mendations, reducing the risk of waste, fraud, and abuse of reconstruction funds.
   SIGAR also completed three financial audits this quarter that identified over
$2.5 million in questioned costs. SIGAR’s financial-audits program has identified
nearly $78 million in questioned costs to date. Section 2 summarizes our findings and
recommendations.



                         2530 CRYSTAL DRIVE ARLINGTON, VIRGINIA 22202
   Since my last report to Congress, SIGAR has opened 26 new investigations and
closed 46, bringing the total number of ongoing investigations to 318. The criminal
fines, restitutions, forfeitures, and cost savings to the U.S. government from SIGAR’s
ongoing investigations in this reporting period amounted to approximately $3.1 million.
SIGAR’s suspension and debarment program referred 16 individuals and 39 companies
for suspension or debarment based on allegations that they engaged in fraud or failed to
perform under contracts valued at over $180 million.
   This quarter, I must once again reiterate my concerns about the policies of the
U.S. Army’s suspension and debarment program. As I have pointed out in our last five
quarterly reports, the Army’s refusal to suspend or debar supporters of the insurgency
from receiving government contracts because the information supporting these rec-
ommendations is classified is not only legally wrong, but contrary to sound policy and
national-security goals. It is troubling that our government can and does use classi-
fied information to arrest, detain, and even kill individuals linked to the insurgency in
Afghanistan, but apparently the same classified information cannot be used to deny
these same individuals their rights to contract work with the U.S. government. I con-
tinue to urge the Secretary of Defense and Congress to change this misguided policy and
impose common sense on the Army’s suspension and debarment program.
   In this difficult period of transition for Afghanistan, my staff and I remain dedicated to
working with Congress, implementing agencies, and other oversight bodies to fulfill U.S.
mission objectives for reconstruction and to protect the U.S. taxpayer’s investment.


Respectfully,




John F. Sopko
Special Inspector General for Afghanistan Reconstruction




                          2530 CRYSTAL DRIVE ARLINGTON, VIRGINIA 22202
                                         EXECUTIVE SUMMARY




This report summarizes SIGAR’s oversight work and updates developments in the three major
sectors of Afghanistan’s reconstruction effort from April 1 to June 30, 2014.* It also discusses
whether the reconstruction is sustainable. During this reporting period, SIGAR published 30
audits, inspections, alert letters, and other reports assessing the U.S. efforts to build the
Afghan security forces, improve governance, and facilitate economic and social development.
These identified a number of problems, including a lack of accountability, failures of planning,
construction deficiencies, and other threats to health and safety. The monetary results from
SIGAR’s ongoing investigations totaled $3.1 million from criminal fines, restitutions, forfeitures,
contract monies protected, and civil settlement agreements. SIGAR investigations also resulted
in two arrests, three criminal informations, three plea agreements, and two sentencings in the
United States. In Afghanistan, one subject was arrested, three Afghans were barred from access
to military installations, and two government contractors were terminated. SIGAR’s suspension
and debarment program referred 16 individuals and 39 companies for suspension or debarment
based on allegations that they engaged in fraud and non-performance in contracts valued at over
$180 million.




SIGAR OVERVIEW
AUDITS
SIGAR produced three performance audits, three finan-       follow competitive bidding procedures, improper cost
cial audits, three inspections, and one alert letter.       allocations, lack of supporting documentation, over-
The performance audits found:                               reimbursement of indirect costs, poor record retention,
•	 The State Department implemented nearly 75%              unexplained discrepancies between a contractor’s gen-
   of SIGAR’s audit recommendations in a timely,            eral ledger balance and various supporting documents,
   successful way, reducing the risk of fraud, waste,       and failure to conduct vendor-suspension and debar-
   and abuse of Afghan reconstruction funds.                ment checks.
•	 Poor Afghan National Security Forces (ANSF) record
   keeping limits the Department of Defense’s (DOD)            The inspection reports of U.S.-funded facilities found:
   ability to monitor weapons after they are transferred    •	 Severe damage to the $11.3 million Baghlan Prison
   to the ANSF.                                                requires extensive remedial action.
•	 The Afghan National Army (ANA) may not be able           •	 The Afghan military was using open-air burn pits in
   to sustain the mobile strike force vehicles (MSFV)          violation of DOD regulations at Shindand Airbase
   it was given, and a DOD contractor did not meet             instead of the incinerators the U.S. Army Corps of
   contract requirements to provide operator and               Engineers had provided them because the burn pits
   maintenance training for which it was paid as part of       were cheaper to operate.
   the program.                                             •	 The $2.89 million Gereshk Cold and Dry Storage
                                                               Facility has not been used to date.
   The financial audits identified over $2.5 million
(bringing the total to $78 million to date) in questioned      The audit alert letter raised concerns that:
costs as a result of internal-control deficiencies and      •	 DOD plans to provide C-130 planes to the Afghan Air
noncompliance issues. These deficiencies and noncom-           Force that it may not need.
pliance issues included, among other things, failure to




                                             iv              SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                              EXECUTIVE SUMMARY




NEW AUDIT                                                  sentencings in the United States. In Afghanistan, one
This quarter, SIGAR initiated a new performance audit      subject was arrested, three Afghans were barred from
to assess the Combined Joint Special Operations Task       having military installation access, and two government
Force-Afghanistan’s (CJSOTF-A) implementation of the       contractors were terminated. SIGAR initiated 26 new
Afghan Local Police (ALP) program.                         investigations and closed 46, bringing the total number of
                                                           ongoing investigations to 318. In addition, SIGAR’s sus-
                                                           pension and debarment program referred 16 individuals
SPECIAL PROJECTS                                           and 39 companies for suspension or debarment based on
During this reporting period, the Office of Special        evidence developed as part of investigations conducted
Projects issued a review of the safety of spray foam       by SIGAR in Afghanistan and the United States.
insulation systems used in ANA facilities. In addition,        Investigations highlights include:
the office issued letters on:                               •	 	$2 million from civil settlements
 •	 	IRD’s confidentiality agreement                        •	 	A U.S. contractor pled guilty to fraud
 •	 	ANP mobile money pilot program                         •	 	A former U.S. Army sergeant sentenced for fuel theft
 •	 	The U.S. Department of Agriculture’s response to           and kickback scheme
     SIGAR’s soybean inquiry                                •	 	$14,500 in illicit proceeds seized
 •	 	Canceled USAID contracts                               •	 	Two convictions for money laundering
 •	 Afghan National Police (ANP) patrol boats and           •	 	A U.S. Army sergeant sentenced for fuel theft
    the Combined Security Transition Command-               •	 	Employees terminated at the U.S. Embassy Kabul
    Afghanistan’s (CSTC-A) response to the ANP patrol       •	 	The arrest of an Afghan contractor
    boats inquiry                                           •	 	The completion of the National Police Training
 •	 	The United Nations Development Programme’s                 Center
     oversight of the Law and Order Trust Fund for
                                                           *	 Per statute, SIGAR may also report on products and events
     Afghanistan (LOTFA)                                      occurring after June 30, 2014, up to the publication date.
 •	 	Insights and observations of Professional Service
     Council members
 •	 	IRD whistleblower protections
 •	 	Small Business Innovation Research study
 •	 	Maintenance of DOD- and USAID-funded roads
 •	 	ANP patrol boats disposition
 •	 	Kandahar bridging solution
 •	 	Reconstruction program data information
 •	 	Ecolog Inc. and Fluor Corporation’s recruitment of
     third country nationals


INVESTIGATIONS
During the reporting period, SIGAR’s ongoing investi-
gations saved the U.S. government $500,000. Criminal
fines, restitutions, and forfeitures amounted to an
additional $600,000, and two civil-settlement agree-
ments with a combined total of $2 million were
finalized. Investigations resulted in two arrests, three
criminal informations, three plea agreements, and two




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014               v
TABLE OF CONTENTS




     SECTION 1
     	1	SUSTAINABILITY OF
     		RECONSTRUCTION GAINS
         	3	 Can Afghanistan Sustain Its Reconstruction Gains?
         	 4	 Security Costs Are Unsustainable
               Without Long-Term Foreign Aid
         	 5	 Sustainability Threatens Development
         	 6	 Donor Support May Weaken
         	 8	 Why Is Afghanistan’s Domestic-Revenue
               Collection So Low?
         	 10	 What Is to Be Done?
         	 11	 What Would a VAT Do?
         	 12	 Could a VAT Bolster Afghan Fiscal Sustainability?
         	 13	 What, Then, Is The Outlook?




     SECTION 2
     	 15	SIGAR OVERSIGHT ACTIVITIES
         	 18	 SIGAR Testifies on Oversight of USAID and
               State Department Reconstruction Efforts
         	 20	Audits
         	 33	Inspections
         	 40	 Special Projects
         	 49	Investigations
         	 59	 Other SIGAR Oversight Activities This Quarter
         	 63	 SIGAR Budget
         	 63	 SIGAR Staff




     SECTION 3
     	       66	RECONSTRUCTION UPDATE
         	    67	 Overview
         	    70	 Funding for Afghanistan Reconstruction
         	    73	 Status of Funds
         	    87	Security
         	   121	Governance
         	   151	 Economic and Social Development
TABLE OF CONTENTS




      SECTION 4
      	189	OTHER AGENCY OVERSIGHT
      	 192	 Completed Oversight Activities
      	 196	 Ongoing Oversight Activities




      	APPENDICES & ENDNOTES
      	 208	 Appendix A: Cross-reference of Report to
             		Statutory Requirements
      	 212	 Appendix B:	U.S. Funds for Afghanistan Reconstruction
      	 214	 Appendix C:	SIGAR Written Products
      	 220	 Appendix D:	SIGAR Investigations and Hotline
      	227	 Appendix E:	Abbreviations and Acronyms
      	234	Endnotes
 “I’m not confident that if we were to
  leave at the end of 2014, that those
forces would be sustainable. There are
 some significant capability gaps that
 have to be addressed in order for the
Afghans to be able to do things that we
have heretofore been doing for them.”
                       — General Joseph F. Dunford




           Source: Senate Confirmation Hearing, July 17, 2014.
1
    SUSTAINABILITY OF
    RECONSTRUCTION
    GAINS




         1
                                                RECONSTRUCTION SUSTAINABILITY




                                                CONTENTS
                                                SUSTAINABILITY CONTENTS

                                                Security Costs Are Unsustainable
                                                Without Long-Term Foreign Aid	                               4
                                                Sustainability Threatens Development	                        5
                                                Donor Support May Weaken	                                    6
                                                Why Is Afghanistan’s Domestic-Revenue
                                                Collection So Low?	                                          8
                                                What Is to Be Done?	                                        10
                                                What Would a VAT Do?	                                       11
                                                Could a VAT Bolster Afghan
                                                Fiscal Sustainability?	                                     12
                                                What, Then, Is The Outlook?	                                13




Photo on previous page
Chairs at a school built, but never occupied, in Nangahar Province,
were stripped for firewood. (U.S. Air Force photo)




                                                    2                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
RECONSTRUCTION SUSTAINABILITY




CAN AFGHANISTAN SUSTAIN
ITS RECONSTRUCTION GAINS?
Beyond the immediate challenge of insurgency and presidential transi-
tion, Afghanistan’s next government faces another tough test: achieving
self-sufficiency.
    In its donor-assisted attempts to emerge from deep poverty and civil war,
Afghanistan has become “almost unique” in its dependence on aid, accord-
ing to the World Bank.1 The United States and other international donors
fund more than 60% of the Afghan national budget, as well as countless
reconstruction programs and projects that currently operate off-budget.
With the withdrawal of U.S. and Coalition troops, the responsibility for
those programs and projects is being turned over to the Afghan govern-
ment. Although donors have pledged large-scale aid for years to come, their
generosity may wane as their presence declines. Meanwhile, the drawdown
of military and other foreign personnel has already cooled economic activ-
ity, slowing the growth of government revenues.
    In such a setting, Afghanistan’s Ministry of Finance says, “Achieving
fiscal sustainability is the main goal of Afghan government.”2 A May
2014 International Monetary Fund (IMF) report concurs: “Afghanistan
needs to move toward fiscal sustainability to reduce its dependence on
donor support.”3
                                                                                On- and Off-Budget
    In 2013, the Afghan government’s domestic revenue was only about $2 bil-
                                                                                Funds
lion, while its overall budget expenditures were $5.4 billion. Donor grants
made up the difference, funding 63% of the budget. Afghanistan’s current        U.S. FY 2014 appropriations for Afghan
                                                                                reconstruction are $7.5 billion—by
budget, approved in January 2014, is about $7.6 billion, with donor grants
                                                                                coincidence, almost the same as
expected to fund about $4.8 billion, or still more than 60% of the total.4
                                                                                Afghanistan’s current national budget of
Figure 1.1 on the following page shows the increasing importance of donor       $7.6 billion. But most of that U.S. aid,
assistance in covering Afghanistan’s national-budget commitments.               as well as most of other international
    At the 2011 Bonn Conference, the international community declared           donors’ assistance, goes through
that the transition to Afghan-led security in 2014 would be followed by a       programs and funds that are not part
“Decade of Transformation” in which Afghanistan would “consolidate its          of the Afghan budget. See this report’s
sovereignty by strengthening a fully functioning, sustainable state in the      funding review starting on page 73 for
service of its people.”5 However, the World Bank projects a large “financing    more information.
gap” equivalent to 20% of Afghan gross domestic product (GDP) to persist




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                3
                                                               RECONSTRUCTION SUSTAINABILITY




FIGURE 1.1


Domestic Revenue and Donor Grants in Afghan Budgets
As percentage of Afghan GDP

 40%

                    Domestic Revenue
 30%                Donor Grants


 20%


 10%


   0%
                 2008                     2009                    2010                     2011                     2012                       2013        2014

Notes: Chart does not include donor grants that are executed off-budget, unmanaged by the Afghan government. “GDP” = gross domestic product.

Source: Asian Development Bank, "Asian Development Outlook 2014," April 2014, p. 156.




                                                               into 2025—a gap of nearly double the Afghan government’s projected
                                                               domestic-revenue share of GDP.6


                                                               SECURITY COSTS ARE UNSUSTAINABLE
                                                               WITHOUT LONG-TERM FOREIGN AID
                                                               The United States Congress has appropriated more than $104 billion for the
                                                               reconstruction of Afghanistan; other donors from around the world have
                                                               contributed billions more. SIGAR calculates that by the end of 2014, the
                                                               United States will have committed more funds to reconstruct Afghanistan,
                                                               in inflation-adjusted terms, than it spent on 16 European countries after
                                                               World War II under the Marshall Plan, see highlight, page 5.
                                                                  The bulk of the U.S. aid effort—nearly $62 billion of the $104 billion
                                                               appropriated since FY 2002—has gone to create and support the Afghan
                                                               National Security Forces (ANSF).
                                                                  The ANSF’s current authorized size is 352,000. To lessen the cost of sustain-
                                                               ing it, the North Atlantic Treaty Organization (NATO) plans to reduce the force
                                                               to 228,500 by 2017, if security conditions permit. The estimated cost of sustain-
                                                               ing this smaller force is $4.1 billion annually. NATO expects that the Afghan
A 2013 SIGAR audit found that DOD was                          government would pay at least $500 million annually beginning in 2015.
planning to purchase $771.8 million of
                                                                  However, according to the latest Department of Defense (DOD)-
aircraft, like these Mi-17 helicopters, that
the Afghans cannot operate and maintain.                       commissioned independent assessment by the Center for Naval Analyses
See Audit Report 13-13. (SIGAR photo by                        (CNA), “in the likely 2015–2018 security environment, the ANSF will require
Jerome Goehring)                                               a total security force of about 373,400 personnel.”7 CNA cautions that “a




                                                                    4                           SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
RECONSTRUCTION SUSTAINABILITY




   Afghan Reconstruction Funding Exceeds Real Cost Of Marshall Plan
   Adjusted for inflation, U.S. appropriations for the reconstruction of        Applying the year-end GDP Price Deflator
   Afghanistan exceed the funds committed to the Marshall Plan, the U.S.     from the U.S. Commerce Department’s
   aid program that delivered billions of dollars between 1948 and 1952      Bureau of Economic Analysis to the
   to help 16 European countries recover in the aftermath of World War II.   streams of funding of both the Marshall
       Named for its author, Secretary of State and former Army              Plan and Afghan reconstruction yields this
   general George C. Marshall, the plan has been called “one of the          result: “real” or inflation-adjusted Afghan-
   most successful long-term projects in American foreign policy.”10         reconstruction appropriations amount to
   A Congressional Research Service report says the Marshall                 more than $109 billion, versus an adjusted total of $103.4 billion
   Plan delivered about $13.3 billion to its aid recipients before           for the Marshall Plan.13 SIGAR’s calculations also indicate that
   disbursements ended in June 1952.11 The United Kingdom was the            the real value of Marshall Plan aid to the United Kingdom—about
   lead recipient, with $3.2 billion.                                        $24.7 billion in today’s dollars—is less than a quarter of the funds
       Those nominal-dollar amounts are dwarfed by the $104 billion          appropriated through FY 2014 for Afghanistan reconstruction.
   Congress appropriated for Afghanistan reconstruction between fiscal          One critical difference should be noted: unlike Afghan-
   years (FY) 2002 and 2014—until adjustment is made for the effects of      reconstruction funding, the Marshall Plan was not concerned with
   inflation since 1948.12 Comparison requires the adjustment: a dollar      building and sustaining host-country armies and national police. But
   in 1950, for example, had roughly the purchasing power of 10 dollars      comparing the real purchasing-power funding of the two assistance
   in 2014.                                                                  programs does illustrate the scale of the U.S. aid effort in Afghanistan.



force of lesser size than 373,000 would, in our assessment, increase the risk
of instability of Afghanistan and make success less likely for the U.S. policy
goal.”8 The CNA estimates that a 373,000-strong ANSF would cost roughly
$5–6 billion per year to sustain.9
   At that level, even if the Afghan government dedicated all of its domestic
revenue toward sustaining the Afghan army and police, it still could only
pay for about a third of the associated costs. All other costs—those required
to pay civil servants and to operate and maintain roads, schools, hospitals,
and other non-military infrastructure and programs—would have to be
funded by international donors or abandoned, an unwise decision even if it
were possible.


SUSTAINABILITY THREATENS DEVELOPMENT
It is questionable whether the Afghan government can sustain many non-
security reconstruction programs in such sectors as health, education, and
economic development. Built into many projects are requirements for parts
and fuel that the Afghans cannot afford and technical skills that Afghan
ministries cannot supply. Because of this, U.S.-built schools and health
facilities often cannot be staffed or supplied. Moreover, some facilities have
fallen into disrepair; others are unsafe, incomplete, or unsuited for their
                                                                                                       The ANA may not be able to sustain the
intended purposes.                                                                                     Mobile Strike Force Vehicles given to them.
    SIGAR has confirmed that DOD, the United States Agency for                                         See Audit Report 14-85-AR. (SIGAR photo
International Development (USAID), the State Department, and other                                     by Zach Rosenfeld)




REPORT TO THE UNITED STATES CONGRESS           I   JULY 30, 2014                            5
                                              RECONSTRUCTION SUSTAINABILITY




                                              U.S. agencies have not always consulted with Afghan agencies when
                                              planning programs or projects or given due regard to their financial and
                                              operational capacity for sustainment. The work of SIGAR and other over-
                                              sight agencies as described in the “SIGAR Oversight” and “Other Agency
                                              Oversight” sections of this and previous SIGAR quarterly reports provide
                                              numerous examples.
                                                 The question of how to sustain the nonsecurity reconstruction pro-
                                              grams deserves discussion because Afghanistan’s heavy reliance on donor
                                              assistance carries great risks for the country. The World Bank warns, “Any
                                              reduction in donor grants from planned levels would result in a loss of prog-
                                              ress in poverty reduction, job creation, and service delivery.”14 Progress in
                                              those and other areas of Afghan life, however, are linchpins of the counter-
                                              insurgency strategy aimed at ultimately reducing Afghanistan’s need for a
                                              large security force.


                                              DONOR SUPPORT MAY WEAKEN
                                              At the height of the reconstruction effort in 2010–2011, the World
                                              Bank estimated total civilian and security aid were about as large as
                                              Afghanistan’s GDP, providing benefits but also side effects like “corrup-
                                              tion, fragmented and parallel delivery systems, poor aid effectiveness, and
                                              weakened governance.”15
                                                 Aid has since fallen, but international donors who supplied more than
                                              60% of the country’s national budget in 2013 still covered a “financing gap”
                                              equivalent to 7.7% of the country’s GDP.16 Much of the reconstruction effort,
                                              however, is “off-budget,” representing donor-funded programs and projects
                                              that the Afghan government does not control or fund.
Sustaining non-security projects, like this      As donors honor commitments to place more Afghan aid on-budget
DOD-funded road, could cost as much as
                                              or simply transfer projects to Afghan control, the pressure on the bud-
15% of Afghanistan’s GDP. See Special
Project 14-72-SP. (ISAF photo)                get will increase. The IMF and the World Bank “conservatively” estimate
                                              that Afghan maintenance of such donor-supplied capital stock—roads,
                                              buildings, utility infrastructure, equipment, and such—will cost 15% of
                                              Afghanistan’s GDP.17 Supporting such costs on the Afghan budget without
                                              donor support would require more than doubling the government’s revenue
                                              share of GDP, a major challenge.
                                                 The Afghan government has estimated its annual development-aid need
                                              at $3.9 billion a year between 2013 and 2020.18 At various international
                                              conferences, the United States and other donors have pledged continuing
                                              aid through the “Decade of Transformation” ending in 2025, at which time
                                              Afghanistan is expected to achieve financial self-sufficiency. Afghanistan
                                              in turn has promised to achieve agreed-upon benchmarks under the Tokyo
                                              Mutual Accountability Framework (TMAF) as a condition for further
                                              donor assistance.




                                                 6                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
RECONSTRUCTION SUSTAINABILITY




   The TMAF benchmarks, however, are not carved in stone. USAID
informed SIGAR this quarter that updating Afghan progress toward the
“hard deliverables” required under the TMAF stopped in January 2014.
The United States and international partners are developing a new set of
targets for the future implementation of TMAF that will be discussed with
the new post-election government. According to USAID, the process of
finalizing these new targets will likely continue through the international
conference on Afghanistan tentatively planned for November in London
and into early 2015.19
   Even if Afghanistan satisfies current or future aid-qualifying bench-
marks, international commitments are not necessarily guaranteed. A joint
presentation by the World Bank and the Afghan Ministry of Finance notes,
“Experience suggests that withdrawals of international troops reduce civil-
ian aid, with implications for economic growth, fiscal sustainability, and
service delivery.”20 The Kabul-based Afghanistan Research and Evaluation
Unit predicts a further reduction of aid after Western forces withdraw—
with side effects including “capital flight, heightened risks for investments,
and the collapse of drivers of economic growth such as reconstruction,
logistics, and transportation.”21
   Drawing on history, Dr. Anthony Cordesman of the Center for Strategic
and International Studies has published a sobering set of slides, sum-
marized in Figure 1.2, showing declines in development assistance that
followed foreign-troop reductions in Iraq (minus 69%), Kosovo (minus 52%),
Haiti (minus 43%), and Bosnia (minus 60%).22
FIGURE 1.2


International Aid Reductions After Troop Reductions
Compared to year preceding reductions


                        IRAQ                   KOSOVO                     HAITI                  BOSNIA
                     2003/2009                2000/2003                1998/2002               1996/2001
     0%


   -20%


   -40%


   -60%


   -80%


  -100%


Source: Anthony Cordesman, Center for International and Strategic Studies, "The Post-Election Challenges to Afghan
Transition: 2014–2015," slide deck, 5/18/2014, slide 6.




REPORT TO THE UNITED STATES CONGRESS                      I   JULY 30, 2014                                          7
                                             RECONSTRUCTION SUSTAINABILITY




                                                Declarations of intent notwithstanding, decisions and disbursements of
                                             aid are sensitive to changes in political and geopolitical circumstances. Aid
                                             pledges are no more carved in stone than are aid-qualifying benchmarks.
                                             As troop withdrawals accelerate, public opinion in donor countries could
                                             push lawmakers to consider aid cutbacks. Surveys in the United States,23
                                             the United Kingdom,24 and Germany25 have found widespread disaffection
                                             with the Afghanistan mission and with overseas involvements in general. In
                                             any case, “Only a few donors are able to forecast aid flows up to 2017 and
                                             beyond,” says a 2013 Afghan Ministry of Finance report. “Others are con-
                                             strained by their annual budgeting processes and are not able to provide a
                                             clear indication of future allocations of their aid.”26
                                                Given the probabilities that Afghanistan will fail to meet some of its
                                             Tokyo-conference aid-qualifying benchmarks or that some large donors will
                                             revise their plans, or both, the question is whether Afghanistan can do more
                                             to meet its own revenue requirements.


                                             WHY IS AFGHANISTAN’S DOMESTIC-REVENUE
                                             COLLECTION SO LOW?
                                             The IMF recently noted that “Afghanistan has one of the lowest domestic
                                             revenue collections in the world, with an average of about 9 percent of GDP
                                             in 2006–13 compared to about 21 percent in low-income countries.” The
                                             reasons, the IMF said, include “a very low starting point, low compliance,
                                             opposition to new taxes, and a limited set of taxes.”27
                                                Afghanistan’s low level of fiscal effort is a problem. Developing coun-
                                             tries in Asia averaged a 17.8% government-revenue-to-GDP ratio in recent
                                             years, according to the Asian Development Bank—almost twice the fis-
                                             cal effort of Afghanistan.28 The London School of Economics economist
                                             Ehtisham Ahmad presented a paper to a “Group of 24” developing coun-
                                             tries this year arguing that countries collecting less than 10% of GDP “will
                                             likely have inadequate resources for the minimum public investment for
                                             infrastructure or its components, including education and R&D, as well as
                                             operations and maintenance.”29
                                                Afghanistan is of course operating from a low starting point as one of
                                             the poorest countries in the world. But fiscal effort is a matter of ratios, not
                                             absolutes. As of 2012, the CIA estimated that Afghanistan had the 207th-
                                             lowest ratio of taxes and other revenues to GDP. The 2013 world average
                                             was 30.3%; the U.S. federal tax/GDP ratio, counting Social Security and simi-
                                             lar taxes, was 22%.30
A 2014 SIGAR audit found many                   Taxation is clearly a challenge in a country like Afghanistan, with no
challenges that will limit customs revenue
                                             tradition of strong central government, a mostly rural workforce, a large
from border crossings, such as the one
seen here, as a sustainable source of        informal economy, and ministries with limited capacity. Still, the small
income for Afghanistan. See Audit Report     share of GDP claimed for Afghan domestic revenues may raise questions
14-47-AR. (SIGAR photo by Martin Wilson)     whether the country’s fiscal effort is sufficiently robust, and how badly tax




                                                8                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
RECONSTRUCTION SUSTAINABILITY




The Gardez hospital, shown here under construction, has annual operations and
maintenance costs that are too high to be sustained by the Afghan government. See
Inspection Report 14-6-IP and Audit Report 13-9. (SIGAR photo by Lise Pederson)


evasion, smuggling, corruption, fraud, and other “leakages,” as the IMF puts
it, are cutting into the intended yield from current tax laws.
    As DOD has reported to Congress, “Corruption, ineffective program
monitoring, budget shortfalls at all levels, inability to generate revenue,
and limited public financial management capacity continue to plague
the [Afghan] national government.”31 To its credit, the Afghan Ministry
of Finance website recognizes that problems exist: “Skill levels are low.
Systemic corruption of tax officials is a serious threat to future tax col-
lection. . . . Methods, systems, and work practices to administer taxes
are inefficient and do not reflect modern tax administration practices. . . .
Compliance with the tax laws is low.”32
    Afghanistan’s economic and institutional weaknesses also present a
problem for the medium and long term. They undermine the government’s
prospects of achieving its TMAF goals of increasing domestic revenue
generation to 15% of GDP by 2016 and 19% by 2025. “The current decline in
revenue,” says the World Bank, “therefore poses not only risks to long-term
fiscal sustainability but also to the achievement of TMAF targets.”33 Failure
to achieve TMAF goals could in turn reinforce any donor inclinations to cut
aid, further deepening the fiscal-sustainability problem.




REPORT TO THE UNITED STATES CONGRESS    I   JULY 30, 2014                      9
RECONSTRUCTION SUSTAINABILITY




WHAT IS TO BE DONE?
If Afghanistan can no longer rely on economic stimulus from the presence
of Coalition personnel and cannot assume that donor assistance will be
adequate to fund its own needs and take on the large accumulation of off-
budget projects, what can it do? The IMF’s Mission Chief for Afghanistan
explained in May 2014 that the government’s strategy for increasing rev-
enues has four main pillars:34
•	 improved tax compliance
•	 implementing a value-added tax (VAT)
•	 developing the Afghan mining sector
•	 imposing new taxes in addition to a VAT

   Improving tax compliance is a worthy objective, but such efforts will
take time and, given that current Afghan tax laws bring in less than 10% of
GDP, might only marginally augment inflows to the Ministry of Finance.
   Afghans pin great hopes on mining for revenue generation, partly
because there are few good alternatives. As the World Bank observes of
Afghanistan, “Education levels are too low and the manufacturing sector
too underdeveloped (in size and capacity) to expect leapfrogging the clas-
sic pattern of structural transformation in which a natural resource-based
economy is transformed into a diversified and productive economy domi-
nated by manufacturing and services.”35
   Enacting a new mining law is a key TMAF benchmark that can affect
future levels of international aid to Afghanistan. The Afghan parliament
has recently passed a new mining act, but it has not been signed into
law. As currently written, however, details of the law might still deter
investment and fail to meet World Trade Organization (WTO) standards—
another potential problem, as accession to the WTO is also a TMAF
benchmark for Afghanistan.36
   Even if a new law were in place, the mining sector appears unlikely to
generate substantial revenues for years to come. The World Bank projects
government revenues from mining “could reach 2–4% of GDP in the early
2020s.”37 If that projection materialized, however, it would still not close
Afghanistan’s on-budget fiscal gap, current or projected.
   Other export possibilities are less promising. Afghanistan’s exports have
actually fallen from a high of $837 million prior to the U.S. invasion in 2001
to $414.5 million in 2013, so the revenue potential may be modest. Principal
exports are carpets and rugs, dried fruits, and medicinal plants.38 The CIA
adds to that list opium and gems.39 But opiates are not part of the licit econ-
omy, and gems are easy to smuggle, so their contributions to government
revenue are limited.
   The item on the IMF sustainability-enhancing list with the best near-term
prospects for generating government revenue is the value-added tax, or VAT.




  10                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
RECONSTRUCTION SUSTAINABILITY




WHAT WOULD A VAT DO?
The VAT, a common form of taxation outside the United States, operates
much like a sales tax, falling on the purchaser of the taxed good or service.
It differs from a sales tax in that it is levied at each stage of production.
    For example, as shown in Figure 1.3, a lumber company charges VAT on
its sales to the furniture maker, who charges VAT on its sales to the furni-
ture store, who, in turn charges VAT on it sales to the final consumer. Each
seller in the process remits its VAT receipt—minus the VAT it paid on its
own purchases—to the government. In this way, the government taxes only
the economic “value added” at each step of the commercial process.40
    The sequence of taxable transactions gives the VAT an advantage—at
least from the government’s view—over a traditional sales tax: It creates a
transaction record at every step, making it harder for people to evade taxes.
    Establishing a VAT in Afghanistan would be important not only as a
major change in tax policy, but also as a potential generator of large sums
of revenue: VAT proceeds supply nearly a third of government revenue for
member states of the European Union, and are the EU’s largest single rev-
enue source.41
    The Afghan parliament agreed with the IMF, which maintains an
Extended Credit Facility for Afghanistan, to introduce VAT legislation in
2014.42 Both houses of the Afghan parliament passed VAT bills this spring,
but at last report a combined bill awaits a joint commission session to
reconcile differences.43 The IMF reports that the bill faces opposition, the
timing of ultimate passage is uncertain, and implementation could take a
year after passage.44
FIGURE 1.3


How a Value-Added Tax Works


       Raw materials sold to                Furniture                                           Table sold to
       furniture maker for                                                                        retailer for
       $50+$5 VAT
                                             Maker                                            $120+$12 VAT

                                          $7 remitted
                                        ($12 VAT - $5 credit)




    Lumber                                  Total
                                                                        $3 remitted
                       $5 remitted       Government                  ($15 VAT - $12 credit)          Retailer
   Company                                Revenue



                                                                                             Product sold
                                             Final                                           to consumer
                                                                                       for $150+$15 VAT
                                           Consumer



Note: Assume 10% VAT for purposes of illustration.

Source: GAO Testimony GAO-11-867T, Value-Added Taxes: Potential Lessons for the United States from Other Countries’
Experiences, 7/26/2011, p. 3.




REPORT TO THE UNITED STATES CONGRESS                            I   JULY 30, 2014                                11
RECONSTRUCTION SUSTAINABILITY




   If Afghanistan does succeed in establishing a VAT, however, a variety of
pitfalls could result in a lower contribution to Kabul’s revenues than might
be projected.


COULD A VAT BOLSTER AFGHAN
FISCAL SUSTAINABILITY?
The Afghan Ministry of Finance appears to have high expectations for a
VAT. Its recent first-quarter report gave the results of computer modeling of
a VAT tax: “increase in total revenue collection by 23% and increase in gross
domestic product by 1.3% due to nominal increase in overall price level.”45
    That would indeed be a significant boost to Kabul’s revenues, though
not nearly enough, even combined with hoped-for mining revenues, to fill
the fiscal gap in its current budget. Other countries’ experience with a VAT,
however, reveal several reasons why actual proceeds may fall short of the
government’s hopes and computer-model projections.
    The European Commission notes member states collect VAT revenues
“far below the level that could be collected theoretically” because of
widespread exemptions, targeted reduced rates, and “a high gap in tax col-
lection” (i.e. fraud and evasion).46 Afghan policy makers could, of course,
choose not to weaken and complicate the VAT by giving exemptions, but
that choice could trigger struggles with aggrieved constituencies, including
vested interests.
    Compliance can be a challenge. In the United States, the Government
Accountability Office (GAO) has told Congress that VAT problems can
include phony businesses that collect VAT and then disappear, firms that
fail before remitting VAT, merchants who charge VAT-free cash prices and
underreport sales, people who create bogus VAT receipts to get refunds,
and sellers who misreport classifications to pay a lower VAT rate.47
    European Union members with long experience in VAT administration
still have trouble collecting it.48 They are not alone. Developing countries
like India, Bangladesh, Uzbekistan, and Nepal who use the VAT face even
greater challenges. Bangladesh has struggled to tax the large informal sec-
tor of its economy.49 Pakistan has problems with excessive exemptions and
refund requests supported by fake invoices.50 Afghanistan, where electricity,
computers, and literacy are in even shorter supply, would find it even more
difficult to enforce compliance.
    The UK’s Department for International Development (DFID) has been
helping Afghanistan prepare for the VAT as part of a nearly £20 million Tax
Administration Project. In its latest annual review of the project, DFID says
“VAT will provide a welcome new revenue stream but may also introduce
new fraud risks,” and predicts “a number of very significant challenges in
terms of operation, compliance and communications” as Afghanistan imple-
ments a VAT.51




  12                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
RECONSTRUCTION SUSTAINABILITY




WHAT, THEN, IS THE OUTLOOK?
Afghanistan’s fiscal sustainability will be affected by variables including its
economic growth, legal and regulatory framework, duration and impact of
the insurgency, aid decisions by foreign donors, ministerial capacity, prog-
ress against the illicit economy, and citizens’ compliance with tax laws.
    However the variables play out, the consensus view is captured in DFID’s
crisp conclusion that “Afghanistan is many years away from achieving fiscal
sustainability”52 and the IMF’s opinion that fiscal sustainability “calls for fur-
ther reforms and may take more than a decade.”53
    Unfortunately, time and donor benchmarks are pressing on Afghanistan.
“By 2021,” DOD reports, “domestic revenues are expected to cover only 35
percent of projected expenditures. Revenue shortfalls will force Afghanistan
to make difficult choices between the public services it provides, balancing
costs for security, health and education services, infrastructure projects, and      President Karzai and Afghan lawmakers
                                                                                     have struggled to meet donors’ assistance
maintenance.”54 Extreme cuts or poorly balanced trade-offs could have unsa-
                                                                                     benchmarks while seeking to boost
vory consequences for economic growth, government legitimacy, and for the            domestic revenues. (Radio Free Europe/
counterinsurgency effort.                                                            Radio Liberty photo)
    Considering Afghanistan’s current economic and political strains, financ-
ing challenges, and uncertainties as to the scope and duration of future
donor assistance, American lawmakers and policy makers might wish to
consider taking appropriate measures to ensure that stakeholder entities
like State, DOD, and USAID:
 •	 engage closely with other donors to stress the importance of
    coordinated effort and avoidance of large or abrupt changes in aid flows
 •	 maximize support to the Afghan government in efforts to suppress
    money laundering, corruption, diversion of customs revenues, and
    other “leakages”
 •	 intensify advisory services to promote Afghan economic development
    to take up the fiscal slack created by the reduced international presence
 •	 encourage Afghanistan to take steps to improve its poorly rated
    business climate55
 •	 offer Afghan ministries technical advice on scenario modeling, program-
    prioritization, and triage techniques to help them make informed and
    systematic decisions on cutbacks in case domestic revenues and donor
    grants fall chronically short of covering planned outlays

   None of these measures requires large new appropriations by Congress.
But they could pay substantial dividends if they help the incoming Afghan
government raise revenues by expanding its tax base with measures to
stimulate higher personal incomes and business earnings. Increasing the
flow of sustainable domestic funding for Afghan infrastructure investments
and public services—and developing a sound decision-making capacity to
weather aid cutbacks—would be important contributions to protecting the
gains of the long reconstruction effort.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                   13
   “Despite the drawdown of U.S. and
   Coalition forces [from Afghanistan],
 our mission there is far from over. With
 almost $18 billion appropriated but not
 yet spent in the pipeline, and probably
   another $6 to $10 billion promised
 annually for years to come, Afghanistan
reconstruction should still be relevant to
 every U.S. taxpayer and policy maker.”
      — Special Inspector General John F. Sopko




            Source: Testimony before the House Subcommittee on the Middle East and North Africa, Committee on Foreign Affairs, June 10, 2014.
2   SIGAR
    OVERSIGHT




        15
                                               SIGAR OVERSIGHT ACTIVITIES




                                               CONTENTS
                                               SIGAR OVERSIGHT CONTENTS

                                               SIGAR Testifies on Oversight of
                                               USAID and State Department 	                                      18
                                               Reconstruction Efforts
                                               Audits	20
                                               Inspections	33
                                               Special Projects	                                                 40
                                               Investigations	49
                                               Other SIGAR Oversight Activities
                                               This Quarter	                                                     59
                                               SIGAR Budget	                                                     63
                                               SIGAR Staff	                                                      63




Photo on previous page
Incinerators sit unused beside an open-air burn pit at Shindand Airbase.
See Inspection Report 14-81-IP. (SIGAR photo by John Dettinger)




                                                  16                       SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




                                                                                  TESTIMONY GIVEN
                                                                                  •	 Testimony 14-65-TY: Oversight of USAID
                                                                                     and State Department Reconstruction
                                                                                     Efforts in Afghanistan
SIGAR OVERSIGHT ACTIVITIES                                                        AUDIT ALERT LETTER
                                                                                  •	 Audit Alert Letter 14-80-AL: Afghan Air
                                                                                     Force C-130 Aircraft
This quarter SIGAR issued 30 audits, inspections, alert letters, and other
reports that looked at programs worth over $18.2 billion.
                                                                                  COMPLETED PERFORMANCE
   One performance audit determined that the State Department (State)
                                                                                  AUDITS
                                                                                  •	 Audit 14-83-AR: Status of SIGAR’s
implemented nearly 75% of SIGAR’s audit recommendations in a timely,                 Recommendations to Department of
successful way, reducing the risk of fraud, waste, and abuse of Afghan               State
reconstruction funds. A second performance audit found that poor Afghan           •	 Audit 14-84-AR: Afghan National
                                                                                     Security Forces Weapons Accountability
National Security Forces (ANSF) recordkeeping limits the Department of            •	 Audit 14-85-AR: Afghan Mobile Strike
Defense’s (DOD) ability to monitor weapons after they are transferred to             Force Vehicles
the ANSF. Another performance audit reported that the Afghan National
Army (ANA) may not be able to sustain Mobile Strike Force Vehicles                COMPLETED FINANCIAL AUDITS
                                                                                  •	 Financial Audit 14-74-FA: Audit of Costs
(MSFV) it was given, and that limited security support prevented a DOD               Incurred by Development Alternatives Inc.
contractor from providing maintenance and training for which it was paid          •	 Financial Audit 14-75-FA: Audit of Costs
as part of the program. This quarter, SIGAR’s financial audits identified over       Incurred by Chemonics International Inc.
$2.5 million in questioned costs as a result of internal-control deficiencies     •	 Financial Audit 14-76-FA: Audit of Costs
                                                                                     Incurred by Tetra Tech DPK
and noncompliance issues. To date, SIGAR’s financial audits have identified
more than $78 million in questioned costs and over $190,000 in unremitted         COMPLETED INSPECTIONS
interest on advanced federal funds.                                               •	 Inspection 14-62-IP: Baghlan Prison:
   One inspection report followed an inspection alert letter SIGAR wrote             Severe Damage to $11.3 Million Facility
                                                                                     Requires Extensive Remedial Action
last quarter about the Baghlan prison construction, and states that the           •	 Inspection 14-81-IP: Shindand Airbase:
$11.3 million facility requires extensive remedial action due to severe dam-         Use of Open-Air Burn Pit Violated
age. A second inspection found that U.S. Forces-Afghanistan (USFOR-A)                Department of Defense Requirement
                                                                                  •	 Inspection 14-82-IP: Gereshk Cold
operated incinerators at Shindand Airbase were constructed and trans-                and Dry Storage Facility: Quality of
ferred properly, but that mechanical issues led the incinerators to operate          Construction Appears to Be Good, but
at a highly reduced capacity, leading to the use of open-air burn pits. A third      the Facility Has Not Been Used to Date
inspection determined that the quality of the construction of Gereshk Cold        COMPLETED SPECIAL PROJECT
and Dry Storage Facility appeared to be good, but that the facility is not        PRODUCTS
being used to date.                                                               •	 Special Project 14-54-SP: Inquiry
   SIGAR’s Office of Special Projects issued a review of the safety of spray         Letter: ANP Patrol Boats
foam insulation systems used in ANA facilities. Special Projects also wrote       •	 Special Project 14-55-SP: Inquiry
                                                                                     Letter: International Relief and
several letters to the Combined Security Transition Command-Afghanistan              Development’s Confidentiality
(CSTC-A), USFOR-A, International Relief and Development (IRD), the U.S.              Agreement
Agency for International Development (USAID), the U.S. Navy, several              •	 Special Project 14-56-SP: Alert Letter:
                                                                                     Alerting USAID on IRD’s Confidentiality
executive departments and agencies involved in Afghan reconstruction, the            Agreement
Professional Services Council, defense contractors, the U.S. Department of                           Continued on the next page




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                 17
                                             SIGAR OVERSIGHT ACTIVITIES




                                             Agriculture (USDA), and DOD. These inquiry letters covered a wide range
                                             of topics, including confidentiality agreements, mobile money, soybean
COMPLETED SPECIAL PROJECT                    program, cancelled contracts, safety of spray foam used in construc-
PRODUCTS (CONTINUED)                         tion, the Law and Order Trust Fund for Afghanistan (LOTFA) used to pay
•	 Special Project 14-57-SP: Inquiry
   Letter: UNDP LOTFA Oversight              Afghan National Police (ANP) salaries, ANP patrol boats, contractor-iden-
•	 Special Project 14-58-SP: Inquiry         tified best practices, whistleblower protections, a small-business contract
   Letter: Professional Services Council     awarded to assist in making reconstruction decisions, maintenance of
•	 Special Project 14-60-SP: Inquiry         Afghan roads, Kandahar electrical production plans, request for data on
   Letter: IRD Whistleblower Protections
   Response                                  reconstruction funding by smaller U.S. agencies, and inquiry into allega-
•	 Special Project 14-61-SP: Inquiry         tions of human trafficking.
   Letter: ANP Mobile Money Pilot Program        During the reporting period, the criminal fines, restitutions, forfeitures,
   Response
•	 Special Project 14-63-SP: Inquiry         civil settlements, and cost savings to the U.S. government from SIGAR’s
   Letter: SBIR Study                        ongoing investigations amounted to approximately $3 million. SIGAR inves-
•	 Special Project 14-64-SP: Inquiry         tigations also resulted in two arrests, three criminal informations, three plea
   Letter: Maintenance of USAID-Funded
   Roads                                     agreements, and two sentencings in the United States. In Afghanistan, one
•	 Special Project 14-66-SP: Inquiry         subject was arrested, three Afghans were barred from access to military
   Letter: CSTC-A Response to ANP Patrol     installations, and two government contractors were terminated. SIGAR’s
   Boat Inquiry
                                             suspension and debarment program referred 16 individuals and 39 compa-
•	 Special Project 14-67-SP: Inquiry
   Letter: ANP Patrol Boat Disposition       nies for suspension or debarment based on allegations that they engaged in
•	 Special Project 14-68-SP: Inquiry         fraud and non-performance in contracts valued at over $180 million.
   Letter: Kandahar Bridging Solution
•	 Special Project 14-69-SP: Inquiry
   Letter: USDA Response to Soybean
   Inquiry                                   SIGAR TESTIFIES ON OVERSIGHT OF USAID AND STATE
•	 Special Project 14-70-SP: Inquiry         DEPARTMENT RECONSTRUCTION EFFORTS
   Letter: Contractor Recruitment of Third   Special Inspector General John F. Sopko testified along with Charles Michael
   Country Nationals for Afghan Work
•	 Special Project 14-71-SP: Inquiry         Johnson Jr. from GAO on June 10, 2014, before the House Subcommittee
   Letter: Request for Reconstruction        on the Middle East and North Africa of the Committee on Foreign Affairs
   Program Data Information                  on oversight of USAID and State Department reconstruction efforts in
•	 Special Project 14-72-SP: Inquiry         Afghanistan. Of the approximately $103.17 billion appropriated for Afghan
   Letter: Maintenance of DOD-Funded
   Roads                                     reconstruction as of that date, $17.53 billion has been allocated to USAID
•	 Special Project 14-73-SP: Inquiry         and $4.42 billion to State. Also, $18 billion in appropriated reconstruction
   Letter: Cancelled USAID Contracts
                                             funds remain to be spent by U.S. agencies as of March 31, 2014, including
•	 Special Project 14-77-SP: Review:
   Safety of Spray Foam Insulation in ANA    nearly $7 billion by State and USAID.
   Facilities                                   Reduced oversight access in Afghanistan has put reconstruction funds
•	 Special Project 14-78-SP: Inquiry         at risk, Sopko told the subcommittee. SIGAR estimates that less than 20%
   Letter: Contractor Recruitment of Third
   Country Nationals for Afghan Work         of the country will be accessible to civilian U.S. oversight personnel by
                                             December 2014, a more than 50% decrease since 2009. It is critical to find
                                             a way to continue providing oversight to protect the historic investment
                                             the United States has made to date, and the billions more yet to be spent
                                             on reconstruction.
                                                Sopko highlighted five “high-risk areas” facing USAID and State as they
                                             move forward with reconstruction efforts in Afghanistan: sustainability, cor-
                                             ruption, counternarcotics, on-budget assistance, and contract management
                                             and oversight.




                                               18                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




   The first challenge, sustainability, refers to the fact that the Afghan gov-
ernment simply cannot sustain the financial and operational burden that
the reconstruction has placed on it. Each new development project that            TESTIMONY GIVEN
                                                                                  •	 Testimony 14-65-TY: Oversight of USAID
USAID or State funds increases operations and maintenance costs, adding              and State Department Reconstruction
pressure to Afghanistan’s operating budget. For example, SIGAR reported              Efforts in Afghanistan
that USAID built one hospital whose annual operating expenses would
jump from $611,000 to $1.1–2.1 million, and another whose annual operat-
ing expenses would increase from $98,000 to $587,000. These are expenses
the Afghan Ministry of Public Health likely cannot afford, and that neither
USAID nor the Afghan government allocated funds to cover.
   Second, long-standing and pervasive corruption could destroy
Afghanistan’s prospects for continued foreign assistance and for the
development and reforms needed to make the government self-sustaining.
Recently, General John Allen identified corruption as the worst threat to
Afghanistan’s future, ranking it above the Taliban, yet there is no com-
prehensive U.S. strategy or guidance on combating corruption. Further,
Afghanistan is tied for last place with Somalia and North Korea as the coun-
try perceived as most corrupt of 177 countries rated, and Afghan citizens
themselves identify corruption as a serious challenge. This widespread cor-
ruption undermines key assistance programs run by USAID and State. For
example, SIGAR noted in a recent report that corruption affects all levels
of the customs process and is the biggest obstacle to increasing Afghan
customs revenue. In fact, USAID officials hypothesize that eliminating or
significantly reducing corruption could double the customs revenue remit-
ted to the central government. Yet there are widespread reports of Afghan
customs officials being kidnapped and intimidated for listening to U.S. advi-
sors who instruct them to properly collect customs duties.
   Third, the expanding cultivation and trafficking of drugs is putting the
entire U.S. and international-donor investment in the reconstruction of
Afghanistan at risk. Afghan farmers are growing more poppy today than
ever before, and in 2013 the value of that opium and its derivatives was
estimated at $3 billion, or the equivalent of 15% of Afghanistan’s GDP, rep-
resenting a substantial increase from 2012. The narcotics trade is poisoning
the Afghan financial sector and undermining the Afghan state’s legitimacy
by stoking corruption. SIGAR continues to express concerns that U.S.
programs crucial to the counternarcotics efforts have made limited prog-
ress and may not be sustainable. Past audit reports have examined State’s
construction and administration of the Counternarcotics Justice Center,
which was plagued by delayed construction and poor planning that led to
over-capacity and detention of low-level, rather than high-profile, detain-
ees. SIGAR continues to evaluate the development of the Counternarcotics
Police of Afghanistan and USAID’s Kandahar Food Zone program, both of
which target the narcotics trade.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                 19
                                                   SIGAR OVERSIGHT ACTIVITIES




                                                      Fourth, the U.S. commitment to channel more funds through Afghan
Performance audits: provide assurance              government institutions increases the risk of waste, fraud, and abuse of
or conclusions based on an evaluation of           reconstruction funds. Since 2002, the United States has provided nearly
sufficient, appropriate evidence measured          $9 billion in on-budget assistance, including $5.4 billion to Afghan gov-
against stated criteria. Performance audits        ernment ministries and institutions. Subsequently, SIGAR has long been
provide objective analysis so that manage-         concerned with U.S. agencies’ abilities to safeguard these funds provided
ment and those charged with governance can
                                                   through on-budget assistance. For example, SIGAR has published audit
use the information to improve the program
performance and operations, reduce costs,
                                                   reports examining USAID’s salary support to Afghanistan, as well as
and facilitate decision-making by parties with     USAID’s assessments of Afghan government agencies’ capacity to account
responsibility to oversee or initiate corrective   for and manage U.S. funds provided directly to the ministries.
action for public accountability. Performance         Finally, the effective oversight of reconstruction contracts is critical to
audits are conducted in accordance with            achieving U.S. political, security, humanitarian, and development goals
generally accepted government auditing             for Afghanistan. While there is no central database of contracts and it is
standards (GAGAS) and the Council of the           difficult to estimate a definitive amount that has been obligated, SIGAR’s
Inspectors General on Integrity and Efficiency
                                                   preliminary work indicates that U.S. agencies have obligated nearly $37 bil-
(CIGIE) Quality Standards for Federal Offices
of Inspector General.                              lion in contracts, grants, and cooperative agreements from fiscal year (FY)
                                                   2002 to FY 2013 for Afghan reconstruction efforts. To safeguard these
Inspections: are systematic and independent        funds, SIGAR has conducted inspections of State Department construc-
assessments of the design, implementation,
                                                   tion projects such as the Justice Center courthouse in Parwan Province
and/or results of an agency’s operations,
programs, or policies. SIGAR conducts in-          and the Baghlan Prison, and found that contractors did not comply with
spections, in accordance with CIGIE Quality        requirements, leading to structural deficiencies, and that contracting offi-
Standards for Inspection and Evaluation, to        cer representatives did not conduct monthly reviews or submit required
provide information to Congress and the pub-       reports. Further complicating efforts to provide oversight is the drastic
lic on the quality of construction of facilities   reduction in access to reconstruction projects outside of so-called “over-
and infrastructure throughout Afghanistan;         sight bubbles” in Afghanistan. This puts billions in reconstruction funds at
and generally, to provide an assessment            risk of fraud, waste, and abuse.
of the extent to which the facilities were
constructed in accordance with the contract
requirements, used as intended, and are be-
ing maintained.                                    AUDITS
                                                   SIGAR conducts performance audits, inspections, and financial audits of
Financial audits: provide an independent
                                                   programs and projects connected to the reconstruction in Afghanistan.
assessment of and reasonable assurance
about whether an entity’s reported condition,      Since its last report to Congress, SIGAR has issued three performance
results, and use of resources are presented        audits, three inspections, three financial audit reports, and one audit alert
in accordance with recognized criteria. SIGAR      letter. This quarter SIGAR also began one new performance audit, bring-
performs financial audits in accordance            ing the total number of ongoing performance audits to 15. The published
with GAGAS, which includes both require-           performance audit reports reviewed DOD’s ability to account for and safe-
ments contained in the American Institute of       guard weapons given to the ANSF; contractor performance, government
Certified Public Accountants Statements on
                                                   oversight, and ANA handling of Mobile Strike Force Vehicles, and the status
Auditing Standards and additional require-
ments provided in GAGAS. SIGAR also reviews
                                                   and oversight process for reaching audit recommendation resolution at
financial audits conducted by independent          the State Department. The performance audits made a total of six recom-
public accountants (IPA). When an IPA              mendations and the inspections made a total of seven. The financial audits
conducts a financial audit, SIGAR conducts         identified over $2.5 million in questioned costs as a result of internal-control
reasonable procedures to ensure compliance         deficiencies and noncompliance issues.
with GAGAS, based on the intended use of
the IPA’s work and degree of responsibility
accepted by SIGAR with respect to that work.


                                                     20                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
              SIGAR OVERSIGHT ACTIVITIES




Alert Letter
With Afghanistan in the midst of transition, U.S. military and civilian
officials have asked SIGAR to provide them with real-time information
                                                                                           AUDIT ALERT LETTER
                                                                                           •	 Audit Alert Letter 14-80-AL: Afghan Air
to prevent waste and increase the effectiveness of U.S. reconstruction                        Force C-130 Aircraft
programs. One of SIGAR’s main goals is to provide implementing agen-
cies and Congress with actionable information while there is still time to
make a difference. To achieve that goal, SIGAR sends alert letters to high-
light concerns in real time while implementing agencies are still able to
act. During this reporting period, SIGAR sent one alert letter expressing
concern about DOD’s plans to provide C-130 cargo planes to the Afghan
Air Force (AAF).

Audit Alert Letter 14-80-AL: Afghan Air Force C-130 Aircraft
On July 10, 2014, SIGAR informed the Secretary of Defense and senior U.S.
military officials in Afghanistan that it has concerns regarding DOD’s plan
to provide C-130 cargo planes to the AAF. SIGAR’s preliminary review of the
plan indicates that not all of these aircraft may be needed, and that action
taken now could save substantial expenditures.
   During a SIGAR audit of U.S. support for the AAF to determine its
capability to absorb additional equipment, the agency became aware of con-
cerns regarding the C-130 program. First, SIGAR could not determine why
DOD, in order to provide airlift of medium weight loads to the AAF, decided
to provide four C-130s rather than different quantities or types of aircraft.




Special Inspector General Sopko and SIGAR staff meet with members of the NATO Air
Training Command-Afghanistan at Kabul International Airport. (SIGAR photo by Greg Bauer)




REPORT TO THE UNITED STATES CONGRESS      I   JULY 30, 2014                      21
                                           SIGAR OVERSIGHT ACTIVITIES




                                           Although the decision was made in January 2013 to purchase four C-130s,
                                           the AAF’s requirements had not been updated since March 2010. Second,
                                           SIGAR analyzed flight data for the two AAF C-130s currently in Afghanistan
                                           and found that they are being underutilized, which raises questions
                                           about whether additional aircraft are truly needed. Lastly, during Special
                                           Inspector General Sopko’s visit to Afghanistan last month, he learned about
                                           support problems associated with training, spare parts, and maintenance
                                           for the two C-130s currently in the inventory.
                                               Issues with sustaining U.S.-funded infrastructure and equipment in
                                           Afghanistan are not new. However, the opportunity exists with the C-130s
                                           to ensure that the Afghans are capable of supporting what the United States
                                           has already given them before providing additional aircraft.
                                               Accordingly, in this alert letter, SIGAR suggested that, pending a review
                                           of the AAF’s medium-airlift requirements and its ability to fully utilize the
                                           C-130s currently in the inventory, DOD delay delivery of additional C-130s.
                                           If DOD’s review indicates additional C-130s are unnecessary, DOD should
                                           not provide them. Even the elimination of one C-130 could save up to
                                           $40.5 million through 2017.
                                               As a result of this alert letter, the Senate Appropriations Committee
                                           included a provision in the FY 2015 Defense Appropriations Act that pro-
                                           hibits DOD from using FY 2015 funds to transfer C-130s to the ANSF until
                                           it provides a review to the congressional defense committees of the AAF’s
                                           requirements. For more information, see page 62.

                                           Performance Audit Reports Published
                                           This quarter, SIGAR completed three performance audit reports that
COMPLETED PERFORMANCE                      reviewed the State Department’s resolution of SIGAR audit recommen-
AUDITS
•	 Audit 14-83-AR: Department of State:    dations, DOD’s program providing weapons to the ANSF, and the ANA
   Nearly 75% of All SIGAR Audit and       MSFV program.
   Inspection Report Recommendations
   Have Been Implemented
•	 Audit 14-84-AR: Afghan National         Audit 14-83-AR: Department of State
   Security Forces: Actions Needed to      Nearly 75% of All SIGAR Audit and Inspection Report Recommendations Have
   Improve Weapons Accountability          Been Implemented
•	 Audit 14-85-AR: Afghan Mobile
   Strike Force Vehicles: Contractor Met   SIGAR initiated this audit to (1) identify and assess the status of all recom-
   Requirements, but Long-Term Operation   mendations made to State since SIGAR’s inception for all performance
   and Maintenance Remain a Concern        audits, financial audits, and inspections; and (2) review actions taken or
                                           planned by State to address any open recommendations.
                                              To accomplish these objectives, SIGAR identified and examined all
                                           111 recommendations made to State between SIGAR’s inception in
                                           2008 and March 31, 2014, and conducted analysis to determine the num-
                                           ber of open, closed and implemented, and closed but not implemented
                                           recommendations.
                                              SIGAR categorized each recommendation by broad sector, rec-
                                           ommended action, and intended outcome. Finally, SIGAR examined




                                             22                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




documentation that State provided for each recommendation to deter-
mine any quantifiable financial benefit in the form of cost savings or
recovered funds.
    SIGAR made 111 recommendations to State from SIGAR’s inception
in January 2008 through March 2014, and 83 of those recommenda-
tions—almost 75%—were implemented. Almost half of the implemented
recommendations were designed to improve Afghan governance or promote
rule of law and anticorruption efforts. In addition, analysis showed that:
 •	 Almost two-thirds of all recommendations were intended to achieve
    one of three outcomes: (1) improve State’s award, oversight, and
    management of contracts or grants; (2) assist State to build and sustain
    the capacity of the Afghan government; or (3) ensure accountability
    over direct-assistance funds.
 •	 Almost half recommended that State, in order to achieve the intended
    outcomes, either (1) establish, improve, or follow existing procedures,
    policies, or other guidance; or (2) improve or implement a plan or strategy.

   State’s successful and timely implementation of these recommendations
resulted in stronger protections against waste, fraud, and abuse in recon-
struction activities in Afghanistan. Of the recommendations implemented,
two resulted in a total of $103 million put to better use. Four additional rec-
ommendations resulted in the recovery of more than $6.6 million.
   An additional 24 were closed for several reasons:
•	 Thirteen recommendations were closed because SIGAR planned
   to conduct additional audit work that could supersede the
   recommendations.
•	 Four recommendations were closed because State’s failure to take
   action in a timely way rendered the recommendations moot. In
   SIGAR’s view, if State had taken timely action, improvements could
   have been made in conducting Afghan elections, and in supporting
   counterinsurgency initiatives by promoting Afghan employment.
•	 Four recommendations were closed because, although State did not
   fully implement the recommendations, it took some actions towards
   addressing their intent.
•	 Two recommendations were closed because—although the
   recommendations were made to multiple agencies, including State—
   other agencies instead of State implemented the recommendations.
•	 One recommendation was closed because State did not concur with the
   recommendation and took no action.

   Four of the 111 recommendations remain open. As of July 2014, three of
these recommendations were open for six months and one recommenda-
tion for one year.
   SIGAR did not make any recommendations.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                  23
                                         SIGAR OVERSIGHT ACTIVITIES




                                         Audit 14-84-AR: Afghan National Security Forces
                                         Actions Needed to Improve Weapons Accountability
                                         DOD supplies weapons to the ANSF as part of international efforts to train
                                         and equip the ANA and the ANP. DOD has provided over 747,000 weapons
                                         and auxiliary equipment valued at approximately $626 million to the ANSF
                                         since 2004. Included in these figures are over 465,000 small arms—weap-
                                         ons such as rifles, pistols, machine guns, grenade launchers, and shotguns.
                                         CSTC-A is the primary DOD component responsible for overseeing the
                                         delivery and transfer of weapons to the ANSF. It works with the Defense
                                         Security Cooperation Agency (DSCA) to acquire these weapons. Section
                                         1225 of the National Defense Authorization Act (NDAA) for FY 2010,
                                         Pub. L. No. 111-84, requires DOD to implement a program to provide for the
                                         registration and monitoring of defense articles transferred to Afghanistan
                                         and Pakistan. DOD is also responsible for the oversight of the accountabil-
                                         ity of these weapons after they are transferred to the ANSF.
                                             This audit focuses on DOD’s actions taken to account for and safeguard
                                         small arms provided to the ANSF. Specifically, SIGAR’s objectives were to
Crated weapons are stored at the ANA     (1) evaluate the controls to account for weapons before DOD transfers title
Central Supply Depot in Kabul. See       to the ANSF, (2) evaluate the controls to account for weapons after DOD
Audit Report 14-84-AR. (SIGAR photo by
                                         transfers title to the ANSF, and (3) determine the extent to which weapons
Sarah Kenny)
                                         provided by DOD reflect current ANSF requirements and changes in ANSF
                                         personnel levels.
                                             DOD maintains information on weapons purchased for the ANSF in two
                                         primary information systems: the Security Cooperation Information Portal
                                         (SCIP) and the Operational Verification of Reliable Logistics Oversight
                                         Database (OVERLORD). SCIP is used by DOD personnel to track the ship-
                                         ment of weapons from the United States, while OVERLORD is used for
                                         tracking the receipt of weapons in Afghanistan. Errors and discrepancies
                                         often occur because these two systems are not linked to each other and
                                         require manual data entry. When SIGAR compared the data in the two sys-
                                         tems, it found that the databases did not always match; some records were
                                         duplicated, and some records were incomplete. The discrepancies listed
                                         below show examples of DOD noncompliance with its internal operating
                                         procedures and accountability requirements, and where missing informa-
                                         tion could result in the inability to locate weapons. Specifically, SIGAR
                                         found that:
                                          •	 Of the 474,823 total serial numbers recorded in OVERLORD, 43%, or
                                             203,888 weapons, had missing information and/or duplication.
                                          •	 24,520 serial numbers in OVERLORD and 22,806 weapon serial numbers
                                             in SCIP were repeated two or three times, meaning that there are
                                             duplicate records of weapons shipped and received.
                                          •	 OVERLORD contained 50,304 serial numbers with no shipping or
                                             receiving dates, and SCIP contained 59,938 serial numbers with no
                                             shipping or receiving dates.




                                           24                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




    While DOD uses SCIP and OVERLORD to account for weapons it
purchases and transfers to the ANSF, the ANA tracks weapons using
an automated inventory management system called Core Inventory
Management System (CoreIMS). However, CSTC-A Security Assistance
Office (SAO) officials stated that the information contained in CoreIMS is
incomplete and cannot be relied upon for accurate information. CSTC-A
SAO officials concluded that this is due, in part, to the ANA not entering
information correctly into the system. A 2008 report by the DOD Inspector
General also raised concerns about the ANA’s recordkeeping process
including CoreIMS. As for weapons provided to the ANP, there is no stan-
dardized or automated system to account for them. Instead, the ANP uses
a combination of hard-copy documents, handwritten records, and some
Microsoft Excel spreadsheets to maintain inventory records.
    To test the accuracy of weapons data in the various inventory systems
and hard-copy sources used by the ANSF, SIGAR conducted physical inven-
tory testing at four ANSF depots and storage facilities in Afghanistan.
Although testing at these locations was challenging for a variety of reasons,
including the lack of inventory information, SIGAR was able to assess, to
some degree, the reliability of information maintained at these sites.
 •	 At the ANA Central Supply Depot, SIGAR found that 551 weapons
    documented on the Afghan inventory record, called a “property book,”
    did not match a physical count of the inventory.
 •	 At the ANP 22 Bunkers Depot—the national depot for the ANP—SIGAR
    was unable to conduct a fully inclusive inventory test; however, SIGAR’s
    limited testing verified the quantities of weapons in each storage
    container, and SIGAR found no discrepancies in the weapons it was
    able to inspect.
 •	 At the ANA Kandahar Regional Military Training Center, SIGAR
    was unable to obtain a complete inventory record, which limits the
    assurance of accurate and reliable weapons accountability.
 •	 At the 1st Afghan National Civil Order Police Garrison Facility, SIGAR
    could conduct only a limited physical inspection of the inventory
    because no inventory list was available. No discrepancies were noted in
    the limited weapons inspection.

   This poor record keeping by the ANA and ANP limits DOD’s ability to moni-
tor weapons after transfer to the ANSF, as required by the NDAA for FY 2010.
   The United States and Coalition partners provide weapons to the ANSF
according to the quantity and type agreed upon in the tashkil—the Afghan
government’s official list of requirements for the ANSF. The tashkil has
changed over time, with some weapons requirements increasing and oth-
ers decreasing. SIGAR found that, as of November 2013, more than 112,000
weapons provided to the ANA and ANP exceed requirements in the cur-
rent tashkil. In some cases, excess weapons were provided because ANSF




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014               25
SIGAR OVERSIGHT ACTIVITIES




requirements changed. For example, the ANA has 83,184 more AK-47s than
needed because, prior to 2010, DOD issued both NATO-standard weapons,
such as M-16s, and non-standard weapons, such as AK-47s. After 2010, DOD
and the Afghan Ministry of Defense determined that interoperability and
logistics would be enhanced if the ANA used only NATO standard weapons.
Subsequently, the requirement was changed. However, no provision was
made to return or destroy non-standard weapons, such as AK-47s, that were
no longer needed. DOD officials told SIGAR that they do not currently have
the authority to recapture or remove weapons that have already been pro-
vided to the ANSF.
   This issue will be compounded as the number of ANSF personnel is
planned to decrease to lower levels in the coming years. Without confidence
in the Afghan government’s ability to account for or properly dispose of
these weapons, SIGAR is concerned that they could be obtained by insur-
gents and pose additional risks to Afghan civilians and the ANSF.
   To account for weapons procured for and transferred to the ANSF,
SIGAR recommends that the Commanding General, CSTC–A, in coor-
dination with the Director, DSCA, (1) perform a full reconciliation of
OVERLORD and SCIP and correct any data errors identified between
the two systems within six months. SIGAR also recommends that the
Commanding General, CSTC-A (2) work with the ANSF to complete a 100%
inventory check of weapons transferred to the ANSF, and (3) determine
what action can be taken to recover or destroy U.S. and Coalition-provided
weapons that the U.S. and Afghan governments jointly identified as being in
excess of the current Afghan requirements stated in the Afghan tashkil, and
develop a plan that addresses the potential future excess of small arms if
the ANSF force strength is reduced.

Audit 14-85-AR: Afghan Mobile Strike Force Vehicles
Contractor Met Requirements, but Long-Term Operation and Maintenance Remain
a Concern
To improve the ANA’s effectiveness, the NATO Training Mission-Afghanistan
(NTM-A)/CSTC-A decided that the ANA should have a Mobile Strike Force
(MSF) to provide a mechanized-infantry force that is rapidly deployable
with integral firepower, protection, and mobility support. To meet this
requirement, the Army Contracting Command-Warren (ACC-WRN) awarded
two contracts to Textron Marine & Land Systems (Textron), a U.S. firm.
Obligations on these contracts have totaled $661.3 million for 634 Mobile
Strike Force Vehicles (MSFV), spare parts, maintenance, and training. The
MSF consists of two brigades—the 1st Brigade in Kabul containing four
kandaks—an ANA unit similar in size to a U.S. battalion—and 2nd Brigade
in Kandahar containing three kandaks.
   The objectives of this audit were to (1) determine the extent to which
Textron has met its contractual obligations to produce, deliver, train, and




  26                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
              SIGAR OVERSIGHT ACTIVITIES




Turreted Mobile Strike Force Vehicles are kept at the ANA Armor Branch School. See
Audit Report 14-85-AR. (SIGAR photo by Zach Rosenfeld)

provide field support for the ANA MSFVs; (2) evaluate the effectiveness of
U.S. government oversight in the procurement, delivery, training, and main-
tenance of MSFVs for the ANA; and (3) determine the extent to which the
ANA has the capacity to operate and maintain its current and planned fleet
of MSFVs.
   Textron produced 634 MSFVs and provided initial operator and main-
tenance training to the Afghan MSF at the Armor Branch School in Kabul,
in accordance with contract requirements. SIGAR found that all of these
vehicles were properly documented and transferred to the DOD. In addi-
tion, as of March 25, 2014, DOD had transferred 419 MSFVs to the ANA and
could account for the remaining 215 vehicles, 204 of which will eventually
be transferred to the ANA and 11 of which DOD will retain as test vehicles.
Textron also met other contract requirements such as receiving and inspect-
ing MSFVs upon arrival in Afghanistan; providing initial spare parts, tools,
equipment, and weapons installation; and maintaining training vehicles.
   Textron, however, was not always able to provide MSF field training and
maintenance services for which it was being paid. This was primarily due
to the limited number of International Security Assistance Force (ISAF)
Joint Command personnel assigned to provide security as called for under
the contract. In addition, although all four deployed kandaks received their
60-day initial supply of vehicle spare parts, only one MSF kandak assigned
to the 2nd Brigade received any of its comprehensive one-year supply of
spare parts maintained at the brigade level. Due to shortfalls in contract
funding, ACC-WRN delayed ordering these parts—including replacement
engines and drive shafts—which take about a year to manufacture and
deliver. As a result, for example, another MSF kandak assigned to the 2nd
Brigade had no spare parts beyond an initial 60-day supply for the nine




REPORT TO THE UNITED STATES CONGRESS     I   JULY 30, 2014                    27
SIGAR OVERSIGHT ACTIVITIES




months that it received Coalition and contractor support. Coalition advisors
noted that the absence of spare parts resulted in a steady deterioration of
the MSF kandak’s ability to conduct missions. SIGAR requested information
on MSFV operational-readiness rates, but this information is not maintained
by the brigades, kandaks, or NTM-A.
    SIGAR also found that DOD exercised limited oversight of Textron
activities at MSF brigades and kandaks. ACC-WRN assigned a contracting
officer’s representative (COR) to oversee and monitor Textron’s perfor-
mance in Afghanistan. However, the COR was not always physically located
in Afghanistan, which limited the COR’s ability to visit MSF brigades and
kandaks to observe Textron’s work. Further, the Product Manager for Allied
Tactical Vehicles—a U.S. Army group of acquisition personnel responsible
for the life-cycle management of tactical vehicle fleets—assigned associates
to help the COR oversee and monitor Textron’s performance. The associ-
ate in Afghanistan arrived in Kabul in January 2014, but, as of April 2014,
had been unable to reach sites outside of Kabul. For example, the associ-
ate attempted to travel to the 2nd MSF Brigade in Kandahar on multiple
occasions, but the flights were always cancelled for unknown reasons.
According to NTM-A officials, oversight personnel rarely conducted site
inspections beyond Kabul, even though kandaks are deployed to other prov-
inces such as Zabul and Helmand. On April 22, 2014, ACC-WRN reported
that a COR was assigned to Kabul. Although this provides for oversight of
activities in Kabul, it does not ensure that someone will provide oversight of
Textron’s activities at MSF brigades and kandaks outside of Kabul.
    Although the ANA has received the majority of its MSFVs, the ANA’s
ability to independently operate and maintain them has been affected by
training and spare-parts problems. Each initial crew member receives
eight weeks of basic MSFV operator training at the Armor Branch School
in Kabul, but in only one of the three positions—driver, gunner, or vehicle
commander. As a result, if for any reason an MSFV loses a crew member,
the vehicle may not operate at its full potential until that crew member
is replaced. Coalition advisors noted that replacement crew members
are normally selected from field units and come to the force without any
MSFV experience. While MSF brigades and kandaks located near Kabul
can send replacements to the Armor Branch School, it is less feasible for
those outside of Kabul to do so. Coalition advisors at the 3rd MSF Kandak
in Kandahar stated that getting inexperienced replacements has lowered
mission-capable rates for the kandak. As a result, the advisors created a
training program to address the issue, but other kandaks do not have a simi-
lar program.
    Lastly, difficulties in distributing spare parts using the ANA logistics
system raise concerns about the ANA’s ability to sustain MSFVs. As part
of its contract with ACC-WRN, Textron organizes and inventories MSFV
spare parts arriving in Afghanistan before they are sent to the ANA. Textron




  28                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




assists the ANA in sending parts to the two MSF brigades, which in turn
are responsible for distributing the parts to their respective kandaks. The
continued drawdown of Coalition personnel in Afghanistan means that
neither Coalition forces nor Textron will have the resources to continue to
provide the level of logistics support services the MSF has relied on to date.
Instead, the MSF will rely on the ANA logistics system for ordering and
receiving spare parts, which SIGAR and other oversight agencies have pre-
viously reported on as having deficiencies. For example, SIGAR reported in
October 2013 on the ANA’s limited ability to manage vehicle spare parts.
   To ensure that Textron is adequately supported in its implementation
of the MSFV contracts and that appropriate contract oversight is pro-
vided, SIGAR recommends that the Executive Director, ACC-WRN, and
the Commander, ISAF Joint Command, (1) review the requirements for
contractor support at the MSF brigades and kandaks, taking into account
the level of security support available, and modify the contract to reflect
realistic capabilities for oversight, and determine which actions are needed
to conduct proper oversight of maintenance and training; and (2) assign
oversight responsibilities to government personnel working with Textron at
the brigades and kandaks and have them report to the contracting officer’s
representative. To improve the long-term sustainability of MSF operations,
SIGAR recommends that the Commanding General, NTM-A, (3) work with
the ANA to provide post-Armor Branch School operator training.
   See page 40 for the status of SIGAR’s recommendations.

New Audits Announced This Quarter
This quarter SIGAR initiated one performance audit which will evaluate
the effectiveness, sustainability, and oversight of DOD’s Afghan Local
                                                                                 NEW PERFORMANCE AUDIT
                                                                                 •	 DOD’s Afghan Local Police Program
Police program.

DOD’s Afghan Local Police Program
This audit will focus on the Combined Joint Special Operations Task Force-
Afghanistan’s (CJSOTF-A) implementation of the Afghan Local Police (ALP)
program, which is intended to strengthen local governance by training local
Afghans in rural areas to defend their communities against insurgents and
other illegally armed groups. CJSOTF-A is responsible for ALP program
planning and execution, and provides oversight, mentorship, and train-
ing to the ALP. The ALP, created in 2010 and organized under the Ministry
of Interior (MOI), had 24,647 officers assigned as of March 2014, and is
expected to grow to 30,000 officers by December 2014. The ALP is funded
through the ASFF, and as of March 2014, DOD has obligated and expended
$196 million. DOD estimates that the ALP program will cost $121 million a
year to sustain once the ALP reaches 30,000 officers.
   Specifically in the course of this audit, SIGAR plans to (1) determine the
extent to which the ALP is achieving its goals, (2) assess the MOI’s capacity




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                29
                                                                SIGAR OVERSIGHT ACTIVITIES




                                                                to manage cash resources and oversee dispersals to ALP officers, and
                                                                (3) identify how CJSOTF-A and the MOI plan to monitor and sustain the
                                                                ALP program after 2014, when the number of U.S. forces will be reduced.

                                                                Financial Audits
TABLE 2.1                                                       SIGAR launched its financial-audit program in 2012, after Congress and the
                                                                oversight community expressed concerns about oversight gaps and the
  SIGAR’S FINANCIAL AUDIT                                       growing backlog of incurred-cost audits for contracts and grants awarded
  COVERAGE ($ BILLIONS)
                                                                in support of overseas contingency operations. SIGAR competitively selects
 25 Completed Audits                          $2.2
                                                                independent accounting firms to conduct the financial audits and ensures
 40 Ongoing Audits                             3.6
                                                                that the audit work is performed in accordance with U.S. government audit-
 Total                                       $5.8
                                                                ing standards. Financial audits are coordinated with the federal inspector
Notes: Numbers have been rounded. Coverage includes audit-
able costs incurred by recipients of U.S.-funded Afghanistan
                                                                general community to maximize financial-audit coverage and avoid duplica-
reconstruction contracts, grants, and cooperative agreements.   tion of effort.
Source: SIGAR Audits Directorate.                                   This quarter, SIGAR completed three financial audits of U.S.-funded
                                                                contracts to rebuild Afghanistan. SIGAR’s financial audits program has
                                                                completed a total of 25 financial audits with over $2.2 billion in auditable
                                                                costs and has another 40 financial audits ongoing with more than $3.6 bil-
  Questioned amounts: the sum of                                lion in auditable costs, as shown in Table 2.1. These audits help provide the
  potentially unallowable questioned costs                      U.S. government and the American taxpayer reasonable assurance that the
  and unremitted interest on advanced                           funds spent on these awards were used as intended. The audits question
  federal funds.                                                expenditures that cannot be substantiated or are potentially unallowable.
                                                                    SIGAR issues each financial audit report to the funding agency that
  Questioned costs: costs determined to                         made the award(s). The funding agency is responsible for making the final
  be potentially unallowable. The two types                     determination on questioned amounts identified in the report’s audit find-
  of questioned costs are ineligible costs                      ings. Since the program’s inception, SIGAR’s financial audits have identified
  (violation of a law, regulation, contract,                    nearly $78 million in questioned costs, as shown in Table 2.2, and $191,638
  grant, cooperative agreement, etc., or an
                                                                in unremitted interest on advanced federal funds. When the funding agency
  unnecessary or unreasonable expenditure
                                                                determines that a questioned amount is unallowable, the agency issues a
  of funds) and unsupported costs (those not
  supported by adequate documentation or                        bill for collection. To date, agencies have issued bills for collection for 14
  proper approvals at the time of an audit).                    of the completed audits to recover more than $4.1 million in questioned
                                                                amounts. It takes time for funding agencies to carefully consider audit
  Bill for collection: a letter or form sent                    findings, so final determinations remain to be made for several of SIGAR’s
  to a debtor for the amount due, including                     issued financial audits. SIGAR’s financial audits have also identified and
  interest, administrative charges, and late                    communicated 109 compliance findings and 117 internal control findings to
  penalties, if applicable.                                     the auditees and funding agencies.
                                                                    SIGAR’s financial audits have four specific objectives:
  Special Purpose Financial Statement:                           •	 Express an opinion on whether the Special Purpose Financial
  a financial statement that includes all                           Statement for the award presents fairly, in all material respects,
  revenues received, costs incurred, and any
                                                                    revenues received, costs incurred, items directly procured by the U.S.
  remaining balance for a given award during
                                                                    government, and balance for the period audited in conformity with the
  a given period.
                                                                    terms of the award and generally accepted accounting principles or
                                                                    other comprehensive basis of accounting.




                                                                  30                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




•	 Evaluate and obtain a sufficient understanding of the audited entity’s         TABLE 2.2
   internal control related to the award; assess control risk; and identify
   and report on significant deficiencies including material internal control       CUMULATIVE COSTS QUESTIONED
                                                                                    IN SIGAR’S FINANCIAL AUDITS
   weaknesses.                                                                      ($ MILLIONS)
•	 Perform tests to determine whether the audited entity complied, in              Type
   all material respects, with the award requirements and applicable               Ineligible                          $14.2
   laws and regulations; and identify and report on instances of material          Unsupported                          63.4
   noncompliance with terms of the award and applicable laws and                   Total                              $77.6
   regulations.                                                                   Note: Numbers have been rounded.
•	 Determine and report on whether the audited entity has taken adequate
                                                                                  Source: SIGAR Audits Directorate.
   corrective action to address findings and recommendations from
   previous engagements.

  A list of completed, new, and ongoing financial audits can be found in
Appendix C of this quarterly report.

Financial Audits Published
This quarter, SIGAR completed three financial audits of U.S.-funded coop-
erative agreements to rebuild Afghanistan. These financial audits identified          COMPLETED FINANCIAL AUDITS
                                                                                       •	 Financial Audit 14-74-FA: USAID’s
over $2.5 million in questioned costs as a result of internal-control deficien-           Afghanistan Small- and Medium-Sized
cies and noncompliance issues. These deficiencies and noncompliance                       Enterprise Development Program and
issues included, among other things, failure to follow competitive bidding                Afghanistan Stabilization Initiative
                                                                                          Program: Audit of Costs Incurred by
procedures, improper cost allocations, lack of supporting documentation,                  Development Alternatives Inc.
over-reimbursement of indirect costs, poor record retention, unexplained               •	 Financial Audit 14-75-FA: USAID’s
                                                                                          Accelerated Sustainable Agriculture
discrepancies between a contractor’s general ledger balance and vari-                     Program and Afghanistan Stabilization
ous supporting documents, and failure to conduct vendor suspension and                    Initiative: Audit of Costs Incurred by
debarment checks.                                                                         Chemonics International Inc.
                                                                                       •	 Financial Audit 14-76-FA: USAID’s
                                                                                          Afghanistan Rule of Law Stabilization
Financial Audit 14-74-FA: USAID’s Afghanistan Small-                                      Program-Formal Component: Audit of
and Medium-Sized Enterprise Development Program and                                       Costs Incurred by Tetra Tech DPK
Afghanistan Stabilization Initiative Program: Audit of Costs
Incurred by Development Alternatives Inc.
USAID entered into contracts with Development Alternatives Inc. (DAI)
to support two USAID programs—the Afghanistan Small- and Medium-
Sized Enterprise Development (ASMED) program and the Afghanistan
Stabilization Initiative (ASI). ASMED was designed to eliminate nongov-
ernmental barriers to establishing and running a business in Afghanistan
by funding such activities as supporting the development of local busi-
ness infrastructure. ASI was designed to build trust between communities
and the Afghan government through small community-improvement
projects. SIGAR’s audit covered the period of October 26, 2006, through
November 30, 2012, and expenditures of $113,387,067 for ASMED, and
November 1, 2011, through September 25, 2012, and $31,269,391 for ASI.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                  31
                                                SIGAR OVERSIGHT ACTIVITIES




                                                   Kearney & Company P.C. (Kearney) identified two material weaknesses
                                                with DAI’s internal control over financial reporting and five instances of
                                                DAI’s noncompliance with the terms of the award and applicable laws and
                                                regulations. The material weaknesses and instances of noncompliance
                                                resulted in Kearney questioning $455,883 in unsupported costs. Kearney did
                                                not identify any ineligible costs.
                                                   Given the results of the audit, SIGAR recommended that the USAID
                                                Mission Director for Afghanistan and the Acting Director of the Office of
                                                Transition Initiatives work in conjunction to:
                                                •	 Determine the allowability of and recover, as appropriate, $455,883 in
                                                   unsupported costs identified in the report.
                                                •	 Advise DAI to address the report’s two internal-control findings.
                                                •	 Advise DAI to address the report’s five noncompliance findings.

                                                Financial Audit 14-75-FA: USAID’s Accelerated Sustainable
                                                Agriculture Program and Afghanistan Stabilization Initiative:
                                                Audit of Costs Incurred by Chemonics International Inc.
                                                USAID awarded a contract to Chemonics International Inc. (Chemonics)
                                                to implement the Accelerated Sustainable Agriculture Program (ASAP).
                                                The program sought to provide economic opportunities in agriculture for
                                                rural Afghans. USAID also awarded a contract to Chemonics to support
                                                the Afghanistan Stabilization Initiative (ASI) to build trust and confi-
                                                dence between communities and the Afghan government through small
                                                community-improvement projects. SIGAR’s audit covered the period
                                                of November 22, 2006, through October 30, 2011, and expenditures of
                                                $132,818,195 for ASAP, and June 26, 2009, through June 25, 2012, and
                                                $119,549,834 for ASI and was performed by Kearney.
                                                    Kearney identified three internal-control deficiencies and five instances
                                                of Chemonics’s noncompliance with the terms of the award and applicable
                                                laws and regulations. These internal-control deficiencies and instances of
                                                noncompliance resulted in Kearney questioning $2,032,485 in costs, includ-
                                                ing $2,032,312 in unsupported costs and $173 in ineligible costs.
                                                    Given the results of the audit, SIGAR recommended that the USAID
                                                Mission Director for Afghanistan:
USAID’s ASAP program has given                   •	 Determine the allowability of and recover, as appropriate, $2,032,485 in
Afghanistan its first state-of-the-art fruit-       questioned costs identified in the report.
processing facility. See Financial Audit         •	 Advise Chemonics to address the report’s three internal-control findings.
14-75-FA. (USAID photo)
                                                 •	 Advise Chemonics to address the report’s five noncompliance
                                                    findings identified.




                                                  32                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




Financial Audit 14-76-FA: USAID’s Afghanistan Rule of Law
Stabilization Program-Formal Component: Audit of Costs
Incurred by Tetra Tech DPK
On May 19, 2010, USAID issued a task order to Tetra Tech DPK (Tt DPK)
to implement the Rule of Law Stabilization Program–Formal Component
(RLS-F). RLS-F sought to develop the capacity of the formal justice sec-
tor—principally the judiciary and law schools—and to raise public legal
awareness and encourage the citizens of Afghanistan to resolve their
disputes by accessing and asserting their rights through the Afghan govern-
ment’s justice system. SIGAR’s audit reviewed expenditures of $30,619,409
on the RLS-F task order from May 19, 2010, through July 15, 2012.
    Crowe Horwath LLP (Crowe Horwath) identified two internal-control
deficiencies and two instances of noncompliance in its audit of incurred
costs by Tt DPK involving RLS-F. As a result of these deficiencies and
instances of noncompliance, which were combined into two findings, Crowe
Horwath questioned $39,327 in ineligible costs related to a subcontractor’s
use of outdated indirect cost rates. Ineligible costs are costs questioned
because they are prohibited by the contract, applicable laws, or regulations.
    Given the results of the audit, SIGAR recommended that the USAID
Mission Director for Afghanistan:
 •	 Determine the allowability of and recover, as appropriate, $39,327 in
    ineligible costs identified in the report.
 •	 Collect from Tt DPK the $50,449 payable to USAID.
 •	 Advise Tt DPK to address the report’s two internal control findings.
 •	 Advise Tt DPK to address the report’s two noncompliance findings.


INSPECTIONS
This quarter, SIGAR published three inspection reports. One report fol-
lowed an inspection alert letter SIGAR wrote last quarter about the Baghlan
prison construction, and determined that the $11.3 million facility requires
extensive remedial action due to severe damage. A second inspection
determined that USFOR-A operated incinerators at Shindand Airbase were
constructed and transferred properly, but that mechanical issues led the
incinerators to operate at a highly reduced capacity, leading to the use of
open-air burn pits. A third inspection found that the quality of the construc-
tion of Gereshk Cold and Dry Storage Facility appeared to be good, but that
the facility is not being used to date.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                33
                                             SIGAR OVERSIGHT ACTIVITIES




                                             Inspection Reports Published
COMPLETED INSPECTIONS                        Inspection 14-62-IP: Baghlan Prison
•	 Inspection 14-62-IP: Baghlan Prison:
   Severe Damage to $11.3 Million Facility   Severe Damage to a $11.3 Million Facility Requires Extensive Remedial Action
   Requires Extensive Remedial Action        On September 28, 2010, the Department of State’s Bureau of International
•	 Inspection 14-81-IP: Shindand Airbase:    Narcotics and Law Enforcement (INL) awarded a contract to Omran
   Use of Open-Air Burn Pit Violated
   Department of Defense Requirement         Holding Group (OHG), an Afghan firm, to build a 495-inmate prison in
•	 Inspection 14-82-IP: Gereshk Cold         Baghlan Province. OHG completed construction of the Baghlan prison on
   and Dry Storage Facility: Quality of      November 8, 2012. For this inspection, SIGAR assessed (1) INL’s manage-
   Construction Appears to Be Good, but
   the Facility Has Not Been Used to Date    ment and oversight of construction, and (2) whether the facility is being
                                             used as intended and maintained.
                                                After construction of the Baghlan prison was completed, building settling
                                             led to serious structural damage including wide cracks to three buildings.
                                             As a result, one building was demolished. Two other buildings also have
                                             collapsing walls and cracked structural beams and columns, and will likely
                                             need to be rebuilt. INL and its contractor, OHG, an Afghan firm, do not
                                             agree on the cause of the building settling and remain in negotiation regard-
                                             ing OHG’s responsibility for repairing the facilities and assuming the cost of
                                             those repairs.
                                                Nonetheless, both parties agree that OHG did not fully comply with all
                                             contract requirements. For example, OHG failed to construct a required
                                             stormwater-management system and substituted lower-grade plumbing
                                             materials that had been prohibited by INL. OHG also failed to deduct 10%
                                             from its billed invoices to create a retainage fund as required by the con-
                                             tract. This led to an $807,254 shortfall that should have been retained for
                                             INL’s protection in the event of a contract dispute.
                                                Many of the construction deficiencies may be the result of fraudulent
                                             actions by the project’s original COR—a former embassy employee—and,
                                             possibly, OHG personnel. SIGAR is currently conducting a preliminary
                                             inquiry to determine whether any OHG or embassy officials may have
                                             been complicit in these alleged activities. In 2013, the contracting offi-
                                             cer and INL appointed a new COR and lead engineer for the Baghlan
                                             prison. INL also took measures to correct problems at the site, such as
                                             the missing stormwater-management system. These are positive steps,
                                             but SIGAR remains concerned about an unaddressed construction defi-
                                             ciency, the use of unreinforced brick walls between the column supports
                                             of the structures, which violates the International Building Code (IBC)
                                             standards called for in the contract. American Concrete Institute manu-
                                             als, referenced by the IBC, do not allow building unreinforced walls in a
                                             seismic zone, where such walls are prone to collapse. According to U.S.
                                             Geological Survey data, the Baghlan prison is located in the second-high-
                                             est earthquake-hazard zone in Afghanistan.
                                                In April, SIGAR alerted the Secretary of State and the U.S. Ambassador
                                             to Afghanistan to this problem and suggested that INL rebuild the




                                               34                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
              SIGAR OVERSIGHT ACTIVITIES




Building 17, one of the three most seriously damaged structures at Baghlan Prison, was
demolished due to safety concerns. See Inspection Report 14-62-IP. (INL photo)


structures at Baghlan with steel-reinforced masonry. In response, INL pro-
vided photographs that it said showed the buildings had been built using
reinforced masonry. To the contrary, these photos demonstrate that the
concrete columns at Baghlan were improperly constructed and, moreover,
that the method of demolition was unsafe. The methods and materials
used to place the concrete in the columns caused voids in the concrete
that exposed the reinforcing steel, seriously compromising the column
strength. Moreover, the building’s heavy concrete roof was left in place,
while portions of the brick walls that help support the roof were removed.
INL has informed SIGAR that it intends to rebuild any structures at
Baghlan in conformance with the original design specifications. However,
in SIGAR’s view, INL’s apparent reluctance to use reinforced masonry to
rebuild the Baghlan prison presents a risk to both prisoner and worker
safety. Despite extensive structural damage, the prison is being used.
   Furthermore, the prison, which was originally designed for 495 inmates,
is overcrowded, with an INL-reported current population of 777. The prison
also faces two major maintenance issues, which both INL and contractor
officials attribute to poor or nonexistent maintenance by the Afghan govern-
ment. First, both diesel generators, which were designed to be the prison’s
exclusive sources of power, are non-operational. As a result, the prison is
being powered by a much smaller capacity generator that was purchased
in July 2012 with the assistance of the International Red Cross. Second, the
prison’s sewer system is backed up with debris. INL is working to address
these problems by helping to fund a nationwide prison operation-and-main-
tenance program that will train mobile maintenance teams of electricians,




REPORT TO THE UNITED STATES CONGRESS     I   JULY 30, 2014                      35
SIGAR OVERSIGHT ACTIVITIES




plumbers, masons, carpenters, and painters for facilities throughout the
region, including the Baghlan prison.
   To ensure prisoner safety and security and to ensure that the U.S.
government receives the highest value for its contract dollars, SIGAR rec-
ommends that the Secretary of State direct INL to (1) recoup the $807,254
in invoice charges paid to OHG that should have been retained in order to
protect INL in the event of a contract dispute, (2) require that any rebuild-
ing at the Baghlan prison comply with IBC and American Concrete Institute
requirements regarding the use of steel-reinforced masonry walls, (3) deter-
mine the structural adequacy of the other buildings constructed under the
contract and take action to repair or replace those found structurally inad-
equate, and (4) require the contractor to follow an INL-approved demolition
safety plan.

Inspection 14-81-IP: Shindand Airbase
Use of Open-Air Burn Pit Violated Department of Defense Requirement
In May 2011, USACE awarded a $4.4 million contract to construct solid-
waste management facilities, including two incinerators, at Shindand
Airbase, a Coalition base located in Herat Province in western Afghanistan
housing approximately 4,000 U.S. and Afghan military personnel and con-
tractors. At the time of the contract award, Shindand Airbase was primarily
using open-air burn pit operations to dispose of its solid waste. In addition
to the two USFOR-A-operated incinerators, in September 2009, USACE
awarded an $11 million contract for incinerators at various bases for use
by the Afghan military. Shindand Airbase has two of these Afghan-operated
incinerators, which were provided to the Afghan military in August 2012
and cost about $755,000.
   For this inspection, SIGAR assessed whether (1) construction of the
incinerators was completed in accordance with contract requirements
and applicable construction standards, (2) the incinerators and support-
ing facilities were being used as intended and maintained, and (3) the use
of an open-air burn pit to dispose of solid waste complied with applicable
requirements.
   SIGAR found that the two USFOR-A-operated incinerators at Shindand
Airbase were generally constructed in accordance with contract speci-
fications and transferred to the base in operable condition in June 2012.
Further, the two U.S.-funded incinerators built for the Afghan military were
transferred in August 2012 with no significant issues that would inhibit
their operation.
   However, a USFOR-A report completed in December 2012 found that the
USFOR-A-operated incinerators were operating at a highly reduced capac-
ity due to mechanical problems and that only 35% of U.S.-produced solid
waste was being incinerated, with the remaining burned in an Afghan-run
open-air burn pit. While these incinerators were repaired under warranty




  36                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
              SIGAR OVERSIGHT ACTIVITIES




in January 2013, U.S.-generated solid waste continued to be sent to the
Afghan-operated burn pit after these repairs took place. USFOR-A did not
provide justification for the continued use of the Afghan-operated burn pits
after the incinerators became fully operational. Additionally, a May 2013
USFOR-A evaluation found that the Afghan-operated incinerators were in
operable condition and the Afghans had been trained and had the proper
equipment to operate their incinerators; however, the Afghans did not use
them because the burn pits were cheaper to operate.
   Despite U.S. Central Command (CENTCOM) requirements to find
alternatives to open-air burn pit operations, USFOR-A sent their solid
waste to the open-air burn pit until June 2013, and the Afghan military
continued to use burn pits to dispose of USFOR-A waste until October
2013. Further, environmental surveys released in 2011 and 2012 stated
that solid waste such as batteries and plastics—referred to as “covered
waste,” which is prohibited from being disposed of in open-air burn
pits—was sent to the Shindand open-air burn pit. Moreover, pursuant to
the NDAA for FY 2010, use of open-air burn pits is prohibited unless the
Secretary of Defense determines that no alternative disposal method is
feasible. The Secretary of Defense is also required to notify Congress of
this determination. Despite evidence that covered waste has been dis-
posed of in open-air burn pits at Shindand Airbase, neither CENTCOM
nor USFOR-A have justified the use of burn pits to dispose of this waste,
determined that there is no alternative to the use of burn pits, or made
the required congressional notifications.




An open-air burn pit is used to dispose of solid waste at Shindand Airbase. See
Inspection Report 14-81-IP. (SIGAR photo by John Dettinger)




REPORT TO THE UNITED STATES CONGRESS      I   JULY 30, 2014                       37
SIGAR OVERSIGHT ACTIVITIES




   SIGAR recommended that the Commander, CENTCOM, direct the appro-
priate CENTCOM units to conduct inquiries and report to SIGAR within
90 days to (1) determine why the U.S. military continued to send its solid
waste to the open-air burn pit at Shindand Airbase for five months after
USFOR-A incinerators became fully operational and (2) determine why
prohibited “covered” waste was burned in open-air burn pits at Shindand
Airbase as early as January 2011, and why DOD did not notify Congress, as
required under Section 317 of the 2010 NDAA.
   As part of these inquiries, CENTCOM should determine which officials
were responsible for the decision to burn solid waste generated by U.S.
forces in open-air burn pits even after the incinerators became fully opera-
tional and did not notify Congress as required by law and DODI 4715.19.
CENTCOM should also identify what steps will be taken to hold these offi-
cials accountable.

Inspection 14-82-IP: Gereshk Cold and Dry Storage Facility
Quality of Construction Appears to Be Good, but the Facility Has Not Been Used to Date
In 2010, the Task Force for Business and Stability Operations (TFBSO)
approved the reconstruction of a bombed cotton-factory site in Helmand
Province owned by the Afghan Ministry of Commerce and Industry
(MOCI). At this site, TFBSO decided to build the $2.89 million Gereshk
Cold and Dry Storage Facility with the intention that it serve as a hub for
agricultural development within the province. The project would construct
separate cold-and-dry storage warehouses to store local produce, provide a
location for sorting and packaging, and serve as a transit point for trucks.
   Since TFBSO was originally scheduled to cease operations on
September 30, 2011, TFBSO gave the U.S. Army Corps of Engineers
(USACE) responsibility for awarding the construction contract and
transferred project oversight responsibility to the International Security
Assistance Force’s Regional Command-Southwest (RC-SW). On
September 7, 2011, USACE awarded an Afghan company the contract to
design, build, and equip the facility.
   TFBSO’s initial plans called for two cold-storage warehouses with a
contract option for two dry-storage warehouses. However, due to limited
funding, the final design was changed to one cold-storage and one dry-
storage warehouse. The contract also included demolishing two structures;
making road improvements; providing on-site prime power generation, an
electrical distribution system, and a new water well; and the removal of
mines and unexploded ordnance from the site. Construction was completed
in May 2013, and USACE approved the completed construction. The facility
was transferred to the Afghan government in September 2013. The com-
pleted facility provides approximately 10,000 square feet of cold storage
and 13,000 square feet of dry storage.




  38                   SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




   For this inspection, SIGAR assessed whether (1) construction was
completed in accordance with contract requirements and applicable
construction standards, and (2) the facility was being used as intended
and maintained.
   Due to security concerns, SIGAR was not able to conduct an on-site
inspection and was therefore unable to determine whether the project fully
met contract requirements. Based on interviews with agency officials and
on a thorough review of contract and management documentation, SIGAR
determined that the Gereshk Cold and Dry Storage Facility appears to be
well constructed. However, the project was completed 243 days after the
date of completion required by the contract.                                       The cold-storage facility at Gereshk
   To spur contractor performance, USACE sent 26 letters to the contrac-           includes shelving and cooling equipment.
                                                                                   See Inspection Report 14-82-IP.
tor, many of them expressing concerns regarding scheduling and delays in           (RC-SW photo)
contractor performance. At one point, USACE considered terminating the
contract for default, but instead assessed liquidated damages of $223,317 to
keep the pressure on the contractor to complete the project. According to
USACE documents, USACE was able to keep a local-national quality assur-
ance inspector on-site for part of the project to oversee the construction. In
addition, USACE engineers and quality-assurance personnel made 23 site
visits during construction.
   Although the facility appears to be well constructed, in April 2014,
TFBSO, RC-SW, and MOCI officials told us that the Gereshk Cold and Dry
Storage Facility had never been used and was not being maintained. TFBSO
has not achieved what it told SIGAR was the key to the project’s suc-
cess—the operation, maintenance, and control of the facility by an Afghan
business. However, a potential investor was not identified until well after
TFBSO approved the project and USACE awarded the contract and, sub-
sequently, the investor failed to expand its business in the Gereshk area.
TFBSO officials told us that several other Afghan investors have expressed
interest in the facility. However, final deals have never been reached.
According to TFBSO officials, the investors told them that the Afghan dis-
trict governor was asking for money from the investors and the construction
contractor before leasing the property. MOCI officials confirmed that the
facility is still not being used, but stated that there are some businesses
interested in the facility. Unfortunately, as of April 2014, the MOCI had not
identified a business willing to lease the facility. MOCI’s Deputy Minister told
SIGAR that the ministry is continuing to look for private sector investors to
lease the facility.
   As a lesson learned for successfully commercializing future TFBSO
investment projects, SIGAR recommended that the Acting Under Secretary
of Defense for Policy direct TFBSO to ensure that before approving future
investment projects of any kind, there are willing investor(s) capable of
assuming ownership of and responsibility for maintaining constructed




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                  39
SIGAR OVERSIGHT ACTIVITIES




facilities; or, in the absence of investors, that the MOCI is willing and able to
assume those responsibilities itself.

STATUS OF SIGAR RECOMMENDATIONS
The Inspector General Act of 1978, as amended, requires SIGAR to report
on the status of its recommendations. This quarter, SIGAR closed seven
recommendations contained in two audit reports. One of these recommen-
dations resulted in the recovery of $311,887 in ineligible or unsupported
contract costs paid by the U.S. government. (Financial Audit 14-34-FA)
   From 2009 through June 2014, SIGAR published 134 audits, alert letters,
and inspection reports and made 420 recommendations to recover funds,
improve agency oversight, and increase program effectiveness. SIGAR has
closed nearly 80% of these recommendations. Closing a recommendation
generally indicates SIGAR’s assessment that the audited agency has either
implemented the recommendation or otherwise appropriately addressed
the issue. In some cases, a closed recommendation will be the subject of
follow-up audit work.
   The Inspector General Act of 1978, as amended, also requires SIGAR to
report on any significant recommendations from prior reports on which
corrective action has not been completed. In this quarter, SIGAR contin-
ued to monitor agency actions on recommendations in 29 audit and five
inspection reports. As previously reported, there continues to be one audit
with recommendations over 12 months old where the agency has yet to
produce a corrective action plan that SIGAR believes would resolve the
identified problem. However, an agency response was recently received
and is being reviewed by SIGAR. The recommendation is from audit report
13-4, Afghan National Army: Controls Over Fuel for Vehicles, Generators,
and Power Plants Need Strengthening to Prevent Fraud, Waste, and
Abuse. Released in January 2013, the report questioned the process used to
order, receive, and pay for petroleum, oil, and lubricants for ANP vehicles.
Additionally, there are four audit reports over 12 months old where SIGAR
is waiting for the respective agencies to complete their agreed-upon cor-
rective actions.
   SIGAR recently initiated audits of the agency resolution process at the
Departments of Defense and State, and USAID. The audits examine the
status and oversight process for reaching audit resolution at these agen-
cies. This quarter, SIGAR issued the final report for the Department of
State. Report issuance for the work performed at the other two agencies is
expected later this year.


SPECIAL PROJECTS
The Inspector General’s Office of Special Projects was created to examine
emerging issues and deliver prompt, actionable reports to federal agencies




  40                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




and the Congress. The team conducts a variety of assessments, producing
reports on all facets of Afghanistan reconstruction. The directorate is made
up of auditors, analysts, investigators, lawyers, subject-matter experts, and
other specialists who can quickly and jointly apply their expertise to emerg-
ing problems and questions.
   During this reporting period, SIGAR’s Office of Special Projects issued
a review of the safety of spray foam insulation systems used in ANA facili-
ties. Special Projects also wrote several letters to CSTC-A, USFOR-A,
the U.S. Navy, the Professional Services Council, USAID, IRD, defense
contractors, USDA, DOD, and several other U.S. government agencies.
These inquiry letters covered a wide range of topics, including confiden-
tiality agreements, mobile money, soybean program, cancelled contracts,
safety of spray foam used in construction, LOTFA money used to pay
the ANP, contractor-identified best practices, whistleblower protections,
ANP patrol boats, an award which studied ways to make reconstruction
decisions, maintenance of Afghan roads, Kandahar electrical production
plans, a request for data on reconstruction funding by smaller U.S. agen-
cies, and allegations of human trafficking.

Completed Special Projects
At this time Special Projects considers these projects complete and does
not anticipate doing any additional work on these issues.
                                                                                COMPLETED SPECIAL PROJECT
                                                                                PRODUCTS
                                                                                •	 Special Project 14-55-SP: Inquiry
Inquiry Letter 14-55-SP: International Relief and                                  Letter: International Relief and
Development’s Confidentiality Agreement                                            Development’s Confidentiality
                                                                                   Agreement
On May 5, 2014, SIGAR wrote to IRD to express serious concerns about
                                                                                •	 Special Project 14-56-SP: Alert Letter:
IRD’s use of confidentiality agreements to possibly prohibit employees from        Alerting USAID on IRD’s Confidentiality
making critical statements about IRD to funding agencies or officials of           Agreement
any government. As IRD receives millions of taxpayer dollars from USAID,        •	 Special Project 14-61-SP: Inquiry
                                                                                   Letter: ANP Mobile Money Pilot Program
its conduct leads SIGAR to be especially concerned about IRD’s commit-             Response
ment to transparency and government oversight. SIGAR requested that IRD         •	 Special Project 14-69-SP: Inquiry
provide information about its current and past practices regarding confi-          Letter: USDA Response to Soybean
                                                                                   Inquiry
dentiality agreements. (See “Ongoing Special Projects” for a related inquiry,   •	 Special Project 14-73-SP: Inquiry
Inquiry Letter 14-60-SP.)                                                          Letter: Cancelled USAID Contracts
                                                                                •	 Special Project 14-77-SP: Review:
                                                                                   Safety of Spray Foam Insulation in ANA
Alert Letter 14-56-SP: Alerting USAID on IRD’s                                     Facilities
Confidentiality Agreement
SIGAR wrote to USAID on May 5, 2014, to alert the agency to allegations
made in a Washington Post article that IRD has attempted to use confiden-
tiality agreements to prevent employees from making critical statements.
SIGAR suggested that USAID notify all contract, cooperative agreement,
and grant recipients in Afghanistan that SIGAR will not tolerate efforts to
restrict the rights of whistleblowers. Furthermore, SIGAR suggested that
USAID’s future contracts include provisions to forbid recipients of federal




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014               41
                                             SIGAR OVERSIGHT ACTIVITIES




                                             funds from using confidentiality agreements to prohibit employees from
                                             talking to U.S. government officials.

                                             Inquiry Letter 14-61-SP: ANP Mobile Money Pilot
                                             Program Response
                                             Last quarter, SIGAR wrote to CSTC-A generals to inquire about the status
                                             of the MOI pilot program that uses “mobile money” to pay salaries directly
                                             to ANP personnel via electronic transfers. These salaries are funded, in
                                             part, by U.S. taxpayer money through direct-assistance funds to LOTFA. On
                                             May 3, 2014, CSTC-A responded to SIGAR’s original inquiry letter.
                                                On May 28, 2014, SIGAR again wrote to CSTC-A about the mobile-money
                                             pilot program, expressing concern about CSTC-A’s estimate that 18% of
                                             ANP salaries are paid in cash directly to ANP employees. As much as half
                                             of those direct cash payments are diverted from rightful recipients, putting
                                             up to $45.5 million in salary payments in FY 2014 at risk of diversion. SIGAR
                                             emphasized the importance of ensuring that ANP employees receive their
                                             full salaries in order to create an honest, reliable, and sustainable police
                                             force. This can be accomplished, in part, by less reliance on using the so-
                                             called “trusted agent” system currently used to pay some ANP employees.

                                             Inquiry Letter 14-69-SP: USDA Response to Soybean Inquiry
                                             Last quarter, SIGAR sent an inquiry letter to the U.S. Department of
                                             Agriculture (USDA) about its Soybeans for Agricultural Renewal in
                                             Afghanistan Initiative (SARAI). In May 2014, SIGAR Special Projects
                                             received USDA’s response. Upon review of the requested materials, SIGAR
                                             Special Projects identified the following concerns:
                                             •	 Soybean production levels were not up to expected levels, jeopardizing
                                                the sustainability of the soybean factory built as part of the initiative.
                                             •	 The project implementer, the American Soybean Association (ASA), did
                                                not conduct feasibility or value-chain studies prior to proposing and
                                                initiating the project.
                                             •	 Scientific research conducted for the United Kingdom Department
                                                for International Development between 2005 and 2008 concluded that
                                                soybeans were inappropriate for conditions and farming practices in
                                                northern Afghanistan, where the program was implemented.
                                             •	 Despite the lack of prior planning and analysis, and despite evidence
The USDA’s soybean program in                   that may have put the success of the program in doubt, USDA provided
Afghanistan has raised concerns at SIGAR.       $34.4 million in commodities, transportation, and administrative funds
See Special Project 14-69-SP. (SIGAR photo
                                                to ASA for SARAI.
by Smythe Anderson)

                                                Following the identification of these areas of concern, SIGAR wrote
                                             a letter to the Secretary of Agriculture, suggesting that the Secretary
                                             implement a comprehensive evaluation of the project before any further




                                               42                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
              SIGAR OVERSIGHT ACTIVITIES




investment and develop a plan to address the deficiencies and challenges
already identified.

Inquiry Letter 14-73-SP: Canceled USAID Contracts
SIGAR wrote to USAID on July 1, 2014, to share preliminary observations
made after reviewing USAID’s responses to two prior inquiry letters about
19 contracts that USAID has terminated in Afghanistan since 2008. SIGAR’s
Investigations and Audits Directorates will conduct further analysis on the
comprehensive information provided by USAID.

Review 14-77-SP: Safety of Spray Foam Insulation in
ANA Facilities
In April 2013, SIGAR raised safety concerns regarding substandard spray
polyurethane foam insulation systems used in arch-span type facilities
USACE constructed for the ANA. The concern was prompted by fires that
destroyed two buildings under construction using insulation systems which
did not comply with International Building Code (IBC) standards. USACE
responded to SIGAR stating that the agency would stop installing noncom-
pliant systems and would identify corrective measures to ensure compliance
with IBC standards in both completed and future construction. Shortly
thereafter, SIGAR initiated a review to determine why USACE contractors
installed noncompliant systems in the first place, the cost of remediation,
and whether USACE’s efforts would ensure full IBC compliance.
   On July 9, 2014, SIGAR reported on the results of its review. SIGAR
found that 1,600 of the nearly 2,000 buildings constructed in the




A fire at a non-code-compliant ANA classroom destroyed the structure in 30 minutes.
See Special Project 14-77-SP. (USACE photo)




REPORT TO THE UNITED STATES CONGRESS     I   JULY 30, 2014                     43
SIGAR OVERSIGHT ACTIVITIES




$1.57 billion program did not meet IBC standards and remediation efforts
bringing them into compliance could cost $50–60 million. Further, despite
assurances from USACE that they would stop installing noncompliant
systems, a memorandum issued in January 2014 by a senior official coun-
termanded those representations by authorizing the use of noncompliant
materials in 285 buildings in various stages of construction for the ANA.
USACE acknowledged that the buildings have “an increased risk in the
event of a fire” but contended that the operational needs of the ANA justi-
fied the change in policy. USACE also relied on the physical conditioning of
the building occupants stating “the typical occupant populations for these
facilities are young, fit Afghan soldiers and recruits who have the physical
ability to make a hasty retreat during a developing situation.” The affected
buildings include 83 barracks, four medical clinics, and two fire stations,
according to USACE.
   Moreover, USACE failed to enforce its own contract requirements
because personnel tasked with approving contractor construction pro-
posals were not sufficiently familiar with arch-span construction or IBC
standards. USACE also provided incomplete information in the requests
for proposals it supplied to contractors; an outside architect-engineering
firm concluded requirements were missing in 31 out of 58 contracts.
Additionally, USACE failed to identify and reject substandard products pro-
posed for use by contractors.
   SIGAR concluded that it was imperative for immediate action to be taken
to bring all the buildings into compliance with safety standards or to show
what action will be taken to remedy the dangerous conditions; notify the
ANA about the hazardous buildings; rescind the January 2014 memoran-
dum; and review the internal procedures that led USACE to adopt contract
requirements it was unable to enforce.

Ongoing Special Projects
At this time the Office of Special Projects does not consider these inquiries
complete. Special Projects is waiting for the responses to requested infor-
mation, or is in the process of analyzing information already received.

Inquiry Letter 14-54-SP: ANP Patrol Boats
On April 24, 2014, SIGAR wrote to the commanding general of CSTC-A to
request information about $3 million worth of patrol boats procured for
the ANP with ASFF funds. CSTC-A requested that the U.S. Navy purchase
the patrol boats in 2010, but cancelled the requirement for the new boats
in 2011. Because 80% of the funds had been disbursed, the contract was
allowed to proceed to completion. The patrol boats are now sitting in stor-
age in Yorktown, Virginia, as they have for three years.
   SIGAR requested that CSTC-A provide information about the ANSF’s
existing watercraft fleet and mission, the procurement process CSTC-A




  44                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




conducted including the rationale for the initial justification for the pro-
curement as well as for its cancellation, the cost to store and preserve the
patrol boats, and plans to dispose of or utilize the boats in the future. (See
                                                                                 ONGOING SPECIAL PROJECT
                                                                                 PRODUCTS
“Ongoing Special Projects” for related inquiries, Inquiry Letters 14-66-SP       •	 Special Project 14-54-SP: Inquiry
and 14-67-SP.)                                                                      Letter: ANP Patrol Boats
   As a result of SIGAR Special Project inquiry letters about the ANP            •	 Special Project 14-57-SP: Inquiry
patrol boats, the House version of the FY 2015 Defense Appropriations Act           Letter: UNDP LOTFA Oversight
                                                                                 •	 Special Project 14-58-SP: Inquiry
includes a provision that prohibits DOD from using FY 2015 funds to store           Letter: Professional Services Council
patrol boats purchased for the ANP. For more information, see page 63.           •	 Special Project 14-60-SP: Inquiry
                                                                                    Letter: IRD Whistleblower Protections
                                                                                    Response
Inquiry Letter 14-57-SP: UNDP LOTFA Oversight
                                                                                 •	 Special Project 14-63-SP: Inquiry
On February 19, 2014, SIGAR wrote to CSTC-A and NTM-A to express con-               Letter: SBIR Study
cern that the United States might be unwittingly helping to pay the salaries     •	 Special Project 14-64-SP: Inquiry
of non-existent members of the ANP. A 2011 SIGAR audit report also raised           Letter: Maintenance of USAID-Funded
                                                                                    Roads
questions about the UNDP’s management of LOTFA, which is used to pay             •	 Special Project 14-66-SP: Inquiry
ANP salaries. Contributions to LOTFA to date have totaled $3.72 billion             Letter: CSTC-A Response to ANP Patrol
with the United States contributing $1.52 billion. CSTC-A responded to              Boat Inquiry
SIGAR’s letter on March 7, 2014, recognizing the potential vulnerabilities in    •	 Special Project 14-67-SP: Inquiry
                                                                                    Letter: ANP Patrol Boat Disposition
providing Afghan security ministries with direct contributions and outlin-       •	 Special Project 14-68-SP: Inquiry
ing measures they have taken to mitigate such risk. While recognizing that          Letter: Kandahar Bridging Solution
more must be done, CSTC-A highlighted corrective actions including estab-        •	 Special Project 14-70-SP: Inquiry
                                                                                    Letter: Contractor Recruitment of Third
lishing new audit efforts and the removal of 54,000 erroneous personnel ID          Country Nationals for Afghan Work
numbers in the LOTFA database used to manage ANP payroll.                        •	 Special Project 14-71-SP: Inquiry
   SIGAR furthered its inquiry into the financial management of LOTFA on            Letter: Request for Reconstruction
                                                                                    Program Data Information
May 13, 2014, in a letter to the UNDP Administrator. SIGAR focused its let-
                                                                                 •	 Special Project 14-72-SP: Inquiry
ter on potential improper use of funds generated by deductions taken by the         Letter: Maintenance of DOD-Funded
MOI from police salaries supposedly for retirement and pension purposes             Roads
within the ANP. The UNDP response on June 6, 2014, outlined their posi-          •	 Special Project 14-78-SP: Inquiry
                                                                                    Letter: Contractor Recruitment of Third
tion that LOTFA does not exercise oversight of certain salary deductions or         Country Nationals for Afghan Work
potential overpayments to highly ranking ANP officials serving in posts that
require a lower rank. SIGAR is evaluating next steps to improve oversight of
the control mechanisms governing LOTFA expenditures.

Inquiry Letter 14-58-SP: Professional Services Council
On May 13, 2014, SIGAR wrote to the Professional Services Council (PSC)
following a speech that Special Inspector General Sopko gave to members
in February 2014. In its letter, SIGAR asked for PSC members’ insight and
observations on: factors shaping greater or lesser successes of programs and
projects, in-country challenges while operating in Afghanistan, federal issues
that impede programs, and any suggested improvements in federal enti-
ties’ engagement, interaction, management, and oversight of contractors in
Afghanistan. Insights and observations from PSC members will help SIGAR
focus its work as it becomes more challenging for contractors to carry out
their mission in a post-2014 Afghanistan.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                 45
                                             SIGAR OVERSIGHT ACTIVITIES




                                             Inquiry Letter 14-60-SP: IRD Whistleblower
                                             Protections Response
                                             On May 19, 2014, IRD responded to SIGAR’s May 5, 2014, letter about the
                                             company’s confidentiality policy. In turn, SIGAR wrote back to IRD on
                                             May 20, 2014, disagreeing with the statement that IRD and SIGAR have
                                             “come to an understanding” about the confidentiality provisions of former
                                             employees’ separation agreements. SIGAR expressed concern that IRD
                                             continues to discourage current and former employees from pursuing their
                                             rights under federal whistleblower laws. SIGAR requested that IRD provide
                                             copies of separation agreements, contact information for the 49 employees
                                             who signed separation agreements with confidentiality provisions, and a
                                             list of IRD contracts, grants, and cooperative agreements with U.S. govern-
                                             ment agencies with which each of the 49 employees were involved. IRD has
                                             provided the requested information and SIGAR is reviewing the information
                                             contained in that response.

                                             Inquiry Letter 14-63-SP: SBIR Study
                                             SIGAR wrote to the Office of the Assistant Secretary of Defense for
                                             Research and Engineering on June 5, 2014, to request information con-
                                             cerning a study titled “Contextual Sociocultural Reasoning in Weak Signal
                                             Environments,” which is funded by a Small Business Innovations Research
                                             (SBIR) award. The objective of the study was to develop an “automated
                                             decision-making tool” for “predicting the success of proposed military
                                             actions in areas of interest and providing early warnings and alerts for
                                             activities that are precursors for hostile responses, outbreaks of conflict,
                                             and breeding grounds for terrorism.” SIGAR is reviewing the information
                                             received on this study from DOD and its potential implications on recon-
                                             struction decision making.

                                             Inquiry Letter 14-64-SP: Maintenance of USAID-Funded Roads
                                             SIGAR sent a letter to USAID on June 6, 2014, to express concern that the
                                             U.S. government may be supporting road projects in Afghanistan that will
                                             be unsustainable due to inadequate maintenance. The letter requested
                                             information about USAID’s contract with a Louis Berger Group/Black and
                                             Veatch (LBG/BV) joint venture to develop an organic Afghan government
                                             road-maintenance capability, the status of USAID’s funding of road main-
                                             tenance programs, and any existing plans for maintaining existing roads or
                                             building new roads. USAID responded that the Afghan Road Maintenance
                                             Unit developed in the LBG/BV contract was still operational, though it is
                                             focusing only on provincial roads. USAID stated that it was supporting
                                             programs run by the World Bank and other international partners to ensure
Many U.S.-funded roads, like this one
from Gardez to Khowst, may not be            that the Afghan government has the capacity and funding to maintain the
sustainable. See Special Project 14-64-SP.   roads built by the United States and other international donors. SIGAR is
(USAID photo)                                reviewing USAID’s response and information provided.




                                               46                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




Inquiry Letter 14-66-SP: CSTC-A Response to ANP Patrol
Boat Inquiry
CSTC-A responded to Inquiry Letter 14-54-SP, stating that they could not
locate records of the justification or cancellation of the ANP patrol boats.
On June 6, 2014, SIGAR again wrote to USFOR-A and CSTC-A about the
$3 million procurement of patrol boats for the ANP. SIGAR expressed
concerns that CSTC-A was unable to respond to the majority of SIGAR’s
original questions about the patrol boats, and noted that CSTC-A’s lack of
records makes it difficult for SIGAR to discern the history of the procure-
ment and cancellation decisions. SIGAR also requested that CSTC-A supply
a detailed accounting of its review board’s decision that the patrol boats
do not fill a valid requirement for Afghanistan. CSTC-A responded to the
second letter and pledged to conduct an investigation to track down the
documents relating to the justification and cancellation of the requirements
for the ANP patrol boats.                                                         Patrol boats intended for ANP use sit
                                                                                  unused in a storage facility in Yorktown,
Inquiry Letter 14-67-SP: ANP Patrol Boat Disposition                              Virginia. See Special Projects 14-54-SP,
SIGAR sent an inquiry letter to the Secretary of the U.S. Navy on June 6,         14-66-SP, and 14-67-SP. (SIGAR photo by
                                                                                  Nicole Stauch)
2014, to request information about the ANP patrol boats that are being
stored in Yorktown, Virginia. SIGAR’s letter asks the Navy to explain its
plans for disposing of the patrol boats, the cost of storing the boats, and the
source of funding for the storage costs.
   Subsequent to this inquiry letter SIGAR Special Projects personnel trav-
eled to Naval Supply Station-Cheatham Annex in order to inspect the boats
in storage. SIGAR personnel found the boats stored in shipping containers
in a field within the Naval Supply Station. SIGAR personnel were informed
that the boats were approaching the end of the time during which they
should be serviced to ensure functionality and that the extreme heat and
humidity of the shipping containers were not ideal storage conditions.
SIGAR personnel informed a representative of the Office of the Secretary of
the Navy of their concerns with the storage conditions. SIGAR is waiting for
the Navy’s response on actions they are taking to dispose of these boats.

Inquiry Letter 14-68-SP: Kandahar Bridging Solution
On June 10, 2014, SIGAR wrote to State, DOD, ISAF, and USAID to inquire
about the U.S. government’s plans to provide electric power in Kandahar
after December 2014. Presently two large generators provide 10 mega-
watts of power to assist Kandahar in meeting its electrical needs. The fuel
for these generators will be provided by DOD through December 2014.
Beginning in January 2015 both the amount of fuel that DOD will provide
and the rate of subsidy will be diminished until the program is completely
halted in September 2015. Several U.S. government electrification projects
that will make up that shortfall are slated to come on-line between late
2015 to 2018. However, this could leave a considerable gap in time between




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                 47
SIGAR OVERSIGHT ACTIVITIES




the termination of subsidized fuel and the completion of the electrification
projects. SIGAR is concerned that a planned “bridging solution to the bridg-
ing solution”—an Afghan-led hybrid program that would provide Kandahar
with power from a combination of sources during that time—has a tight
timeline, and ambitious cost estimates which could potentially compromise
electrical service to Kandahar, thus endangering counter-insurgency and
economic gains made over the last few years. DOD and USAID provided
a joint response which contained greater detail into proposed plans for
continued electrification in Kandahar. This response is being reviewed and
analyzed by SIGAR staff.

Inquiry Letter 14-71-SP: Request for Reconstruction Program
Data Information
On June 26, 2014, SIGAR sent an inquiry letter to several executive depart-
ments and agencies to follow up on a 2013 inquiry letter sent to U.S.
government agencies conducting reconstruction efforts in Afghanistan.
While State, DOD, and USAID responded in 2013, several agencies with
smaller roles did not. SIGAR has requested that agencies that did not
respond previously provide comprehensive information on all completed,
ongoing, and planned reconstruction projects in Afghanistan. SIGAR also
expanded the request to agencies that were not included in the first request
in order to ensure that it would receive comprehensive information on all
U.S. reconstruction programs in Afghanistan. Information requested in the
inquiry letter includes program name and description, vendor or implement-
ing partner, contract identifier and type of legal instrument, estimated total
project cost, start and end date, funding source, and location. SIGAR will
evaluate and categorize these responses once received.

Inquiry Letter 14-72-SP: Maintenance of DOD-Funded Roads
SIGAR sent an additional letter relating to the construction and main-
tenance of roads in Afghanistan to DOD on June 26, 2014. This letter
requested information on the total reconstruction costs for road projects
funded by DOD; raised additional questions about ongoing and planned
road construction projects; and questioned whether maintenance of these
projects was anticipated and funded. SIGAR also inquired about the current
capacity for the Afghan government to maintain these roads and any pos-
sible future funding sources to maintain road networks in Afghanistan.
   DOD responded by informing SIGAR that the Commander’s Emergency
Response Fund (CERP) has provided funding for approximately 252
transportation-construction projects valued over $159 million and the
Afghanistan Infrastructure Fund (AIF) provided $67.6 million for road
construction, respectively. It also provided details relating to the three AIF
projects under construction at a cost of $34.6 million, one CERP repair




  48                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




project nearing completion at a cost of $4.9 million, and information that
there are “no future CERP or AIF roads planned at this time.”
   DOD also commented that all CERP and AIF projects require signed
sustainment agreements from local provincial governments and/or the
Afghanistan Ministry of Public Works (MOPW) prior to commencing work
on any road-construction project. Additionally, DOD confirmed that neither
CERP nor AIF provide funding for maintenance or sustainment projects and
noted that the MOPW is provided an annual budget and is responsible for
the execution of project design, survey, reconstruction and rehabilitation
of roads, road maintenance, contracting for road construction with private
sector/road companies, monitoring and planning of railways, and the resto-
ration of roads and bridges.

Inquiry Letters 14-70-SP and 14-78-SP: Contractor
Recruitment of Third-Country Nationals for Afghan Work
Utilizing findings from a human-trafficking initiative started by SIGAR
Investigations special agents at U.S. military bases in Afghanistan, Special
Projects conducted numerous interviews with LOGCAP contracting officials
and their military overseers at Rock Island Arsenal in Illinois. These interviews
focused on the recruitment and treatment of foreign workers employed at the
bases. Special Projects subsequently issued several letters of inquiry asking for
documentation of foreign-worker recruiting practices and policies, and con-
tractors’ adherence to federal human-trafficking rules. Also, Special Projects
staff consulted with DOD’s Combating Trafficking in Persons task force, which
is conducting separate reviews of human-trafficking regulations and enforce-
ment. This inquiry is ongoing and may be expanded.
    On June 13 and July 9, 2014, SIGAR wrote to two contractors to express
concern that the companies’ recruiters may be engaged in improper and
deceptive recruiting of third-country nationals for work at U.S. military             Contract Monies Protected: appropriated
bases, in the form of applicants paying large fees to recruiters. One con-            reconstruction funds not obligated to
tractor provided SIGAR with information showing that more than 2,400                  contractors based on SIGAR activity.
third-country nationals who work for the prime contractor have paid recruit-
ing fees. Furthermore, SIGAR special agents have gathered information on              Criminal Information: a written
allegations of other improper recruitment practices as well as alleged mis-           accusation made by a public prosecutor,
                                                                                      without the participation of a grand jury.
treatment of third-country national employees at U.S. military bases.
                                                                                      The function of an information is to inform
                                                                                      the defendant of the nature of the charge
                                                                                      made against him and the act constituting
INVESTIGATIONS                                                                        such charge so that he can prepare for trial
During the reporting period, monetary results from SIGAR’s ongoing                    and to prevent his being tried again for the
investigations totaled $3.1 million. Criminal fines, restitutions, and forfei-        same offense.
tures amounted to $600,000, contract monies protected totaled $500,000,
and two civil settlement agreements had a combined total of $2 million.
Investigations resulted in two arrests, three criminal informations, three
                                                                                    Sources: SIGAR Investigations Directorate; Black’s Law
plea agreements, and two sentencings in the United States. In Afghanistan,          Dictionary.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                  49
                                                      SIGAR OVERSIGHT ACTIVITIES




FIGURE 2.1                                            one subject was arrested, three Afghans were barred from having military
                                                      installation access, and two government contractors were terminated.
SIGAR INVESTIGATIONS: NUMBER OF OPEN
                                                      SIGAR initiated 26 new investigations and closed 46, bringing the total
INVESTIGATIONS AS OF JUNE 30, 2014
                                                      number of ongoing investigations to 318, as shown in Figure 2.1. SIGAR’s
                                                      suspension and debarment program referred 16 individuals and 39 contrac-
                       Total: 318                     tors for suspension or debarment. Of these 55 contractors, 39 individuals
                                                      and 12 companies were referred for debarment based on allegations that
                                                      they engaged in fraud and nonperformance of as part of contracts valued
                             Public
                             Corruption               at $180,179,563.
                             79
             Procurement
             and Contract
                                   Other/
                                   Miscellaneous      Former U.S. Contractor Employee Pleads Guilty to
             Fraud
             107
                                   62                 Fraud Scheme
                                                      On May 23, 2014, in the Middle District of Florida, Alan Simmons, a former
                                                      employee of U.S. contractor PAE Inc., pled guilty to conspiracy to defraud
           Theft                         Money        the U.S. government. Simmons worked in Afghanistan as a training program
             32                          Laundering
                                         38           coordinator for PAE. PAE had a contract with the State to provide training
                                                      and uniforms to Afghan correctional officers. Simmons was responsible for
Source: SIGAR Investigations Directorate, 7/8/2014.   coordinating with others at PAE as to the number and types of uniforms to
                                                      be ordered and provided to the Afghan correctional officers upon comple-
                                                      tion of training.
                                                         Simmons and others created a company, Aminzian Logistics Services
                                                      (Aminzian) to provide uniforms to PAE as a subcontractor. Aminzian would
                                                      submit false and fraudulent invoices to PAE seeking payment for goods
                                                      that were never provided. After Aminzian was paid, Simmons and his co-
                                                      conspirators split the proceeds. The U.S. government incurred a loss of over
                                                      $120,000 from paying the false invoices.

                                                      $1.25 Million Civil Settlement from Investigation
                                                      On May 6, 2014, Afghan American Army Trucking Services (AAA) entered
                                                      into a civil settlement agreement whereby AAA is obliged to pay $1,250,000
                                                      to the United States by an electronic funds transfer. The settlement agree-
                                                      ment marks the final outcome of SIGAR’s criminal investigation involving
                                                      U.S. Army Sergeant Christopher Weaver, former U.S. Army Specialist
                                                      Stephanie (Shankel) Charboneau, and a former FLUOR Corporation
                                                      employee, Jonathan Hightower.
                                                         AAA had entered into a Host Nation Trucking (HNT) contract with the
                                                      U.S. Army to provide point-to-point dry goods and fuel-shipping services
                                                      throughout Afghanistan. The civil claims against AAA arose from services
                                                      provided by AAA under the HNT contract related to Forward Operating
                                                      Base (FOB) Fenty. The claims include the submission of 55 false and forged
                                                      transportation-movement requests for fuel shipments that were stolen from
                                                      FOB Fenty and/or never delivered to other FOBs by employees of AAA dur-
                                                      ing the period of September 2010 through December 2010. The settlement




                                                        50                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




agreement represents AAA’s compromise to avoid litigation and does not
represent an admission of liability.

Former U.S. Army Sergeant Sentenced for Fuel-Theft
and Kickback Scheme
On April 9, 2014, in the Eastern District of North Carolina, James Edward
Travis was sentenced to 60 months’ federal incarceration and ordered to
pay restitution of $422,302. Following completion of the sentence, Travis
must serve three years’ supervised probation.
   The investigation revealed that during his deployment, Travis, a ser-
geant first class, had the dual role of paying agent and contracting officer
representative at FOB Sharana. Between January 3, 2012, and October 4,
2012, Travis accepted $211,890 in kickbacks from various contractors.
Additionally, he was involved in a fuel-theft scheme of government-appro-
priated fuel that totaled in excess of $400,000.

$14,500 in Illicit Proceeds Seized
A DynCorp International contract employee, Samuel Muturi, confessed
to SIGAR and International Military Police (IMP) Officers he attempted to
smuggle $12,500 concealed in stolen U.S. government laptops and other
materials in a DHL shipment from Kandahar Airfield (KAF) to Kenya, where
he resides. The investigation uncovered that the currency was bribe pay-
ments Muturi received from Afghan nationals for facilitating the theft and
sale of over 200 drums of U.S. government motor and waste oil taken from
the DynCorp’s KAF storage facility. Muturi also confessed to having in his
room an additional $2,000 of illicit funds obtained from the same scheme
and which IMP recovered. The IMP, pursuant to this SIGAR investigation,
seized a total of $14,500 of illicit funds as evidence. Muturi immediately
resigned from his contract position with DynCorp International and
departed KAF. On February 17, 2014, the Commander at KAF issued Muturi
a notice barring him indefinitely from U.S. bases in Afghanistan.
   On April 23, 2014, the IMP Detachment disposed of the $14,500 held
in evidence for SIGAR pursuant to U.S. Army regulations, and turned the
seized currency into the KAF Finance Center. The money was deposited
into U.S. Army accounts at the Defense Finance and Accounting Service for
final reimbursement to the U.S. government.

Investigation Results in Two Convictions for Money
Laundering Scheme
On May 15, 2014, in the Eastern District of Tennessee, James C. Pittman
entered a guilty plea to a one-count criminal information for money
laundering. On May 28, 2014, Jimmy Wayne Dennis entered a guilty plea
to a one-count criminal information for conspiracy to commit money




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                51
SIGAR OVERSIGHT ACTIVITIES




laundering. Both subjects were released on a personal-recognizance bond
pending sentencing.
   The investigation of Pittman and Dennis focused on Afghan contractors
bribing U.S. military personnel in return for government contracts associated
with the Bagram Airfield Humanitarian Aid Yard, which functions as storage
for large quantities of clothing, food, school supplies, and other items avail-
able to military units, in support of humanitarian aid for the Afghan people.
   Pittman and Dennis will be sentenced in September 2014.

U.S. Army Sergeant Sentenced for Fuel-Theft Scheme
On May 22, 2014, in the Western District of Kentucky, U.S. Army Sergeant
Albert Kelly III was sentenced to 18 months’ incarceration and three years’
supervised release. He was ordered to pay restitution of $100,000.
   The investigation revealed that from November 2011 until January 2012,
Kelly permitted the diversion of fuel-delivery trucks from FOB Salerno to
other locations, where the trucks were offloaded and the fuel stolen. To
conceal the diversions, Kelly falsely certified that the diverted fuel had in
fact been delivered and offloaded at FOB Salerno. In exchange for assist-
ing in the fuel theft, Kelly received approximately $57,000 from an Afghan
trucking company for diverting approximately 25,000 gallons of fuel. The
total loss to the government was approximately $100,000.

Employee Terminated at U.S. Embassy Kabul
In June 2014, the U.S. Embassy Kabul terminated a locally employed staff
member at the embassy because of an investigation by SIGAR, the State
Department OIG, and DCIS. The investigation was initiated upon receipt
of information indicating Abdul Masood Walizada, a shipping and customs
assistant for the U.S. Army, Surface Deployment and Distribution Command
(SDDC), General Services Office (GSO), was receiving bribes from con-
tractors for securing improper diplomatic notes for tax exemption of U.S.
cargo coming into Afghanistan through the Iranian border at Islam Qala.
Additional information indicated unidentified local employee(s) work-
ing for the U.S. Army, SDDC, GSO at the U.S. Embassy Kabul delayed the
certification of the diplomatic notes in order to receive payments from the
contractors who bring in cargo for the United States in order to “expedite”
the tax-exemption process.
   Approved consensual monitoring efforts produced recordings wherein
Walizada agreed to help an undercover agent posing as a contractor to
import products believed to originate in Iran. The undercover agent informed
Walizada he intended to purchase Iranian materials, as they were much
cheaper, and ship them from Iran. The U.S. Code of Federal Regulations
prohibits the importation of products manufactured or shipped through Iran.
Contractors for the U.S. military are forbidden to obtain or ship products
through Iran even though they may realize a much larger profit by doing so.




  52                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




   On June 12, 2014, after obtaining the evidence against Walizada from
the consensually monitored phone calls with the undercover agent, SIGAR
and State OIG agents interviewed Walizada. Upon completion of the inter-
view, they called in U.S. Embassy Kabul Human Resources, who, with the
Regional Security Officer’s assistance, terminated Walizada’s employment
and permanently removed him from the embassy.

$575,000 Civil Settlement from SIGAR Investigation
An investigation was opened in May 2011, based upon a complaint alleging
an American based company, Recon International, LLC, submitted inflated
invoices and supplied construction material originating from Iran on an
$11.5 million dollar contract awarded by USACE. Investigative analysis
failed to identify the exact gravel quantities or evidence of Iranian construc-
tion material delivered on the contract. The matter was declined criminally,
however, Recon International agreed to pay the U.S. government $575,000
to resolve the civil case.

SIGAR Instrumental in Completion of National Police
Training Center
In May 2012, the Regional Contracting Center (RCC) Shank, FOB Shank, in
Logar, Afghanistan, awarded Qesmatullah Nasrat Construction Company
(QNCC) a $455,000 contract to build a four-building adobe compound in
Wardak, Afghanistan, which was to be part of the National Police Training
Center. In February 2013, RCC Shank was notified that the building was fall-
ing apart.
   When an inspection revealed the building was not constructed in
accordance with the contract’s statement of work, RCC Shank requested
assistance from SIGAR. From February 2013 until as recently as
March 2014, a SIGAR special agent worked with QNCC and RCC Shank
(and eventually RCC Bagram, which took over the project after RCC Shank
closed) to ensure QNCC completed the warranty work on the adobe com-
pound to bring it up to the standards of the contract’s statement of work.
All warranty work was completed except for re-asphalting the roof. RCC
Bagram recognized that SIGAR’s efforts were instrumental in providing a
viable, functional training center for the government of Afghanistan. An
estimated value of the warranty work is $400,000, as confirmed by RCC
Bagram in April 2014.

Arrest of Afghan Contractor
On April 2, 2014, the ANP in Mazar-e-Sharif arrested Afghanistan
Agricultural Enhancement Credit Program (ACE) employee Abdul Kahlil
Qadery pursuant to an arrest warrant issued by the Afghan Attorney
General’s Office. Qadery’s arrest was based on embezzlement charges stem-
ming from the findings in a joint SIGAR/USAID-OIG investigation.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                 53
SIGAR OVERSIGHT ACTIVITIES




   In 2010, ACE began operations with the primary purpose of helping the
Afghan government establish and manage the Agricultural Development
Fund (ADF), which was funded by a USAID grant to the Government of
the Islamic Republic of Afghanistan. DAI, a USAID contractor based in
Bethesda, Maryland, was the implementing partner of the ACE program.
The grant monies within the ADF provide agricultural loans to Afghan small
commercial farmers and Afghan agricultural businesses throughout the
country. In August 2012, ACE hired Qadery, an Afghan national, to work as
the ACE’s credit administration accountant. Qadery’s duties included tak-
ing the Afghanistan International Bank (AIB)’s “Fund Transfer Application
Form” along with the copy of the ACE loan agreement between ACE and
the approved loan applicant to the AIB branch in Kabul, so the approved
Afghan loan recipient of the ACE’s ADF fund could receive the loan amount
from ACE via an AIB wire transfer.
   In January 2013, ACE approved an ADF loan to an Afghan agricultural
company for 28,560,000 afghanis ($539,173 USD). After the ADF loan was
approved in April 2013, ACE was to wire-transfer the money to the Afghan
agricultural company via AIB. Instead, Qadery set up a fictitious company
and caused ACE to wire the money to it. On the same day, Qadery withdrew
the 28,560,000 afghanis from his fictitious company’s account and became a
fugitive until SIGAR and USAID-OIG located him in Mazar-e-Sharif. Pending
trial, Qadery remains in custody at a correctional facility in Kabul.

Suspensions and Debarments
This quarter, SIGAR’s suspension and debarment program referred 16 indi-
viduals and 39 companies for suspension or debarment based on evidence
developed as part of investigations conducted by SIGAR in Afghanistan and
the United States. Of these 55 contractors, 39 individuals and 12 companies
were referred for debarment based on allegations that they engaged in fraud
and non-performance as part of contracts valued at $180,179,563. These
referrals bring the total number of individuals and companies referred by
SIGAR since 2008 to 490, encompassing 248 individuals and 242 companies
to date, as shown in Figure 2.2.
   As of June 30, 2014, SIGAR’s use of suspension and debarment to address
fraud, corruption and poor performance in Afghanistan has resulted in
73 suspensions and 195 finalized debarments of individuals and compa-
nies engaged in U.S.-funded reconstruction projects. An additional seven
individuals and companies have entered into administrative-compliance
agreements with the government in lieu of exclusion from contracting.
   Suspensions and debarments are an important tool for ensuring that
agencies award contracts only to responsible entities by excluding compa-
nies or individuals from receiving federal contracts or assistance because
of misconduct. SIGAR’s program addresses three challenges posed by U.S.
policy and the contingency-contracting environment in Afghanistan: the




  54                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                   SIGAR OVERSIGHT ACTIVITIES




FIGURE 2.2

SIGAR INVESTIGATIONS: CUMULATIVE REFERRALS FOR SUSPENSION AND DEBARMENT,
Q2 FY 2011–Q3 FY 2014

 500


 400


 300


 200


 100


    0
        Q2      Q3      Q4      Q1      Q2      Q3    Q4      Q1     Q2    Q3   Q4   Q1     Q2      Q3

             FY 2011                     FY 2012                     FY 2013              FY 2014


Source: SIGAR Investigations Directorate, 7/3/2014.



need to act quickly, the limited U.S. jurisdiction over Afghan nationals and
Afghan companies, and the vetting challenges inherent in the use of mul-
tiple tiers of subcontractors. SIGAR continues to look for ways to enhance
the government’s responses to these challenges through the innovative use
of information resources and investigative assets both in Afghanistan and
the United States.
   SIGAR makes referrals for suspensions and debarments based on com-
pleted investigations that SIGAR participates in. In most cases, SIGAR’s
referrals occur in the absence of acceptance of an allegation for criminal
prosecution or remedial action by a contracting office and are therefore the
primary remedy to address contractor misconduct. In making referrals to
agencies, SIGAR provides the basis for a suspension or debarment decision
by the agency as well as all the supporting documentation needed for an
agency to support that decision should it be challenged by the contractor.
Based on the evolving nature of the contracting environment in Afghanistan
and the available evidence of contractor misconduct and/or poor per-
formance, SIGAR has at times found it necessary to refer individuals or
companies on multiple occasions for consideration by agency suspension
and debarment officials.
   SIGAR’s increasing emphasis on suspension and debarment is illus-
trated by the fact that of the 490 referrals for suspension and debarment
that have been made by the agency to date, 461 have been made since the
second quarter of 2011. During the 12-month period prior to April 2014, the




REPORT TO THE UNITED STATES CONGRESS                  I    JULY 30, 2014                         55
SIGAR OVERSIGHT ACTIVITIES




efforts of SIGAR’s suspension and debarment program resulted in actions
by agency suspension and debarment officials to exclude 155 individuals
and companies from contracting with the U.S. government. SIGAR’s refer-
rals over this period represent allegations of theft, fraud, poor performance,
financial support to insurgents, and mismanagement as part of reconstruc-
tion contracts valued at $728,846,004.

Debarment of 14 Companies and Individuals in Connection
with the Failure to Complete the Construction of the
Courthouse at the Justice Center in Parwan
During the previous quarter, the efforts of SIGAR’s investigators and
its suspension and debarment program resulted in debarment of CLC
Construction Company, its owners Bradley Rhoden and Masiuddin
Mohammed, as well as 11 affiliated companies and individuals based
upon their failure to construct the Justice Center in Parwan (JCIP) court-
house at Bagram Airfield. Specifically, CLC, Rhoden, and Mohammed
failed to provide adequate design drawings, evidencing an inability to
properly manage a construction project of the magnitude of the JCIP
courthouse. In addition, they failed to conduct fundamental tests neces-
sary to ensure that the JCIP courthouse was structurally sound and that
the concrete foundation and columns met the minimum standards set
forth in the statement of work. This pattern of unsatisfactory perfor-
mance by CLC, Rhoden, and Mohammed resulted in the government’s
decision to terminate the contract for default on October 3, 2013. In
addition, SIGAR’s investigation determined that during November 2012,
CLC, Rhoden, and Mohammed engaged in a scheme to obtain and sub-
mit fraudulent documentation to the government in an effort to conceal
their failure to perform a geotechnical investigation, concrete-and rebar-
strength tests, and soil-compression tests required as part of the JCIP
courthouse contract. Based on these facts, on June 12, 2014, the Army
Suspension and Debarment official concurred with SIGAR’s recommen-
dation for debarment, resulting in the exclusion of all parties for a period
of three years, ending on June 12, 2017.

Debarment of Four Former Soldiers Convicted of the
Theft of 90 Truckloads of Fuel from FOB Fenty
On June 10 and 16, 2014, Christopher Weaver, Jonathan Hightower,
Stephanie Charboneau, and Bilal Kevin Abdullah were debarred by the
Department of the Army based upon criminal convictions for the theft
of fuel from FOB Fenty between January and June of 2010. Specifically,
Weaver, Hightower, Charboneau, and Abdullah, while deployed to
Afghanistan, engaged in a scheme to request fuel trucks over and above
those required for legitimate fuel transportation, created fraudulent
documentation supporting fuel-transportation missions and facilitated




  56                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




the departure of the trucks containing the stolen fuel from FOB Fenty in
exchange for cash payments.
   This scheme ultimately resulted in the theft of approximately 90 truck-
loads of fuel from FOB Fenty, valued in excess of $1,575,000. Based on
these facts, Weaver, Hightower, and Charboneau entered pleas of guilty
to conspiracy and bribery in the U.S. District Court for the District of
Colorado. Abdullah entered a plea of guilty to conspiracy and bribery in
the U.S. District Court for the Western District of Kentucky. Subsequently,
Weaver was sentenced to 37 months of confinement, Hightower was sen-
tenced to 27 months’ confinement, Charboneau was sentenced to 87 months
of confinement, and Abdullah was sentenced to 12 months of confinement.
All were ordered to jointly pay restitution of $1,691,250 to the govern-
ment. Based on these convictions, on June 10, 2014, Weaver was debarred
for a period of 80 months, ending on November 28, 2019; Hightower was
debarred for a period of 72 months, ending on January 28, 2019, and
Charboneau was debarred for a period of 120 months, ending on May 3,
2024. On June 16, 2014, Abdullah was debarred for a period of 46 months,
ending on March 13, 2018. The periods of debarment include the time that
each was previously suspended from contracting with the government and
take into account their respective periods of confinement.

Debarment of Construction Contractor and Nine Individuals
for False Claims and Statements at Kandahar Airfield
On June 5, 2014, Clark Logistic Services Company, as well as its two own-
ers and seven other employees, were debarred by the Army based on
allegations of false claims and statements made regarding contracts for
electrical work on airfield lighting at Kandahar Airfield in Afghanistan. As
a result of SIGAR’s investigation, Clark Logistic Services Company’s own-
ers admitted that they had fraudulently claimed that they had employed a
U.S. citizen, certified as a master electrician, when, in fact, the company
subcontracted the work to an Afghan subcontractor or used third-country
nationals instead of properly certified electricians. In addition, Clark
Logistic Services Company failed to comply with regulations concerning
personnel accountability and badging, non-tactical vehicles registration,
and environmental- and ground-safety procedures, among other violations,
resulting in the company’s removal from Kandahar Airfield by the ISAF
installation commander on July 30, 2013. Based on SIGAR’s investigation
and referral for debarment, all parties have been excluded from contracting
with the government for a period of four years and five months, ending on
November 14, 2018.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014              57
SIGAR OVERSIGHT ACTIVITIES




Debarment of Afghan Contractors for Bribery of Provincial
Reconstruction Team Members and Poor Construction of Two
Collapsed Bridges in Kunar Province
On June 5, 2014, Rainbow Construction Company, the Abdul Haq
Foundation, Hassan Sardar, and Wadir Abdullahmatin Mullakhiel were
debarred by the Army based on offers to pay bribes in exchange for the
award of contracts by the Kunar Provincial Reconstruction Team (PRT)
in October and November 2009. Specifically, Sardar, one of the company’s
owners, offered payments of cash, diamonds, and other items valued at
approximately $627,000 in exchange for the award of three contracts for
the construction of bridges at Ziyaribaba and Pashad and an upgrade to the
road between Asmar and Nishigam, all located in Kunar Province and val-
ued at approximately $8,000,000.
   Subsequent investigation by SIGAR determined that both bridges col-
lapsed in 2010 due to the use of inferior materials and poor design by the
Abdul Haq Foundation in its performance of the contracts. In addition, as a
result of the investigation SIGAR, the FBI, and the DCIS conducted into the
offers of payment by Sardar, Captain Sidharth Handa, a former member of
the Kunar PRT, was subsequently arrested in Arlington, Virginia, on charges
of bribery and conspiracy to distribute heroin when he attempted to collect
a $500,000 payment as part of this scheme.
   On September 24, 2011, Handa pled guilty to both counts of the crimi-
nal information and was sentenced to 120 months of confinement and
a $315,000 restitution. Rainbow Construction Company, the Abdul Haq
Foundation, Sardar, and Mullakhiel were all debarred for a period of five
years, ending on September 29, 2018. Handa was previously debarred
on July 27, 2012, for a period of 12 years and three months, ending on
September 21, 2024. The periods of debarment include the time that each
was previously suspended from contracting with the government and
Handa’s period of confinement.

Referral for Debarment of Lakeshore Toltest Corporation
On May 2, 2014, six of the companies that make up Lakeshore Toltest
Corporation, a Chicago, Illinois, construction contractor, filed for Chapter 7
bankruptcy in the state of Delaware. SIGAR has recommended that the U.S.
Army suspend and debar the remaining 26 companies, subsidiaries, and
joint ventures belonging to Lakeshore Toltest.
   Prior to its bankruptcy, Lakeshore Toltest had been actively engaged
in obtaining construction contracts in Afghanistan since May 2009. At
that time, the company received multiple contracts valued at $78,824,694
from the Army and Air Force to construct the Afghan National Defense
University, the Joint Services Academy, the Legal Branch School, and
the Religious and Cultural Affairs School for the ANA. Lakeshore Toltest
also received contracts for the construction of the ANA Headquarters in




  58                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




Laghman Province, as well as ANA facilities in Ghazni, Khas Kunar, and
other locations. The company maintained 40 office locations in 12 countries
throughout the world through its network of 32 affiliated companies, sub-
sidiaries, and joint ventures, with approximately $537.5 million in revenues
from both domestic and overseas contracts during 2012.
    SIGAR opened an investigation into Lakeshore Toltest after receiving
15 complaints from the company’s subcontractors in the last 18 months
claiming that it failed to pay for goods and services totaling approximately
$50,894,436. SIGAR also learned that following its filing for bankruptcy, the
company took no steps to properly demobilize its operations in Afghanistan
or make an effort to ensure that its employees were repatriated back to
the United States, effectively abandoning them at their deployed locations.
Based on these allegations, SIGAR referred Lakeshore Toltest and all of
its affiliates for debarment to prevent further loss to the U.S. government
in Afghanistan and other locations where the Lakeshore Toltest operates
across the world.


OTHER SIGAR OVERSIGHT ACTIVITIES THIS QUARTER
SIGAR Speaks about Lessons Learned Before Middle East
Institute and at Conference
In this reporting period, Special Inspector General Sopko spoke at the
Middle East Institute and at the Effective Development in Conflict Zones
Conference about lessons learned from the reconstruction effort in
Afghanistan. At the Effective Development in Conflict Zones Conference,
Sopko was the keynote speaker, and Deputy Inspector General Gene Aloise
spoke on a panel about linking research and policy on fragile and conflict-
affected environments.
   Sopko told attendees at both events that the mission in Afghanistan is
far from over, despite the drawdown of U.S. and Coalition forces. In fact,
almost $18 billion has been appropriated but not yet spent for reconstruc-
tion efforts, and another $6 to $10 billion will likely be promised annually
for years to come, making Afghanistan still very relevant to every U.S. tax-
payer and policy maker.
   Of many lessons gleaned over the 12-year reconstruction effort, Sopko
highlighted four that are particularly relevant during this year of transition:
    1.	 One must consider a country’s ability to sustain the assistance we
        provide.
    2.	 Reconstruction in a conflict zone is inherently risky. That risk must
        be properly mitigated, largely through aggressive management and
        oversight.
    3.	 All reconstruction efforts must have clearly articulated goals and a
        sound way to measure their progress toward those goals.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                 59
SIGAR OVERSIGHT ACTIVITIES




   4.	 One must consider how to ensure a country’s long-term economic
       self-sufficiency so that it does not remain dependent on foreign
       assistance.

   The Inspector General went on to explain each lesson, providing
examples from SIGAR’s work of what can go wrong when taxpayer funds
are not used judiciously and programs are not planned, executed, and
monitored properly. These anecdotes from the work of SIGAR and other
oversight agencies clearly show that the U.S. government can and should
do a better job.
   Sopko repeated SIGAR’s frequent warning that time and resources in
Afghanistan are becoming scarcer, and that reconstruction programs must
do the most good possible to ensure meaningful and long-lasting benefits
for the people of Afghanistan and U.S. interests abroad. Furthermore, it is
essential that these lessons be heeded not just in Afghan reconstruction
efforts, but in future efforts as well, in order to provide more robust stew-
ardship of U.S. funds.

SIGAR and USIP Issue Symposium Report
In February, SIGAR convened an international symposium, in conjunc-
tion with the United States Institute of Peace (USIP), on “Monitoring
and Management in Insecure Environments: Applying Best Practices to
Afghanistan.” The symposium was convened as a means for U.S. govern-
ment agencies, international donors, think tanks, and others to discuss best
practices, techniques, and technologies for conducting effective project
management and oversight in insecure environments.
   This quarter, SIGAR and USIP issued a report on applying best practices
for monitoring and management in insecure environments to Afghanistan.
The report also summarizes the symposium discussion and offers observa-
tions of attendees. The symposium discussion covered topics including the
new challenges transition poses to reconstruction, lessons learned about
management and monitoring, and recommendations going forward.

SIGAR’s Work Leads to Special Provisions in
FY 2015 Legislation
Senate Armed Services Committee Bases Provision on
SIGAR Oversight Access Maps
Based on issues raised by SIGAR’s oversight-access maps, highlighted
in the October 2013 Quarterly Report to Congress, the Senate Armed
Services Committee included Section 1226 in the FY 2015 National Defense
Authorization Act (NDAA). Section 1226 prohibits DOD from obligating
or expending FY 2015 funding for reconstruction and infrastructure proj-
ects in Afghanistan if military or civilian personnel of the United States




  60                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




government responsible for conducting oversight of the program or project
cannot safely access it. The section allows DOD to waive this restriction if it
determines that the program or project clearly contributes to U.S. national
interests or strategic objectives; that the government of Afghanistan has
requested or expressed a need for the program or project; that the program
or project has been coordinated with the government of Afghanistan and
with any other implementing agencies or international donors; that security
conditions permit effective implementation and oversight of the program
or project; that the program or project includes safeguards to detect, deter,
and mitigate corruption and waste, fraud, and abuse; that adequate arrange-
ments have been made for the sustainment of the program or project
following its completion, including arrangements with respect to funding
and technical capacity for sustainment; and that meaningful metrics have
been established to measure the progress and effectiveness of the program
or project. This legislation was pending consideration by the full Senate at
the time this report went to press.

House Armed Services Committee Includes Several Provisions
in NDAA Based on SIGAR’s Work
The House Armed Services Committee included several provisions in the
House version of the FY 2015 NDAA that were based on SIGAR’s work. The
bill, passed by the House in May 2014, includes the following requirements:
•	 Section 312 requires that combatant commanders certify biannually
    that covered waste is not disposed of in open-air burn pits under their
    jurisdiction in violation of the policy in section 317 of the FY 2010
    NDAA. This provision is based on SIGAR’s ongoing and completed
    inspection concerning the use of open-air burn pits and solid-waste
    incinerators at U.S. military facilities in Afghanistan.
•	 Section 1220B prohibits DOD from obligating or expending FY 2015
    funds for a construction project in Afghanistan in excess of $500,000
    that cannot be audited and physically inspected by authorized U.S.
    government civilian personnel or their designated representatives, in
    accordance with generally accepted auditing guidelines. The section
    further provides that DOD may waive this restriction if it submits a plan
    to Congress that outlines how it will monitor the use of funds to ensure
    they are used as intended and to mitigate fraud, waste, and abuse. This
    section is based on SIGAR’s reporting on U.S.-funded infrastructure
    projects in Afghanistan, as well as the agency’s work highlighting
    oversight-access challenges in Afghanistan.

  Furthermore, in its committee report for the FY 2015 NDAA, the House
Armed Services Committee directs the Under Secretary of Defense for
Acquisition, Technology, and Logistics to provide a briefing for the House
Committee on Armed Services not later than March 2, 2015, on the lessons




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                 61
SIGAR OVERSIGHT ACTIVITIES




learned related to waste-disposal methods in contingency operations, and
to provide an update on the Department’s assessment of waste-disposal
technologies, to include those that would provide an efficient, reliable, and
deployable capability that adheres to electrical and construction standards
that ensure life, safety, and health of U.S. personnel. This is another exam-
ple of the impact of SIGAR’s ongoing and completed inspection work on
solid-waste incinerators.
    The committee report for the House version of the FY 2015 NDAA also
directs the Inspector General of DOD to conduct a comprehensive assess-
ment of the financial-management capacity and risks within the Afghan
Ministries of Defense and Interior. “The committee believes that an assess-
ment of the financial management capacity of the Afghan MOD and MOI will
improve the protection of U.S. direct assistance to Afghanistan to fund and
equip the ANSF and to ensure the assistance is used as intended,” the report
says. It further directs the Inspector General to assess the capacity and risks
within the Afghan Ministry of Finance, to the extent that such an assessment
is required to protect Department funds and would not duplicate efforts con-
ducted by other agencies of the U.S. government. The report also requires
the Inspector General to provide a report on the results of the assessments
to the House and Senate Armed Services Committees by December 31, 2014.
The report language was based on SIGAR’s Special Project report (SP-14-12)
regarding on-budget assistance funds provided to the MOI and MOD.

Senate Appropriations Committee Includes Provision in
FY 2015 Defense Appropriations Act Based on SIGAR’s
C-130 Alert Letter
The Senate-version of the FY 2015 Defense Appropriations Act, as reported
by the full Senate Appropriations Committee on July 17, prohibits DOD
from using FY 2015 funds for the transfer of additional C-130 cargo aircraft
to the ANSF or the AAF until it provides a review to the congressional
defense committees of the AAF’s medium-airlift requirements. The provi-
sion states further that such a review should identify the AAF’s ability to
utilize and maintain existing medium-lift aircraft in the inventory and the
best alternative platform, if necessary, to provide additional support to
the AAF’s current medium-airlift capacity. This provision was written in
response to a SIGAR audit alert letter that raised concern about providing
additional C-130 aircraft to the AAF. SIGAR suggested in the alert letter that
DOD, pending a review of the AAF’s medium-airlift requirements, delay
delivery of additional C-130s. The alert letter also said if DOD’s review indi-
cates that additional C-130s are unnecessary, it should not provide them.




  62                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




Defense Appropriations Act for FY 2015 Includes Provision
Based on SIGAR Special Project
Section 10015 of the House version of the Defense Appropriations Act
for FY 2015, as passed by the House on June 20, 2014, prohibits DOD
from using FY 2015 funding to store patrol boats purchased for the ANP.
This provision is based on SIGAR’s Special Project inquiry letters to the
Department of Navy and CSTC-A. For more information on those letters,
see pages 44–47 of this section.


SIGAR BUDGET
SIGAR received a budget of $49.65 million for FY 2014 in the Consolidated
Appropriations Act from Congress. The budget supports SIGAR’s oversight
activities and products by funding SIGAR’s five directorates: (1) Audits and
Inspections, (2) Special Projects, (3) Investigations, (4) Management and
Support, and (5) Research and Analysis.


SIGAR STAFF
SIGAR’s total staffing at the time of this report is 198 federal employees. At
the end of the quarter, SIGAR had 31 personnel at the U.S. Embassy Kabul
and eight employees at other locations in Afghanistan outside the U.S.
Embassy: Kandahar Airfield, Bagram Airfield, and Mazar-e-Sharif. SIGAR
employed two local Afghans in its Kabul office to support investigations and
audits. In addition, SIGAR supports its work with stateside staff assigned to
short-term temporary duty in Afghanistan.
   This quarter, SIGAR had 24 employees on temporary duty in Afghanistan
for a total of 416 days. This is an increase from the last reporting period,
when 14 employees were on temporary duty for 252 days.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                63
    “The Afghan people have an
  opportunity now to build on the
   progress that’s been made, to
    achieve a more secure, more
  prosperous, and more peaceful
future. President Obama has made
it clear that as they do, the United
    States will stand with them.”
      —U.S. Secretary of State John Kerry




         Source: State Department, Remarks, May 27, 2014.
3   RECONSTRUCTION
    UPDATE




        65
                                               RECONSTRUCTION UPDATE




                                               RECONSTRUCTION UPDATE CONTENTS
                                               CONTENTS

                                               Overview	67
                                               Funding for Afghanistan Reconstruction	                       70
                                               Status of Funds	                                              72
                                               Security	86
                                               Governance	120
                                               Economic and Social Development	                            150




Photo on previous page
Secretary of State Kerry stands with Afghan presidential candidates Ghani, center,
and Abdullah, right, after announcing a plan to resolve the disputed outcome of
their runoff election. (State Department photo)




                                                  66                   SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                 RECONSTRUCTION UPDATE




RECONSTRUCTION UPDATE
OVERVIEW
The following section summarizes the status of U.S. funding and describes
developments SIGAR observed this quarter in the security, governance, and
economic and social sectors of the reconstruction effort in Afghanistan.
   The Consolidated Appropriations Act of 2014 provided an additional
$7.5 billion for Afghanistan relief and reconstruction for fiscal year
(FY) 2014, bringing the cumulative total appropriated since FY 2002 to
approximately $104.1 billion. On June 26, 2014, President Obama submit-
ted his updated FY 2015 overseas contingency operations (OCO) budget
request for the Departments of Defense and State to Congress. The addition
of the updated OCO request brings the total amount requested for the seven
major reconstruction funds for FY 2015 to $5.8 billion—a 9% decrease from
the amount appropriated these funds for FY 2014.
   DOD requested $4.11 billion for the FY 2015 Afghanistan Security Forces
Fund (ASFF). The majority of the funding is to sustain the 195,000-strong
Afghan National Army, the 157,000-strong Afghan National Police (ANP),
and 30,000 Afghan Local Police. The request provides funding for Coalition
advisors to focus on Afghan National Security Forces (ANSF) capability
gaps and improving logistics, medical, and counter-improvised-explosive-
                                                                                TABLE 3.0
device systems; and to purchase light air-support and basic-training aircraft
for the Afghan Air Force.                                                        AIF CUMULATIVE AMOUNT
   DOD is no longer requesting funds for the Afghanistan Infrastructure          APPROPRIATED AND DISBURSED
                                                                                 ($ MILLIONS)
Fund (AIF), and amounts requested for the Task Force for Business and
                                                                                                 Appropriated              Disbursed
Stability Operations (TFBSO) and the Commander’s Emergency Response
                                                                                 DOD                $1,223                    $274
Program (CERP) have been substantially reduced. The AIF was created in
                                                                                 USAID                  101                        0
FY 2011 to pay for high-priority, large-scale infrastructure projects. DOD
                                                                                 Total            $1,324                     $274
and State have experienced challenges executing such large infrastruc-
ture projects. Less than 21% of AIF funds, $274 million of the $1.3 billion      Remaining to be disbursed                   $973
appropriated, have been disbursed since the fund’s inception, as shown          Notes: Numbers have been rounded. $101 million of FY 2011
in Table 3.0. To date, most of the funds disbursed paid for diesel fuel for     AIF was transferred to USAID’s Economic Support Fund to
                                                                                execute an AIF project. Amount remaining excludes $77 million
the generators used to power Kandahar City.                                     that expired before being obligated.

   During this reporting period, Afghanistan held a runoff election for         Sources: DOD, responses to SIGAR data call, 7/22/2014,
                                                                                7/18/2014 and 7/17/2014; USAID, response to SIGAR
president on June 14, 2014, between Abdullah Abdullah and Ashraf Ghani.         data call, 7/10/2014. DFAS, response to SIGAR data call,
Unlike the first round, in which the leading presidential candidates largely    7/17/2014; P.L. 113-76, 1/17/2014.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014               67
RECONSTRUCTION UPDATE




accepted the results, the Abdullah campaign contested the voter turnout
estimates and accused the Afghan elections bodies of massive fraud. On
July 7, the Independent Election Commission (IEC) announced that pre-
liminary results showed Ghani with 56.4% and Abdullah with 43.6% of the
vote. According to the IEC, some 8.1 million votes were cast—over one mil-
lion more than the seven million originally estimated and an increase of
approximately 1.5 million votes over the number of validated votes from the
first round. On July 12, Secretary of State John Kerry, along with candidates
Abdullah and Ghani, announced the terms of an agreement to resolve the
dispute between the two campaigns. These include an audit of each ballot
cast in the runoff and an agreement between the candidates to form a gov-
ernment of national unity once the winner is declared.
    On May 27, 2014, President Obama announced that the United States will
end its combat mission in Afghanistan in 2014. By the beginning of 2015, the
U.S. troop strength will reduce from approximately 32,000 to approximately
9,800, with further reductions in 2015.
    NATO Secretary General Anders Fogh Rasmussen warned that Afghan
failure to sign the negotiated Bilateral Security Agreement (BSA) by the
end of September would cause serious problems for the Coalition and put
Afghanistan’s future security arrangements in jeopardy. Although both pres-
idential candidates have said they will sign the BSA, it remains on hold until
the election dispute is resolved.
    In June, the United Nations Secretary-General reported an increasing vol-
atile security situation in Afghanistan, with the first quarter of 2014 having
the second-highest level of violence since the fall of the Taliban. In a wor-
rying sign of spreading conflict, he added, ground combat is causing more
deaths and injuries than improvised explosive devices. The United Nations
Assistance Mission in Afghanistan (UNAMA) observed a direct correlation
between International Security Assistance Force (ISAF) base closures and
the rise in civilian casualties.
    DOD described the Afghan force emerging from the 2013 fighting season
as competent and confident. Assessments of the ANSF were mostly positive
this quarter, while recognizing that capability gaps remain. The ANSF have
held against the insurgency and successfully secured both the presidential
and provincial-council elections of April 5, 2014, and the runoff elections on
June 14, 2014.
    Also this quarter, USAID said there will be no new reviews of Tokyo
Mutual Accountability Framework (TMAF) intermediate targets for Afghan
progress. According to the United Nations Secretary General, the TMAF
serves as the agreed instrument of civilian development assistance to
Afghanistan. The United States and international partners are developing
a new set of targets for the future implementation of TMAF that will be
discussed with the new post-election government. According to USAID,
the process of finalizing these new targets will likely continue through the




  68                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                 RECONSTRUCTION UPDATE




international conference on Afghanistan tentatively planned for November         TABLE 3.1
in London and into early 2015.
   Afghanistan enacted Anti-Money Laundering and Combating the                    U.S. ON-BUDGET ASSISTANCE TO
                                                                                  AFGHANISTAN, SINCE 2002 ($ MILLIONS)
Financing of Terrorism (AML/CFT) laws, allowing it to narrowly avoid
                                                                                  Government-To-Government
being blacklisted by the Financial Action Task Force (FATF), an intergov-
                                                                                  DOD                                   $2,905
ernmental policy-making body that sets standards and promotes effective
                                                                                  State                                      92
measures against threats to the integrity of the international financial
                                                                                  USAID                                    986
system. FATF will evaluate compliance standards and implementation of
Afghanistan’s AML/CFT laws during its next plenary in October 2014. A             Multilateral Trust Funds
                                                                                  LOTFA                                 $1,369
downgrade determination could damage Afghanistan’s banking relation-
                                                                                  ARTF                                   2,039
ships around the world.
                                                                                  AITF                                     105
   Meanwhile, in the first four months of Afghan FY 1393 (December 21,
2013–December 20, 2014), domestic revenues missed Ministry of Finance            Notes: Government-To-Government figures reflect amounts
                                                                                 the United States has committed in direct or bilateral assis-
budget targets by 20%, with non-tax and customs revenues also falling            tance, commitments to Multilateral Trust Funds constitute the
                                                                                 other form of on-budget assistance. Multilateral Trust Funds
short of amounts collected for the same period last year. Afghanistan’s          figures reflect amounts the United States has paid in to each
                                                                                 trust fund.
fiscal sustainability ratio—domestic revenues versus operating expenses—
                                                                                 Sources: SIGAR, Audit Report 14-32-AR: Direct Assistance:
declined to approximately 57% in the first four months of FY 1393,               USAID Has Taken Positive Action to Assess Afghan Ministries’
compared to 60% and 65% in the previous two fiscal years. Afghan govern-         Ability to Manage Donor Funds, but Weaknesses Remain,
                                                                                 1/2014; SIGAR, Special Project Report 14-12-SP;
ment expenditures are expected to continue rising, which will require            Comprehensive Risk Assessments of MOD and MOI Financial
                                                                                 Management Capacity Could Improve Oversight of Over
continued donor financing and improved domestic-revenue mobilization,            $4 Billion in Direct Assistance Funding, 12/2013; USAID,
                                                                                 response to SIGAR data call, 7/10/2014; World Bank, “ARTF:
according to the World Bank.                                                     Administrator’s Report on Financial Status as of June 21,
                                                                                 2014 (end of 6th month of FY 1393),” p. 5; UNDP, “Law and
   The latest United Nations Office of Drugs and Crime (UNODC) World             Order Trust Fund for Afghanistan (LOTFA) 2014 First Quarter
                                                                                 Project Progress Report,” 6/9/2014, p. 28; SIGAR analysis of
Drug Report notes that for the third consecutive year, Afghanistan, already      UNDP’s Quarterly and Annual LOTFA reports, 7/16/2014.
the world’s largest producer and cultivator of opium poppies, saw an
increase in the area under cultivation (from 154,000 hectares in 2012 to
209,000 hectares in 2013)—a 36% increase.
   The United States provides on-budget assistance to Afghanistan through
direct payments to Afghan government entities and through contributions
to multinational trust funds. Since 2002 the United States has provided
nearly $7.5 billion in on-budget assistance. This includes about $4 billion to
Afghan government ministries and institutions, and more than $3.5 billion to
three multinational trust funds—the World Bank’s Afghan Reconstruction
Trust Fund (ARTF), the United Nations Development Plan’s Law and Order
Trust Fund for Afghanistan (LOTFA), and the Asian Development Bank’s
Afghanistan Infrastructure Trust Fund (AITF). Table 3.1 shows U.S. on-bud-
get assistance to Afghan government entitities.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                69
                                                  RECONSTRUCTION UPDATE




                                                  FUNDING FOR AFGHANISTAN RECONSTRUCTION
 DOD       ASFF: Afghanistan Security Forces      Since 2002, Congress has appropriated over $104.1 billion for Afghanistan
           Fund                                   relief and reconstruction. Of this amount, $87.9 billion (84%) was appropri-
           CERP: Commander’s Emergency            ated to the seven major reconstruction funds, as shown in Table 3.2.
           Response Program
                                                     As of June, 30, 2014, approximately $15.9 billion of appropriated funds
           AIF: Afghanistan Infrastructure Fund   remained for possible disbursement, as shown in Figure 3.1. These funds
           TFBSO: Task Force for Business and     will be used to complete on-going, large-scale infrastructure projects,
           Stability Operations
                                                  such as those funded by the AIF and ESF; train, equip, and sustain the
           DOD CN: DOD Drug Interdiction and
           Counter-Drug Activities                ANSF; combat narcotics production and trafficking; and, advance the rule
                                                  of law, strengthen the justice sector, and promote human rights. Most of
 USAID ESF: Economic Support Fund
                                                  the funding in the pipeline has yet to be obligated. Only $5.6 billion of the
 State INCLE: International Narcotics
       Control and Law Enforcement                $15.9 billion remaining has been obligated.
                                                  TABLE 3.2

                                                   CUMULATIVE AMOUNTS APPROPRIATED, OBLIGATED, AND DISBURSED
FIGURE 3.1                                         FY 2002–2014 ($ BILLIONS)
                                                                                                  Appropriated            Obligated         Disbursed          Remaining
CUMULATIVE AMOUNT REMAINING TO BE                  ASFF                                              $57.33                $50.03             $48.23              $8.10
DISBURSED ($ BILLIONS)                             CERP                                                3.67                    2.28             2.26               0.05
                                                   AIF                                                 1.22                    0.70             0.27               0.87
                  Total: $87.9                     TFBSO                                               0.81                    0.74             0.58               0.19
                                                   DOD CN                                              2.93                    2.61             2.61               0.32
 Expired                                           ESF                                                17.53                  14.69             12.09               5.06
 $2.9
             Remaining                             INCLE                                               4.41                    3.56             3.00               1.35
             $15.9                                 Total 7 Major Funds                              $87.90                $74.61             $69.04             $15.95
                                                   Other Reconstruction Funds                          7.29
                         Disbursed                 Civilian Operations                                 8.91
                         $69.0
                                                   Total                                           $104.10
                                                  Notes: Numbers have been rounded. Amount remaining reflects the total disbursement potential of the seven major reconstruc-
                                                  tion funds after deducting approximately $2.9 billion that expired before being obligated. Obligated and disbursed DOD CN
                                                  funds reflect amounts transferred to the military services and defense agencies to be spent for Afghanistan.

                                                  Source: SIGAR analysis of appropriating legislation and quarterly obligation and disbursement data provided by DOD, State, and
                                                  USAID, 7/20/2014.


                                                     The President’s FY 2015 budget request, if appropriated, would add
                                                  another $5.8 billion for the seven major reconstruction funds. Amounts
                                                  requested for four of these funds—ASFF, DOD CN, ESF, and INCLE—
                                                  account for over 99% of the FY 2015 request. Only $20 million was requested
                                                  for CERP and TFBSO combined. No additional funding was requested for
                                                  the AIF. SIGAR’s audit of the AIF, issued in July 2012, raised concerns that
                                                  most AIF projects were 6–15 months behind schedule, potentially limiting
                                                  the projects’ counterinsurgency benefits and necessitating continued fund-
                                                  ing of $80–100 million a year for diesel fuel to power Kandahar City. More
                                                  than $973 million of the $1.3 billion appropriated the AIF since FY 2011
                                                  remains to be disbursed when the amount transferred to the ESF for
                                                  USAID’s infrastructure project is included.


                                                      70                            SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                            RECONSTRUCTION UPDATE




   Congress appropriated more than $8.1 billion to the seven major
reconstruction funds for FY 2013. Of that amount, more than $4.4 billion
remained for possible disbursement, as of June 30, 2014, as shown in Table
3.3 and Figure 3.2.
TABLE 3.3                                                                                                                       FIGURE 3.2

 FY 2013 AMOUNTS APPROPRIATED, OBLIGATED, AND DISBURSED
 ($ MILLIONS)                                                                                                                   FY 2013 AMOUNT REMAINING TO BE
                                                Appropriated           Obligated          Disbursed         Remaining           DISBURSED ($ MILLIONS)
 ASFF                                              $4,946               $3,350              $3,056            $1,890
 CERP                                                 200                    42                 34                 8                            Total: $8,122
 AIF                                                  325                    80                 28               297
 TFBSO                                                138                   136                101                37
 DOD CN                                               296                   296                296                 0
                                                                                                                                FY 2013 AMOUNT    REMAINING TO BE
                                                                                                                                          Remaining
 ESF                                                1,623                    15                  0             1,623            DISBURSED $4,431
                                                                                                                                          ($ MILLIONS)
 INCLE                                                594                    27                 18               576                                      Disbursed
 Total 7 Major Funds                              $8,122               $3,946              $3,533            $4,431                                       $3,533
                                                                                                                                                Total: $8,122
Notes: Numbers have been rounded. Amount remaining reflects the total disbursement potential of the seven major reconstruc-
tion funds after deducting approximately $158 million that expired before being obligated. Obligated and disbursed DOD CN
funds reflect amounts transferred to the military services and defense agencies to be spent for Afghanistan.                       Expired
                                                                                                                                   $158
Source: SIGAR analysis of appropriating legislation and quarterly obligation and disbursement data provided by DOD, State,
and USAID, 7/20/2014.
                                                                                                                                              Remaining
                                                                                                                                              $4,431
                                                                                                                                FY 2014 AMOUNT REMAINING TO BE
   Congress appropriated nearly $6.5 billion to the seven major reconstruc-                                                     DISBURSED ($ MILLIONS) Disbursed
                                                                                                                                                       $3,533
tion funds for FY 2014. Of that amount, more than $6.4 billion remained
for possible disbursement, as of June 30, 2014, as shown in Table 3.4 and
                                                                                                                                                Total: $6,470
Figure 3.3.                                                                                                                        Expired
                                                                                                                                   $158
TABLE 3.4                                                                                                                       FIGURE 3.3

 FY 2014 AMOUNTS APPROPRIATED, OBLIGATED, AND DISBURSED
 ($ MILLIONS)                                                                                                                   FY 2014 AMOUNT REMAINING TO BE
                                                                                                                                         Remaining
                                                                                                                                DISBURSED$6,444
                                                                                                                                           ($ MILLIONS)
                                                Appropriated           Obligated         Disbursed          Remaining
                                                                                                                                                                      Disbursed
 ASFF                                               $4,727                  $24               $0              $4,727                                                  $26
 CERP                                                    30                    2               0                  30                            Total: $6,470

 AIF                                                   199                     0               0                 199
 TFBSO                                                 117                   82               25                  92
 DOD CN                                                321                     1               1                 320
                                                                                                                                             Remaining
 ESF                                                   852                     0               0                 852                         $6,444
 INCLE                                                 225                     0               0                 225                                                  Disbursed
 Total 7 Major Funds                               $6,470                $108               $26              $6,444                                                   $26

Notes: Numbers have been rounded. Amount remaining reflects the total disbursement potential of the seven major reconstruc-
tion funds. Obligated and disbursed DOD CN funds reflect amounts transferred to the military services and defense agencies to
be spent for Afghanistan.

Source: SIGAR analysis of appropriating legislation and quarterly obligation and disbursement data provided by DOD, State,
and USAID, 7/20/2014.




REPORT TO THE UNITED STATES CONGRESS                        I   JULY 30, 2014                                      71
STATUS OF FUNDS CONTENTS

U.S. Reconstruction Funding
for Afghanistan	                       74
Afghanistan Security Forces Fund	      76
ASFF Budget Activities	                77
Commander’s Emergency
Response Program	                      78
Afghanistan Infrastructure Fund	       79
Task Force for Business and
Stability Operations	                  80
DOD Drug Interdiction and
Counter-Drug Activities	               81
Economic Support Fund	                 82
International Narcotics Control
and Law Enforcement 	                  83
International Reconstruction Funding
for Afghanistan	                       84




  72
                                                           STATUS OF FUNDS




STATUS OF FUNDS
To fulfill SIGAR’s legislative mandate, this section details the status of U.S.
funds appropriated, obligated, and disbursed for reconstruction activities
in Afghanistan. As of June 30, 2014, the United States had appropriated
approximately $104.10 billion for relief and reconstruction in Afghanistan
since FY 2002. This total has been allocated as follows:
 •	 $61.77 billion for security (including $4.25 billion for counternarcotics
    initiatives)
 •	 $30.59 billion for governance and development (including $3.38 billion
    for counternarcotics initiatives)
 •	 $2.84 billion for humanitarian aid
 •	 $8.91 billion for civilian operations
Figure 3.4 shows the major U.S. funds that contribute to these efforts.
FIGURE 3.4

U.S. FUNDS SUPPORTING AFGHANISTAN RECONSTRUCTION EFFORTS ($ BILLIONS)


                                      FUNDING SOURCES (TOTAL: $104.10)
                                                                                                                     ASFF: Afghanistan Security Forces Fund
                                                                                                                     CERP: Commander’s Emergency
       ASFF        CERP         AIF        TFBSO       DOD CN              ESF               INCLE       Other
                                                                                                                     Response Program
                                                                                                                     AIF: Afghanistan Infrastructure Fund
     $57.33       $3.67        $1.22       $0.81        $2.93            $17.53              $4.41      $16.20
                                                                                                                     TFBSO: Task Force for Business and
                                                       AGENCIES                                                      Stability Operations
                                                                                                                     DOD CN: DOD Drug Interdiction and
                                                                                       Department of   Distributed   Counter-Drug Activities
                  Department of Defense (DOD)                            USAID                         to Multiple
                                                                                       State (State)
                           $65.96                                        $17.53           $4.41         Agenciesa    ESF: Economic Support Fund
                                                                                                         $16.20      INCLE: International Narcotics Control and
                                                                                                                     Law Enforcement
Notes: Numbers have been rounded.                                                                                    Other: Other Funding
a   Multiple agencies include DOJ, State, DOD, USAID, Treasury, USDA, DEA, BBG, and SIGAR.
Source: DOD, responses to SIGAR data call, 7/18/2014, 7/17/2014, 7/8/2014, 7/3/2014, 10/22/2012, 10/14/2009,
and 10/1/2009; State, responses to SIGAR data call, 7/16/2014, 7/3/2014, 4/15/2014, 6/27/2013, 10/5/2012 and
6/27/2012; Treasury, response to SIGAR data call, 7/10/2014; OMB, responses to SIGAR data call, 7/14/2014,
7/19/2013 and 1/4/2013; USAID, responses to SIGAR data call, 7/10/2014, 10/15/2010, 1/15/2010, and
10/9/2009; DOJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; CRS, response to
SIGAR data call, 1/8/2014; DFAS, response to SIGAR data call, 7/17/2014; P.L. 113-76, 1/17/2014; P.L. 113-6,
3/26/2013; P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118,
12/19/2009; FY 2010 Defense Explanatory Statement.




REPORT TO THE UNITED STATES CONGRESS                       I   JULY 30, 2014                               73
                                                                    STATUS OF FUNDS




                                                                    U.S. RECONSTRUCTION FUNDING FOR AFGHANISTAN
  ASFF   CERP    AIF     TFBSO DODCN    ESF        INCLE            As of June 30, 2014, cumulative appropriations for relief and reconstruction
                                                                    in Afghanistan totaled approximately $104.10 billion, as shown in Figure
                                                                    3.5. This total can be divided into four major categories of reconstruction
                DOD                    USAID State
                                                                    funding: security, governance and development, humanitarian, and civilian
                                                                    operations. Approximately $7.62 billion of these funds support counter-
The amount provided to the seven major
                                                                    narcotics initiatives which crosscut both the security ($4.24 billion) and
U.S. funds represents over 84.4% (more
than $87.90 billion) of total reconstruction                        governance-and-development ($3.38 billion) categories. For complete infor-
assistance in Afghanistan since FY 2002. Of                         mation regarding U.S. appropriations, see Appendix B.
this  amount, nearly 84.9% (nearly $74.61
   ASFF                                                                The Consolidated Appropriations Act, 2014, provided an additional
billion) has been obligated, and over 78.5%                         $7.55 billion for FY 2014, as shown in Figure 3.6. Of this amount, nearly
(more than $69.04 billion) has been                                 $4.73 billion was appropriated to the Afghanistan Security Forces Fund
disbursed. An  estimated $2.91 billion of the
             DOD                                                    (ASFF), bringing cumulative funding for the ASFF to nearly $57.33 billion,
amount appropriated these funds has expired.



FIGURE 3.5

CUMULATIVE
    CERP APPROPRIATIONS BY FUNDING CATEGORY, AS OF JUNE 30, 2014 ($ BILLIONS)


$110
                DOD                                                                                                                                                              $104.10
$100                                                                                                                                                      $95.56

 $90                                                                                                                               $86.86

 $80
                            DOD CN                                                                          $72.21
 $70


 $60                                                                                $56.34
                DOD
 $50

                                                             $39.63
 $40


 $30
                                       $29.26
                                        ESF
                $23.08
 $20


 $10                                   USAID

  $0
           2002–2007                   2008                   2009                   2010                   2011                    2012                    2013                   2014

                                        Security            Governance/Development                Humanitarian             Civilian Operations                   Total
                                                INCLE
Notes: Numbers have been rounded. Updated data for State and USAID Civilian Operations accounts resulted in a higher appropriation figure for FY 2014 than reported last quarter. DOD reprogrammed
$1 billion from FY 2011 ASFF. DOD reprogrammed $1 billion from FY 2012 ASFF. P.L. 113-6 rescinded $1 billion from FY 2012 ASFF. DOD reprogrammed $178 million from FY 2013 ASFF. DOD
transferred $101 million from FY 2011 AIF to FY 2011 ESF to fund an infrastructure project to be implemented by USAID.
Source: DOD, responses to SIGAR data call, 7/18/2014,
                                              State 7/17/2014, 7/8/2014, 7/3/2014, 10/22/2012, 10/14/2009, and 10/1/2009; State, responses to SIGAR data call, 7/16/2014,
7/3/2014, 4/15/2014, 6/27/2013, 10/5/2012 and 6/27/2012; Treasury, response to SIGAR data call, 7/10/2014; OMB, responses to SIGAR data call, 7/14/2014, 7/19/2013 and 1/4/2013;
USAID, responses to SIGAR data call, 7/10/2014, 10/15/2010, 1/15/2010, and 10/9/2009; DOJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; CRS,
response to SIGAR data call, 1/8/2014; DFAS, response to SIGAR data call, 7/17/2014; P.L. 113-76, 1/17/2014; P.L. 113-6, 3/26/2013; P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011; P.L.
111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement.


                 AIF

                                                                        74                             SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                DOD
                                                             STATUS OF FUNDS




approximately 55% of all reconstruction funding.56 The ASFF supports the                                                             TABLE 3.5
development, operations, and sustainment of the Afghanistan National                                                                 FY 2014 APPROPRIATIONS
Security Forces.57                                                                                                                   COMPARED TO THE FY 2015 BUDGET
                                                                                                                                     REQUEST ($ MILLIONS)
   On June 26, 2014, the President submitted his updated FY 2015 over-
                                                                                                                                                            FY 2014              FY 2015 Req
seas contingency operations budget request to Congress for DOD and
                                                                                                                                      ASFF                   $4,726                 $4,109
State.58 The $5.83 billion requested for the seven major reconstruction                                                               CERP                         30                    15
funds for FY 2015 is approximately 9% lower than the amount appropriated                                                              AIF                        199                       0
these funds for FY 2014. DOD is not requesting funds for the Afghanistan                                                              TFBSO                        64                      5
Infrastructure Fund for FY 2015 and is requesting only $5 million for the                                                             DOD CN                     321                    148
Task Force for Business and Stability Operations—a 92% decrease from                                                                  ESF                        852                  1,225
the $63.8 million appropriated to the task force for FY 2014, as shown in                                                             INCLE                      225                    325
Table 3.5. As reported in prior quarters, a significant amount of reconstruc-                                                         TOTAL                 $6,417                $5,827
tion funding is still in the pipeline. Approximately $15.95 billion remains
                                                                                                                                     Notes: Numbers have been rounded. TFBSO amount excludes
for potential disbursement. For more information about the reconstruction                                                            funding from the Operations and Maintenance, Army, account
                                                                                                                                     used for the task force’s operational costs.
funding pipeline, see pages 70–71.
                                                                                                                                     Sources: OMB, “Amendments to the President’s Fiscal Year
                                                                                                                                     (FY) 2015 Overseas Contingency Operations (OCO) Request
FIGURE 3.6                                                                                                                           for the Department of Defense (DOD) and the Department
                                                                                                                                     of State and Other International Programs (State/OIP),”
APPROPRIATIONS BY FISCAL YEAR, AMOUNT, AND CATEGORY ($ BILLIONS)                                                                     6/26/2014; State, response to SIGAR data call, 4/15/2014,
                                                                                                                                     OMB, request to SIGAR data call, 7/16/2014.


$18

$17                                                                                 $16.71
$16                                                                                                         $15.86
$15                                                                                                                                $14.66
$14

$13

$12

$11
              $10.04                                         $10.37
$10                                                                                                                                                        $9.69
 $9

 $8                                                                                                                                                                                $7.55
 $7
                                      $6.18
 $6

 $5

 $4

 $3

 $2

 $1

 $0
               2007                   2008                    2009                   2010                   2011                    2012                    2013                   2014

                                        Security            Governance/Development                Humanitarian             Civilian Operations                   Total

Notes: Numbers have been rounded. Updated data for State and USAID Civilian Operations accounts resulted in a higher appropriation figure for FY 2014 than reported last quarter. DOD reprogrammed
$1 billion from FY 2011 ASFF. DOD reprogrammed $1 billion from FY 2012 ASFF. P.L. 113-6 rescinded $1 billion from FY 2012 ASFF. DOD reprogrammed $178 million from FY 2013 ASFF. DOD
transferred $101 million from FY 2011 AIF to FY 2011 ESF to fund an infrastructure project to be implemented by USAID.
Source: DOD, responses to SIGAR data call, 7/18/2014, 7/17/2014, 7/8/2014, 7/3/2014, 10/22/2012, 10/14/2009, and 10/1/2009; State, responses to SIGAR data call, 7/16/2014,
7/3/2014, 4/15/2014, 6/27/2013, 10/5/2012 and 6/27/2012; Treasury, response to SIGAR data call, 7/10/2014; OMB, responses to SIGAR data call, 7/14/2014, 7/19/2013 and 1/4/2013;
USAID, responses to SIGAR data call, 7/10/2014, 10/15/2010, 1/15/2010, and 10/9/2009; DOJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; CRS,
response to SIGAR data call, 1/8/2014; DFAS, response to SIGAR data call, 7/17/2014; P.L. 113-76, 1/17/2014; P.L. 113-6, 3/26/2013; P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011; P.L.
111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement.




REPORT TO THE UNITED STATES CONGRESS                         I   JULY 30, 2014                                        75
                                                       STATUS OF FUNDS
 ASFF    CERP   AIF    TFBSO DODCN    ESF    INCLE




                DOD                  USAID State




                                                       AFGHANISTAN SECURITY FORCES FUND
  ASFF                                                 The Congress created the Afghanistan Security Forces Fund (ASFF) to
                                                       provide the ANSF with equipment, supplies, services, training, and funding,
                                                       as well as facility and infrastructure repair, renovation, and construction.59
                DOD                                    The primary organization responsible for building the ANSF is the North
                                                       Atlantic Treaty Organization Training Mission-Afghanistan/Combined
ASFF FUNDS TERMINOLOGY                                 Security Transition Command-Afghanistan.60 A financial and activity plan
DOD reported ASFF funds as appropriated,               must be approved by the Afghanistan Resources Oversight Council (AROC)
obligated, or disbursed                                before ASFF funds may be obligated.61
Appropriations:
      CERP      Total monies available for                The Consolidated Appropriations Act, 2014, appropriated nearly $4.73 bil-
commitments                                            lion for the ASFF for FY 2014, increasing total cumulative funding to nearly
Obligations: Commitments to pay monies                 $57.33 billion.62 As of June 30, 2014, nearly $50.03 billion of total ASFF fund-
                DOD                                    ing had been obligated, of which nearly $48.23 billion had been disbursed.63 
Disbursements: Monies that have been
                                                       Figure 3.7 displays the amounts made available for the ASFF by fiscal year.
expended
                                                          DOD reported that cumulative obligations increased by nearly $1.11 bil-
Source: DOD, response to SIGAR data call, 4/13/2010.   lion over the quarter, and cumulative disbursements increased by nearly
                                                       $1.58 billion.64 Figure 3.8 provides a cumulative comparison of amounts
                          DOD CN
                                                       made available, obligated, and disbursed for the ASFF.

                DOD                                    FIGURE 3.7                                                         FIGURE 3.8

                                                       ASFF APPROPRIATED FUNDS BY FISCAL YEAR ASFF FUNDS, CUMULATIVE COMPARISON
                                                       ($ BILLIONS)                                                      ($ BILLIONS)




                                     ESF               $12.0                                                             $60.0
                                                                                                                                               Appropriated             Appropriated
                                                                                                                                               $57.33                   $57.33
                                                       $10.0                                                             $55.0
                                     USAID


                                                        $8.0                                                             $50.0                                          Obligated
                                                                                                                                                Obligated               $50.03
                                                                                                                                                $48.92                  Disbursed
                                                                                                                                                Disbursed               $48.23
                                                                                                                                                $46.65
                                             INCLE      $6.0                                                             $45.0



                                             State      $4.0                                                             $40.0



                                                        $2.0                                                             $35.0

                AIF
                                                        $0.0                                                                 $0
                                                                05 06 07 08 09 10 11a 12b 13c 14                                   As of Mar 31, 2014         As of Jun 30, 2014
                DOD
                                                       Notes: Numbers have been rounded. Updated data resulted in a lower appropriation figure for FY 2013.
                                                       a DOD reprogrammed $1 billion of FY 2011 ASFF.
                                                       b DOD reprogrammed $1 billion of FY 2012 ASFF; another $1 billion was rescinded in P.L. 113-6.
                                                       c DOD reprogrammed $178 million of FY 2013 ASFF.

                                                       Sources: DOD, responses to SIGAR data call, 7/17/2014 and 4/15/2014; P.L. 113-76, 1/17/2014; P.L. 113-6, 3/26/2013.
                      TFBSO



                DOD
                                                           76                            SPECIAL INSPECTOR GENERAL                   I   AFGHANISTAN RECONSTRUCTION
                                                       STATUS OF FUNDS




ASFF BUDGET ACTIVITIES
DOD allocates funds to three budget activity groups within the ASFF:                                                Budget Activity Groups: categories
•	 Defense Forces (Afghan National Army, ANA)                                                                       within each appropriation or fund account
•	 Interior Forces (Afghan National Police, ANP)                                                                    that identify the purposes, projects, or
•	 Related Activities (primarily Detainee Operations)                                                               types of activities financed by the appro-
                                                                                                                    priation or fund
   Funds for each budget activity group are further allocated to four sub-
activity groups: Infrastructure, Equipment and Transportation, Training and                                         Subactivity Groups: accounting groups
Operations, and Sustainment.65 The AROC must approve the requirement                                                that break down the command’s disburse-
                                                                                                                    ments into functional areas
and acquisition plan for any service requirements in excess of $50 mil-
lion annually and any non-standard equipment requirement in excess of
$100 million.66
   As of June 30, 2014, DOD had disbursed nearly $48.23 billion for ANSF                                          Sources: DOD, “Manual 7110.1-M Department of Defense
                                                                                                                  Budget Guidance Manual,” accessed 9/28/2009; Department
initiatives. Of this amount, nearly $31.93 billion was disbursed for the ANA,                                     of the Navy, “Medical Facility Manager Handbook,” p. 5,
                                                                                                                  accessed 10/2/2009.
and nearly $15.94 billion was disbursed for the ANP; the remaining more
than $358.91 million was directed to related activities.67
   As shown in Figure 3.9, the largest portion of the funds disbursed for the
ANA—more than $12.26 billion—supported ANA troop sustainment. Of the
funds disbursed for the ANP, the largest portion—more than $5.96 billion—
also supported sustainment of ANP forces, as shown in Figure 3.10.68 

FIGURE 3.9                                                  FIGURE 3.10

ASFF DISBURSEMENTS FOR THE ANA                              ASFF DISBURSEMENTS FOR THE ANP
BY SUBACTIVITY GROUP,                                       BY SUBACTIVITY GROUP,
FY 2005–JUNE 30, 2014 ($ BILLIONS)                          FY 2005–JUNE 30, 2014 ($ BILLIONS)


                    Total: $31.93                                              Total: $15.94


Infrastructure                             Training and     Infrastructure                         Training and
                                                            $2.92                 Equipment and    Operations
$5.19                  Equipment and       Operations                             Transportation   $3.43
                       Transportation      $3.08                                  $3.63
                       $11.40


                 Sustainment
                 $12.26                                                      Sustainment
                                                                             $5.96



Note: Numbers have been rounded.
Source: DOD, response to SIGAR data call, 7/17/2014.




REPORT TO THE UNITED STATES CONGRESS                   I   JULY 30, 2014                             77
                                                       STATUS OF FUNDS
  ASFF



                DOD




                                                       COMMANDER’S EMERGENCY RESPONSE PROGRAM
         CERP                                          The Commander’s Emergency Response Program (CERP) enables U.S.
                                                       commanders in Afghanistan to respond to urgent humanitarian relief and
                                                       reconstruction requirements in their areas of responsibility by supporting
                DOD                                    programs that will immediately assist the local population. Funding under
                                                       this program is intended for small projects that are estimated to cost less
CERP FUNDS TERMINOLOGY                                 than $500,000 each.69 Projects with cost estimates exceeding $1 million are
DOD reported CERP funds as appropriated,               permitted, but they require approval from the Commander of U.S. Central
obligated, or disbursed                                Command; projects over $5 million require approval from the AROC. CERP-
                         DOD CN
Appropriations: Total monies available for             funded projects may not exceed $20 million.70 
commitments                                               The Consolidated Appropriations Act, 2014, appropriated $30 million
                                                       for CERP, increasing total cumulative funding to nearly $3.67 billion.71 Of
Obligations:DOD
             Commitments to pay monies
                                                       this amount, DOD reported that nearly $2.28 billion had been obligated, of
Disbursements: Monies that have been                   which nearly $2.26 billion had been disbursed as of June 30, 2014.72 Figure
expended                                               3.11 shows CERP appropriations by fiscal year, and Figure 3.12 provides a
Source: DOD, response to SIGAR data call, 4/14/2010.
                                                       cumulative comparison of amounts appropriated, obligated, and disbursed
                                    ESF                for CERP projects.

                                                       FIGURE 3.11                                                  FIGURE 3.12
                                   USAID
                                                       CERP APPROPRIATIONS BY FISCAL YEAR                          CERP FUNDS, CUMULATIVE COMPARISON
                                                       ($ MILLIONS)                                                ($ BILLIONS)




                                           INCLE       $1,000                                                      $4.0
                                                                                                                                        Appropriated              Appropriated
                                                                                                                   $3.6                 $3.67                     $3.67

                                            State       $800                                                       $3.2

                                                                                                                   $2.8

                                                        $600                                                       $2.4                 Obligated                 Obligated
                AIF                                                                                                                     $2.29                     $2.28
                                                                                                                   $2.0                 Disbursed                 Disbursed
                                                                                                                                        $2.26                     $2.26
                                                        $400                                                       $1.6
                DOD
                                                                                                                   $1.2

                                                        $200                                                       $0.8

                      TFBSO                                                                                        $0.4

                                                           $0                                                      $0.0
                                                                04 05 06 07 08 09 10 11 12 13 14                          As of Mar 31, 2014           As of Jun 30, 2014
                DOD
                                                       Notes: Numbers have been rounded. Data may include inter-agency transfers.
                                                       Source: DOD, responses to SIGAR data call, 7/17/2014 and 4/17/2014; OMB, response to SIGAR data call, 1/4/2013;
                                                       P.L. 113-76, 1/17/2014; P.L. 113-6, 3/26/2013; P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011.




                                                          78                           SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                                                                                                                                                               USAID

                                                              STATUS OF FUNDS
                                                                                                                                                                       INCLE



                                                                                                                                                                       State



AFGHANISTAN INFRASTRUCTURE FUND
The Afghanistan Infrastructure Fund (AIF) was established in FY 2011                                                                       AIF
to pay for high-priority, large-scale infrastructure projects that support
the U.S. civilian-military effort. Congress intended for projects funded by
the AIF to be jointly selected and managed by DOD and State. The AROC                                                                     DOD

must approve all AIF-funded projects and project execution plans, and the
Secretaries of State and Defense must notify Congress with details of the                                                   AIF FUNDS TERMINOLOGY
proposed project, including a plan for its sustainment and a description of                                                 DOD reported AIF funds as appropriated,
                                                                                                                                             TFBSO
                                                                                                                            obligated, or disbursed
how it supports the counterinsurgency strategy in Afghanistan.73
   The Consolidated Appropriations Act, 2014, appropriated $199 million                                                     Appropriations: Total monies available for
for the AIF, increasing total cumulative funding to more than $1.22 billion.74                                              commitmentsDOD
Figure 3.13 shows AIF appropriations by fiscal year. As of June 30, 2014,                                                   Obligations: Commitments to pay monies
more than $701.55 million of total AIF funding had been obligated, of which
                                                                                                                            Disbursements: Monies that have been
more than $273.95 million had been disbursed.75 In June 2014, DOD can-
                                                                                                                            expended
celled the second phase of the Dahla Dam Improvement Project, decreasing
AIF obligations by more than $184 million from the amount reported last                                                     Source: DOD, response to SIGAR data call, 4/13/2012.

quarter, as shown in Figure 3.14. The project was funded with FY 13/14 AIF
funds. DOD has until the end of the current fiscal year to obligate the funds
on another project.76

FIGURE 3.13                                                   FIGURE 3.14

AIF APPROPRIATIONS BY FISCAL YEAR                             AIF FUNDS, CUMULATIVE COMPARISON
($ MILLIONS)                                                  ($ MILLIONS)




$800                                                              $1400

                                                                                     Appropriated            Appropriated
                                                                  $1200              $1,223.00               $1,223.00

$600
                                                                  $1000
                                                                                     Obligated
                                                                                     $885.58
                                                                  $800
$400                                                                                                         Obligated
                                                                                                             $701.55
                                                                  $600


                                                                  $400
$200
                                                                                                              Disbursed
                                                                                     Disbursed                $273.95
                                                                  $200               $228.99


     $0                                                              $0
            2011a         2012          2013         2014                 As of Mar 31, 2014        As of Jun 30, 2014

Notes: Numbers have been rounded. Updated data resulted in a lower obligation figure than reported last quarter.
a   FY 2011 figure excludes $101 million that was transferred to USAID to execute an AIF project.
Source: DFAS, "AR(M) 1002 Appropriation Status by FY Program and Subaccounts June 2014," 7/18/2014; DFAS, "AR(M)
1002 Appropriation Status by FY Program and Subaccounts March 2014," 4/16/2014; P.L. 113-76, 1/17/2014; P.L.
113-6, 3/26/2013; P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011.




REPORT TO THE UNITED STATES CONGRESS                          I    JULY 30, 2014                                   79
                                           State

                                                       STATUS OF FUNDS
               AIF



              DOD



                                                       TASK FORCE FOR BUSINESS AND STABILITY OPERATIONS
                     TFBSO                             In 2010, the Task Force for Business and Stability Operations (TFBSO)
                                                       began operations in Afghanistan aimed at stabilizing the country and coun-
                                                       tering economically motivated violence by decreasing unemployment and
              DOD                                      creating economic opportunities for Afghans. TFBSO projects include activ-
                                                       ities that facilitate private investment, industrial development, banking and
TFBSO FUNDS TERMINOLOGY                                financial-system development, agricultural diversification and revitalization,
DOD reported TFBSO funds as appropriated,              and energy development.77
obligated, or disbursed                                    TFBSO has two separate funding streams, the National Defense
Appropriations: Total monies available for             Authorization Act (NDAA) and the Operations and Maintenance, Army,
commitments                                            (OMA). Through June 30, 2014, the TFBSO has been appropriated more
Obligations: Commitments to pay monies                 than $116.94 million for FY 2014, increasing cumulative appropriations for
                                                       the task force to nearly $809.53 million.78 Of this amount, nearly $741.16 mil-
Disbursements: Monies that have been
                                                       lion had been obligated and more than $578.99 million had been disbursed.79
expended
                                                       Figure 3.15 displays the amounts appropriated for TFBSO projects by fiscal
Source: DOD, response to SIGAR data call, 4/13/2010.   year, and Figure 3.16 provides a cumulative comparison of amounts made
                                                       available, obligated, and disbursed for TFBSO projects.

                                                       FIGURE 3.15                                             FIGURE 3.16

 National Defense Authorization Act                    TFBSO APPROPRIATIONS BY FISCAL YEAR                     TFBSO FUNDS, CUMULATIVE COMPARISON
                                                       ($ MILLIONS)                                            ($ MILLIONS)
 (NDAA): Funds authorized for TFBSO in
                                                                                                                                    Appropriated              Appropriated
 the NDAA are used for activities directly             $200                                                    $800
                                                                                                                                                              $809.53
                                                                                                                                    $804.39
 related to reconstructing Afghanistan.
                                                                      NDAA                                     $700                                          Obligated
                                                                                                                                    Obligated                $741.16
 Operations and Maintenance, Army                      $160           OMA
                                                                                                                                    $726.01
 (OMA): Funds TFBSO receives from                                                                              $600                                          Disbursed
                                                                                                                                    Disbursed                $578.99
 the OMA account are used to pay for                                                                                                $550.13
 sustainment of U.S. assets, civilian                                                                          $500
                                                       $120
 employees, travel, security, and other
 operational costs.                                                                                            $400

                                                        $80
                                                                                                               $300

                                                                                                               $200
                                                        $40
                                                                                                               $100

                                                         $0                                                       $0
                                                              2009 2010 2011 2012 2013 2014                            As of Mar 31, 2014          As of Jun 30, 2014

                                                       Notes: Numbers have been rounded.
                                                       Sources: DOD, responses to SIGAR data call, 7/8/2014, 4/4/2014, and 10/4/2011; P.L. 113-76, 1/17/2014; P.L.
                                                       113-6, 3/26/2013; P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011.




                                                          80                         SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                                                                                                                                               DOD




                                                               STATUS OF FUNDS
                                                                                                                                        CERP



                                                                                                                                               DOD




DOD DRUG INTERDICTION AND COUNTER-DRUG ACTIVITIES
DOD’s Drug Interdiction and Counter-Drug Activities fund (DOD CN) sup-                                                                                  DOD CN
ports efforts to stabilize Afghanistan by combating the drug trade and
related activities. DOD uses the DOD CN to provide assistance to the
counter-narcotics effort by supporting military operations against drug traf-                                                                  DOD
fickers; expanding Afghan interdiction operations; and building the capacity
of Afghan law enforcement bodies—including the Afghan Border Police—                                                            DOD CN FUNDS TERMINOLOGY
with specialized training, equipment, and facilities.80                                                                         DOD reported DOD CN funds as appropriated,
    DOD CN funds are appropriated by Congress to a single budget line for                                                       obligated, or disbursed
                                                                                                                                                                    ESF
all military services. DOD reprograms the funds from the Counter-narcotics                                                      Appropriations: Total monies available for
Central Transfer Account (CTA) to the military services and defense agen-                                                       commitments
cies, which track obligations of the transferred funds. DOD reported DOD                                                        Obligations: Commitments toUSAID
                                                                                                                                                            pay monies
CN accounts for Afghanistan as a single figure for each fiscal year.81
                                                                                                                                Disbursements: Monies that have been
    DOD reported that DOD CN received nearly $320.79 million for
                                                                                                                                expended
Afghanistan for FY 2014, bringing cumulative funding for DOD CN to more
than $2.93 billion since fiscal year 2004. Of this amount, more than $2.61 bil-                                                 Source: DOD, response to SIGAR data call, 4/13/2010.
                                                                                                                                                                           INCLE
lion had been transferred to the military services and defense agencies for
DOD CN projects, as of June 30, 2014.82 Figure 3.17 shows DOD CN appro-
priations by fiscal year, and Figure 3.18 provides a cumulative comparison                                                                                                 State
of amounts appropriated and transferred from the DOD CN CTA.

FIGURE 3.17                                                       FIGURE 3.18
                                                                                                                                               AIF
DOD CN APPROPRIATIONS BY FISCAL YEAR                               DOD CN FUNDS, CUMULATIVE COMPARISON
($ MILLIONS)                                                       ($ BILLIONS)

$450                                                               $3.0                                                                        DOD
                                                                                       Appropriated              Appropriated
$400                                                                                   $2.93                     $2.93

                                                                   $2.8
$350
                                                                                                                                                     TFBSO
$300                                                                                   Transferreda              Transferreda
                                                                   $2.6
                                                                                       $2.61                     $2.61
$250                                                                                                                                           DOD
                                                                   $2.4
$200

$150
                                                                   $2.2
$100

 $50                                                               $2.0

   $0                                                                $0
        04 05 06 07 08 09 10 11 12 13 14                                  As of Mar 31, 2014           As of Jun 30, 2014

Note: Numbers have been rounded.
a DOD reprograms all funds to the military services and defense agencies for obligation and disbursement.

Source: DOD, responses to SIGAR data call, 7/3/2014, 4/16/2014, 3/28/2014, and 1/22/2014.




REPORT TO THE UNITED STATES CONGRESS                          I   JULY 30, 2014                                     81
              DOD



                                                         STATUS OF FUNDS
                        DOD CN



              DOD




                                                         ECONOMIC SUPPORT FUND
                                    ESF                  Economic Support Fund (ESF) programs advance U.S. interests by helping
                                                         countries meet short- and long-term political, economic, and security needs.
                                                         ESF programs support counterterrorism, bolster national economies, and
                                   USAID                 assist in the development of effective, accessible, independent legal systems
                                                         for a more transparent and accountable government.83
ESF FUNDS TERMINOLOGY                                       The ESF was appropriated $852 million for FY 2014, bringing cumulative
USAID reported ESF funds as appropriated,                funding for the ESF to more than $17.53 billion. Of this amount, more than
obligated, or disbursed         INCLE                    $14.69 billion had been obligated, of which nearly $12.09 billion had been
Appropriations: Total monies available                   disbursed.84 Figure 3.19 shows ESF appropriations by fiscal year.
for commitments                                             USAID reported that cumulative obligations as of June 30, 2014,
                                            State        increased by more than $24.65 million from the amount reported last quar-
Obligations: Commitments to pay monies
                                                         ter. Cumulative disbursements as of June 30, 2014, increased by nearly
Disbursements: Monies that have been
                                                         $378.92 million over cumulative disbursements as of March 31, 2014.85
expended
                                                         Figure 3.20 provides a cumulative comparison of the amounts appropriated,
               AIF
Source: USAID, response to SIGAR data call, 4/15/2010.   obligated, and disbursed for ESF programs.

              DOD                                        FIGURE 3.19                                                     FIGURE 3.20

                                                         ESF APPROPRIATIONS BY FISCAL YEAR                               ESF FUNDS, CUMULATIVE COMPARISON
                                                         ($ BILLIONS)                                                    ($ BILLIONS)



                     TFBSO
                                                         $3.5                                                            $18
                                                                                                                                              Appropriated                Appropriated
                                                                                                                                              $17.53                      $17.53
              DOD                                        $3.0                                                            $16

                                                                                                                                              Obligated                   Obligated
                                                         $2.5
                                                                                                                                              $14.66                      $14.69
                                                                                                                         $14

                                                         $2.0
                                                                                                                                                                          Disbursed
                                                                                                                         $12                  Disbursed                   $12.09
                                                                                                                                              $11.71
                                                         $1.5

                                                                                                                         $10
                                                         $1.0

                                                                                                                           $8
                                                         $0.5


                                                         $0.0                                                              $0
                                                                02 03 04 05 06 07 08 09 10 11 12 13 14                          As of Mar 31, 2014           As of Jun 30, 2014

                                                         Notes: Numbers have been rounded. FY 2011 figure includes $101 million that was transferred to the ESF from the Afghanistan
                                                         Infrastructure Fund.
                                                         Sources: USAID, responses to SIGAR data call, 7/10/2014 and 4/7/2014; State, responses to SIGAR data call, 4/15/2014 and
                                                         6/27/2013.




                                                             82                            SPECIAL INSPECTOR GENERAL                    I   AFGHANISTAN RECONSTRUCTION
                                                                                                                                                  DOD



                                                              STATUS OF FUNDS
                                                                                                                                                                        ESF



                                                                                                                                                                       USAID




INTERNATIONAL NARCOTICS CONTROL
AND LAW ENFORCEMENT                                                                                                                                                            INCLE
The U.S. Bureau of International Narcotics and Law Enforcement Affairs
(INL) manages an account for advancing rule of law and combating narcot-
                                                                                                                                                                                State
ics production and trafficking—the International Narcotics Control and
Law Enforcement (INCLE) account. INCLE supports several INL program
groups, including police, counter-narcotics, and rule of law and justice.86                                                        INL FUNDS TERMINOLOGY
   State reported that INCLE was appropriated $225 million for FY 2014,                                                            INL reported INCLE and other INL funds as
                                                                                                                                               AIF
bringing cumulative funding for INCLE to more than $4.41 billion. Of                                                               appropriated, obligated, or disbursed
this amount, nearly $3.56 billion had been obligated, of which more than                                                           Appropriations: Total monies available
$3.00 billion had been disbursed.87 Figure 3.21 shows INCLE appropriations                                                         for commitments
                                                                                                                                              DOD
by fiscal year.                                                                                                                    Obligations: Commitments to pay monies
   State reported that cumulative obligations as of June 30, 2014, increased
                                                                                                                                   Disbursements: Monies that have been
by more than $13.53 million compared to cumulative obligations as of
                                                                                                                                   expended
March 31, 2014. Cumulative disbursements as of June 30, 2014, increased                                                                                 TFBSO
by more than $54.04 million over cumulative disbursements as of March 31,                                                          Source: State, response to SIGAR data call, 4/9/2010.

2014.88 Figure 3.22 provides a cumulative comparison of amounts appropri-
                                                                                                                                                 DOD
ated, obligated, and disbursed for INCLE.

FIGURE 3.21                                                       FIGURE 3.22

INCLE APPROPRIATIONS BY FISCAL YEAR                               INCLE FUNDS, CUMULATIVE COMPARISON
($ MILLIONS)                                                      ($ BILLIONS)




$700                                                              $4.5                Appropriated                 Appropriated
                                                                                      $4.42                        $4.41

$600
                                                                  $4.0

$500                                                                                  Obligated                    Obligated
                                                                  $3.5                $3.55                        $3.56
$400
                                                                  $3.0                Disbursed                    Disbursed
                                                                                      $2.95                        $3.00
$300

                                                                  $2.5
$200


$100                                                              $2.0


   $0                                                               $0
        02 03 04 05 06 07 08 09 10 11 12 13 14                           As of Mar 31, 2014           As of Jun 30, 2014

Notes: Numbers have been rounded. Data may include inter-agency transfers. Updated data resulted in a lower appropriation figure
than reported last quarter.
Source: State, response to SIGAR data call, 7/16/2014, 4/15/2014, and 4/11/2014.




REPORT TO THE UNITED STATES CONGRESS                          I   JULY 30, 2014                                        83
STATUS OF FUNDS




INTERNATIONAL RECONSTRUCTION FUNDING
FOR AFGHANISTAN
In addition to assistance provided by the United States, the international
community provides a significant amount of funding to support Afghanistan
relief and reconstruction efforts. As noted in previous SIGAR quarterly
reports, most of the international funding provided is administered through
trust funds. Contributions provided through trust funds are pooled and then
distributed for reconstruction activities. The two main trust funds are the
Afghanistan Reconstruction Trust Fund (ARTF) and the Law and Order
Trust Fund for Afghanistan (LOTFA).89

Contributions to the Afghanistan Reconstruction Trust Fund
The largest share of international contributions to the Afghan operational
and development budgets comes through the ARTF. From 2002 to June 21,
2014, the World Bank reported that 33 donors had pledged nearly $7.86 bil-
lion, of which more than $7.24 billion had been paid in.90 According to the
World Bank, donors had pledged approximately $954.16 million to the
ARTF for Afghan fiscal year 1393, which runs from December 21, 2013, to
December 20, 2014.91 Figure 3.23 shows the 11 largest donors to the ARTF
for FY 1393.

FIGURE 3.23

ARTF CONTRIBUTIONS FOR FY 1393 BY DONOR, AS OF JUNE 21, 2014 ($ MILLIONS)

                                                  Total Commitments: $954          Total Paid In: $445
                                                                                                                          300
  United States                                         77
                                                                             156
     EC/EU                                   56
                                                                       145
United Kingdom         0
                                                         82
    Germany            0
                                                   70
      Japan                                        70
                                             58
    Australia                                58
                                   35
     Norway                       33
                                27
  Netherlands          0
                           19
     Canada                19
                           18
    Denmark            0
                           18
     France            0
                             27
     Others                21

                   0                    50                    100     150                200             250           300
                                                        Commitments                            Paid In

Notes: Numbers have been rounded. FY 1393 = 12/21/2013–12/20/2014.
Source: World Bank, "ARTF: Administrator's Report on Financial Status as of June 21, 2014 (end of 6th month of FY 1393)," p. 1.




    84                             SPECIAL INSPECTOR GENERAL                 I     AFGHANISTAN RECONSTRUCTION
                                       STATUS OF FUNDS




As of June 21, 2014, the United States had pledged more than $2.26 bil-         FIGURE 3.24
lion and paid in nearly $2.04 billion since 2002.92 The United States and the
                                                                                ARTF CONTRIBUTIONS PAID IN BY
United Kingdom are the two biggest donors to the ARTF, together contribut-
                                                                                DONORS, SY 1381 (2002)–JUNE 21, 2014
ing 46% of its total funding, as shown in Figure 3.24.                          (PERCENT)

   Contributions to the ARTF are divided into two funding channels—the
Recurrent Cost (RC) Window and the Investment Window.93 As of June 21,                          Total Paid In: $7.2 billion
2014, according to the World Bank, nearly $3.06 billion of ARTF funds had
been disbursed to the Afghan government through the RC Window to assist
with recurrent costs such as salaries of civil servants.94 The RC Window                                United States
                                                                                                        28%
supports the operating costs of the Afghan government because the gov-
                                                                                                                     United
ernment’s domestic revenues continue to be insufficient to support its                                               Kingdom
recurring costs. To ensure that the RC Window receives adequate funding,                          Others             17%
                                                                                                  39%
donors to the ARTF may not “preference” (earmark) more than half of their
                                                                                                                                  Canada
annual contributions for desired projects.95                                                                                      9%
   The Investment Window supports the costs of development programs.
As of June 21, 2014, according to the World Bank, more than $3.64 billion                                             Germany
had been committed for projects funded through the Investment Window, of                                              7%

which nearly $2.60 billion had been disbursed. The World Bank reported 23
                                                                                Notes: Numbers have been rounded. "Others" includes 29
active projects with a combined commitment value of more than $2.41 bil-        donors.

lion, of which more than $1.37 billion had been disbursed.96                    Source: World Bank, "ARTF: Administrator's Report on
                                                                                Financial Status as of June 21, 2014 (end of 6th month of
                                                                                FY 1393)," p. 5.

Contributions to the Law and Order Trust Fund for Afghanistan
The United Nations Development Programme (UNDP) administers the                 FIGURE 3.25
LOTFA to pay ANP salaries and build the capacity of the Ministry of
Interior.97 Since 2002, donors have pledged nearly $3.72 billion to the         DONORS' CONTRIBUTIONS TO THE LOTFA
LOTFA, of which nearly $3.56 billion had been paid in, according to the         SINCE 2002, AS OF MARCH 31, 2014
                                                                                (PERCENT)
most recent data available.98 The LOTFA’s sixth support phase started on
January 1, 2011. Phase VI was initially planned to end on March 31, 2013,
but after two extensions, the planned end date is currently December 31,                        Total Paid In: $3.6 billion
2014.99 In the 39 months since Phase VI began, the UNDP had transferred
more than $1.64 billion from the LOTFA to the Afghan government to cover
ANP and Central Prisons Directorate staff remunerations and an additional
$42.14 million for capacity development and other LOTFA initiatives.100 As                   United States          Japan
of March 31, 2014, donors had committed more than $2.18 billion to the                       39%                    30%
LOTFA for Phase VI. Of that amount, the United States had committed
nearly $967.10 million, and Japan had committed more than $744.76 million.                        Others        EU
Their combined commitments make up more than 78% of LOTFA Phase                                   13%           12%
VI commitments. The United States had contributed nearly $1.37 billion to
the LOTFA since the fund’s inception.101 Figure 3.25 shows the four largest                                   Germany
                                                                                                              6%
donors to the LOTFA since 2002, based on the latest data available.
                                                                                Notes: Numbers have been rounded. EU = European Union.
                                                                                "Others" includes 18 donors.
                                                                                Source: UNDP, "Law and Order Trust Fund for Afghanistan
                                                                                (LOTFA) 2014 First Quarter Project Progress Report,"
                                                                                6/9/2014, p. 28; SIGAR analysis of UNDP's quarterly and
                                                                                annual LOTFA reports, 7/16/2014.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014               85
SECURITY




SECURITY CONTENTS

Key Issues and Events This Quarter	                    87
U.S. Forces in Afghanistan	                            92
DOD Reports Steps To Improve
Contract Management	                                   92
ANSF Strength	                                         93
Ministry of Defense and
Ministry of Interior Assessments	                      99
Afghan Local Police	                                 100
Afghan National Army	                                101
Afghan National Police	                              107
ANSF Medical/Health Care	                            110
Removing Unexploded Ordnance	                        111
Counternarcotics	112




  86             SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                           SECURITY




SECURITY
As of June 30, 2014, the U.S. Congress had appropriated more than $61.8 bil-
lion to support the Afghan National Security Forces (ANSF). Most of these
funds ($57.3 billion) were channeled through the Afghanistan Security
Forces Fund (ASFF) and provided to the Combined Security Transition
Command-Afghanistan (CSTC-A). Congress established the ASFF to build,
equip, train, and sustain the ANSF, which comprises the Afghan National
Army (ANA) and the Afghan National Police (ANP). Of the $57.3 billion
appropriated for the ASFF, approximately $50.0 billion had been obligated
and $48.2 billion disbursed as of June 30, 2014.102
   This section discusses assessments of the ANSF and the Ministries of
Defense and Interior; gives an overview of U.S. funds used to build, equip,
train, and sustain the ANSF; and provides an update on efforts to combat
the cultivation of and commerce in illicit narcotics in Afghanistan. This sec-
tion also discusses the challenges of transitioning to Afghan-led security by
the end of 2014.


KEY ISSUES AND EVENTS THIS QUARTER
Key issues and events this quarter include President Obama’s announce-
ment of a troop-withdrawal schedule, the release of the Department of
Defense’s (DOD) overseas contingency operations (OCO) budget request
for fiscal year (FY) 2015, continuing U.S. concerns over the lack of a signed
U.S.-Afghan Bilateral Security Agreement (BSA), and the transition of con-
voy and facility security responsibilities from the Afghan Public Protection
Force (APPF) to the ANP. In addition, the United Nations (UN) reported an
increase in violence in Afghanistan.

President Obama Announces Troop-Withdrawal Schedule
The United States will keep troops in Afghanistan after 2014 if the Afghan
government signs a BSA shielding them from prosecution under the Afghan
legal system. Both candidates for president in the Afghan run-off elec-
tion have said they would sign the agreement. On May 27, 2014, President
Obama announced the number of U.S. forces that would remain in
Afghanistan under a BSA.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                87
SECURITY




   The United States has been steadily reducing its troop strength from a
peak of 100,000 in 2011. President Obama announced that from the current
strength of 32,800, the U.S. force will be reduced to approximately 9,800 by
the beginning of 2015. That number will decline by half during 2015; remain-
ing U.S. forces will be consolidated at Bagram Airfield and in Kabul. By the
end of 2016, the force will be reduced to a normal embassy presence with a
security-assistance component.103
   President Obama said post-2014 U.S. objectives are to disrupt threats
posed by al-Qaeda, support Afghan security forces, and give the Afghan
people the opportunity to succeed. He also announced two other missions
after 2014: training Afghan forces and supporting counterterrorism opera-
tions. The president cautioned that Afghanistan will not be a perfect place
nor is it America’s responsibility to make it one.104
    President Karzai released a statement the following day welcoming
President Obama’s decision. However, members of the National Assembly
and civil society expressed concern about the readiness of Afghan security
forces and the withdrawal’s impact on the broader international commit-
ment to Afghanistan.105

ANSF Secures Runoff Election
The ANSF succeeded in securing the runoff presidential election held on
June 14, 2014, despite threats of violence.106 ISAF reported the ANSF con-
ducted non-stop security operations following the initial elections, leading
all aspects of security, and securing approximately 6,200 polling centers
across the country. General Joseph F. Dunford, Commander of ISAF and
U.S. Forces-Afghanistan (USFOR-A) commended the professionalism and
commitment of the ANSF, “Once again, the Afghan security forces have pro-
vided the Afghan people with the opportunity to vote.”
    ANSF performance was consistent with a DOD assessment that the
ANSF emerged from the 2013 fighting season as a competent and confident
force, capable of providing security for Afghanistan.107 During his nomi-
nation hearing, General John F. Campbell testified that “the ANSF have
proven their combat capability through success in two fighting seasons, two
national elections, and multiple high profile events.”108

FY 2015 ASFF Budget Request Increases Funding
for ANSF Sustainment
This quarter, DOD released its FY 2015 Overseas Contingency Operations
(OCO) budget request for the ASFF. The $4.11 billion request is $3.62 billion
less than the FY 2014 request and $617 million less than the final amount
appropriated for FY 2014.109 During FY 2015, Coalition advisors will focus
on capability gaps and on improving systems for logistics, medical care, and
countering improvised explosive devices.110 Over 84% of the request is for
ANSF sustainment costs, such as salaries, fuel, and maintenance—more than




  88                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                          SECURITY




two and a half times the amount appropriated for this purpose in FY 2014.
Although no FY 2014 funding was appropriated for ANP infrastructure,
$15 million was requested in the FY 2015 budget, $10.2 million of which is for
fire department facilities.111 The amounts requested for other funding catego-
ries were far less than the FY 2014 appropriations, as shown in Table 3.6.

TABLE 3.6


AFGHANISTAN SECURITY FORCES FUND
                                                                                   FY 2015 Overseas
                                             FY 2014 ASFF Current            Contingency Operations (OCO)
                                                  Distribution                         Request            Change
 MOD/ANA
 Sustainment                                     $890,078,000                       $2,514,660,000               182.5%
 Infrastructure                                   278,650,000                          20,000,000                 -92.8%
 Equipment and Transportation                   1,688,382,000                          21,442,000                 -98.7%
 Training and Operations                          628,550,000                         359,645,000                 -42.8%
  MOI/ANP
 Sustainment                                     $605,020,000                        $953,189,000                 57.5%
 Infrastructure                                     10,000,000                         15,155,000                 51.6%
 Equipment and Transportation                     167,896,000                          18,657,000                 -88.9%
 Training and Operations                          441,419,000                         174,732,000                 -60.4%
 Related Activities
 Sustainment                                      $14,225,000                         $29,603,000                108.1%
 Infrastructure                                                     0                             0                    NA
 Equipment and Transportation                                       0                             0                    NA
 Training and Operations                             2,500,000                           2,250,000                -10.0%
 Total                                     $4,726,720,000                      $4,109,333,000                    -13.1%
Notes: MOD = Ministry of Defense; MOI = Ministry of Interior.

Sources: DOD, “Justification for FY 2015 Overseas Contingency Operations, Afghanistan Security Forces Fund (ASFF),” 6/2014;
DOD, response to SIGAR data call, 7/17/2014.




   The FY 2015 OCO request for ANA equipment funding is to purchase
light air-support and training aircraft, as well as maintenance, test, and
ground-support equipment for the Afghan Air Force. The additional request
for ANA infrastructure is to fund major projects that the Ministry of Defense
(MOD) has deemed necessary to meet its requirements. The majority of the
ANP equipment and transportation request is to cover transportation costs
of previously procured equipment, such as vehicles, weapons, and radios.
($18.2 million).112

Bilateral Security Agreement Remains Unsigned
The negotiated BSA between the United States and Afghanistan to define
the legal status of U.S. forces in Afghanistan after 2014 remains unsigned.
The final status of the BSA will have a profound impact on the U.S.




REPORT TO THE UNITED STATES CONGRESS                            I   JULY 30, 2014                                 89
SECURITY




military footprint in Afghanistan after 2014, the willingness of the United
States and the international community to continue to finance recon-
struction programs, and on Afghanistan’s ability to maintain progress
in the security, governance, and economic sectors. The U.S. and Afghan
governments agreed on a draft text of the BSA and a Loya Jirga (tribal
assembly) approved the document in November 2013.113 President Hamid
Karzai refused to sign it. However, both candidates in Afghanistan’s runoff
presidential election have said they will sign the BSA if elected.114 NATO
Secretary-General Anders Fogh Rasmussen warned that failure to sign
the BSA by the end of September would cause serious problems for the
Western allies and put future security arrangements in jeopardy.115

Transition of Afghan Public Protection Force Responsibilities
Leaves Project Security Uncertain
The Afghan Public Protection Force (APPF), a state-owned enterprise
under the authority of the Ministry of Interior (MOI), was established to
provide contract-based facility and convoy security services in Afghanistan
following President Karzai’s 2010 decree prohibiting operation of private
security companies.116 However, on February 17, 2014, the Council of
Ministers (COM), acting on President Karzai’s orders, directed the APPF to
be dissolved and its guard functions transitioned to the ANP.117 The United
States has provided more than $51 million to support the APPF, which pro-
vided security for many U.S.-funded programs and projects.118
   In response to a SIGAR request for information about why the APPF was
dissolved, the NATO Training Mission-Afghanistan (NTM-A) explained that
the Minister of Interior on June 10, 2014, told ISAF that the APPF “worked,”
but President Karzai “was not happy with its existence.” It was not clear
why President Karzai was dissatisfied with a program he created. According
to NTM-A, four committees were tasked to develop a plan for transition-
ing APPF operations into the ANP. Although the committees reportedly
completed their work, the Minister of Interior, under considerable pressure
from President Karzai, was dissatisfied with the progress of the transition,
and ordered the APPF’s convoy security operations to transfer to the ANP
on May 22, 2014.119
   NTM-A said that qualified APPF personnel could join the ANP. However,
due to the ANP’s age policy, guards over age 35 would lose their jobs. Those
choosing to transfer to the ANP would be sent to the ANP training academy
and would sign a three-year contract. NTM-A noted that all security opera-
tions would continue under the control of the MOI’s Deputy Minister for
Security and the ANP.120
   The transition of convoy-security responsibilities from the APPF to
the ANP is already creating some legal hurdles for the United States.
The United States contributes to the Law and Order Trust Fund for
Afghanistan (LOTFA), which covers ANP salaries and expenses. Because




  90                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                           SECURITY




the APPF was a state-owned enterprise not funded by LOTFA, the United            APPF transition to the ANP leads to legal
States paid for its services on a contract basis. However, with the ANP          issues as U.S. development funding cannot
assuming convoy-security responsibilities from the APPF, CSTC-A                  be used for police services.
believes the United States can no longer legally pay for those services          Source: CSTC-A, response to SIGAR data call, 7/1/2014.

because it would, in effect, be paying double. Accordingly, on May 23,
2014, USFOR-A stopped paying the security fees for APPF services.
Unfortunately, provincial police chiefs, who would assume convoy-secu-
rity duties within their jurisdiction, have indicated they do not have the
personnel, fuel, and vehicles necessary to cover this new requirement.
NTM-A stated that “discussions indicate MOI is working to establish a pro-
cess closely resembling APPF in order to mitigate concerns.”121 This again
raises the question of why the APPF is being dissolved.
    Static security—guarding fixed facilities—has also been affected by the
transition. As of June 30, 2014, the APPF provided security for five ISAF
forward operating bases (FOBs); another 22 FOBs were secured by private
security companies. NTM-A said salary payments to FOB guards have now
been interrupted by the MOI’s “directed blockage of funds” to pay them.122
However, NTM-A noted that the MOI’s current plan for transitioning static-
security responsibilities could also create the same legal hurdles for the
United States as with convoys.123 USAID and its implementing partners rely
on APPF to provide site security for nearly $2 billion in development-assis-
tance projects. Their implementing partners currently have 26 contracts
with the APPF state-owned enterprise valued at over $13 million. CSTC-A
reported that without security, USAID cannot continue some of its projects.
CSTC-A also reported the U.S. Foreign Assistance Act prohibits USAID
funds from being used to fund the services of police or soldiers. In order
to comply with U.S. law, USAID needs written confirmation from the MOI
that services will continue to be provided by security guards, as had been
the case with the APPF state-owned enterprise. According to NTM-A, ISAF,
USAID, and others are assessing the viability and feasibility of MOI pro-
posed solutions.124
    According to NTM-A, the most recent tally showed that the APPF com-
prised 19,912 personnel, including approximately 3,800 convoy-security
guards. However, this does not take into account the recent transitions.
NTM-A reported that “verifying exact numbers is not possible at this time.”125
It is unclear what the APPF or its successor organization will look like.
    According to NTM-A, the MOI has admitted to making mistakes and is
“working to find a way to effectively transition security services without
impacting security services.”126 A senior MOI official said they should have
developed, reviewed, approved, and implemented a plan. Instead, they were
told to make a change, which they did, without a clear plan in place. NTM-A
noted that, “In addition to affecting ISAF interests, USAID, U.S. Embassy,
and other elements within the International Community are impacted with
respect to projects within their interests.”127




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                91
                                                             SECURITY




                                                             UN Reports Afghan Violence on the Rise
                                                             According to the UN Secretary-General, the conflict in Afghanistan is
                                                             intensifying. In his June 18 report to the UN Security Council, the Secretary-
                                                             General said that the first quarter of 2014 had the second-highest level of
                                                             violence since the fall of the Taliban; 2011 had the highest. Between March 1
  In the first half of 2014,                                 and May 31, 2014, the number of security incidents increased by 22% versus
 UNAMA observed a direct                                     the same period a year earlier. The increase is attributed mainly to the elec-
                                                             tion, with 476 security incidents recorded on polling day.130 The majority of
    correlation between                                      the 5,864 security incidents occurred in the south, south-east, and east.131
  closures [of ISAF bases]                                   Armed clashes and improvised explosive device (IED) events accounted
    and a rise in civilian                                   for 74% of all security incidents.132 In a worrying sign of spreading conflict,
 casualties in some areas.                                   ground combat is causing more deaths and injuries than IEDs, with women
                                                             and children increasingly caught in the crossfire.133
                                                                “The nature of the conflict in Afghanistan is changing in 2014 with an
                  — UN Secretary-General                     escalation of ground engagements in civilian-populated areas,” warned Ján
                                                             Kubiš, the UN mission chief in Afghanistan. “The impact on civilians, includ-
Source: UNAMA, Afghanistan Midyear Report 2014, Protection
                                                             ing the most vulnerable Afghans, is proving to be devastating.”134 The United
of Civilians in Armed Conflict, 7/2014, p. 7.                Nations Assistance Mission in Afghanistan (UNAMA) observed a direct
                                                             correlation between ISAF base closures and the rise in civilian casualties.135
                                                             Additionally, the UN recorded 229 assassinations and failed assassination
                                                             attempts, an increase of 32% over the same period in 2013.136


Coalition Forces Withdraw                                    U.S. FORCES IN AFGHANISTAN
Denmark’s mission in Afghanistan came to                     According to ISAF, 32,800 U.S. forces were serving in Afghanistan as of
an end with a ceremony at Camp Bastion                       June 30, 2014. Approximately 17,102 Coalition forces were serving as of
on May 20, 2014. This year marked their                      June 1, 2014.137 On May 27, 2014, President Obama announced U.S. forces in
17th rotation and final deployment to                        Afghanistan will reduce to approximately 9,800 by January 2015 and will be
Afghanistan. Throughout their mission, over                  reduced further throughout 2015.138 Since operations began in 2001, a total
18,000 Danish soldiers deployed and 33
                                                             of 2,197 U.S. military personnel have died in Afghanistan—83% of whom
were killed in action.128 Romania ended its
                                                             were killed in action—and 19,728 were wounded as of July 3, 2014.139
combat operations on June 29, 2014, but
will continue its support operations.129

                                                             DOD REPORTS STEPS TO IMPROVE CONTRACT
                                                             MANAGEMENT
                                                             DOD has advised SIGAR of several steps taken to address what a January
                                                             2012 contracting conference identified as the “failure to enforce exist-
                                                             ing standards, policies and procedures by all entities” involved in federal
                                                             contracting in Afghanistan. The conclusion appeared in a memo on the
                                                             contracting “shura” or conference in Kabul attended by more than 100 rep-
                                                             resentatives of U.S. Central Command (CENTCOM), USFOR-A, ISAF Joint
                                                             Command, contracting organizations, and others.140 As described in prior
                                                             SIGAR quarterly reports, SIGAR has repeatedly asked about follow-up steps




                                                               92                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                          SECURITY




for the shura, whose summary memo also noted “poor accountability” for
failure to enforce standards, policies and procedures.”141
   In response to a fourth SIGAR request for information on the mea-
sures taken to address deficiencies in the contracting process, DOD has
now reported that “initiatives to improve adherence to existing stan-
dards, policies, and procedures for Contingency Contracting Officers
and Contingency Contracting Officer’s Representatives” (CORs) include
new certification standards and curriculum content; efforts to improve
acquisition workforce staffing; distribution of 40,000 copies of new COR
handbooks and increased Internet information; joint exercises in con-
tract support; a web-based COR tracking tool to manage the nomination,
training, and tracking of CORs and their assigned contracts; a contract
command officer liaison at CSTC-A to assist in building Afghan contracting
capacity; and “numerous policy documents,” expanded guidance, and com-
pliance monitoring for contracting entities.142
   SIGAR is reviewing the details of DOD’s response to questions on the
important issues of contract management, oversight, compliance, and
accountability, and will seek further information on the practical impacts of
follow-up steps to the 2012 contracting shura. SIGAR is also reviewing the
response to determine if DOD substantively addressed the full set of ques-
tions posed.


ANSF STRENGTH
This quarter, ANSF’s assigned force strength was 340,293, according to
CSTC-A.143 This is 97% of the ANSF’s end-strength goal of 352,000 ANSF                                                                SIGAR AUDIT
personnel. DOD’s goal to reach 352,000 ANSF by 2014 (187,000 ANA by
                                                                                                                                      An ongoing SIGAR audit is assessing
December 2012, 157,000 ANP by February 2013, and 8,000 Air Force by
                                                                                                                                      the reliability and usefulness of data
December 2014) has mostly been met.144 The ANA and ANP are within 3% of
                                                                                                                                      on the number of ANSF personnel
their target end strength and the Air Force (expected to reach its goal at the
                                                                                                                                      authorized, assigned, and trained.
end of the year) is within 16%, as shown in Table 3.7. However, as noted on
the following page, ANA strength continues to include civilian personnel.

TABLE 3.7


ANSF ASSIGNED FORCE STRENGTH, MAY 2014
                                                                                                                                  Difference Between Current Strength and Target
 ANSF Component                                       Current Target                           Status as of 5/2014                              End-Strength Goals
 Afghan National Army                 187,000 personnel by December 2012                         181,439 (97%)                                        -5,561 (3%)
 Afghan National Police               157,000 personnel by February 2013                         152,123 (97%)                                        -4,877 (3%)
 Afghan Air Force                     8,000 personnel by December 2014                              6,731 (84%)                                       -1,269 (16%)
 ANSF Total                           352,000                                                  340,293 (97%)                                        -11,707 (3%)
Sources: DOD, Report on Progress Toward Security and Stability in Afghanistan, 12/2012, p. 56; CSTC-A, response to SIGAR data call, 7/1/2014; SIGAR analysis.




REPORT TO THE UNITED STATES CONGRESS                        I   JULY 30, 2014                                      93
                                                               SECURITY




TABLE 3.8


CIVILIANS COUNTED TOWARD ANA STRENGTH
                                                                  2012                                            2013                                   2014
                                                         Q2        Q3          Q4             Q1            Q2            Q3           Q4         Q1             Q2
 Civilians Included in Force Strength?                   Yes       No          No             No            Yes           Yes          Yes        Yes            Yes
 Number of Civilians Included                            NA        NA          NA             NA          7,806          8,698        9,336      9,486          9,647
Note: Reflects calendar year quarters; NA = Unknown.

Source: CSTC-A responses to SIGAR data calls, 7/1/2014, 3/31/2014, 1/6/2014, 10/1/2013, 7/2/2013, 4/1/2013, 1/2/2013, 10/1/2012, and 7/2/2012.



                                                               ANA Civilians Still Count Toward ANSF Strength
                                                               SIGAR has long been concerned about the issue of civilians being counted
     “Civilians have to be                                     as part of ANA force strength. In July 2012, CSTC-A told SIGAR that civil-
 reflected against ANA end                                     ians were included in the assigned strength of the ANA.145 In October 2012,
                                                               CSTC-A said that civilians had been accounted for and removed from the
  strength if the 352K goal                                    ANA’s “end strength number.”146 However, after a few quarters, civilians
 [for the ANSF] is to be the                                   were again included in the ANA’s force strength, as reflected in Table 3.8.
    point of comparison.”                                      This quarter, CSTC-A reported 9,647 civilians in the force strength of the
                                                               ANA and Afghan Air Force.147
                                                                  According to CSTC-A, the 187,000 authorized positions in the ANA
Source: CSTC-A, response to SIGAR vetting, 4/10/2014.
                                                               includes civilians and that “civilians have to be reflected against ANA end
                                                               strength if the 352K goal [for the ANSF] is to be the point of comparison.”148
                                                                  In February 2012, a DOD Office of the Inspector General (OIG) report
                                                               identified the issue of and risks associated with civilians being counted as
                                                               part of the ANA. In that report, the DOD OIG found that ANA finance offi-
                                                               cers had “coded” civilian personnel as military or armed forces personnel
                                                               and included them for payment by CSTC-A, despite an agreement between
                                                               NTM-A/CSTC-A and the MOD that only military personnel would be reim-
                                                               bursed. At that time, CSTC-A finance personnel were unaware that civilians
                                                               had been included for military pay.149
  Tashkil: Lists of personnel and equipment                       According to CSTC-A, U.S. funding is provided assuming 100% tashkil, or
  requirements used by the MOD and MOI                         authorized staffing.150 This raises the question: is the United States still pay-
  that detail authorized staff positions                       ing civilian salaries?
  and equipment items. The word means                             According to the Center for Naval Analyses (CNA) independent assess-
  “organization” in Dari.                                      ment released last quarter, “uniformed ANSF positions in the MOD and MOI
                                                               should be civilianized. If civilians with the appropriate expertise cannot be
                                                               recruited or trained for these positions—or if active-duty ANSF personnel
Source: GAO, GAO-08-661, Afghanistan Security, 6/2008,         cannot be transitioned to the civil service—then ANSF force structure will
p. 18.
                                                               need to be increased to accommodate them.”151

                                                               ANSF Assessment
                                                               Assessments of the ANA and ANP are indicators of the effectiveness of
                                                               U.S. and Coalition efforts to build, train, equip, and sustain the ANSF. These
                                                               assessments provide both U.S. and Afghan stakeholders with updates on




                                                                 94                      SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                           SECURITY




the status of these forces as transition continues and Afghanistan assumes
responsibility for its own security. ISAF uses the Regional ANSF Status
Report (RASR) to rate the ANSF.152
    According to ISAF Joint Command (IJC), the RASR provides a monthly
operational-level update on readiness, long-term sustainability, and asso-
ciated shortfalls of the ANA and ANP.153 The RASR uses rating definition
levels (RDLs), based upon ANSF capabilities, to assess ANSF units at the
brigade level.154 The RDLs use an assessment matrix tailored to the specific
unit type (e.g. infantry, intelligence, signals) and identifies the capabilities
a unit must possess in order to be assessed “Fully Capable.” According to
IJC, “this simplified system is easily observable, not as labor intensive or
complex [as the previous system], and could form the basis of Afghan ‘self
reporting’ as ISAF continues to draw down.”155
    A February 2014 report by SIGAR found that as Coalition forces withdraw,
the IJC will have less insight into the ANSF’s capabilities and rely more on
the ANSF for assessment data.156 ISAF will continue to use the RASR in this
situation as long as it provides substantial value to understanding the ANSF.157
To address the decreased insight, ISAF developed a four-point plan: continue
the RASR at ANA corps level and ANP brigade level; make partnered staff-
assistance visits focused on units not covered by Coalition advisors; mature
ANA and ANP readiness-reporting systems; and use a recently established
Security Force Assistance working group to build long-term Afghan sustain-
ability. ISAF’s Security Force Assistance resources are being realigned to focus
on developing eight essential functions within the ANSF.158
    The RASR rates ANA brigades in six areas:159
 •	 Combined Arms (planning and conducting joint operations using
    multiple types of weapons)
 •	 Leadership
 •	 Command & Control
 •	 Sustainment
 •	 Training (conducting training)
 •	 Attrition

   For the ANA, the latest RASR report provides assessments of 24 brigades
(22 brigades within corps and two brigades of the 111th Capital Division).
Of those, 92% were “fully capable” or “capable” of planning and conduct-
ing joint and combined-arms operations. This is an increase from the 87%160
assessed at those levels last quarter.161 This was due to one brigade improv-
ing from “partially capable” to “capable” and one brigade, not assessed last
quarter but earlier deemed “capable,” being assessed as “capable.” In most
assessment categories, the ANA’s capability showed some improvement, as
shown in Table 3.9 on the following page.162
   According to the latest RASR report, the delivery of radios over the last
two months dramatically improved the materiel readiness of 207th Corps




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                  95
                                                                  SECURITY




TABLE 3.9


REGIONAL ANSF STATUS REPORT - ANA ASSESSMENTS, QUARTERLY CHANGE
                                                      Fully Capable                 Capable                Partially Capable                 Developing                     Not Assessed
                                                 Q1       Q2     +        —    Q1      Q2     +        —   Q1       Q2     +        —   Q1        Q2      +        —   Q1        Q2     +        —
 Combined Arms Operations                         8       8          0         12      14         2        3        2          -1       0         0           0        1         0          -1
 Leadership                                      15       16         1         6       6          0        2        2          0        0         0           0        1         0          -1
 Command & Control                                9       12         3         14      12         -2       0        0          0        0         0           0        1         0          -1
 Sustainment                                      6       5          -1        11      14         3        6        5          -1       0         0           0        1         0          -1
 Training                                         6       6          0         13      14         1        3        3          0        1         1           0        1         0          -1
 Attrition                                        1       5          4         9       8          -1       0        0          0        14        11          -3       0         0          0

Notes: Numbers represent brigades. Attrition assessment is based on the following monthly attrition rates: 0–1.99% = Fully Capable; 2–2.99% = Capable; 3%+ = Developing. Quarters are
calendar-year.

Sources: IJC, March 2014 RASR Status Report, Executive Summary, 4/9/2014; IJC, June 2014 RASR Status Report, Executive Summary, 6/1/2014.




                                                                  communication equipment. However, other units had a shortage of radios,
                                                                  and most corps have shortages of machine guns, fuel, and water trucks.163
                                                                  This quarter, the ANA’s equipment readiness status reflected a reduction
                                                                  in the number of equipment types where it met or exceeded the amount
                                                                  of equipment authorized to fulfill its mission.164 IJC noted that sustainment
                                                                  continues to be an impediment for progress for the ANA, mainly as a result
                                                                  of a supply system in which headquarters determines what is to be requisi-
                                                                  tioned, and slow resupply of spare parts.165
                                                                      Significant improvement was reported in attrition with 54% of brigades
The first sale of useable non-military                            rated “fully capable” or “capable,” an increase over the 42% rated last
vehicles, appliances, and furniture no
                                                                  quarter. Forty-six percent of brigades were still considered “developing,”
longer needed by the United States took
place in Bagram on June 25, 2014, the                             meaning that attrition in these brigades is 3% or more per month. However,
first of several planned across Afghanistan.                      this is a notable improvement from the last two quarters, when 58% and 71%
(ISAF photo)                                                      were rated as “developing.”166 In other areas, most ANA brigades were rated
                                                                  “fully capable” or “capable,” including leadership (92%), command and con-
                                                                  trol (100%), sustainment (79%), and training (83%).167
                                                                      The RASR rates ANP components in six areas:168
                                                                   •	 Law Enforcement Operations (making arrests and prosecuting
                                                                      those arrested)
                                                                   •	 Leadership
                                                                   •	 Command & Control
                                                                   •	 Sustainment
                                                                   •	 Training (conducting training)
                                                                   •	 Attrition

                                                                     For the ANP, the latest RASR report provides assessments of 18
                                                                  of 22 regional ANP components—the Afghan Uniform Police (AUP),
                                                                  Afghan Border Police (ABP), and the Afghan National Civil Order Police
                                                                  (ANCOP)—in seven different zones. IJC notes the four components were




                                                                          96                           SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                                                            SECURITY




TABLE 3.10


REGIONAL ANSF STATUS REPORT - ANP ASSESSMENTS, QUARTERLY CHANGE
                                                      Fully Capable                Capable                 Partially Capable                   Developing                     Not Assessed
                                                 Q1       Q2     +        —   Q1       Q2     +        —   Q1       Q2     +        —     Q1       Q2       +        —   Q1        Q2    +        —
 Law Enforcement Operations                       5       2          -3       10       10         0        3        5          2          0         1           1        3         4         1
 Leadership                                      10       6          -4       6        8          2        2        2          0          0         0           0        3         6         3
 Command & Control                                5       5          0        9        10         1        4        3          -1         0         0           0        3         4         1
 Sustainment                                      4       1          -3       12       12         0        2        5          3          0         0           0        3         4         1
 Training                                         5       2          -3       9        8          -1       3        6          3          1         2           1        3         4         1
 Attrition                                        7       10         3        4        5          1        0        0          0          9         7           -2       1         0         -1

Notes: Numbers represent brigades. Attrition assessment is based on the following monthly attrition rates: 0–1.99% = Fully Capable; 2–2.99% = Capable; 3%+ = Developing. Quarters are
calendar-year.

Sources: IJC, March 2014 RASR Status Report, Executive Summary, 4/9/2014; IJC, June 2014 RASR Status Report, Executive Summary, 6/1/2014.




not assessed due to reduced Security Force Assistance Advisory Teams cov-
erage.169 Of the 18 that were assessed, 67% were “fully capable” or “capable”                                                        “If we leave at the end of
of carrying out law-enforcement operations, as shown in Table 3.10. The
                                                                                                                                     2014, the Afghan security
RASR defines law-enforcement operations as “making arrests and pros-
ecuting those arrested.”170 The common shortfalls are lack of investigative,                                                             forces will begin to
evidence collection, and crime-scene processing skills.171                                                                            deteriorate, the security
   IJC noted that ANP rates of materiel readiness or equipment levels are                                                            environment will begin to
generally similar to the previous reporting period.172 Attrition has improved,                                                      deteriorate, and I think the
but continues to be a challenge for the ANP as 32% of regional components
are considered “developing,” meaning attrition in these units is 3% or more
                                                                                                                                     only debate is the pace of
per month. That is a reduction since last quarter, when 45% of regional com-                                                             that deterioration.”
ponents were considered “developing.” In other areas, the ANP regional
components are mostly “fully capable” or “capable”: leadership (88%), com-                                                                     —General Joseph F. Dunford
mand and control (83%), sustainment (72%), and training (56%).173
   Notwithstanding the RASR assessments, General Joseph F. Dunford,
Commander of ISAF and USFOR-A, has told the Congress that the ANSF                                                                  Source: U.S. Senate Committee on Armed Services, Hearing
                                                                                                                                    to Receive Testimony on the Situation in Afghanistan,
will need continued support after 2014.174                                                                                          3/12/2014, p. 13.



ANSF to Begin Providing Literacy Training
Although the NTM-A said it met its goal to have 100,000 ANSF person-
nel (both ANA and ANP) functionally literate by December 2014, NTM-A
is unable to confirm how many of those trained personnel are still in the
ANSF, based on the lack of personnel-tracking capabilities within the
ANSF.175 This raises the question: was the intent of the goal to train 100,000
personnel or to have 100,000 functionally literate personnel in the ANSF?176
NTM-A estimated that “due to attrition less than 30% of the ANSF will be
functionally literate [level 3 literacy] by the end of December 2014.”177
   Level 1 literacy is the ability to read and write single words, count up
to 1,000, and add and subtract whole numbers. At level 2, an individual




REPORT TO THE UNITED STATES CONGRESS                       I   JULY 30, 2014                                      97
SECURITY




can read and write sentences, carry out basic multiplication and division,
and identify units of measurement. At level 3, an individual has achieved
functional literacy and can “identify, understand, interpret, create, commu-
nicate, compute, and use printed and written materials.”178
   Since 2009, NTM-A has viewed increasing literacy rates as critical to
developing a capable, professional, and sustainable ANSF. NTM-A said
Coalition forces consider literacy a cornerstone of education.179 A former
NTM-A commander, Lieutenant General William B. Caldwell, estimated that
the ANSF’s overall literacy rate in 2010 was 14%.180 At the time, NTM-A set
a goal of having the ANSF achieve 100% proficiency for level 1 literacy and
50% proficiency at level 3 literacy by the end of 2014. NTM-A’s goals were
based on the ANSF’s 2009 authorized strength of 148,000 personnel rather
than on the current authorized strength of 352,000.181
   As of June 30, 2014, NTM-A reported that 104,042 ANSF personnel have
completed the level 3 literacy course, as shown in Table 3.11.
TABLE 3.11


ANSF LITERACY TRAINING, AS OF JUNE 30, 2014
 Literacy Trained                  ANA                ANP      Total ANSF      Goal End 2014
 Level 1                        176,668               97,097   273,765          Up to 300,000
 Level 2                          63,159              63,504   126,663       120,000–130,000
 Level 3                          61,623              42,419   104,042       100,000–110,000
Source: CSTC-A, responses to SIGAR data call, 6/30/2014.


   From 2010 through 2013, the United States has funded three literacy con-
tracts for the ANSF. In 2014, the NATO Trust Fund will provide $24.6 million
for literacy contracts. The final task orders will expire on December 31,
2014. The MOD and MOI will then assume total program management and
contracting responsibility for the literacy and language programs.182 NTM-A
is assisting the MOD and MOI in planning and implementing the literacy
training program transition.
   Acting on recommendations made in the January 2014 SIGAR audit
report on the ANSF literacy training program (SIGAR Audit 14-30-AR),
NTM-A implemented a change that has increased program efficiency.
Specifically, NTM-A now hosts monthly working-level meetings with the
ANSF and the literacy contractors to address program-execution issues.183
NTM-A also noted they halted the use of language in their contracts that
gave contractors too much flexibility in course delivery. As a result, overall
graduation rates for the first five months of 2014 compared to the last five
months of 2013 have noticeably increased (level 1 increased 54%; level 2
increased 116%; level 3 increased 77%).184
   The SIGAR audit highlighted NTM-A’s inability to fully measure the
effectiveness of the literacy program for lack of independent verification
of testing or personnel tracking.185 NTM-A proposed an improved program




    98                          SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                                                              SECURITY




plan, incorporating five years of lessons learned, for the MOD and MOI.
NTM-A recommended that ANSF utilize the Ministry of Education (MOE)
for personnel verification and tracking and capitalize on the MOE’s “train
the trainer” capability currently being developed.186
   It is noteworthy that both the MOD and MOI agreed to full ownership
of their respective literacy programs beginning January 1, 2015. The ANSF,
with the advice and assistance of NTM-A, is postured to have finalized pro-
gram plans with validated requirements that focus on two specific lines of
effort by July 31, 2104:
•	 centralized institutional literacy training for new recruits at regional
    training centers
•	 continued development of a literacy-training capability via a train-the-
    trainer program
NTM-A will continue to assist, but MOD and MOI procurement advisors will
take the lead for the final transition in January 2015.187


MINISTRY OF DEFENSE AND MINISTRY OF INTERIOR
ASSESSMENTS
DOD reported this quarter no improvements in developing MOD and MOI
capacity to perform critical functions, as shown in Figure 3.26. To rate
FIGURE 3.26

CAPABILITY MILESTONE RATINGS OF MOD AND MOI, QUARTERLY STATUS

                                                               Ministry of Defense                                                                 Ministry of Interior

CM-1A: capable of                               1                                                                                              3
autonomous operations          CM-1A                                                                              CM-1A
                                           0                                                                                                   3
CM-1B: capable of                                                      6                                                                                               10
executing functions with       CM-1B                                                                              CM-1B
Coalition oversight only                                               6                                                                                                                   16
CM-2A: capable of                                                               9                                                                              7
executing functions with       CM-2A                                                                              CM-2A
minimal Coalition assistance                                                    9                                                                  5

CM-2B: can accomplish its                                                                                    17                                                        10
mission but requires some      CM-2B                                                                              CM-2B
Coalition assistance                                                                                    16                                                 6
CM-3: cannot accomplish its                                4                                                                           2
mission without significant     CM-3                                                                              CM-3
Coalition assistance                                       4                                                                           2

CM-4: exists but cannot                    0                                                                                  0
accomplish its mission          CM-4                                                                              CM-4
                                           0                                                                                  0

                                       0             3             6        9           12        15         18           0                3           6           9        12       15         18


                                               Q1 2014 MOD Staff Sections           Q2 2014 MOD Staff Sections                    Q1 2014 MOI Staff Sections           Q2 2014 MOI Staff Sections


Note: Quarters are calendar-year.
Sources: CSTC-A, responses to SIGAR data call, 3/31/2014, 7/1/2014, and 7/3/2014.




REPORT TO THE UNITED STATES CONGRESS                           I   JULY 30, 2014                                  99
                                         SECURITY




                                         the operational capability of these ministries, NTM-A uses the Capability
                                         Milestone (CM) rating system. This system assesses staff sections (such
                                         as the offices headed by assistant or deputy ministers) and cross-func-
                                         tional areas (such as general staff offices) using four primary and two
                                         secondary ratings:188
                                         •	 CM-1A: capable of autonomous operations
                                         •	 CM-1B: capable of executing functions with Coalition oversight
                                         •	 CM-2A: capable of executing functions with minimal Coalition assistance
                                         •	 CM-2B: can accomplish its mission but requires some Coalition assistance
                                         •	 CM-3: cannot accomplish its mission without significant Coalition
                                            assistance
                                         •	 CM-4: exists but cannot accomplish its mission

                                            This quarter, SIGAR was provided CM ratings for 35 MOD staff sections
                                         and cross-functional areas, down from 37 last quarter and 46 in quarters
                                         prior. Six offices were rated CM-1B; the others are not expected to attain
                                         this rating until after 2014. The only office that had achieved the top rat-
SIGAR SPECIAL PROJECT                    ing of CM-1A as of last quarter, the Communications Support Unit, did not
In a Special Project report released     retain that rating this quarter.189
last year, SIGAR found that CSTC-A had      All 32 staff sections at the MOI were assessed; 10 progressed and none
not conducted a comprehensive risk       regressed since last quarter, according to CENTCOM. However, the pro-
assessment of the capabilities of the    jected date for three staff sections to achieve CM-1B was extended from
MOD and MOI to manage and account        one quarter to one year.190 Three MOI staff sections are rated CM-1A:
for U.S. direct-assistance dollars, of   the Chief of Staff Public Affairs Office, the Deputy Minister for Security
which $4.2 billion has been committed    Office of the Afghan National Civil Order Police, and the Deputy Minister
and nearly $3 billion disbursed.         of Security for Force Readiness. In addition, 16 MOI staff sections have
                                         attained a CM-1B rating; an increase of six since the last reporting period.191


                                         AFGHAN LOCAL POLICE
                                         The Afghan Local Police (ALP) is under MOI authority and functions
                                         under the supervision of the district Afghan Uniform Police. ALP mem-
                                         bers are selected by village elders or local power brokers to protect their
                                         communities against Taliban attack, guard facilities, and conduct local
                                         counterinsurgency missions.192 As of June 1, 2014, the ALP comprised
                                         26,698 personnel, all but 1,625 of whom were fully trained, according to the
                                         NATO Special Operations Component Command-Afghanistan (NSOCC-A).
                                         The current goal is to have 30,000 personnel in 150 districts by the end of
                                         December 2014.193
                                            As of June 11, 2014, nearly $214 million of the ASFF had been obligated
                                         and expended to support the ALP. According to NSOCC-A, the ALP will cost
                                         $121 million per year to sustain once it reaches its target strength. To date
                                         the United States has provided the ALP with 23,246 AK-47 rifles, 4,045 PKM
                                         machine guns, 2,057 light trucks, 4,950 motorcycles, and 2,686 radios.194




                                          100                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                           SECURITY




    According to NSOCC-A, between June 1, 2013, and May 31, 2014, the
ALP had a retention rate of 84.5%. During that period, 691 ALP personnel
quit their job, 118 were fired, and 2,038 left due to undefined administrative
actions and other losses. NSOCC-A reported that 1,028 or about 4.1% of the
force were killed in action.195
    According to an independent assessment released last quarter, public
perceptions of ALP’s value to community security were overall very posi-
tive: the ALP was perceived as a crucial Afghan-owned and Afghan-led
institution, although with room for improvement.196 Those who reported
negative perceptions were usually responding to the actions of neighboring
communities’ ALP units. The assessment found that reports of unpaid ALP
salaries rose dramatically. The unpaid ALP units were accused of preda-
tory behavior, corruption and criminality.197 The assessment, conducted by
NSOCC-A and based on data provided by Eureka Research and Evaluation
                                                                                 SIGAR AUDIT
focus-group surveys in ALP districts, reports that future ALP success can be     SIGAR announced an audit this
achieved with:198                                                                quarter on the Combined Joint Special
 •	 support and supervision from the ANP                                         Operations Task Force-Afghanistan’s
 •	 transparent, locally-owned recruitment processes                             implementation of the Afghan Local
 •	 balanced tribal representation                                               Police program. For more information,
 •	 regular information exchanges between community leaders and ALP              see Section 2, page 29.
    commanders


AFGHAN NATIONAL ARMY
As of June 30, 2014, the United States had obligated $33.1 billion and dis-
bursed $31.9 billion of ASFF funds to build, train, and sustain the ANA.199

ANA Strength
As of June 30, 2014, the overall end strength of the ANA was 188,170
personnel (181,439 Army and 6,731 Air Force), according to CSTC-A.200
However, as noted previously, these numbers include 9,394 ANA civilians
and 253 Air Force civilians. The total is more than 96% of its combined
end-strength goal of 195,000 ANA personnel. Most components increased,
but the numbers of assigned personnel in the ANA’s 111th Capital Division
declined for a second quarter. The number of personnel in training also
declined, as shown in Table 3.12 on the following page. Personnel absent
without leave (AWOL) increased from 5,154 last quarter to 5,746 this
quarter, but were still significantly less than the AWOL count from the last
quarter of 2013 (10,292).201
   According to the DOD-commissioned independent assessment by the CNA
released last quarter, “Afghanistan has a significant need for special opera-
tions forces [SOF], but the ANSF cannot support more SOF.”202 CNA also said
“ANA SOF currently depends on the U.S. and ISAF for logistics, intelligence,
and air mobility. Simply increasing the number of ANA SOF personnel without




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014               101
                                                            SECURITY




                                                            TABLE 3.12


                                                            ANA STRENGTH, QUARTERLY CHANGE
                                                                                                         Authorized                                    Assigned
                                                                                                                        Quarterly                                  Quarterly
                                                             ANA Component                 Q1 2014        Q2 2014        Change          Q1 2014       Q2 2014      Change
                                                             201st Corps                      18,130         18,130        None            17,489         17,606       117
                                                             203rd Corps                      20,798         20,798        None            20,029         22,114     2,085
                                                             205th Corps                      19,097         19,097        None            17,891         18,534       643
                                                             207th Corps                      14,879         14,879        None            13,806         14,204       398
                                                             209th Corps                      15,004         15,004        None            14,554         14,674       120
                                                             215th Corps                      17,555         17,555        None            16,310         16,999       689
                                                             111th Capital Division            9,174          9,174        None             8,921          8,356      -565
                                                             Special Operations Force         12,149         11,013       -1,136           10,458         10,649       191
                                                             Echelons Above Corpsa            34,866         36,002       1,136            29,727         36,610     6,883
                                                             TTHSb                                   -              -           -          24,356c       12,299d   -12,057
                                                             Civilians                               -              -           -           9,236          9,394       158
                                                             ANA Total                     161,652       161,652          None           182,777       181,439     -1,338
                                                             Afghan Air Force (AAF)            7,097          7,370          273            6,513          6,478       -35
                                                             AAF Civilians                           -              -           -              250           253         3
                                                             ANA + AAF Total               168,749       169,022            273          189,540       188,170     -1,370
                                                            Notes: Quarters are calendar-year; Q1 2014 data is as of 3/31/2014; Q2 2014 data is as of 5/31/2014.
                                                            a	Includes MOD, General Staff, and Intermediate Commands
                                                            b	Trainee, Transient, Holdee, and Student; these are not included in counts of authorized personnel.
                                                            c	Includes 4,701 cadets
                                                            d	Includes 5,157 cadets


                                                            Source: CSTC-A, responses to SIGAR data calls, 3/31/2014 and 7/1/2014.


“I view it as serious and so
                                                            addressing these support requirements would not increase the overall capabil-
do all the commanders. I’m                                  ity of SOF to disrupt insurgent and terrorist networks.”203
 not assuming that those
casualties are sustainable.”                                ANA Attrition
                                                            Attrition continues to be a major challenge for the ANA. Between June
            —General Joseph F. Dunford                      2013 and May 2014, 39,136 ANA personnel were dropped from ANA rolls.
                                                            The ANA has suffered serious losses from fighting. Between March 2012
                                                            and May 2014, 2,330 ANA personnel were killed in action (KIA) and 12,696
Source: ISAF Commander General Joseph F. Dunford, on        were wounded in action (WIA).204 In a media interview in September 2013,
casualties in the ANSF, interview with The Guardian (UK),
9/2/2013.                                                   General Joseph F. Dunford expressed his concern about ANSF casualties.205

                                                            ANA Sustainment
                                                            As of June 30, 2014, the United States had obligated $12.5 billion and dis-
                                                            bursed $12.3 billion of ASFF funds for ANA sustainment.206

                                                            ANA Salaries, Food, and Incentives
                                                            As of June 30, 2014, CSTC-A reported that the United States had provided
                                                            $2.4 billion through the ASFF to pay for ANA salaries, food, and incentives




                                                              102                           SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                                                                                    SECURITY




since FY 2008. CSTC-A also estimated the annual amount of funding
required for ANA base salaries, bonuses, and incentives at $693.9 million.
Since December 21, 2013, CSTC-A no longer provides funding for food.
However, CSTC-A noted that when funding was provided, it was on the
basis of 100% of the ANA’s authorized strength.207

ANA Equipment, Transportation, and Sustainment
Determining the amount and cost of equipment provided to the ANA
remains a challenge. After a year of decreasing total costs for weapons pro-
                                                                                                                     SIGAR AUDITS
cured for the ANA—a cumulative total that should rise rather than fall                                               In an audit report released this quarter,
every quarter—CSTC-A reported a slight increase last quarter. This quarter,                                          SIGAR found that DOD needs to take
CSTC-A reported no change. Between April 2013 and December 2013, the                                                 actions to account for and safeguard
total reported cost for weapons purchased for the ANA decreased from                                                 the small arms it supplies to the ANSF.
$878 million to $439 million. However in April 2014, CSTC-A reported total                                           When SIGAR compared the data in
costs of $461 million. The trend in total ANA weapons, vehicles, and com-                                            the two systems DOD uses to maintain
munication equipment costs is shown in Table 3.13.                                                                   information on the weapons, it found
                                                                                                                     that the databases did not always
TABLE 3.13
                                                                                                                     match; some records were duplicated,
CUMULATIVE U.S. COSTS TO PROCURE ANA EQUIPMENT ($ MILLIONS)                                                          and some records were incomplete.
                                 Weapons               Vehicles          Communications             Total            For more information, see Section 2,
 April 2013                      $878.0               $5,556.5              $580.5                $7,015.0           page 24.
 July 2013                        622.8                 5,558.6              599.5                 6,780.9
 October 2013                     447.2                 3,955.0              609.3                 5,011.5
 December 2013                    439.2                 4,385.8              612.2                 5,437.2           A SIGAR audit this quarter on ANA
 March 2014                       461.2                 4,385.8              670.3                 5,517.3           Mobile Strike Force Vehicles (MSFV)
 July 2014                        461.2                 4,385.8              670.3                 5,517.3           found that the security environment
Source: CSTC-A, responses to SIGAR data calls, 4/1/2013, 7/2/2013, 10/1/2013, 12/30/2013, 3/31/2014, and 7/1/2014.   limited the contractor from providing
                                                                                                                     training and maintenance services;
                                                                                                                     U.S. government oversight personnel
   In the past, CSTC-A has provided several explanations for the decreas-
                                                                                                                     had limited ability to visit MSF brigade
ing cost: a $153 million correction in the total cost of some equipment
                                                                                                                     locations outside Kabul; an absence
and accounting for nearly $102 million in donated equipment that was
                                                                                                                     of spare parts hindered vehicle
not U.S.-funded, an extensive internal audit that revealed double-counted
                                                                                                                     operability; a need for MSF vehicle
equipment, and discovery of incorrect pricing during an internal audit.208
                                                                                                                     operator training; and difficulties
Moreover, CSTC-A noted that although the cost for donated weapons was
                                                                                                                     with ANA supply-chain ordering and
not included, “the refurbishment and transportation cost of donated weap-
                                                                                                                     distribution of spare parts. For more
ons was included because [reconstruction] funds were used.”209
                                                                                                                     information, see Section 2, page 26.
   The ongoing corrections to the cost of equipment procured raise ques-
tions about accountability for U.S. funds used to equip the ANA.
   Additionally, CSTC-A reported the cost of ANA equipment remaining to
be procured stands at $89 million, unchanged from last quarter.210
   As of June 30, 2014, the United States had obligated and disbursed
$11.4 billion of the ASFF for ANA equipment and transportation.211 Most of
these funds were used to purchase vehicles, weapons, and related equip-
ment, communications equipment, aircraft, and aviation-related equipment.




REPORT TO THE UNITED STATES CONGRESS                   I   JULY 30, 2014                                 103
                                        SECURITY




                                        More than 79% of U.S. funding in this category was for vehicles and trans-
                                        portation-related equipment, as shown in Table 3.14.
                                        TABLE 3.14

                                        COST OF U.S.-FUNDED ANA WEAPONS, VEHICLES, AND COMMUNICATION
                                        EQUIPMENT
                                         Type of Equipment                                        Procured               Remaining to be Procured
                                         Weapons                                                 $461,197,802                  $32,055,904
                                         Vehicles                                            4,385,763,395                        8,260,489
                                         Communications                                           670,307,101                   48,810,799
                                         Total                                           $5,517,268,298                      $89,127,192
                                        Source: CSTC-A, response to SIGAR data call, 7/1/2014.




                                           The United States has also procured $1.6 billion in ammunition for the
                                        ANA and $7.1 billion worth of other equipment and supplies to sustain the
                                        ANA. According to CSTC-A, this latter amount was determined by sub-
                                        tracting the cost of weapons, vehicles, communications equipment, and
                                        ammunition from overall equipment and sustainment costs.212

                                        ANA Infrastructure
                                        As of June 30, 2014, the United States had obligated $6.1 billion and dis-
SIGAR INSPECTION                        bursed $5.2 billion of the ASFF for ANA infrastructure.213 At that time,
SIGAR has initiated an inspection of    the United States had completed 316 infrastructure projects (valued at
the U.S.-funded construction of the     $4.1 billion), with another 56 projects ongoing ($1.1 billion) and 9 planned
MOD headquarters to determine if        ($168.5 million), according to CSTC-A.214
construction is being completed in         As with last quarter, the largest ongoing ANA infrastructure projects this
accordance with contract requirements   quarter were brigade garrisons for the 2nd Brigade/201st Corps in Kunar (at
and if any occupied portions of the     a cost of $115 million), the 3rd Brigade/205th Corps in Kandahar ($91 mil-
headquarters are being properly         lion), and the 1st Brigade/215th Corps in Helmand ($87 million).215 In
maintained and used as intended.        addition, two projects were awarded this quarter at a cost of $19 million, 17
                                        projects were completed at a cost of $325 million, and one contract worth
                                        $59 million was terminated.216
                                           According to CSTC-A, the projected operations-and-maintenance (O&M),
                                        sustainment, restoration, and minor-construction cost for ANA infrastruc-
                                        ture for FY 2015 through FY 2019 is now $168 million a year, or a total of
                                        $840 million.217
                                           According to DOD, the MOD Construction Program Management
                                        Division’s ability to plan, design, contract, and execute new construction is
                                        limited to $20 million per year until greater capacity is demonstrated.218

                                        ANA and MOD Training and Operations
                                        As of June 30, 2014, the United States had obligated and disbursed $3.1 bil-
                                        lion of the ASFF for ANA and MOD operations and training.219 Aside from
                                        literacy training discussed previously in this section, the other training




                                          104                           SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                           SECURITY




includes English-language training, explosive ordnance, and mobile strike
force vehicle (MSFV) training. Earlier in this reporting period, 280 students
completed MSFV training; 260 students currently are in training, and an
additional 20 students are scheduled to begin class. During this reporting
period, 173 students attended explosive-ordnance training.220 The MSFV
and explosive-ordnance training contract is $42.4 million for May through
December 2014, bringing the total contract cost to date to $287.3 million.221

Women in the ANA and Afghan Air Force
Women currently make up less than 1% of the ANA, despite the cur-
rent recruitment and retention goal, last published in September 2013,
for 10% of the force to be women. To achieve this goal, the ANA has
waived a requirement that the recruitment of women be balanced among
Afghanistan’s various ethnic groups. Additionally, assignment locations
are being reviewed to pinpoint locations with accommodation for females,
such as separate restrooms. The ANA Recruiting Command also airs com-
mercials on local television stations targeting women beginning 20 days
before training classes.222
   CSTC-A stated the Coalition believes that by having more women in the
ANSF, men will learn to accept and respect women in the workplace. The
involvement of families and communities is critical to recruiting women.
CSTC-A has requested funding for media advertisements and programming
to educate the Afghan public about the need for women to join the army
and police.223
   This quarter, the ANA reported to CSTC-A that 711 women serve in the
ANA: 663 in the Army and 48 in the Air Force. Of those, 272 are officers,
268 are non-commissioned officers (NCOs), 69 are enlisted, and 102 are
cadets. However, according to CSTC-A, Coalition advisors cannot validate
these numbers and assume they include civilians. CSTC-A noted that by
the end of Solar Year 1393 (March 20, 2015), MOD is expected to modify
the way personnel are counted to reflect only active-duty military person-
nel and not civilians.224
   The ANA’s 12-week Basic Warrior Training course includes a class on
behavior and expectations of male soldiers who work with ANA women. The
Afghan Independent Human Rights Commission conducts two-day seminars
                                                                                SIGAR ALERT LETTER
for the ANSF that include training in eliminating violence against women.225    SIGAR’s preliminary review of an audit
   The National Defense Authorization Act for FY 2014, Pub. L. 113-66,          of AAF capability to absorb additional
authorizes $25 million to be used for the programs and activities to support    equipment indicates DOD’s plan is to
the recruitment, integration, retention, training, and treatment of women in    provide two more C-130 aircraft that
the ANSF.226                                                                    may not be needed or sustainable.
                                                                                SIGAR reported its concern to DOD,
Afghan Air Force                                                                CENTCOM, ISAF, and NTC-A. For more
This quarter, the NATO Air Command-Afghanistan (NAC-A) reported the             information, see Section 2, page 21.
Afghan Air Force has 95 aircraft, excluding aircraft “no longer in service




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014               105
                                                                   SECURITY




TABLE 3.15


U.S. FUNDING TO SUPPORT AND DEVELOP THE AFGHAN AIR FORCE, 2010–2015                                                             ($ THOUSANDS)

 Funding Category                              FY 2010                     FY 2011                  FY 2012                  FY 2013                   FY 2014            FY 2015 (request)
 Equipment and Aircraft                      $461,877                    $778,604               $1,805,343                 $111,129                     $2,300                  $21,442
 Training                                       62,438                    187,396                   130,555                 141,077                   164,187                   123,416
 Sustainment                                  143,784                     537,650                   571,639                 469,230                   520,802                   780,370
 Infrastructure                                 92,200                    179,600                   113,700                   53,000                           0                         0
 Total                                     $760,299                 $1,683,250                $2,621,237                 $774,436                   $687,289                 $925,228
Sources: DOD, Budget Fiscal Year (FY) 2012, Justification for FY 2012 Overseas Contingency Operations Afghanistan Security Forces Fund, 2/2011, pp. 8, 19, 30, and 44; DOD, Budget Fiscal
Year (FY) 2013, Justification for FY 2013 Overseas Contingency Operations Afghanistan Security Forces Fund, 2/2012, pp. 5, 13, 19, and 32; DOD, Budget Fiscal Year (FY) 2014, Justification for
FY 2014 Overseas Contingency Operations Afghanistan Security Forces Fund, 5/2013, pp. 5, 11, 20, and 37; DOD, Budget Fiscal Year (FY) 2015, Justification for FY 2015 Overseas Contingency
Operations Afghanistan Security Forces Fund, 6/2014, pp. 10, 24, 26, and 29.


                                                                   (crashed)” and eight Mi-17 helicopters that are on loan to Afghanistan’s
                                                                   Special Mission Wing (SMW).227
                                                                       The United States has a considerable investment in the Afghan Air
                                                                   Force. Between FY 2010 and FY 2012 alone, the United States provided
                                                                   more than $5.8 billion to support and develop the 6,731-person Afghan Air
                                                                   Force, including over $3 billion for equipment and aircraft. In addition, DOD
                                                                   requested an additional $1 billion, including $23.7 million for equipment and
                                                                   aircraft, in FYs 2014 and 2015 for the Afghan Air Force. However, the major-
                                                                   ity of the funding is being requested for sustainment and training, as shown
                                                                   in Table 3.15.
                                                                       According to CENTCOM, the Afghan Air Force inventory consisted of
                                                                   102 aircraft:228
                                                                    •	 58 Mi-17 transport helicopters (includes eight on loan to the SMW)
                                                                    •	 26 C-208 light transport planes
Helicopter flying over Zabul Province.                              •	 Six C-182 fixed wing training aircraft
(Photo by Alan B Bell)
                                                                    •	 Five MD-530F rotary-wing helicopters
                                                                    •	 Five Mi-35 attack helicopters
                                                                    •	 Two C-130H medium transport aircraft

                                                                       Beginning in the fourth quarter 2015, the first of 20 A-29 Super Tucanos,
                                                                   a light attack aircraft for counterinsurgency, close air support, and aerial
                                                                   reconnaissance, will be delivered: four a year in 2015, 2016, and 2017; and
                                                                   eight in 2018.229 The SMW provides intelligence, surveillance, and reconnais-
                                                                   sance (ISR) capability to support counterterrorism and counternarcotics
                                                                   operations, and is the only ANSF unit to be night-vision goggle-qualified
                                                                   for air-assault and fixed-wing ISR capability.230 The SMW can support one
                                                                   air-assault operation per week and one partnered reconnaissance mission
                                                                   per day with no impact on developmental training. During the period from
                                                                   April 1–June 11, 2014, the SMW executed 39 non-training missions.231
                                                                       A 2013 SIGAR audit found that DOD was moving forward with a
                                                                   $771 million purchase of aircraft for the SMW that the Afghans could not
                                                                   operate or maintain.232




                                                                      106                            SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                                                                                           SECURITY




   In July, a Taliban attack on Kabul International Airport damaged two
SMW helicopters and destroyed President Karzai’s helicopter. The aircraft
were not occupied at the time. The same month a suicide bomber killed
eight members of the Afghan Air Force when he attacked an Afghan mili-
tary bus.233
   According to the CNA independent assessment released last quarter,
“Afghanistan has a significant need for air support, but the [Afghan Air
Force] cannot support more air power than is currently planned.” CNA also
noted that the Afghan Air Force is “struggling to find sufficient numbers of
                                                                                                                           The first C-130 manned by an all-Afghan
qualified recruits to grow to its planned size” and “even if additional recruits                                           aircrew flew from Kabul to Kandahar
are found, only a small number could be fully trained by 2018.”234                                                         and back on June 16, 2014. (U.S. Air
                                                                                                                           Force photo)

AFGHAN NATIONAL POLICE
As of June 30, 2014, the United States had obligated $16.5 billion and disbursed
$15.9 billion of ASFF funds to build, equip, train, and sustain the ANP.235

ANP Strength
This quarter, the overall strength of the ANP totaled 152,123 personnel,
including 113,385 Afghan Uniform Police (AUP), 21,667 Afghan Border
Police (ABP), 12,731 Afghan National Civil Order Police (ANCOP), 4,313
students in training, and 27 “standby” personnel awaiting assignment.236
Of the 113,385 personnel in the AUP, 28,092 were MOI headquarters staff
or institutional support staff, an increase of 5,530 staff over last quarter.237
Overall, the ANP’s authorized strength increased 3,323 since last quarter, as
shown in Table 3.16.
   According to CSTC-A, the MOI, unlike the ANA, does not report ANP
personnel who are on leave, AWOL, sick, or on temporary assignment in its
TABLE 3.16


ANP STRENGTH, QUARTERLY CHANGE
                                              Authorized                                     Assigned
                                                                 Quarterly                                  Quarterly
 ANP Component                  Q1 2014        Q2 2014            Change         Q1 2014     Q2 2014         Change
 AUPa                            115,527        122,644           +7,117         109,184b     113,385c       +4,201
 ABP                               22,955         23,573            +618          21,616       21,667            +51
 ANCOP                             14,518         13,106          -1,412          14,477       12,731         -1,746
 NISTA                              6,000          3,000          -3,000           5,916         4,313        -1,603
 Standby d                                -              -          None           2,076             27       -2,049
 ANP Total                     159,000        162,323             3,323      153,269        152,123          -1,146

Notes: Q1 2014 data as of 2/2014; Q2 2014 data as of 5/2014; AUP = Afghan Uniform Police; ABP = Afghan Border Police;
ANCOP = Afghan National Civil Order Police; NISTA = Not In Service for Training.
a	Includes MOI headquarters and institutional support and CNPA personnel.
b	Includes 22,562 MOI headquarters and institutional support personnel.
c	 Includes 28,092 MOI headquarters staff.
d	Personnel that are pending assignment.


Sources: CSTC-A, response to SIGAR data calls, 3/31/2014; DCOM MAG, responses to SIGAR vetting, 4/10/2014 and 4/11/2014.




REPORT TO THE UNITED STATES CONGRESS                         I   JULY 30, 2014                                 107
                                       SECURITY




                                       personnel reports. For this reason, the actual operational capability of the
                                       ANP is not known.238

                                       ANP Sustainment
                                       As of June 30, 2014, the United States had obligated $6.1 billion and dis-
                                       bursed $6 billion of ASFF funds for ANP sustainment.239 This includes
                                       $1.34 billion that the United States has contributed to the Law and Order
                                       Trust Fund for Afghanistan (LOTFA) to support the ANP.240

                                       ANP Salaries
                                       From 2008 through June 30, 2014, the U.S. government had provided
SIGAR INQUIRY
                                       $1.34 billion, paid through the LOTFA, to pay ANP salaries, food, and incen-
SIGAR sent a follow-up letter this     tives (extra pay for personnel engaged in combat or employed in specialty
quarter to CSTC-A expressing concern   fields), CSTC-A reported.241
that some ANP salary payments are          According to CSTC-A, when the ANP reaches its final strength of 157,000
at risk of diversion because not all   personnel, it will require an estimated $521.2 million per year to fund sala-
salaries are paid via the “mobile      ries ($275 million) and incentives ($246.2 million). This is a decrease from
money” electronic-transfer program.    earlier estimates as food costs are no longer covered by CSTC-A.242
See Section 2, page 42.
                                       ANP Equipment, Transportation, and Sustainment
                                       As of June 30, 2014, the United States had obligated and disbursed $3.6 bil-
                                       lion of ASFF funds for ANP equipment and transportation.243 Most of these
                                       funds were used to purchase weapons and related equipment, vehicles, and
                                       communications equipment.244 More than 83% of U.S. funding in this cate-
                                       gory was for vehicles and vehicle-related equipment, as shown in Table 3.17.
                                       TABLE 3.17


                                       COST OF U.S.-FUNDED ANP EQUIPMENT
                                        Type of Equipment                                           Procured             Remaining to be Procured
                                        Weapons                                                    $187,251,477                   $4,093,066
                                        Vehicles                                                   1,966,075,183                   3,744,582
                                        Communications Equipment                                    211,062,672                      544,573
                                        Total                                                   $2,364,389,332                  $8,382,221
                                       Source: CSTC-A, response to SIGAR data call, 7/1/2014.


                                          This quarter, CSTC-A reported no change in the total cost of the weap-
                                       ons, vehicles, communications equipment, and ammunition procured for
                                       the ANP. As with the ANA, determining the cost of equipment provided to
                                       the ANP remains a challenge. CSTC-A reporting in this area has been incon-
                                       sistent, raising questions about visibility and accountability for U.S. funding
                                       used to procure equipment for the ANP. For example, CSTC-A’s estimate
                                       of the total cost of U.S.-funded ANP weapons procured decreased from
                                       $369 million in October 2013 to $137 million in December 2013.245 At the
                                       time, CSTC-A said the decrease in total cost was due to actual, contracted




                                         108                           SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                           SECURITY




equipment pricing being lower than estimated pricing.246 Then CSTC-A
said the following quarter’s increase was “caused by inclusion of weapons
procured through [alternative] funding vehicles.”247 The cumulative cost
of equipment—a figure which should only go up or stay the same—has
declined since July 2013, although the total cost this quarter did not change
                                                                                  SIGAR INQUIRY
from last quarter.                                                                In FY 2011, CSTC-A requested border-
   While CSTC-A’s estimate of the total cost of vehicles procured for the         patrol boats for the ANP. CSTC-A
ANP has decreased since last year, the total cost this quarter did not change     canceled the $3 million procurement
from the last two quarters.248                                                    when the boats were nearly finished.
   The United States has also procured $366 million in ammunition for             The boats remain in Virginia,
the ANP and $1.5 billion worth of other equipment and supplies to sustain         accruing storage costs while awaiting
the ANP. According to CSTC-A, this latter amount was determined by sub-           disposition. For more information, see
tracting the cost of weapons, vehicles, communications equipment, and             Section 2, pages 44–47.
ammunition from overall equipment and sustainment costs.249

ANP Infrastructure
As of June 30, 2014, the United States had obligated $3.3 billion and dis-
bursed $2.9 billion of ASFF funds for ANP infrastructure.250 At that time, the
United States had completed 669 infrastructure projects (valued at $3.2 bil-
lion), with another 59 projects ongoing ($345 million), and three planned
$42 million), according to CSTC-A.251
   This quarter, three projects valued at $3 million were awarded, 32 proj-
ects valued at $167 million were completed, and eight valued at $28 million
were terminated.252 The largest ongoing ANP infrastructure projects were
a building and utilities ($34.3 million) at the MOI Headquarters, an ANCOP
patrol station in Helmand ($28.5 million), and an AUP provincial headquar-
ters in Kandahar ($25 million).253
   According to CSTC-A, the projected annual operations and mainte-
nance, sustainment, restoration, and minor construction cost for ANP
infrastructure for FY 2015 through FY 2019 ranges from $131–147 million
($655–735 million over five years), an increase over the $98–102 ($485 mil-
lion total) last reported.254
   CSTC-A noted that any estimated post-transition costs are based on cur-
rent capacity levels and do not take into account any future policy decisions
that could affect cost estimates.255

ANP Training and Operations
As of June 30, 2014, the United States had obligated $3.5 billion and disbursed
$3.4 billion of the ASFF for ANA and MOD operations and training.256 Since
January 1, 2014, the NATO Trust Fund has paid the cost for all ANSF literacy
training. Additionally, Japan has assumed the cost of most of the police acad-
emy training in Turkey formerly funded by the United States. Aside from the
literacy training discussed on page 97, English language training is the only
remaining course funded by the ASFF this fiscal year. According to NTM-A,




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                 109
SECURITY




the number of ANSF (both ANA and ANP) students enrolled in English lan-
guage training this quarter is 2,539, of which 88% completed training. However,
the percentage of students who graduated with an English comprehension-
level score required for follow-on training was only 12%.257

Women in the ANP
As in prior quarters, the number of women in the ANP is increasing, but
the ANP is far from reaching its goal of 5,000 women by the end of 2014.
Women still make up only 1% of the force. This quarter, ANP personnel
included 1,971 women—280 officers, 826 NCOs, and 865 enlisted person-
nel—according to CSTC-A.258 This in an increase of 228 women since last
quarter and 767 women since August 22, 2011.259
   CSTC-A said the ANP is focused on finding secure workplaces with
appropriate facilities for women and developing strategies to attract and
retain qualified female recruits.260
   However, according to CSTC-A, the Minister of Interior recently signed
off on a plan that would emphasize achieving the goal of 5,000 women in
the ANP by the end of solar year 1393 (March 20, 2015). CSTC-A supports
the MOI’s efforts by providing advisors on the recruitment and training of
women. This advising has focused on recruiting and enrolling women in
“safe units in order to prevent much of the abuse and harassment that has
been reported by international agencies.”261
   In addition, Coalition advisors have created an ANP training curriculum
on human, gender, and child rights. As of this quarter, 25,059 ANP personnel
have received that training, the same number as last quarter.262 A CSTC-A
gender advisor is working with the director of education on a course that
will cover topics such as eliminating violence against women, international
criteria for human rights, and self-defense for women in law enforcement.263
   As noted previously, the National Defense Authorization Act for FY 2014,
Pub. L. 113-66, provides $25 million to be used for the programs and
activities to support the recruitment, integration, retention, training, and
treatment of women in the ANSF.264


ANSF MEDICAL/HEALTH CARE
As of March 31, 2014, the United States had funded construction of 176
completed ANSF medical facilities valued at $155 million, with an additional
11 projects ongoing valued at $15 million.265 This quarter, an additional
hospital valued at $21 million was completed. Another four facilities or
expansions valued at over $8.5 million are in progress.266
   This quarter, IJC reported the ANSF health-care system had 959 physi-
cians, a decrease of seven. Of these, 559 were assigned to the ANA and 400
were assigned to the ANP, which reflects an increase of 45 for the ANP. The
ANA has a shortage of 182 physicians and the ANP a shortage of 112.267 The




 110                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                        SECURITY




ANSF also had 1,843 nurses, physicians’ assistants, and other medical per-
sonnel, reporting a shortage of 497 positions.268
   IJC reports both the ANA and ANP need support in forecasting medi-
cal supplies needed using historic and consumption data. The ANP plans
to provide clinics with a standard list of items to be stocked, develop a
regional logistic system for solar year 1394, and develop a standard operat-
ing procedure for outfitting ambulances with equipment.269
                                                                                                                                   SIGAR AUDIT
                                                                                                                                   SIGAR conducted a financial audit last
REMOVING UNEXPLODED ORDNANCE                                                                                                       year of several Department of State
Since FY 2002, the U.S. Department of State (State) has provided more than                                                         grants for demining activities to Afghan
$283 million in funding for weapons destruction and demining assistance to                                                         Technical Consultants (ATC). The audit
Afghanistan, according to its Bureau of Political-Military Affairs’ Office of                                                      covered money spent between April
Weapons Removal and Abatement (PM/WRA).270 Through its Conventional                                                                2007 and August 2012 totaling over
Weapons Destruction program, State funds five Afghan nongovernmental                                                               $13.4 million. ATC reported clearing
organizations (NGOs), five international NGOs, and a U.S. government con-                                                          over 2 million square meters of land,
tractor. These funds enable clearance of areas contaminated by explosive                                                           which it achieved through the location
remnants of war (ERW) and support removal and destruction of abandoned                                                             and demolition of antipersonnel
weapons that insurgents might use to construct IEDs.271                                                                            and antitank mines, unexploded
   During the reporting period, the Mine Action Coordination Centre of                                                             ordnance and fragments. The audit
Afghanistan added former U.S. firing ranges to their database of contaminated                                                      found no concerns with the financial
areas in Afghanistan. Consequently, the reporting metrics for this report show                                                     statements, findings from prior audits, or
an increase in remaining contaminated area of approximately 100 million                                                            assessments for follow-up or corrective
square meters or nearly 39 square miles since 2013.272 (See Table 3.18.)                                                           action. The report did identify six
   As of March 31, 2014, State-funded implementing partners have cleared                                                           internal-control weaknesses and five
more than 154 million square meters of land and removed or destroyed                                                               compliance findings. It also uncovered
approximately 7.8 million land mines and other ERW such as unexploded                                                              $200,000 in unsupported costs and
ordnance (UXO), abandoned ordnance (AO), stockpiled munitions, and                                                                 nearly $9,000 in interest earned from
home-made explosives.273 PM/WRA defines a minefield as the area contami-                                                           revenue advances not remitted to State.
nated by land mines, whereas a contaminated area can include both land
mines and other ERW.274
TABLE 3.18


CONVENTIONAL WEAPONS DESTRUCTION PROGRAM METRICS, JANUARY 1, 2013–MARCH 31, 2014
                                                                                                                Fragments              Minefields           Estimated Contaminated
 Date Range                           AT/AP Destroyed          UXO Destroyed          SAA Destroyed              Cleared              Cleared (m2)            Area Remaining (m2)
 1/1–3/31/2013                                1,984                100,648                105,553                3,722,289              7,978,836                  552,000,000
 4/1–6/30/2013                                1,058                 18,735                 49,465                1,079,807              5,586,198                  537,000,000
 7/1–9/30/2013                                1,243                 21,192                 98,306                1,673,926              4,229,143                  521,000,000
 10/1–12/31/2013                              8,211                   2,460                54,240                3,064,570              5,729,023                  518,000,000
 1/1–3/31/2014                                1,780                254,734                245,380                  262,750              5,473,170                  638,400,000
 Total                                     14,276                397,769                552,944                9,803,342            28,996,370                   638,400,000
Notes: AT/AP = anti-tank/anti-personnel ordnance. UXO = unexploded ordnance. SAA = small-arms ammunition. Fragments are reported because their clearance requires the same care as for
other objects until their nature is determined.

Source: State, PM/WRA, response to SIGAR data call, 6/30/2014.




REPORT TO THE UNITED STATES CONGRESS                      I   JULY 30, 2014                                    111
SECURITY




  Comprehensive third-quarter FY 2014 reports are not yet available.
Quarterly reports are generally available one month after the end of each
quarter; thus, the third quarter FY 2014 (covering April 1, 2014, through
June 30, 2014) will be published in SIGAR’s upcoming quarterly report
(October 2014).275


COUNTERNARCOTICS
As of June 30, 2014, the United States has provided approximately $7.6 bil-
lion for counternarcotics efforts in Afghanistan since 2002. Congress
appropriated most of these funds through the DOD Drug Interdiction
and Counter-Drug Activities (DOD CN) Fund ($2.93 billion), the ASFF
($1.31 billion), the Economic Support Fund ($1.42 billion), and $1.76 bil-
lion of the State Department’s International Narcotics Control and Law
Enforcement (INCLE) account. In addition to reconstruction funding, the
Drug Enforcement Administration (DEA), receives funding through direct
appropriations to operate in Afghanistan. These appropriations fund DEA
salaries and expenses in Afghanistan.276 (See Appendix B.)
   U.S. drug-control policy has shifted in recent years from eradication to
interdiction and agricultural-development assistance that aims to provide
farmers with alternative livelihoods.277 Eradication activities predominantly
occur under the Governor Led Eradication (GLE) and the Good Performer’s
Initiative (GPI) programs. Interdiction activities fall under the Ministry of
Counter Narcotics (MCN), which shares responsibilities with the MOI, the
MOD, and the Ministry of Public Health (MOPH). The Counternarcotics
Justice Center (CNJC), in partnership with the Combined Joint Interagency
Task Force-Nexus (CJIATF-N) and the Interagency Operations Coordination
Center (IOCC), also assist in combating the illicit drug trade. The Counter
Narcotics Police of Afghanistan (CNPA) conducts interdiction operations
with DOD and ISAF elements providing training and support.278
   The latest United Nations Office of Drugs and Crime (UNODC) World Drug
Report notes that for the third consecutive year, Afghanistan, already the
world’s largest producer and cultivator of opium poppies, saw an increase in
the area under cultivation (from 154,000 hectares in 2012 to 209,000 hectares
in 2013)—a 36% increase.279 However, UNODC’s estimate for 2013 was higher
than the U.S. government’s estimate of 198,000 hectares under poppy cultiva-
tion for that year.280 The report also notes that Afghan heroin is increasingly
reaching new markets, such as Oceania and South West Asia, that had been
traditionally supplied from South East Asia.281 USAID funds agriculture and
alternative-livelihood programs to counteract farmers’ dependence on opium-
poppy cultivation; these programs are discussed in the Economic and Social
Development section of this report on page 170.
   The drawdown of Coalition personnel has impacted interdiction results,
particularly in southern regions of the country. The reduced troop presence




 112                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                           SECURITY




limited the number of joint operations between Coalition and Afghan forces or
U.S. drug-enforcement personnel and Afghan forces.282 Similarly, poppy eradi-
cation decreased this year since security forces were diverted from that effort
to assist with election security.283 Opium-cultivation results are not yet avail-
able, but final results will likely exceed last year’s all-time record. According
to the United Nations, more land is being cultivated with poppy in 2014 than in
2013 in Helmand, Afghanistan’s chief opium-producing province.284

Drug Use in Afghanistan
The UNODC’s April 2014 study of drug use shows that consumption of
heroin and other opiates has far-reaching consequences on Afghan society.
Drug use leads to domestic violence, impedes children’s progress in school,
and is a problem in most Afghan communities.285
    Between 2005 and 2009, consumption of heroin and other opiates dou-
bled. The total number of heroin users was estimated at 120,000, a 140%
increase since 2005. Approximately 8% of 15 to 64 year-olds are drug users,
twice the global average.286 Among drug users interviewed:
 •	 nearly 80% were male287
 •	 56% said they did not attend school, 19% attended primary school, and
    2% attended university288
 •	 40% were 10–24 years old, 42% were 25–39 years old, and 15% were
    40–54 years old289
 •	 64% indicated they had been unemployed for the previous year290

Governor Led Eradication Program
INL funds the Afghan government’s GLE Program. The MCN, in partnership
with UNODC, is responsible for verifying poppy cultivation and eradica-
tion.291 GLE occurs at different times of the year depending on the climate of
the province, according to INL. Cumulative results are tracked by the MCN,
and subjected to UNODC verification on a rolling basis. A significant amount
of the eradication in the southern provinces begins late in the second quarter
and is completed early during the third quarter of the fiscal year.292
   According to INL, the Afghan government’s eradication target for 2014 is
22,500 hectares.293 Eradication began early March 2014 in Helmand and con-
tinued as of late June 2014. Verified eradication, conducted in 12 provinces,
reached 2,796 hectares as of July 2, 2014, compared to 7,348 hectares eradi-
cated for the entire year of 2013.294 The Afghan government attributed the
decrease in GLE in part to the elections taking place during the eradication
season in certain provinces. Security forces detailed to the elections were
not available to assist with operations. Coordination between ministries to
organize GLE efforts was also hampered by the elections and an approved
plan was not issued until late in the season, limiting its effectiveness. INL
noted that political will at the national and provincial level is necessary for
the GLE program to be effective.295




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                  113
                                                               SECURITY




                                                                  INL told SIGAR that GLE is a tool that is most effective when combined
                                                               with a long-term, multifaceted approach, integrated with broader efforts to
                                                               support good governance and sustainable economic growth.296 Total GLE
                                                               eradication results at year-end will likely be significantly lower than the
                                                               previous year. According to the late May MCN eradication report, opera-
                                                               tions will no longer occur in provinces where opium has already been
                                                               harvested (Farah, Herat, Kabul, and Nimroz) and were concluded in sev-
                                                               eral provinces including Helmand and Kandahar—two of the largest poppy
                                                               cultivating provinces.297

                                                               Good Performer’s Initiative
                                                               INL also supports the MCN’s efforts to achieve and sustain poppy-free
                                                               provinces through the GPI. Under the current terms of the GPI program, a
                                                               province is eligible for $1 million in GPI development projects for each year
                                                               that it achieves poppy-free status, according to INL. INL told SIGAR that the
                                                               GPI program incentivizes continued counternarcotics performance in the
                                                               year ahead.298 It also shows provincial leadership and citizens that there are
                                                               tangible benefits to countering poppy cultivation, and it reinforces the writ
                                                               of the government in the province, district, and community.299
                                                                  Since the start of the GPI program in 2007, 215 development projects
                                                               have either been completed or are in process in all 34 of Afghanistan’s
                                                               provinces; these projects include school construction, road and bridge proj-
                                                               ects, irrigation structures, farm machinery projects, and hospital and clinic
                                                               construction. INL is currently collaborating with the MCN to redesign the
  Colombo Plan: The Colombo Plan                               GPI program to encourage greater action on counternarcotics and provide
  for Cooperative Economic and Social                          greater support for rural alternative livelihoods.300 Alternative-livelihood
  Development in Asia and the Pacific was                      programs such as the Kandahar Food Zone are discussed in the Economic
  instituted as a regional intergovernmental                   and Social Development section of this report on page 172.
  organization to further economic and
                                                                  As of May 31, 2014, a total of 215 GPI projects with a value of $106.6 mil-
  social development of the region nations.
                                                               lion had been approved. Of those, 115 were completed, 96 were ongoing,
  It was conceived at a conference held
  in Colombo, Sri Lanka, in 1950 with
                                                               and four were nearing completion.301 Based on third-party audit recom-
  seven founding-member countries and                          mendations, GPI changed its practice of using a flat conversion rate of 1
  has expanded to 26 member countries.                         U.S. dollar to 50 afghanis (AFN), to using the actual conversion rate on the
  INL continues to support the Colombo                         day of the project bid, per Da Afghanistan Bank’s official website. The total
  Plan’s Asian Centre for Certification and                    value of GPI projects in prior quarterly reports is therefore not directly
  Education of Addiction Professionals, a                      comparable to the values in this report.302
  training unit of treatment experts to assist
  governments in developing a professional-                    Demand Reduction
  certification process for addiction                          During this quarter, INL signed a commitment letter at a stakeholders’ meet-
  professionals in Asia and Africa.                            ing with the MCN, the MOPH, the Colombo Plan, and local Afghan NGOs
                                                               operating treatment programs. The signed document ensures the transition
                                                               of INL-supported treatment centers to MOPH authority.303 This quarter, INL
Sources: The Colombo Plan Secretariat website, History,        provided support for clinical-staff training, treatment services, and outpa-
http://www.colombo-plan.org; INL, International Narcotics
Control Strategy Report: Volume I Drug and Chemical Control,   tient and village-based demand-reduction programs, while continuing to
3/2013, p. 20.




                                                                114                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                           SECURITY




implement a transition plan to transfer 13 treatment programs to Afghan
authorities. INL supports 76 treatment programs.
   The transition plan includes building staff capacity and promoting
continued cooperation between the MCN and MOPH. INL said it seeks
to create uniformity among the treatment centers nationwide and help
incorporate existing Afghan treatment professionals into the Afghan gov-
ernment civil service. Under the plan, treatment programs will transition to
the Afghan government as INL support to programs slowly decreases over
the coming years.304

Counter Narcotics Community Engagement
INL also funds the Counter Narcotics Community Engagement (CNCE)
program, which assists the Afghan government in combating the produc-
tion, trafficking, and use of narcotics in Afghanistan through periodic
communication and outreach campaigns in targeted provinces. CNCE,
implemented through Sayara Media Communications, targets farmers
through national and local public awareness and media campaigns in
opium poppy-growing areas. Sayara monitors the effectiveness of media
campaigns through target audience analysis reports, including a baseline
report to identify provincial drivers of drug trafficking and cultivation, and
public sentiment about narcotics.305
   Sayara also conducts geographic information system mapping in part-
nership with a contractor and has 42 observers placed in all provinces,
which are ranked in tiers based on cultivation levels. The observers gather
information on and gauge perceptions of the counternarcotics message
campaigns. Sayara also conducts monthly media monitoring, assesses how              Community-based savings groups:
counternarcotics media products fit into the current Afghan media land-             provide sustainable access to credit and
scape, and evaluates counternarcotics-related items in the media. Sayara            savings for the most vulnerable members
and the CNCE program operate throughout the nation; in some areas where             of rural communities, particularly in
                                                                                    areas lacking formal credit mechanisms
the program operates cultivation has decreased, according to INL.306 INL
                                                                                    through financial institutions. Participants
said the CNCE program will eventually transition to the MCN as a result of
                                                                                    are mobilized to self-select and form
capacity-development efforts.307                                                    self-led savings groups that voluntarily
                                                                                    contribute every month to a loan fund.
Aga Khan Foundation Grant                                                           Group members can access the loan fund
From September 2010 through May 2014, INL provided assistance to                    to invest in public goods, businesses, or
local governance institutions to shift six provinces in central and north-          emergency needs. Each year, savings are
ern Afghanistan away from growing poppies and toward licit livelihoods              paid out in full to all members and each
under a two-phase grant with the Aga Khan Foundation (AKF) at a cost                individual may choose to reinvest. In the
of $6 million. According to INL, the project benefitted over 32,100 partici-        interim, groups can decide to grant small
pants, including 8,776 women, through training workshops for agricultural           loans to individual members and recoup
management, organizational capacity, good governance, budgeting, and par-           the credit with interest.
ticipatory planning. The project also enabled district and provincial officials
to connect with members of community-based savings groups and other
community groups. INL told SIGAR it is currently finalizing a new grant           Source: State, INL, response to SIGAR vetting, 7/11/2014.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                115
                                                                 SECURITY




                                                                 with the AKF that will build upon its past subnational governance work in
                                                                 a third phase of activities, and expand to 16 provinces across Afghanistan,
                                                                 including poppy-cultivating provinces in the South.308

                                                                 Ministry of Counter Narcotics Capacity Building Program
  South Asian Association for Regional                           The MCN and INL signed the MCN Capacity Building Program/Advisor
  Cooperation (SAARC): fosters economic                          Support memorandum of understanding on February 18, 2014. The pro-
  and political cooperation among member                         gram, which was renewed for 18 months, provides funding for 24 local
  nations. Its founding charter was signed in                    and national advisors and helps build the MCN’s capacity. INL has imple-
  December 1985 by Bangladesh, Bhutan,                           mented a performance measuring plan to track and evaluate the program’s
  India, Maldives, Nepal, Pakistan, and Sri                      effectiveness.309 According to INL, this process not only helps stakeholders
  Lanka. Afghanistan joined in 2007.
                                                                 monitor the success of the advisor-support program, but also improves
  The Istanbul Process: Launched in                              the MCN human resources department’s employee-evaluation practices.
  2011, the process enables discussion                           In addition, this quarter INL coordinated and completed installation of
  between Afghanistan and its neighbors                          information technology for the MCN’s provincial offices. INL also enhanced
  in order to enhance political, economic                        MCN security by installing two new security towers and procuring com-
  and security cooperation. Over 20 nations                      munication equipment and metal detectors.310 During this quarter, the MCN
  and organizations along with the United                        hosted a conference to launch a new integrated regional and international
  States provide support on issues such as                       counternarcotics policy with the participation of ambassadors from several
  counterterrorism, counternarcotics, poverty                    countries in the region, including Russia.311 The policy lays out a framework
  and extremism.
                                                                 for working through existing mechanisms and processes such as the South
  The Paris Pact: The partnership of several                     Asian Association for Regional Cooperation (SAARC), the Istanbul Process,
  countries and international organizations                      and the Paris Pact, to achieve regional and international cooperation. INL
  to combat illicit opium traffic from                           told SIGAR that the Afghan government used the conference to launch the
  Afghanistan. It originated from a meeting                      new policy with its regional partners.312
  of various ministers held in Paris in 2003
  on central Asian drug routes. It aims                          Effect of the Coalition Drawdown on
  at reducing opium poppy cultivation,                           Counternarcotics Operations
  production and global consumption of                           According to DOD, the drawdown of Coalition forces has hurt the CNPA
  heroin and other opiates, and at the
                                                                 and other Afghan counternarcotics agencies. The number of operations
  establishment of a broad international
                                                                 has been declining since 2012, as shown in Figure 3.27. According to the
  coalition to combat illicit traffic in opiates.
                                                                 Consolidated Counterdrug Database:313
                                                                 •	 Counternarcotics operations decreased 17% (624 in FY 2011 at the
                                                                    height of the ISAF surge to 518 in FY 2013)
Sources: SAARC website: “About SAARC, Charter” http://
www.saarc-sec.org/ accessed, 7/16/2014; State, Bureau of
                                                                 •	 Heroin seizures decreased 77% (10,982 kg in FY 2011 to 2,489 kg in
South and Central Asian Affairs Factsheet, “US Support for the      FY 2013)
Istanbul Process, 4/29/2013; Paris Pact, website “What is
it?” https://www.paris-pact.net, accessed, 7/16/2014.            •	 Opium seizures decreased 57% (98,327 kg in FY 2011 to 41,350 kg in
                                                                    FY 2013)

                                                                    The impact has been most pronounced in Helmand and Kandahar—the
                                                                 focus of the Coalition surge and subsequent withdrawal. Vetted counter-
                                                                 narcotics units like the Intelligence and Investigation Unit, the Sensitive
                                                                 Investigative Unit (SIU), Technical Investigative Unit, and the National
                                                                 Interdiction Unit (NIU) have also suffered from the drawdown, most




                                                                  116                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                             SECURITY




FIGURE 3.27


INTERDICTION OPERATIONS, 2008–2014

700
600
500
400
300
200
100
    0
             2008          2009           2010            2011        2012    2013   2014
                                                      Total: 2,769

Note: Fiscal year.

Source: DOD, response to SIGAR data call, 7/9/2014.




significantly by losing access to ISAF-provided enablers.314 These vet-
ted units are critical to U.S. counternarcotics efforts in Afghanistan.315
According to INL, U.S. drug-enforcement personnel may not be able to par-
ticipate in operations in certain areas due to a reduction in ISAF capability
including ISAF Special Operations Forces (SOF).316
   The decrease in overall counternarcotics missions was likely the result
of reduced partnering of ISAF with Afghan forces conducting counter-
narcotics operations. According to DOD, the majority of current Afghan
seizures are a result of routine police operations near population centers or
transportation corridors, such as at checkpoints or border crossings.
   Drug labs, storage sites, and major trafficking networks are concen-
trated in rural areas that are increasingly off-limits to Afghan forces due
to the ISAF drawdown and declining security in these areas. Despite the
marked decreases in drug seizures, DOD told SIGAR that the Afghan
counternarcotics units have shown increased ability over the past year to
successfully conduct complex drug investigations and operations without
Coalition assistance.317

Interdiction Operations
DOD reported that from April 1, 2014, to June 30, 2014, Afghan security
and law-enforcement forces conducted 57 drug-interdiction operations
resulting in the detention of 88 individuals during the third quarter of
this fiscal year. To date, 375 individuals have been detained this fiscal
year (168 detainees during the first quarter and 119 detainees during the
second quarter).318 These operations included routine patrols, cordon-and-
search operations, vehicle interdictions, and detention operations. Afghan




REPORT TO THE UNITED STATES CONGRESS                  I   JULY 30, 2014              117
                                                            SECURITY




                                                            operations during this period also resulted in the seizures of the following
  Precursor chemical: substance that may                    narcotics contraband:319
  be used in the production, manufacture                    •	 6,464 kg of opium
  and/or preparation of narcotic drugs and                  •	 931 kg of heroin
  psychotropic substances.                                  •	 11 kg of hashish/marijuana
                                                            •	 34 kg of precursor chemicals


Source: UNODC, “Multilingual Dictionary of Precursors and
                                                               According to DOD, most interdiction activities occurred in southern
Chemicals,” 2009, p. viii.                                  and southwestern Afghanistan, where the majority of opiates are grown,
                                                            processed, and smuggled out of the country. Almost all U.S. interdiction
                                                            activities partnered with Afghan forces as ISAF continued its drawdown
                                                            during this reporting period. U.S. forces conducted six unilateral opera-
                                                            tions resulting in the detention of one individual and the seizure of 96 kg of
                                                            opium and 0.5 kg of heroin. Interagency elements, including the Combined
                                                            Joint Interagency Task Force-Nexus (CJIATF-N) and the Interagency
                                                            Operations Coordination Center (IOCC), continued to support combined
                                                            Afghan and ISAF interdiction efforts. Both CJIATF-N and IOCC integrated
                                                            data from military and law enforcement sources to enable operations
                                                            against corrupt narco-insurgent elements. All operations were coordinated
                                                            with and received support from U.S. and Coalition military commanders on
                                                            the ground.320

                                                            Special Counternarcotics Police Units
                                                            During the quarter, INL provided mentors and advisors to develop the capa-
                                                            bility and independence of the specialized Afghan units and provided various
                                                            types of support at NIU/SIU facilities. INL also developed plans to draw
                                                            down U.S. government support to the Regional Law Enforcement Center in
                                                            Herat. According to INL, SIU engaged in 14 law-enforcement operations the
                                                            first quarter of 2014 and performed 25 counternarcotics-related arrests.321

                                                            Interdiction Results
                                                            Since 2008, a total of 2,769 Afghan and Coalition interdiction operations
                                                            have resulted in 2,865 detentions and seizure of the following narcotics
                                                            contraband:322
                                                            •	 746,040 kg of hashish
                                                            •	 378,231 kg of opium
                                                            •	 48,105 kg of morphine
                                                            •	 28,289 kg of heroin
                                                            •	 445,205 kg of precursor chemicals

                                                              However, as shown in Figure 3.28, seizures have been declining since 2012.




                                                             118                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                              SECURITY




FIGURE 3.28

DRUG SEIZURES, 2008–2014 (KILOGRAMS)

  250,000


  200,000


  150,000


  100,000


    50,000


           0
                      2008                     2009                    2010        2011           2012      2013               2014

                                     Hashish                  Heroin          Morphine          Opium    Precursor chemicals

Note: Fiscal year.

Sources: DOD, response to SIGAR data call, 7/9/2014.




Aviation Support
During this reporting period, Department of State aircraft provided a total
of 200.5 flight hours, conducted 135 sorties, moved 1,105 passengers, and
transported 36,812 pounds of cargo.323 According to INL, counternarcot-
ics support to DEA consisted of 18.7 flight hours supporting intelligence,
surveillance, and reconnaissance missions, 31.5 flight hours supporting
interdiction efforts, and 69 flight hours supporting Afghan NIU and DEA
passenger movements.
    INL also noted that DEA support included 16.5 hours of flight training.
DEA flight hours are lower this quarter due to Embassy designation of no-
fly days because of the Afghan elections.324 INL maintains an air wing at
Kandahar Airfield with dedicated helicopters supporting DEA missions in
southern Afghanistan.325




REPORT TO THE UNITED STATES CONGRESS                   I   JULY 30, 2014                  119
GOVERNANCE




GOVERNANCE CONTENTS
CONTENTS

Key Events	                                         121
Elections	122
National Governance	                                129
Subnational Governance	                             134
Reconciliation and Reintegration	                   139
Rule of Law and Anticorruption	                     141
Human Rights	                                       147




 120            SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




GOVERNANCE
As of June 30, 2014, the United States had provided nearly $30.6 billion to
support governance and economic development in Afghanistan. Most of
this funding, more than $17.5 billion, was appropriated to the Economic
Support Fund (ESF) administered by the State Department and the United
States Agency for International Development (USAID).326


KEY EVENTS
On June 14, Afghanistan held a second round of presidential elections
between Abdullah Abdullah (who received 45% of validated votes in the first
round) and Ashraf Ghani (who received 31.6%).327 Unlike the first round,      Secretary of State Kerry raises hands
in which the leading presidential candidates largely accepted the results,    with Afghan presidential candidates Ghani,
                                                                              center, and Abdullah, right, in Kabul,
the Abdullah campaign contested the reports of voter turnout estimates
                                                                              July 12, 2014, after announcing agreement
and accused the Afghan election bodies of massive fraud.328 The outgoing      on a plan to resolve the disputed election
Special Envoy for Afghanistan and Pakistan, Ambassador James Dobbins,         outcome. (State Department photo)
was quoted saying the “election impasse at the moment is serious and could
present a real danger of a division in the country.”329
    On July 12, Secretary of State John Kerry, along with candidates
Abdullah and Ghani, announced the terms of an agreement to overcome the
impasse. The terms included:
 •	 Within 24 hours of the announcement, an audit examining each of the
    ballots cast in the runoff election would begin;
 •	 The International Security Assistance Force (ISAF) would be
    responsible for transporting ballot boxes from the provinces to Kabul;
 •	 The ballots would be secured by ISAF and the Afghan National Security
    Forces (ANSF);
 •	 The auditing process would be internationally supervised in
    accordance with a proposal from the United Nations Mission
    in Afghanistan (UNAMA) and with the participation of the two
    presidential campaigns; and
 •	 Both candidates would commit themselves to abiding by the results and
    forming a “government of national unity.”330




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014              121
                                                                GOVERNANCE




                                                                   Both Abdullah and Ghani stated that they had agreed to a framework
                                                                for a national unity government.331 The following day, however, each can-
                                                                didate’s campaign offered differing interpretations: Abdullah’s spokesmen
                                                                proposed a “shared government” with an executive prime minister who
                                                                would be appointed by presidential decree, while Ghani’s spokesmen stated
                                                                that the losing candidate can participate in the new government “through
                                                                legal ways” but that the details would be negotiated after the presidential
                                                                winner is announced.332 Abdullah’s first-vice-presidential running mate was
                                                                quoted saying that the teams had agreed to form a coalition government
                                                                in which the losing candidate will serve as a chief executive for two years
                                                                after which a constitutional amendment will change the chief executive
                                                                to a premier. Ghani’s second-vice-presidential running mate, however, has
                                                                responded that “the perception that the winner should be the president or
                                                                the loser chief executive is a wrong and extrajudicial perception.”333
                                                                   The inauguration of the new president was scheduled to take place
                                                                on August 2, 2014, but due to the comprehensive audit of run-off ballots,
                                                                UNAMA requested that the inauguration be delayed.334 A summary of the
TABLE 3.19                                                      preliminary results appears in Table 3.19.
PRELIMINARY RESULTS OF THE JUNE                                    Also this quarter, USAID said there will be no new reviews of the Tokyo
14 PRESIDENTIAL RUN-OFF ELECTION                                Mutual Accountability Framework (TMAF) intermediate “hard deliverables”
 Name of Candidate           Number of Votes       Percent      targets for Afghan progress.335 According to the United Nations Secretary-
 Ashraf Ghani                       4,485,888           56.44   General, the TMAF serves as the agreed instrument of civilian development
 Abdullah Abdullah                  3,461,639           43.56   assistance to Afghanistan.336 The United States and international partners
 Total Votes                      7,947,527                     are developing a new set of targets for the future implementation of TMAF
Source: Independent Election Commission, “Runoff                that will be discussed with the new post-election government. According
Presidential Election Preliminary Results,” 7/7/2014.
                                                                to USAID, the process of finalizing these new targets will likely continue
                                                                through the international conference on Afghanistan tentatively planned for
                                                                November in London and into early 2015.337


                                                                ELECTIONS
                                                                Afghanistan held its first round of presidential elections on April 5. None
                                                                of the presidential candidates secured a majority of votes cast, triggering a
                                                                legal requirement for a second, runoff election.338
                                                                   According to the Independent Election Commission (IEC), of the 6,423
                                                                planned polling centers for the April 5 round of voting, 6,124 actually
                                                                opened.339 The United Nations Secretary-General reported that the Afghan
                                                                public and media reacted positively to the performance of the national
                                                                security forces in securing the first round, despite threats from the Taliban.
                                                                International partners also praised the army and police.340
                                                                   Afghanistan held the second round of presidential voting on June 14. On
                                                                election day, the IEC Chairman Yousaf Nuristani announced that approxi-
                                                                mately seven million Afghans voted in the second round, up from 6.6 million
                                                                validated votes from the first round.341 For the June 14 runoff voting, 6,365




                                                                 122                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




polling centers planned to be open, and 6,223 actually opened.342 According
to the National Democratic Institute (NDI), a nongovernmental organiza-
tion funded by USAID to support the Afghan election process, Afghans
came out in large numbers to participate in the country’s first presiden-
tial runoff election.343 Members of the Free and Fair Election Forum of
Afghanistan (FEFA), the Transparent Election Foundation of Afghanistan
(TEFA), the Afghanistan Youth National and Social Organization (AYNSO),
the Afghanistan National Participation Organization (ANPO), the New
Line Organization (NLO), and domestic monitoring groups were present
on June 14 in most polling stations. Collectively, these monitoring groups
deployed more than 18,000 observers and covered all 34 provinces with          Agents for the Abdullah and Ghani
most reporting that their monitors were able to access stations and observe    campaigns look over ballot boxes from
                                                                               Balkh Province before the boxes are loaded
polling activities without hindrance.344
                                                                               onto an ISAF aircraft for transport to Kabul.
    On July 7, the IEC announced that preliminary results showed presi-        (U.S. Army photo)
dential candidate Ashraf Ghani with 56.4% and Abdullah Abdullah with
43.6% of the vote. According to the IEC, 8.1 million votes were cast—over
one million more than the seven million originally estimated. This was an
increase of approximately 1.5 million votes over the number of validated
votes from the first round.345 Following the announcement, Abdullah’s first-
vice-presidential candidate described the results as a “coup” against voters
and said Abdullah’s team had the right to form a government. This was
reiterated by the governor of Balkh Province, who said the results pave the
ground for “massive protests to the formation of a parallel government.”346
    The United States called on both presidential campaigns to remain
calm. President Obama called Abdullah on July 7 and Ghani on July 8
to caution that any move toward violence or extra-constitutional mea-
sures would endanger financial and security assistance from the United
States.347 Secretary of State John Kerry also issued a public statement that
“any action to take power by extra-legal means will cost Afghanistan the
financial and security support of the United States and the international
community.”348 State also called on the Afghan electoral bodies to address
all credible allegations of fraud through a thorough audit “whether or not
the two campaigns agree.”349
    On July 11, Secretary Kerry met with President Karzai, Ghani, and
Abdullah in Kabul to discuss the elections impasse.350 According to
Secretary Kerry, “the election legitimacy hangs in the balance [and the]
future potential of a transition hangs in the balance.”351
    On July 12, Secretary Kerry announced that all the ballots cast in the
run-off were to be audited following procedures proposed by UNAMA with
the winning candidate forming a national-unity government following the
audit.352 The current IEC audit checklist was enhanced to include the fol-
lowing UNAMA recommendations to review:
 •	 ballots which are obviously similarly marked




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014             123
GOVERNANCE




Secretary of State Kerry sits with Afghan presidential candidates Abdullah Abdullah, left,
and Ashraf Ghani, right, at the U.S. Embassy in Kabul, Afghanistan, on July 12, 2014.
(State Department photo)


•	 evidence of tampering with the results sheet and coherence with the
   number of ballots in the box
•	 comparison of the results sheet copy with that processed in the national
   tally centre
•	 information on the polling station journal and list of voters

   Moreover, ballot boxes will receive particular attention from interna-
tional and domestic observers and agents when they register results that,
according to best international practices, require special scrutiny (for
example, when there are significant differences between first-and second-
round tallies).353
   The audit began on July 17 and the IEC estimated that the runoff audit
would take three weeks.354

Accusations of Fraud
Fraud was a concern during the first round of presidential voting (see pages
123–125 of the April 2014 Quarterly Report to Congress for more informa-
tion), but the runoff has proven even more controversial. Starting on the
evening of the runoff, the Abdullah campaign began contesting the IEC’s
initial voter turnout estimates and later accused the Afghan elections bodies
of participating in massive fraud.355 Domestic elections observers also ques-
tioned IEC reports of high turnout. According to Radio Free Europe, FEFA
and TEFA reported that turnout was down compared to the first round,
while fraud was up. TEFA head Naeem Ayubzada called the IEC’s turnout




  124                   SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




figures of seven million voters “inflated,” as estimated turnout was between
five and six million, and said that the number of votes from several eastern
provinces exceeded each province’s entire adult population. He concluded
that “the increase in numbers was due to fraud.”356
   A focal point of controversy was the IEC Head of the Secretariat, Zia
ul-Haq Amarkhail. On the day of the runoff, the Kabul chief of police
accused Amarkhail of misconduct after police stopped Amarkhail’s staff
with unused ballots in their vehicles. According to the IEC Chairman,
Amarkhail dispatched extra ballots to rectify a ballot shortage residents
had protested.357 Later, the Abdullah campaign released a series of audio
recordings that they claim show Afghan government officials, including            An election worker in Herat prepares to
Amarkhail, colluding to commit or allow for fraud. The recordings pur-            issue a ballot to a voter. (USAID photo)
port to document Amarkhail discussing plans to stuff ballots, a provincial
governor advising an Afghan army officer not to interfere with fraud, and
Amarkhail and another provincial governor discussing how to deal with an
Afghan army officer who detained IEC officials on charges of ballot stuff-
ing.358 Abdullah’s campaign also released a video they claim showed ballot
stuffing in Paktika Province.359
   A day after the first recordings were released, Amarkhail resigned and
later left the country. In a reversal from his previous defense of his IEC
colleague, the head of the IEC expressed his views regarding Amarkhail
by stating, “if Amarkhail was not involved in election fraud, he would not
have escaped from the country.”360 Amarkhail returned to Afghanistan to
reject accusations of a plot to escape and the validity of the audio record-
ings. He said he had resigned to allow the process to go forward and
called on the Electoral Complaints Commission (ECC) to investigate the
claims against him.361
   On June 18, Abdullah announced that he had cut off ties with the
Afghan election commissions and withdrew his observers. He also accused
President Karzai of not remaining neutral during the runoff.362 He later par-
ticipated in protests in Kabul that reportedly involved thousands of people.363
   During the preparation for the June 14 runoff, the deputy head of
UNAMA warned that, “the worst-case scenario would be if the election is
both polarising and the results are not accepted by one of the candidates—
that has the potential to lead to conflict.”364
   As of July 3, the IEC has detected enough suspicious data to conduct a
country-wide audit of 1,930 polling stations. However, the European Union
Election Assessment Team Afghanistan (EU EAT) reported that the number
of problematic polling stations from the runoff election could well exceed
6,000 out of a total of 22,828.365 On July 10, the European Union team
expressed concern that only 135 polling stations, out of 2,229 problematic
polling stations, were excluded from the announced preliminary results fol-
lowing an “unsatisfactory, hasty, audit conducted at provincial level” that
“was not sufficient to identify proxy voting, ballot stuffing, early shortages




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                125
GOVERNANCE




A policeman hangs a results list at a polling center in Kabul. (USAID photo)

of ballot papers, and other illegal acts or unusual events.” Additionally,
the IEC had invalidated 90% fewer problematic elections stations than in
the first round. EU EAT recommended that an additional two million to
four million votes should be further investigated.366
    Approximately 375,000 votes were invalidated from the first round on
April 5, down from the 1.2 million votes declared fraudulent in the 2009
presidential election.367 Between the first and second rounds, the IEC
announced that 5,388 (of 100,000) elections staff from 525 polling stations
across the country were blacklisted for misconduct and around 440 were
fired for underperformance in the first round. Because of a lack of evidence,
referral to the judiciary is still pending. Most of the affected staff held lower
positions within the electoral administration.368

Election Security
According to the EU EAT, security challenges increased in the second round
of voting.369 The most prominent security incident occurred on June 6,
when two suicide bombers attacked the convoy of presidential candidate
Abdullah Abdullah in the west of Kabul. Abdullah was unharmed, but 13
civilians were killed and 43 others were injured.370 According to NDI, there
were fewer security incidents on June 14 compared to previous elections,
but more incidents than on April 5. The IEC reported 130 security incidents
on June 14, along with the deaths of six IEC officials. Major Afghan cities,
including Kabul, experienced attacks in the early hours of polling day—a
tactic meant to intimidate and prevent voters from going to the polls.
However, NDI observers and domestic monitoring groups noted that these
attacks did not deter Afghans from participating in significant numbers.371




  126                   SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




   Domestic monitoring groups reduced the geographic coverage of their
elections monitoring during the runoff due to insecurity in the first round.
This may impact the elections-complaint process since both the IEC and
ECC relied upon the information provided by these domestic monitoring
groups to invalidate ballots.372 Also on election day, two of 173 health clinics
and 45 of 3,546 educational facilities designated as polling locations were
affected by election-related violence. According to the UN, this represents a
two-thirds reduction in the number of incidents compared with 2009.373
   To improve security as well as increase female voter turnout, the
Ministry of Interior (MOI), with financial support from the United States
and Republic of Korea, recruited and trained up to 13,000 female volun-
teers to serve as subsidized personnel to conduct body searches of female
voters. According to DOD, the Afghan government was able to recruit
and deploy sufficient female searchers for the April 5 election to cover
70% of open polling centers with polling stations for women.374 According
to State, anecdotal reports indicated an adequate female searcher pres-
ence during the runoff.375 Deploying women to search female voters was
important because Afghan custom forbids men to touch unrelated women.
The goal of this project was to prevent women with weapons—or men
disguised as women—from entering polling places to conduct attacks.376
State contributed $1.7 million to this $3.7 million project via the United
                                                                                   An Afghan National Army (ANA) officer
Nations Development Programme’s (UNDP) Law and Order Trust Fund for
                                                                                   shows his vote-confirming inked finger at a
Afghanistan (LOTFA).377                                                            polling center in Kabul. (USAID photo)

U.S. Support for the Elections
The U.S. government funded programs providing technical support, out-
reach, and deployment of domestic and international observers to help the
Afghan government hold credible, inclusive, and transparent elections.378
   USAID contributed $55 million to the UNDP Enhancing Legal and
Electoral Capacity for Tomorrow-Phase II (ELECT II) to help the Afghan
electoral management bodies by providing technical assistance to the IEC,
the ECC, and the Media Commission (MC). Additionally, UNDP ELECT II
develops the capacity of the electoral management bodies to administer
elections on its own for future elections cycles. UNDP ELECT II is sup-
ported through a multilateral “basket fund” that includes funding from at
least a dozen other donor countries. For instance, the United Kingdom, the
European Union, Italy, Germany, France, Netherlands, Sweden, Denmark,
Norway, and Japan contributed the remainder of the $129 million that
ELECT II estimated was necessary to support the elections.379
   USAID supported election-observation missions through awards to three
organizations: NDI via the Supporting Political Entities and Civil Society
(SPECS) program; Democracy International (DI); and the Organization for
Security and Co-operation in Europe (OSCE). SPECS awarded sub-grants
to four Afghan civil society organizations to deploy approximately 2,200




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                 127
                                                                  GOVERNANCE




TABLE 3.20


USAID PROGRAMS INTENDED TO SUPPORT THE 2014 PRESIDENTIAL AND PROVINCIAL COUNCIL ELECTIONS
                                                                                                                                          Cumulative Disbursements
 Project Title                                                              Start Date          End Date      Total Estimated Cost ($)      as of 6/30/2014 ($)
 Afghan Civic Engagement Program (ACEP)*                                    12/04/2013          12/03/2018         $70,000,000                   $4,996,608
 Enhancing Legal and Electoral Capacity for Tomorrow (ELECT) II             9/28/2013           9/27/2014           55,000,000                   11,821,602
 Electoral Reform and Civic Advocacy (AERCA)                                7/7/2009            12/31/2015          38,702,682                   29,831,936
 Supporting Political Entities and Civil Society (SPECS)                    7/7/2013            7/6/2016            18,000,000                    7,542,077
 International Election Observation (NDI)                                   2/1/2014            8/1/2014              4,000,000                   2,342,783
 International Election Observation (DI)                                    2/1/2014            8/1/2014              3,999,925                   3,092,937
 Peaceful Elections Campaign**                                              9/10/2013           9/30/2015             3,000,000                     451,496
 Election Support Team to Afghanistan (OSCE)                                2/20/2014           7/15/2014             1,500,000                   1,500,000
Notes:
*ACEP programming that contributed to the April and June 2014 elections cost approximately $1.4 million.
**As of March 25, 2014. These disbursements do not reflect operational expenditures.

Source: USAID, responses to SIGAR data call, 6/30/2014 and 7/10/2014.



                                                                  domestic elections observers.380 NDI also deployed 100 NDI Afghan staff
                                                                  to observe the runoff elections at 312 polling stations in 26 provinces.381
                                                                  According to USAID, the DI International Election Observation program
                                                                  deployed 16 international observers for the first round and eight interna-
                                                                  tional observers for the second round.382
                                                                      USAID further supported the elections through the Initiative to Promote
                                                                  Afghan Civil Society (IPACS II) and the Afghan Civic Engagement Program
                                                                  (ACEP) as well as the Peaceful Election Campaign (PEC). IPACS II and
                                                                  ACEP contributed to the elections through small-grant support to civil
                                                                  society and media partners for conducting civic-education activities, get-
                                                                  out-the-vote-out election awareness sessions, distributing election-related
                                                                  publications, and radio and television advertisements. IPACS II ended on
                                                                  March 31, 2014, and spent approximately $800,000 in support of the elec-
                                                                  tion while ACEP spent approximately $1.4 million.383 PEC supported a
                                                                  “Vote for Peace” elections campaign using community-outreach events
                                                                  such as athletics and poetry, as well as a multi-media program using radio,
                                                                  television, and the Internet to increase voter turnout, reduce violence and
                                                                  raise awareness that future peace and stability in Afghanistan requires a
                                                                  peaceful transfer of power.384
                                                                      A summary of USAID programs that supported the 2014 elections
                                                                  appears in Table 3.20.
                                                                      The International Security Assistance Force (ISAF) provided limited
                                                                  direct support to the Afghan elections including aerial transportation of sen-
                                                                  sitive election material from Kabul to regional, provincial, and district hubs
                                                                  at the request of the IEC. ISAF unilaterally delivered and retrieved election
                                                                  materials in seven districts and provided aerial security to the Afghan Air
                                                                  Force for the delivery and retrieval of elections materials in 12 districts.385




                                                                     128                            SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




NATIONAL GOVERNANCE
The United States provides assistance to Afghan governing institutions to
build capacity to perform critical services and thereby increase their legiti-
macy in the eyes of the Afghan population in two ways: through contracts,
grants, and cooperative agreements, and increasingly, through on-budget
assistance. In this final year of the security transition, the U.S. government
is particularly focused on increasing the financial and program-management
capabilities of Afghan government institutions. It is using a combination of
capacity building and on-budget programs to achieve this end.386
   According to the UN Secretary-General’s Special Representative for
Afghanistan, the Tokyo Mutual Accountability Framework (TMAF) serves
as a cornerstone of international engagement and is the agreed instrument
for deploying civilian development assistance in Afghanistan. The interna-
tional community and Afghan government agreed to the TMAF at the Tokyo
Conference of Donors in July 2012. Later the TMAF was augmented with
intermediate targets for the Afghan government and the international com-
munity called “hard deliverables,” such as the passage of a mining law.387
   Last quarter, SIGAR reported on the progress of TMAF “hard deliver-
ables.” (See pages 127–129 of the April 2014 Quarterly Report to Congress
for more information.) A Special Joint Coordination and Monitoring Board
(JCMB) meeting was held on January 29, 2014, to assess TMAF progress and
to formulate guidance in anticipation of a new Afghan government following
the elections.388 According to USAID, the JCMB meeting was the final oppor-
tunity for reviewing the existing set of hard deliverables. The United States
temporarily extended the window for passage of a mining law to April 16,
2014, but the window closed before the government passed the law.389
   This quarter USAID reported that it is working with interagency and
international partners to develop a new set of targets for the future imple-
mentation of TMAF to be discussed with the new government, once the
election is resolved and a new president takes office. According to USAID,
the process of finalizing these new targets will likely continue through the
international conference on Afghanistan tentatively planned for November
in London and into early 2015.390

On-Budget Assistance
To improve governance and align development efforts with Afghan priori-
ties, international donors at the 2010 London Conference committed to
increase the proportion of development aid delivered on-budget through the
Afghan government to at least 50%. The donors, including the United States,
reiterated this pledge at the July 2012 Tokyo Conference.391
   According to USAID, although most nonsecurity donor contributions to
the Afghan government are to the development budget and intended to be
spent on development project activities, in practice, the provision of donor
funding for a particular purpose can free Afghan government funds that




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014               129
                                                            GOVERNANCE




The U.S. and Afghan governments have                        would have otherwise been expended for that particular item. This means
differing ways of measuring U.S. progress                   that donor funding can, in effect, provide the Afghan government with the
toward fulfilling its commitments to                        budgetary latitude to prioritize and redistribute its own funding based on its
provide more funding through the Afghan                     most pressing needs, including to cover recurrent costs such as salaries.392
government budget. USAID says the Afghan
                                                                USAID provides on-budget assistance through bilateral agreements with
government only considers funds “on
                                                            seven Afghan government entities and through contributions to two multi-
budget” when they are disbursed (when
money has actually been spent), while
                                                            donor trust funds: the Afghanistan Reconstruction Trust Fund (ARTF) and
USAID counts commitments and obligations                    the Afghanistan Infrastructure Trust Fund (AITF).393 According to USAID,
(when the donor reserves the funds for a                    all bilateral-assistance funds are deposited in a separate bank account
specific purpose but money has not been                     established by the Ministry of Finance expressly for each program.394 The
spent) as on-budget support.                                ARTF, administered by the World Bank, provides funds to both the Afghan
Sources: USAID, OPPD, response to SIGAR data call,
                                                            government’s operating and development budgets in support of Afghan
12/30/2013 and USAID, U.S. Foreign Assistance for           government operations, policy reforms, and national priority programs.395
Afghanistan: Post Performance Management Plan 2011–2015:
Annex VIII – Assistance Objective 8: Increased Management   The AITF, a multidonor trust fund administered by the Asian Development
Effectiveness of GIRoA Institutions, 10/2010, p. 7.
                                                            Bank, coordinates donor assistance for infrastructure projects in
                                                            Afghanistan.396 According to USAID, the majority of on-budget funding has
                                                            been and will continue to be directed through the multi-donor trust funds,
                                                            particularly the ARTF.397
                                                                DOD provides on-budget assistance to the Afghan government through
                                                            (1) direct contributions to the Ministry of Defense (MOD) and the MOI
                                                            and (2) through contributions to a multi-donor trust fund called LOTFA.
                                                            LOTFA, administered by the UNDP, primarily funds the Afghan National
                                                            Police (ANP) salaries.398 Direct-contribution funding is also provided to
                                                            the Ministry of Finance, and later allotted incrementally to the MOD and
                                                            MOI, as required.399 According to DOD, the Combined Security Transition
                                                            Command-Afghanistan (CSTC-A) has several mechanisms for monitor-
                                                            ing U.S. direct contributions to the Afghan budget for the Afghan security
                                                            forces. CSTC-A uses a bilateral-commitment letter to ensure that the Afghan
                                                            government understands the terms and conditions for proper utilization of
                                                            CSTC-A funds (including purpose, time, and amount) and the possible con-
                                                            sequences of improper use of funds.400
                                                                As shown in Table 3.21, USAID expects to spend $986 million dollars on
                                                            direct bilateral assistance. It also expects to contribute almost $1.9 billion to
                                                            the ARTF and more than $180 million to the AITF.401 DOD expects to spend
                                                            approximately $2.09 billion through the LOTFA.402
                                                                According to USAID, the actual disbursement of funds through bilateral
                                                            on-budget programs is slower than either side would like. USAID has attrib-
                                                            uted the low budget-execution rate to limited Afghan government capacity
                                                            and the risk-mitigation measures USAID applies to on-budget assistance.403
                                                            The Afghan Minister of Finance was recently quoted saying that donors
                                                            have not released funding to the Afghan government, creating “a major hole
                                                            in [the Afghan government’s] development budget.”404
                                                                CSTC-A’s assessment is that once funds enter the Afghan govern-
                                                            ment’s bank account, oversight becomes significantly more challenging.405




                                                             130                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                       GOVERNANCE




TABLE 3.21


ON-BUDGET PROGRAMS
                                             US                                       Special                                                           Cumulative
                                         Government          Afghan Government         Bank                                       Total Estimated    Disbursements as
 Project/Trust Fund Title                  Agency            On-Budget Partner       Account?      Start Date         End Date        Cost ($)      of 06/30/2014 ($)
 Bilateral, Government-to-Government Projects*
                                                          Da Afghanistan
 Power Transmission Expansion and
                                             USAID        Breshna Sherkat              Yes          12/5/2012        12/31/2016    $342,000,000         $5,306,141
 Connectivity Project (PTEC)
                                                          (DABS)
 Partnership Contracts for Health                         Ministry of Public
                                             USAID                                     Yes          7/20/2008         1/31/2015     236,455,840        181,207,908
 Services (PCH) Program                                   Health (MOPH)
 Sheberghan Gas Development                               Ministry of Mines and
                                             USAID                                     Yes          5/26/2012         4/30/2015      90,000,000                  0
 Project (SGDP)                                           Petroleum (MOMP)
 Kajaki Unit 2 Project (Installation
 of Turbine Generator Unit 2 at              USAID        DABS                         Yes          4/30/2013        12/31/2015      75,000,000          5,593,727
 Kajaki Dam Hydropower Plant)
                                                          Ministry of Agriculture,
 Agriculture Development Fund
                                             USAID        Irrigation and               Yes          7/18/2010        12/31/2014      74,407,662         54,000,000
 (ADF)
                                                          Livestock (MAIL)
 Basic Education and Literacy
 and Vocational Education and                             Ministry of Education
                                             USAID                                     Yes          8/25/2013         8/25/2017      56,000,000                  0
 Training (BELT) - Community-Based                        (MOE)
 Education
 Civilian Technical Assistance                            Ministry of Finance
                                             USAID                                     Yes          9/30/2009         9/30/2014      36,256,560         28,810,610
 Program (CTAP)                                           (MOF)
 Afghanistan Workforce
                                             USAID        MOE                          Yes          7/31/2013         7/31/2017      30,000,000                  0
 Development Project (AWDP)
 Basic Education and Literacy and
 Vocational Education and Training           USAID        MOE                          Yes        11/16/2011         12/31/2014      26,996,813         21,955,403
 (BELT) - Textbooks Printing
                                                          Independent
                                                          Administrative Reform
 Civil Service Reform Support                USAID        and Civil Service            Yes        10/30/2011          7/31/2014      15,000,000         13,000,000
                                                          Commission (IARCSC)
                                                          and MOF
                                                          Ministry of
 E-Government Resource Center                             Communications
                                             USAID                                     Yes          8/28/2013          6/1/2016        3,900,000                 0
 (EGRC)                                                   and Information
                                                          Technology (MOCIT)
 Multi-Donor Trust Funds
 Law and Order Trust Fund for
                                              DOD         Ministry of Interior          No                 2008            2024   $2,086,000,000    $1,160,700,000
 Afghanistan (LOTFA)
 Afghanistan Reconstruction Trust
                                             USAID        Multiple                      No          3/31/2012         3/31/2017    1,900,000,000       604,829,100
 Fund (ARTF) (current award)**
 Afghanistan Infrastructure Trust
                                             USAID        Multiple                      No           3/7/2013          3/6/2018     180,000,000        105,000,000
 Fund (AITF)
Notes:
*Does not include DOD direct contribution funds.
**USAID had a previous award to the ARTF that concluded in March 2012 and totaled $1,371,991,195 in disbursements.

Sources: USAID, OPPD, response to SIGAR data call, 6/30/2014; CSTC-A, response to SIGAR data call, 7/1/2014.




REPORT TO THE UNITED STATES CONGRESS                     I    JULY 30, 2014                                    131
                                                             GOVERNANCE




                                                             Currently, CSTC-A direct contributions are pooled with all sources of
                                                             Afghan government revenues (including other donor nations and domes-
                                                             tic revenues) deposited in the single treasury account of the central bank.
                                                             According to CSTC-A, this approach has the advantage of simplicity and
                                                             provides the Afghan government flexibility, but requires additional effort
                                                             from CSTC-A to reconcile the reported use of funds.406 CSTC-A is exploring
                                                             the option of using a separate bank account, such as those used by USAID.
                                                             CSTC-A notes that whereas USAID funds programs that are focused or
                                                             limited-duration with significant USAID involvement in procurement and
                                                             execution, CSTC-A direct contributions support multiple MOD and MOI
                                                             requirements and are primarily executed by the Afghan government.407

                                                             Capacity-Building Programs
                                                             USAID capacity-building programs seek to improve Afghan ministries’
                                                             ability to prepare, manage, and account for on-budget assistance. SIGAR’s
                                                             January 2014 audit of USAID’s assessments of seven Afghan ministries
                                                             receiving on-budget assistance from the U.S. government found that
                                                             none of these assessments and reviews identified a ministry capable of
                                                             effectively managing and accounting for funds without implementing risk-
                                                             mitigation measures.408 As shown in Table 3.22, programs include USAID’s
                                                             $31 million Leadership, Management, and Governance Project that aims
                                                             to strengthen Afghanistan’s financial-management systems and the capac-
                                                             ity of the Ministry of Public Health and the Ministry of Education to meet
                                                             requirements set at the 2010 Kabul International Conference for increased
                                                             on-budget aid.409 USAID is also funding the $15 million Ministry of Women’s
                                                             Affairs Organizational Restructuring and Empowerment (MORE) project,
                                                             which among other things assists the ministry to improve its financial man-
                                                             agement, as required for future on-budget assistance.410

                                                             National Assembly
                                                             According to State, the Afghan legislative branch remains weak in com-
                                                             parison to the executive, but members of parliament appear to be trying
                                                             to strengthen their hand vis-a-vis the executive branch. However, staffing

TABLE 3.22


USAID CAPACITY-BUILDING PROGRAMS AT THE NATIONAL LEVEL
                                                                                                                     Total Estimated   Cumulative Disbursements
 Project Title                                              Afghan Government Partner      Start Date    End Date        Cost ($)        as of 6/30/2014 ($)
                                                            Ministry of Public Health
 Leadership, Management, and Governance Project                                            9/25/2011     9/24/2016   $ 32,000,000           $22,826,010
                                                            Ministry of Education
 Assistance to Legislative Bodies of Afghanistan (ALBA) Parliament                         3/28/2013     3/27/2017     23,455,326             4,067,868
 Ministry of Women's Affairs Organizational
                                                            Ministry of Women's Affairs   12/20/2012    12/19/2015       5,000,000            2,955,012
 Restructuring and Empowerment (MORE)
Source: USAID, responses to SIGAR data call, 7/10/2014 and 7/13/2014.




                                                                132                       SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




struggles, corruption, and low levels of education and experience continue
to plague the body.411
   The major legislation passed this quarter included the Anti-Money
Laundering Law, signed into law by President Karzai on June 25.412 The
lower house of parliament passed the Access to Information Law three
years after its submission.413 The law, which prevents government officials
from refusing to provide information to journalists and the public, is now
with the upper house. Civil-society organizations have stated that the law
will be the first of its kind in Afghanistan’s history and could noticeably
lower the scale of corruption in the country.414 In May, the lower house also
passed a new law to regulate the mining sector.415
   Parliament also held hearings involving several Afghan government min-
isters on topics including university entrance exams, flood relief, women’s
issues, crime, the execution of Afghans in Iran for drug smuggling, elec-
tronic identification (e-taskera), and narcotics eradication and treatment.416
   In May, neither house of parliament could conduct much business
because a majority of representatives were absent. For example, the
Meshrano Jirga (the upper house) failed to achieve a quorum, with only
30% participation in both plenary and commission sessions during one of
the weeks. In May, the Wolesi Jirga (the lower house) achieved quorum
only twice in two weeks. Many parliamentarians were reportedly in the
provinces to contest vote counting from the recent provincial council elec-
tions and participate in the presidential runoff campaign.417 According to
a report by Tolo News, the Wolesi Jirga’s Administrative Committee found
that absenteeism is a major impediment to the parliament’s functioning and
members of the lower house are taking more leave than the 15 days allotted
every four months.418
   USAID funds the $23.5 million Assistance to Legislative Bodies of
Afghanistan project (ALBA) to help Afghanistan’s parliament operate as
an independent and effective legislative, representative, and oversight
body.419 In the last quarter, ALBA focused on initiatives to help members
of parliament and their staff to improve their capacity. ALBA supported
the Parliamentary Anticorruption Caucus, worked with the 21 members
of parliament to draft amendments to the Access to Information Law and
Anticorruption Law, and contributed amending language to the Mining Law
and Procurement Law.420
   According to USAID, the greatest institutional-capacity shortfall of
parliament that ALBA needs to address is lack of subject-matter expertise
in both houses of parliament to properly analyze specialized legisla-
tion. Although the secretariats of both houses have researchers and legal
experts, these individuals are not always qualified to carry out these duties
and serve as resources to the members of parliament.421 An ALBA review
of parliament’s research and budget staff found that capacity is extremely
low and that parliamentarians do not consider the staff’s work valuable.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014               133
GOVERNANCE




Parliament’s current research and budget staff reportedly are not up-to-date
on various policy issues and reforms—including program budgeting, pro-
vincial budgeting, and the medium-term fiscal and budget framework—used
to prepare the annual budget. According to the review, despite reforms that
increased salaries and aimed for more competitive recruitment, nepotism
continued to undercut internal research capacity as incumbent unqualified
staff were re-recruited.422


SUBNATIONAL GOVERNANCE
The United States government supports initiatives at the subnational level
to give Afghans a greater stake in their own government. The goal is to
make local government more visible, accountable, and responsive to the
Afghan people, particularly in the south and east, where the insurgency has
been tenacious.423
   This quarter, DOD reported that the Village Stability Operations (VSO),
a bottom-up counterinsurgency strategy aimed at connecting local gover-
nance to the Afghan district and national government, has ended.424 The VSO
initiative originally had three primary components: local governance, devel-
opment, and security. The Afghan Local Police (ALP) program, originally
the security component of VSO, is the only remaining portion.425 According
to DOD, although VSO has ended, some remnants of the VSO remain at the
district and provincial levels in support of the ALP program. The district
and provincial elements will complete their mission by October 31, 2014.426
SIGAR reported last quarter on the challenges DOD faced in assessing the
impacts of VSO on Afghan governance. See pages 132–143 of the April 2014
Quarterly Report to Congress for more information.

Rural Stabilization Programs
USAID has several stabilization programs aimed at helping the Afghan gov-
ernment extend its reach into unstable areas and build local governance
capacity. These programs include USAID’s four Stability in Key Areas
(SIKA) projects, the two Community Cohesion Initiative (CCI) programs,
and the ARTF’s National Solidarity Program (NSP). The United States has
requested that $865 million of its ARTF contributions support the NSP.427
Table 3.23 summarizes total program costs and disbursements to date.

Stability in Key Areas (SIKA)
The objective of SIKA is to help district- and provincial-level Afghan govern-
ment officials respond to the local population’s development and governance
concerns, instilling confidence in the government and bolstering stability.428
USAID intended the four SIKA programs to “be seen as an extension of the
[Afghan government], not as increased foreign presence,” and stipulated
that SIKA “must work within Afghan structures” in order to partner with the




 134                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                          GOVERNANCE




TABLE 3.23


USAID SUBNATIONAL (RURAL) PROGRAMS
                                                                                                                                                              Cumulative Disbursements
 Project Title                                                                  Start Date           End Date            Total Estimated Cost ($)               as of 6/3/2014 ($)
 National Solidarity Program (NSP) via the Afghanistan
                                                                                      2004                 2012                $865,000,000                        $865,000,000
 Reconstruction Trust Fund (ARTF)*
 Stability in Key Areas (SIKA) South***                                        4/10/2012             9/3/2014                   177,565,498                            39,523,359
 SIKA East                                                                     12/7/2011             9/6/2015                   177,054,663                            68,371,001
 Community Cohesion Initiative (East, South, Southwest)**                        3/1/2012           2/28/2015                   161,499,422                             7,373,529
 Afghanistan Civilian Assistance Program (ACAP II)                             9/27/2011            9/26/2014                     64,000,000                           45,194,000
 SIKA West                                                                     1/29/2012            8/31/2015                     62,998,824                           30,049,405
 SIKA North                                                                    3/15/2012            6/14/2015                     45,633,274                           20,318,357
 Community Cohesion Initiative (North, West)**                                 9/10/2013             9/9/2015                     36,221,640                              451,496
Notes:
*This includes USAID contributions to the ARTF with an express preference for the National Solidarity Program (NSP). According to the agreement with the World Bank, donors can only express a
preference on how their donations are used up to 50% of their total contribution. The remaining, unpreferenced funds provided to the ARTF may also be used to support NSP.
**As of March 25, 2014. These disbursements do not reflect operational expenditures.
***The disbursement data includes the totals for both SIKA South awards.

Source: USAID, responses to SIGAR data call, 6/30/2014, 7/10/2014, 7/13/2014, and 7/14/2014.




Afghan Ministry of Rural Rehabilitation and Development (MRRD).429 The
four SIKA contracts require the MRRD, as primary partner, to have represen-
tation in a district in order for SIKA to operate there. The degree of required
MRRD presence ranges from an individual MRRD representative who comes
to work on “a semi-regular basis” (SIKA South) to MRRD representation that
is able to effectively operate and monitor SIKA activities in the district as
well as provide support and leadership (SIKA West).430
    During the quarter, the USAID Measuring Impacts of Stabilization
Initiatives (MISTI) project, a third-party monitoring and evaluation program
that evaluates the impact of USAID stabilization programs, issued a mid-
term performance evaluation of the SIKA West program. According to the
evaluation, SIKA West is meant to be an Afghan-led, government-owned
program with quick-delivery projects that have long-term results.431 The
evaluation raised questions about how SIKA projects connect to its purpose
and how USAID would even know if projects are having an effect. The
review concluded:
              The inherent issue with SIKA West’s programming is its
              lack of a properly articulated theory of change which would
              explain to management and stakeholders what the results
              of implemented activities should be. This lack of a defined
              theory of change results in sub-optimal implementation and
              assessment of the four [intermediate results,] and without
              outcomes measurement in its [performance monitoring plan],
              SIKA West performance measurement is likely to result in
              fewer lessons-learned (both positive and negative) that can
              tie directly back to improving the performance of imple-
              mented activities.432




REPORT TO THE UNITED STATES CONGRESS                        I   JULY 30, 2014                                      135
                                        GOVERNANCE




                                           Calling SIKA West’s currently reported outcomes “mislabeled outputs,”
                                        the evaluation recommends that SIKA West revise its performance-monitor-
                                        ing plan to include outcome indicators that measure whether the program
                                        actually had an effect.433
                                           The evaluation offered a mixed assessment of SIKA West’s projects.
                                        According to the evaluation, infrastructure-development activities in Farah
                                        and Herat Provinces by and large met the stabilization objectives: sup-
                                        port for the government increased due to the projects, many beneficiaries
                                        reported that employment opportunities reduced support for insurgent
                                        groups, and infrastructure development tied to agriculture or transporta-
SIKA West road-rehabilitation project   tion (the types of projects sampled) had beneficial effects on society as they
in Muqur District, Badghis Province.    improve agricultural potential and connect villages to one another.434 The
(USAID photo)                           evaluation questioned the value of other projects, however:
                                                SIKA West conducts multiple activities it says are part of
                                                stability programming, but are in effect small-scale inter-
                                                ventions at the district level that may end quickly once
                                                project funding dries up. Two-hour communications train-
                                                ings, English classes for [Provincial Ministry of Rural
                                                Rehabilitation and Development staff], and a variety of
                                                similar activities are not generally considered stabilization
                                                programming. If the goal of SIKA West is to increase con-
                                                fidence in local government through provision of service
                                                delivery, it needs to focus more on increasing the govern-
                                                ment’s capacity to understand what services are needed and
                                                how best to provide them through available mechanisms.435

                                           SIKA West produced mixed results. On one hand, SIKA West programs
                                        did improve communications between district governments and their com-
                                        munities, especially through District Stability Committee (DSC) meetings.436
                                        On the other hand, SIKA West actions have had a negative effect on district
                                        government empowerment and decision-making. District governors com-
                                        plained about the deterioration in their authority due to the DSC process
                                        and the direct funding of Community Development Councils (CDC).437 The
                                        evaluation also found that there is very little inclusion of government enti-
                                        ties in the monitoring of projects. Afghan government participation in these
                                        visits are important for transparency, accountability, and showing govern-
                                        ment involvement in a project.438

                                        Community Cohesion Initiative (CCI)
                                        USAID’s CCI programs, split between one program covering the east,
                                        south, and southwest, and another covering the north and west, aim to
                                        build what USAID calls “resilience” in areas vulnerable to violence and
                                        insurgent exploitation. CCI implements initiatives such as local commu-
                                        nity-development projects that engage community leaders and government
                                        officials in their identification and oversight. The CCI also supports peace-
                                        advocacy campaigns at sporting events.439 The Afghan government was




                                         136                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




awarded 84% of the 720 CCI activities while 7% were awarded directly to
community groups.440
    During the quarter, MISTI issued a mid-term performance evaluation of
CCI as implemented in the east, south, and southwest.441 The evaluation
examined 61 projects from eight CCI districts.442 The evaluation noted that a
lack of trust between USAID and the implementing partner due to challenges
in project start-up and operations made it difficult for the evaluation team to
gather information on CCI processes, performance, and perspectives.443
    The evaluation reported that CCI strengthened ties between local
actors, customary governance structures, and the Afghan government.
Afghan government officials increased their presence in communities
for events such as CCI-grant opening and closing ceremonies. CCI staff,
Afghan government officials, and community leaders reported that there
is increased demand for Afghan government services following CCI grant
implementation as evidenced by the increased number of community mem-
bers petitioning district governors.444
    According to CCI staff, CCI monitoring and evaluation of ties between
the Afghan government and communities now includes whether people
in a district sought access to Afghan government officials and whether
Afghan government officials travelled outside the district center.445 CCI
staff noted value in beginning work with the Afghan government at the
district center, building trust and credibility through a few projects in the
district, and then extending CCI implementation to villages a few kilome-
ters out from the center or to more remote areas. The geographic spread
from these district centers has been modest with grants often concentrated
in or near district centers.446
    The evaluation also found that CCI increased cohesion among com-
munities. CCI staff, Afghan government officials, and community members
reported that grants that originated from community processes were imple-
mented in communities with community members as beneficiaries, or were
granted to community actors who supported cohesion. The evaluation
noted that the objective of supporting cohesion was a conceptually more
difficult objective than increasing ties between the Afghan government and
population and that CCI staff had differing interpretations of how projects
supported cohesion. While some CCI staff viewed the defining aspect of
cohesion projects as those that originated from the community, other CCI
staff saw cohesion projects as those that benefited more people, such as
schools and roads, or connected people across communities.447 It was not
clear from the evaluation how cohesion projects per the second definition
differed from a school or road project implemented by another program
without a cohesion objective.
    The evaluation noted that monitoring and evaluation were a challenge
for CCI.448 Although many of those interviewed testified to the effective-
ness of CCI, the evidence they offered in support was not always clear.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                137
GOVERNANCE




For example, CCI staff in some districts noted that it was not their respon-
sibility to follow up after vocational training to gather data on whether
beneficiaries were employed after training.449 Also, CCI staff interviewed
sometimes struggled with articulating how communications efforts were
successful beyond having more people come to CCI events.450

National Solidarity Program (NSP)
The ARTF supports both Afghanistan’s operating and development bud-
gets. As part of the development budget it funds the Afghan government’s
National Solidarity Program (NSP), designed to strengthen community-level
governance and to improve the access of rural communities to essential
services by channeling resources to democratically elected Community
Development Councils (CDCs).451 USAID previously, at Congress’s direction,
“preferenced” (earmarked) funds to the NSP, via the ARTF, to advance coun-
terinsurgency objectives in areas newly under Afghan government control.
USAID has acknowledged a lack of evidence that NSP increases stability in
insecure parts of Afghanistan and adjusted its funding accordingly.452
   According to USAID, NSP does achieve some positive results, including
community-level engagement in decision-making. However, USAID does not
rely on the program to achieve specific development objectives.453 USAID
stated that they pay less attention to NSP than to other ARTF programs
for which USAID expresses a preference. USAID preferences through the
ARTF now support programs for education, health, public financial manage-
ment, and land reform.454 Prior to FY 2013, USAID had preferenced a total of
$865 million directly for NSP.455

Afghan Civilian Assistance Program (ACAP)
In June, the USAID Inspector General issued an audit of the Afghan Civilian
Assistance Program II (ACAP II). The primary objective of ACAP II was to
provide Afghan civilian victims of confrontations between international mil-
itary forces and Taliban insurgents with appropriate and timely assistance
to recover and rebuild their lives. Program assistance included nonmon-
etary immediate assistance such as foodstuffs, small household items, and
repairs to damaged homes and other properties. The program also provided
assistance tailored to the needs of the victims to help them recover lost live-
lihoods. Tailored assistance included grants to start small businesses such
as clothing shops, grocery stores, and livestock farms.456
    Among the findings, USAID found that ACAP II did not provide timely
assistance or adequate verification of beneficiaries. While the program
required delivery of immediate assistance within two to seven days, during
its first and second years implementers took an average of 50 days and 28
days, respectively. In addition, the program’s procedures for verifying ben-
eficiaries were weak. As a result, the report concluded that assistance could
have gone to beneficiaries who were not genuine. Also, the audit found that




 138                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




the Afghan Ministry of Labor, Social Affairs, Martyrs, and Disabled cannot
sustain ACAP II activities. To sustain assistance to Afghan civilians after the
program ends in September 2014, the ministry had planned to assume lead-
ership of assistance activities by September 2013. However, as of June 2014
it had not done so.457


RECONCILIATION AND REINTEGRATION
The current U.S. Civil-Military Framework states that political reconcili-
ation between the Afghan government and insurgency is “the solution to
ending the war in Afghanistan.”458 However, the UN Secretary-General
recently noted little progress in establishing a formal dialogue between the
Afghan government and armed opposition groups.459
   According to a UN Sanctions Monitoring Team report, reconciliation has
stalled, although Afghan government efforts to promote political contacts
continue. The primary impediment to reconciliation appears to be the lack
of consensus on the Taliban side. The report found that the past year has
been a bumper year for Taliban revenues, boosted by booming narcotics
income, revenue from corruption and extortion, and increasingly draw-
ing on the illegal exploitation of natural resources. As their finances have
improved, the Taliban have become more of an economic actor, with incen-
tives to preserve this income and possibly with less incentive to negotiate
with the Afghan government.460

Reconciliation
According to State, there has been no noticeable progress in the ability of the
Afghan High Peace Council (HPC) to garner support for reintegration and rec-
onciliation efforts during the quarter. State reported that the HPC continues to
conduct regular meetings, but State has no visibility on the results.461
   Five Taliban members were exchanged in May an American prisoner,
U.S. Army Sergeant Bowe Berghdal. A senior member of the HPC expressed
hope that the release of the Taliban members would help start peace talks
in Afghanistan. A spokesman for the Taliban, however, discounted this sen-
timent, stating that the exchange had no impact on the peace process.462
   According to a State spokesperson, the U.S. government and the govern-
ment of Qatar agreed to severe restrictions on the five released Taliban as a
condition of their release.463 An Afghan Ministry of Foreign Affairs spokes-
man was quoted calling for the lifting of any restrictions imposed on the
five Taliban members with anything less than “full freedom” a violation of
international law.464
   On June 21, the Secretariat Chief for the High Peace Council, Masoom
Stanekzai, survived a suicide attack that killed one civilian and injured four
others in Kabul. A September 2011 attack injured Stanekzai while killing
former Afghan president and HPC head Burhanuddin Rabbani.465




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                 139
                                                                GOVERNANCE




                                                                Afghanistan Peace and Reintegration Program
                                                                The Afghanistan Peace and Reintegration Program (APRP), an Afghan-led
                                                                program to reintegrate low-level insurgent foot soldiers and their command-
                                                                ers into Afghan civil society, is financed by $182.3 million in contributions
                                                                from 12 donor nations. Operational funding for the program is provided
                                                                by seven donor nations (primarily Japan and Germany). The United States
                                                                provides funding towards community-recovery efforts administered by the
                                                                World Bank.466
                                                                   According to the Force Reintegration Cell (FRIC), an ISAF element
                                                                supporting the APRP, the APRP Joint Secretariat and Provincial Joint
                                                                Secretariat Teams continue to make outreach a priority through local peace
                                                                meetings and radio and television advertisements.467
                                                                   The FRIC also reports 53 small grant projects and 1,162 Afghan govern-
                                                                ment projects are under way in 32 provinces and 190 districts.468
                                                                   From January to March 31, 451 new reintegrees joined the program,
                                                                increasing the total to 8,503 reintegrees, as shown in Figure 3.29.469
                                                                According to State and the FRIC, the APRP has a robust vetting process
                                                                to confirm that individuals who want to join the program are actually
                                                                insurgents. Afghan civil government and ANSF officials at the provincial
                                                                and national levels are responsible for processing reintegrees. The interna-
                                                                tional role is limited to being able to access the Reintegration Tracking and
                                                                Monitoring Database.470
FIGURE 3.29


REINTEGREES BY REGIONAL COMMAND

10,000



 8,000
                                                                                                                                        RC-NORTH




 6,000                                                                                                                                           RC-CAPITAL
                                                                                                           RC-WEST
                                                                                                                                             RC-EAST

 4,000
                                                                                                                             RC-SOUTH


 2,000                                                                                                  RC-SOUTHWEST




      0
            Mar      Jun      Sep       Jan      Mar     June      Sep       Dec      Mar
           2012     2012     2012      2013     2013     2013     2013      2013     2014


Notes: DOD provided updated numbers as of March 2014. Sources did not explain why the cumulative number decreased in RC-North (from 3,244 to 3,071) and RC-Southwest (from 218 to 195)
this quarter; the current number of confirmed recidivists has remained at 16 individuals.
Source: State, response to SIGAR data call, 10/4/2013, 7/1/2013, 4/2/2013, 1/2/2013, 10/2/2012, 7/5/2012, and 3/30/2012; DOD, responses to SIGAR data call, 6/30/2014,
3/31/2014, and 12/31/2013.




                                                                  140                          SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                                                                      GOVERNANCE




   In a report released in June by the Afghanistan Independent Human
Rights Commission (AIHRC) and 11 Afghan civil society groups, the APRP
was criticized for what some label as “rewards” offered to insurgents such
as the economic opportunities, amnesties, and reinstatement of reintegrees
into positions of power, that they say served to fuel impunity. The report
quoted interviewees that called for community-based development projects
and, through vetting, identifying, and removing those insurgents who are
clearly responsible for gross human-rights violations. Furthermore, reinte-
grees interviewed by the authors expressed dissatisfaction with the APRP,
stating that it failed to deliver on its promises and left them feeling used,
unsupported in the long run, and vulnerable to attack for their cooperation
with the Afghan government. The report concluded that “in essence, the
APRP is viewed as a failure by all intended recipients.”471


RULE OF LAW AND ANTICORRUPTION
Project Summary
The United States has provided assistance to the formal and informal jus-
tice sectors through several mechanisms. These include the USAID Rule
of Law Stabilization Formal and Informal Components (RLS-F and RLS-I),
the State Department Justice Sector Support Program (JSSP), and the State
Department Justice Training Transition Program (JTTP). These and other
rule-of-law and anticorruption programs are shown in Table 3.24.
   RLS‐F provides assistance to the formal justice sector to increase access
to justice, strengthen the capacity of the legal education system, and
promote transparency and accountability at the district, provincial, and
national levels. USAID reports that RLS-F improves the capacity of sitting
judges and court staff by providing comprehensive legal training. RLS-F
includes the Supreme Court formal training program for new judges.472
TABLE 3.24


USAID RULE OF LAW AND ANTICORRUPTION PROGRAMS
                                                                                                                                                  Cumulative Disbursements
 Project Title                                               Agency          Start Date           End Date             Total Estimated Cost ($)     as of 6/30/2013 ($)
 Justice System Support Program II (JSSP II)*                State          5/31/2010          12/31/2014                  $301,971,225                $152,088,263
 Corrections System Support Program (CSSP)*                  State           5/1/2010          12/31/2014                   198,586,208                 171,569,427
 Rule of Law Stabilization - Formal Component                USAID          7/16/2012            7/14/2014                    22,581,128                 19,068,556
 Justice Training Transition Program (JTTP)*                 State           1/2/2013             7/1/2015                    20,000,000                 20,000,000
 Rule of Law Stabilization - Informal Component              USAID          7/16/2012            3/13/2014                    15,651,679                 15,080,799
 GAPS Anti-Corruption Grant                                  USAID           6/7/2012             6/6/2014                     1,292,379                    720,467
 Fight Corruption Tooth and Nail                             USAID           7/4/2012             7/3/2014                       997,000                    528,783
Note:*Disbursements as of May 14, 2014.

Sources: USAID, response to SIGAR data call, 7/10/2014; SIGAR analysis of State response to data call, 5/27/2014, 6/3/2014, and 7/16/2014.




REPORT TO THE UNITED STATES CONGRESS                     I   JULY 30, 2014                                   141
                                            GOVERNANCE




                                               This quarter, USAID issued a performance evaluation of the third and
                                            final phase of RLS-I that ran from July 2012 to March 2014. The review
SIGAR AUDIT                                 focused on three RLS-I objectives: to strengthen and improve traditional
SIGAR has an ongoing audit of U.S.          dispute-resolution mechanisms, strengthen linkages between formal and
government efforts to assist and            informal justice sectors, and facilitate cooperation to address longstanding,
improve the rule of law in Afghanistan.     intractable disputes.473 Approximately 76% of direct beneficiaries (those
SIGAR plans to (1) identify U.S.            who received RLS-I training) indicated high levels of satisfaction with the
government programs or initiatives to       training, and many felt their knowledge of Afghan law had improved.474
develop rule of law in Afghanistan;         However, 88% of participants reported that female trainers lacked sufficient
(2) assess the progress that these          knowledge of Afghan law, and that training was conducted over too short
programs or initiatives have made;          a period of time.475 The review questioned the value of RLS-I sponsored
(3) identify challenges, if any, that the   Community Cultural Centers (CCC) that were meant to help distribute
U.S. government has encountered in          booklets and other media produced by RLS-I. The evaluation teams were
achieving its rule of law objectives and    unable to identify any CCC members despite having been given contact
the extent to which it has addressed        information for CCCs in six provinces.476
these challenges.                              While the evaluation found that harmful social practices such as
                                            baad, the practice of exchanging women to settle a dispute, were gener-
                                            ally reduced in target communities, it is not entirely clear the degree to
                                            which the RLS-I training was responsible for this reduction compared to
                                            other possible factors such as training by other programs. Similarly, data
                                            from in-depth interviews and focus-group discussions indicated little to
                                            no progress towards the resolution of long-standing disputes, with many
                                            respondents indicating that such disputes continued to exist with no resolu-
                                            tion expected. The quantitative survey data indicated, however, that 58% of
                                            indirect beneficiaries, or residents who did not receive training, believed
                                            that more long-standing disputes had been resolved in the past two years
                                            compared to previously, with only 9% of respondents reporting no change.477
                                               The evaluation also found that few cases were referred from the infor-
                                            mal justice sector to the formal justice sector, while case referrals from
                                            the formal to informal sector were common throughout target provinces.
                                            Traditional decision-makers had a generally low opinion of formal justice
                                            institutions, while formal justice actors had respect for informal institutions.
                                            Respondents including traditional dispute resolution practitioners and for-
                                            mal justice sector actors generally preferred the informal over the formal
                                            justice system.478 The evaluation concluded that the relationship between
                                            the formal and informal systems is largely one-way, with the formal system
                                            referring cases to the informal system but the latter not reciprocating.479
                                               The State Department’s JSSP objectives include developing a case-
                                            management system (CMS) to track cases throughout Afghanistan’s justice
                                            system and building the capacity and administrative skills of ministry
                                            officials.480 According to the latest JSSP quarterly report, seven of the 34
                                            provinces are actively using CMS, while two provinces received CMS equip-
                                            ment in May.481 JSSP completed baseline assessments of the Afghan justice
                                            ministries this quarter and plans to deliver training, mentoring, technical




                                             142                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




advice, and material support to improve transparent justice services and to
address areas for improvement identified in the baseline assessments.482
   The State Department’s JTTP provides regional training to justice-sector
officials, including police, prosecutors, judges, and defense attorneys, on a
wide range of criminal justice topics, including anticorruption. JTTP also
provides mentoring on specific cases and legal issues to justice sector offi-
cials, including prosecutors and judges.483 In the last quarter, JTTP delivered
46 training courses for 1,098 participants in 17 provinces.484

The Supreme Court and the Formal Justice Sector
According to State, there were no notable rulings by the Supreme Court
during the quarter.485

Afghan Correctional System
According to State, the inmate population of Afghanistan’s prisons managed
by the General Directorate of Prisons and Detention Centers (GDPDC) has
continued to increase at a rate of 16.4% annually over the past five years. As
of May 20, the GDPDC incarcerated 27,827 individuals.486
   As of April 20, the Ministry of Justice’s Juvenile Rehabilitation
Directorate (JRD) incarcerated 1,071 juveniles. This total does not include
detainees held by any other Afghan governmental organization as State’s
Bureau of International Narcotics and Law Enforcement Affairs (INL) does
not have access to data for other organizations.487
   Overcrowding is a persistent, substantial, and widespread problem
within GDPDC facilities, although reduced by new prison beds added                CSSP trainee prison guards simulate
through State-funded prison construction and by significant reductions            responding to prisoners out of their cells
                                                                                  at the Counter Narcotics Justice Center in
in prison population due to presidential amnesty decrees. As of May 20,
                                                                                  Kabul. (CSSP photo)
2014, the total male provincial-prison population was at 279% of capacity,
as defined by International Committee of the Red Cross’s (ICRC) minimum
3.4 square meters per inmate. The total female provincial-prison population
was at 116% of the ICRC recommended capacity. Information on the capac-
ity of GDPDC-operated district detention centers and the JRD’s juvenile
rehabilitation centers is not available. However, anecdotal reporting by INL
advisors visiting facilities indicates that overcrowding is a substantial prob-      SIGAR INSPECTION
lem in many provinces.488
                                                                                     SIGAR issued an inspection report
   In May, a delegation from the Afghan upper house of parliament visited
                                                                                     this quarter on the State Department-
Herat Province to oversee the justice and judicial organs of the province.
                                                                                     funded Baghlan Prison which found that
The delegation found that there are between 3,000 and 4,000 prisoners
                                                                                     the facility requires extensive remedial
in the Herat prison, which was built to house 700 to 800 prisoners. The
                                                                                     action. See Section 2, page 34.
Ministry of Interior reportedly has land to build a new facility but lacks the
funding to do so.489




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                143
GOVERNANCE




Anticorruption
Afghan anticorruption efforts showed no significant progress during the
quarter. State is not aware of any high-level Afghan government officials fac-
ing prosecution or investigation during this quarter. The Afghan government
continues to prosecute only the lowest-level supervisors and officials below
them for corruption.490
   In June, the Carnegie Endowment for International Peace issued a report
on the impact of corruption on international security. Among the findings,
the report notes that acute corruption should be understood not as a failure
or distortion of government, but as a functioning system in which ruling
cliques, best thought of as networks, use selected levers of power to cap-
ture specific revenue streams. The effort to capture revenue streams often
overshadows activities connected with running a state.491
   Systematic corruption, however, evokes indignation in the populace,
making it a factor in social unrest and insurgency.492 Afghanistan was
singled out as an example of corruption that is relatively structured and
where governing systems have been bent to benefit one or a very few
networks. According to the report, President Karzai regularly calls his
attorney general to influence cases or personally orders the release of
suspects from pre-trial detention, quashing the cases against them.493 The
report questioned the value of international anticorruption initiatives that
let the Afghan system itself take the lead in eradicating corruption, labeling
this a “policy oxymoron.”494
   In June, Integrity Watch Afghanistan issued their national corrup-
tion survey. The report was based on interviews with 7,798 men and
women across all provinces. Corruption and unemployment tied as the
second-greatest challenge facing Afghanistan after security. While 18% of
respondents in 2012 faced corruption within the last 12 months, 21% of
respondents faced corruption in the 2014 survey. Of those who experi-
enced corruption in the 2014 survey, 65% paid money; the rest experienced
some sort of non-monetary corrupt practices such as offering gifts to cor-
rupt actors.495 The survey found that the presence of the government in
an area increases the interaction with civil servants and, subsequently,
increases perceptions of corruption.496
   In May, the lower house of parliament accused the Kabul mayor of cor-
ruption, and the speaker of the lower house said it no longer recognizes
the mayor’s authority. The AGO has established a 12-member commission
to investigate corruption accusations against the Kabul mayor and some
lawmakers. The commission was established following protests against the
mayor that halted municipal activities and the receipt of a dossier from the
Presidential Palace.497




 144                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




Afghan Attorney General’s Office
There were no significant changes in the technical capacity or effectiveness
of the AGO. The AGO declined offers from State to train AGO prosecutors
in investigative methods. According to State, the election made the pursuit
of high-level corruption cases less likely.498
   According to State, the Anticorruption Unit (ACU) of the AGO is able
to prosecute lower-level corruption cases but faces obstacles prosecut-
ing higher-level corruption. The ACU has been unreceptive to State and
Department of Justice (DOJ) engagement, and suffers from low morale.
The ACU has little technical capacity and has demonstrated little interest in
developing the techniques to effectively pursue more sophisticated corrup-
tion cases. However, it is capable of prosecuting simple cases of graft. The
U.S. Embassy Kabul’s Office of the Justice Attaché has refocused their assis-
tance on the Internal Control and Monitoring Unit and Financial Dispute
Resolution Committee where there is greater receptivity.499
   The Major Crimes Task Force (MCTF) is the investigatory arm for the
AGO internal-control and monitoring unit.500 According to State, the MCTF
continues to be an increasingly capable investigatory force, but is stymied
by the AGO’s refusal to pursue corruption cases. Following the presidential
elections, State plans to assess whether the new government has sufficient
political will for an effective MCTF. State will examine Afghanistan’s anti-
corruption initiatives to determine whether Afghanistan enacts financial
regulation legislation; whether it brings corruption charges against higher-
status and -rank defendants; whether MCTF’s resource needs have changed;
and how the MOI, AGO, and other Afghan agencies incorporate, or omit,
MCTF’s role in their anticorruption efforts.501

Independent Joint Anti-Corruption Monitoring and
Evaluation Committee (MEC)
According to USAID, the Independent Joint Anti-Corruption Monitoring and
Evaluation Committee (MEC) has sufficient technical capacity and political
will to address some of the toughest corruption-related questions confront-
ing Afghanistan. State notes, however, that the MEC lacks the authority to
do more than call attention to poor or corrupt practices.502
   During the quarter, the MEC issued reports on customs, the Supreme
Auditing Office, the Afghanistan Telecommunications Regulation Authority,
and the Afghan Red Crescent Society.
   According to the MEC, Afghanistan loses a substantial amount of its cus-
toms revenue due to corruption: almost half of expected revenue was not
collected due to smuggling at the borders and some 25% more was lost due
to the influence of high-ranking officials and individuals on custom officials.
The MEC found that dishonest custom officials and brokers abuse the sys-
tem of data entry and divert government revenue. The MEC recommended
that the Afghanistan Customs Department should develop a technological




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                145
GOVERNANCE




mechanism (scanner, barcode, X-ray, etc.) to ensure that data entered into
the system by customs brokers and verified by customs officials is accurate.
Also, the MEC recommended that the Afghanistan Customs Department
reassess activities of brokers involved in custom proceeding, identify abus-
ers, and create a blacklist of those found to be abusing the system.503
   In an examination of the Supreme Audit Office (SAO), the MEC found
that the SAO’s enabling legislation does not include any administrative
procedures for reporting or penalizing Afghan government institutions
that unjustifiably refuse to implement SAO recommendations. The MEC
also found that Afghan government embassies and consulates are audited
only every five years, which does not provide for sufficient scrutiny of their
activities. The MEC recommended that the SAO, in coordination with the
Ministry of Justice, should develop amendments to the Audit Law to pro-
vide for administrative procedures to report and penalize institutions that
unjustifiably do not implement SAO audit recommendations. Also, the MEC
recommended that the SAO audit Afghan embassies and consulates every
two years.504
   In a report on the Afghanistan Telecommunications Regulation Authority
(ATRA) and the Afghan Red Crescent Society, the MEC found deficiencies
that create opportunities for corruption. The MEC identified a discrepancy
in revenues and expenses stated by communication companies in their
audit reports versus those provided within tax documents. Communications
companies are reporting minimal amounts of revenue and profit within tax
documents, thereby creating a low tax burden, which reportedly contrasts
with the audited financial statements filed with ATRA. According to the
MEC, this raises concerns that corrupt practices are being undertaken. The
MEC recommends that the Ministry of Communications, which oversees
the ATRA, should share the audit reports of the communication companies
with the Ministry for Finance for a comparative evaluation of audit reports
and tax documents.505
   In reviewing the Afghan Red Crescent Society, the MEC identified sys-
temic failure and gaps that can expose vulnerable areas to corruption. The
MEC recommended that the Afghan Red Crescent Society adopt a finan-
cial and accounting policy and publish it on their website. Also, the MEC
recommended that the SAO conduct a financial audit of the Afghan Red
Crescent Society.506

High Office of Oversight and Anticorruption
State and USAID have reported previously that the High Office of Oversight
and Anticorruption (HOO) is dysfunctional, ineffective, and politicized.507
Neither State nor DOJ engaged with the HOO during this quarter.508
   In July, the HOO survived an attempt by the lower house of parliament to
dissolve it when the upper house rejected the proposal. The HOO’s future
will be discussed in a joint commission of parliament.509




 146                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




HUMAN RIGHTS
Human Trafficking
On June 20, State released its annual Trafficking in Persons Report. The
goal of this report, mandated by Congress, is to stimulate action and cre-
ate partnerships around the world in the fight against modern-day slavery.
Afghanistan’s score increased this year to Tier 2, which means that while
the Afghan government does not fully comply with the Trafficking Victims
Protection Act’s (TVPA) minimum standards, it is making significant efforts
to bring itself into compliance.510 From 2010 to 2013, Afghanistan’s rank was
lower, Tier 2 Watch List; the last time it was Tier 2 was 2009.511                 Tier 2: Countries whose governments do
   According to the report, the Afghan government’s response to the                not fully comply with the Trafficking Victims
extensive human trafficking in its country and of its citizens was defi-           Protection Act’s (TVPA) minimum standard,
cient. While victims of sex trafficking were routinely prosecuted and              but are making significant efforts to bring
convicted as criminals for moral crimes, the government failed to hold             themselves into compliance with those
                                                                                   standards.
the vast majority of traffickers criminally accountable for their crimes.
Government complicity remained a serious problem and political will
                                                                                   Tier 2 Watch List: Countries whose
to combat the crime was low. The majority of the government’s plan to
                                                                                   governments do not fully comply with the
address trafficking was not completed.                                             TVPA’s minimum standards, but are making
   There were areas of small improvement, however. During the past year,           significant efforts to bring themselves into
the government issued a decree directing law-enforcement agencies to               compliance with those standards and:
cease prosecuting trafficking victims. It also took some limited steps to
implement its antitrafficking plan, including through making executive             a) The absolute number of victims
branch efforts to ratify the 2000 UN Trafficking in Persons Protocol. Despite      of severe forms of trafficking is very
extensive international support of the government’s antitrafficking pro-           significant or is significantly increasing;
gramming, the level of understanding of human trafficking among Afghan
government officials remained very low.512                                         b) There is a failure to provide evidence of
                                                                                   increasing efforts to combat severe forms
   The report notes that Afghanistan is a source, transit, and destination
                                                                                   of trafficking in persons from the previous
country for men, women, and children subjected to forced labor and sex
                                                                                   year; or
trafficking. Internal trafficking is more prevalent than transnational traf-
ficking. The majority of Afghan victims are children subjected to human            c) The determination that a country is
trafficking in carpet-making and brick kiln factories, domestic servitude, and     making significant efforts to bring itself
in commercial sexual exploitation, begging, transnational drug smuggling,          into compliance with minimum standards
and assistant truck driving within Afghanistan, as well as in the Middle East,     was based on commitments by the country
Europe, and South Asia. Most Afghan victims exploited in Iran are boys             to take additional future steps over the
under age 18 who are compelled to work in forced labor in the construction         next year
and agricultural sectors upon their arrival. The majority of Afghan victims in
Pakistan are women and girls who are trafficked for the purpose of commer-
cial sexual exploitation, including by forced marriages.513                      Source: U.S. Department of State, Trafficking in Persons
   This quarter, SIGAR’s Office of Special Projects wrote to several DOD         Report, 6/20/2014.

contractors about their recruitment of third-country nationals (TCN) to
work at U.S. military bases in Afghanistan. Officials of a large DOD con-
tractor have told SIGAR investigators that more than 2,400 of these TCN
workers reported that they had paid recruiters a few hundred to several




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014               147
GOVERNANCE




thousand dollars each for jobs on Logistics Civil Augmentation Program
(LOGCAP) contracts. Such fees violate Federal Acquisition Regulation
provisions and the United States’ zero-tolerance policy on human traffick-
ing. TCN workers often borrow substantial sums of money at high interest
rates in their home countries to pay these recruitment fees. The high levels
of indebtedness make it very difficult for the TCNs to leave their jobs. For
more information, see Section 2, page 49.

Refugees and Internal Displacement
According to State, there have been no recorded outflows of Afghan refu-
gees and no new developments affecting Afghan refugees in Pakistan or
Iran during this quarter. On June 26, the UN High Commission for Refugees
(UNHCR) estimated more than 65,000 persons have crossed from Pakistan
into Afghanistan’s Khowst Province and more than 20,000 in neighboring
Paktika Province due to large-scale Pakistani military operations in neigh-
boring North Waziristan. In the first five months of 2014, returns totaled
6,698 individuals, which is 63% lower than the 18,175 returns during the
same period in 2013. The decrease in the rate of returns can be attributed
to the uncertain security situation in Afghanistan, the unknown outcome of
the April 2014 Afghan elections, and the extension of proof-of-registration
cards for Afghan refugees in Pakistan. Afghans remain among the largest
group of asylum seekers worldwide with 38,653 claims in 2013.514
    As of June 12, UNHCR recorded a total number of 672,736 registered
conflict-affected Internally Displaced Persons (IDPs) compared to 654,664
registered IDPs since April 30. According to State, the actual number of
internally displaced could be much higher and is difficult to verify.515
    In February, the Afghan government launched a national policy on
internal displacement. It set forth the roles and responsibilities of vari-
ous Afghan government ministries and agencies and their development
and humanitarian partners. According to State, the implementation of this
policy will require developing substantial capacity that does not currently
exist within the Afghan government along with changes in land tenure laws
and regulations. Municipal leaders will need to be convinced to allow many,
if not most, IDPs to settle in urban areas rather than return to their places
of origin. State’s view is that the success of the IDP policy depends to a
large extent on work done by subnational governments. UNHCR and the
Ministry of Refugees and Repatriation have developed an implementation
plan that begins with educating actors in key provinces and ministries on
their responsibilities. Ideally, provincial-level implementation plans will be
completed by the end of 2014 and ready for presentation to possible donors
and, to a lesser extent, worked into the national budget.516




 148                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




Afghanistan Independent Human Rights Commission
According to State, the Afghanistan Independent Human Rights
Commission (AIHRC) continues to make significant progress in increas-
ing awareness about human rights issues, documenting the current
human rights situation, speaking out about abuses, and monitoring the
ongoing elections.517
   This quarter, the AIHRC, along with 11 Afghan civil-society organiza-
tions, issued a report on achieving lasting peace in Afghanistan. The report
summarizes the views of 4,648 Afghans from all 34 provinces. According
to the report, a common theme was the discontent Afghans feel with their
government due to corruption, weak rule of law and pervasive impunity
for human rights violations.518 The report found that Afghans seek account-
able, transparent, and efficient local government which they view as central
to ensuring durable peace. Afghans also reported that the lack of Afghan
government presence in remote, insecure, and contested areas is a key
driver of the armed conflict. The report recommended that rather than
outsource security to local militiamen, the Afghan government should dis-
arm illegal armed groups and pro-government militia.519 Finally, the report
recommended that the Afghan government promote equitable development
across Afghanistan, prioritize education, empower Afghan youth, promote
an inclusive peace process, reform the Afghan Peace and Reintegration
Program, and protect and promote human rights and women’s rights.520




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014             149
ECONOMIC AND SOCIAL DEVELOPMENT




ECONOMIC CONTENTS

Key Events	                                         151
Economic Profile	                                   152
Extended Credit Facility Arrangement	               155
Banking and Finance 	                               156
U.S. Economic-Support Strategy	                     160
Development of Natural Resources	                   163
Agriculture 	                                       169
Essential Services and Development	                 173
Private-Sector Development	                         178
Transportation	179
Education	180
Health	183




 150            SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  ECONOMIC AND SOCIAL DEVELOPMENT
  As of June 30, 2014, the U.S. government has provided nearly $30.6 billion to
  support governance and economic and social development in Afghanistan.
  Most of the appropriated funds flowed into four major programs and
  accounts, as shown in Table 3.25. Of the $23.2 billion appropriated for these
  funds, approximately $18.4 billion had been obligated and $15.2 billion dis-
  bursed as of June 30, 2014.
  TABLE 3.25

   CUMULATIVE APPROPRIATIONS FOR AFGHANISTAN DEVELOPMENT, AS OF JUNE 30, 2014
   ($ BILLIONS)

   Fund                             Managing Agency                                  Appropriated
   ESF                              USAID                                               $17.5
   CERP                             DOD                                                    3.7
   TFBSO                            DOD                                                    0.8
   AIF                              STATE/DOD                                              1.2
   Total                                                                               $23.2
  Notes: ESF = Economic Support Fund; CERP = Commander’s Emergency Response Program; TFBSO = Task Force for Business
  and Stability Operations; AIF = Afghanistan Infrastructure Fund.

  Source: See Appendix B.




  KEY EVENTS
  This quarter the Afghan economy continued to grow at a slower rate as a
  result of political uncertainty and the drawdown of U.S. and Coalition forces.
     After being downgraded to “dark gray” status by the international
  Financial Action Task Force (FATF) last quarter, Afghanistan narrowly
  avoided being blacklisted as a high-risk, non-cooperative jurisdiction for
  insufficient progress on improving its anti-money laundering regulations.521
  Afghanistan’s parliament passed anti-money laundering and anti-terrorist
  financing legislation in late June, just before FATF’s June plenary meeting
  deadline.522 A blacklist designation by the 36-member intergovernmen-
  tal body could have further affected Afghanistan’s banking relationships
  around the world and weakened its economy.523
     The annual United Nations Analytical Support and Sanctions Monitoring
  Team report found the Taliban is deriving so much income from narcotics




  REPORT TO THE UNITED STATES CONGRESS                   I   JULY 30, 2014                                 151
ECONOMIC AND SOCIAL DEVELOPMENT




and illegal mining that its incentive to seek a lasting peace settlement with
the Afghan government may have been reduced.524 The political and security
transitions—compounded by rising security costs and lower government
revenues—are fueling consumer and investor doubts, and slowing eco-
nomic growth.525 The report added that continuing international economic
support to Afghanistan after the transition will be crucial.526
   Both houses of parliament passed new mining, anti-money laundering,
and combating-terror-financing laws this quarter, which could improve
prospects for foreign aid, private investment, and broad-based job creation
in Afghanistan.527 Since legislative passage occurred late in the quarter, U.S.
implementing agencies could not assess these laws before this report went
to press.528 A new banking law remains delayed.529
   So far, Afghanistan’s domestic revenues in Afghan fiscal year (FY) 1393
(December 21, 2013–December 20, 2014) were 20% lower than Ministry of
Finance (MOF) budget targets. Although tax revenues have exceeded those
for FY 1392 year-to-date, they still fell short of FY 1393 targets. Non-tax
revenues and customs duties fell short of both the amounts collected in
FY 1392 (year-to-date) as well as FY 1393 targets.530
   During this reporting period, the International Monetary Fund’s (IMF)
Extended Credit Facility arrangement review and disbursement remain
delayed due in part to insufficient Afghan progress toward meeting domes-
tic-revenue collection and legislative requirements. The IMF also issued
an updated assessment of the Afghan economy—known as the Article IV
Report—its first since November 2011. It concluded that while progress has
been made, Afghanistan’s economy is vulnerable to political and security-
related uncertainty.531
   Finally, the Afghan government has not held any more individuals
accountable for the Kabul Bank scandal, nor has it reported any new cash
recoveries this quarter.532


ECONOMIC PROFILE
Afghanistan’s GDP growth has slowed significantly over the last year. The
IMF, the World Bank, and the Asian Development Bank (ADB) all projected
that Afghanistan’s GDP growth (excluding opium production) will fall from
a high of around 14% in 2012 to an estimated 3–4% for 2013 due to increas-
ing uncertainty about the volatile political and security environment.533
With an expected reduction in international aid and spending after 2014,
the World Bank projects average real GDP growth at about 5% annually
through 2018 under its baseline assumptions. More uncertainty, fueled
by insecurity and instability, could further dampen growth. By contrast,
Afghanistan’s economy grew by an annual average of 9.4% from 2003 to
2012, when it was boosted by international military spending and develop-
ment assistance.534




 152                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




     Consumer prices were relatively stable over the past two years, with
  inflation in 2013 calculated at 7.7%, according to the World Bank, compared
  to 6.3% in 2012.535 The IMF found that Afghanistan’s macroeconomic policy
  is appropriately balanced. Its fiscal policy, financed by donor grants, is also
  broadly balanced, but the IMF recommends the government do more to
  increase domestic revenues and improve budget management. To maintain
  low inflation, Afghanistan’s monetary policy should maintain its interna-
  tional reserves, continue to limit money-supply growth, and preserve a
  flexible exchange rate.536 The IMF said this strategy depends on continued
  donor assistance pledged at the 2012 Chicago and Tokyo conferences, as
  well as on Afghanistan’s fulfilling its commitments, which “will be critical
  towards sustaining donors’ confidence.”537

  Fiscal Sustainability
  The World Bank describes Afghanistan’s fiscal outlook as subpar and
  likely to delay progress to self-reliance.538 Afghan government expendi-
  tures are expected to continue rising, largely due to spending on security,
  service delivery, building essential infrastructure, and operations and
  maintenance.539 This will require continued donor financing and improved
  revenue mobilization.540
      Afghanistan’s fiscal sustainability ratio—domestic revenues versus oper-
  ating expenses—declined to approximately 57% in the first four months of
  FY 1393, compared to 60% and 65% in the previous two fiscal years.541
      For the first quarter of Afghanistan’s current fiscal year, domestic rev-
  enues stood at 23.41 billion afghanis (AFN), versus 22.32 billion AFN for
  the same quarter of the prior year.542 The 4.88% quarter-to-quarter increase
  in domestic revenues, however, did not keep pace with the World Bank-
  reported rate of Afghan price inflation, so the actual purchasing-power
  value of the revenue growth is less than it appears.
      The gap between the government’s domestic revenues—derived primar-              Operating budget: consists mainly of
  ily from taxes and custom duties—and integrated budget (operating budget            recurrent expenditures, such as salaries
  and development budget) expenditures is large, as depicted in Figure 3.30           for public servants, running costs for
  on the following page.543 The IMF estimated Afghanistan’s financing gap,            ministries, barracks, etc.
  comprising on and off-budget needs, at $7.7 billion (33% of GDP) on aver-
  age, annually through 2018.544 This will limit Afghanistan’s ability to pay for     Development budget: the government’s
  discretionary services without significant donor support and is likely to           budget for development projects
  delay its progress to self-reliance.545                                             implemented by government agencies,
                                                                                      such as building new schools or roads.
                                                                                      These projects are mainly donor-funded.
  Revenue Generation
  Raising domestic revenue is a priority for Afghanistan’s fiscal sustainability,
  according to the IMF.546 In the first four months of FY 1393, total domestic
  revenues increased by 3.6% from the same period in FY 1392, but missed            Source: MOF, “FY 1393 Monthly Fiscal Bulletin, Month 4,”
                                                                                    5/25/2014, accessed 7/2/2014.
  MOF targets by 20%.547 Moreover, revenues in FY 1393 have been outpaced
  by expenditures.548




  REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                 153
                                        ECONOMIC AND SOCIAL DEVELOPMENT




                                        FIGURE 3.30


                                        AFGHANISTAN'S DOMESTIC REVENUES COMPARED TO OPERATING AND DEVELOPMENT
                                        BUDGET EXPENDITURES ($ MILLIONS)
                                        $5,000




                                        $4,000
                                                                                                               (9-month FY)



                                        $3,000




                                        $2,000

                                                                                                                                                         (4 months)

                                        $1,000




                                              $0
                                                      Fiscal Year        Fiscal Year         Fiscal Year          Fiscal Year        Fiscal Year          Fiscal Year
                                                         1388               1389                1390                 1391               1392                 1393
                                                       Domestic Revenues                         Operating Budget                       Development Budget

                                        Notes: Until recently, Afghan fiscal years ran approximately March 20 to March 20 of Gregorian calendar years. FY 1388
                                        corresponds to March 20, 2009, to March 20, 2010, and so on. Nine-month data for fiscal year 1391 reflect a change in the
                                        timing of the Afghan fiscal year. FY 1393 represents the first four months only. Donor aid covers “fiscal gap” between domestic
                                        revenue and budget outlays.
                                        Source: MOF, “Annual Fiscal Report 1391,” accessed 6/20/2013; MOF, "1393 National Budget," accessed 4/14/2014; MOF,
                                        “FY 1392 Monthly Fiscal Bulletin, Month 12,” 2/14/2014, accessed 4/14/2014; MOF, “FY 1393 Monthly Fiscal Bulletin, Month
                                        4,” 5/25/2014, accessed 7/2/2014; Da Afghanistan Bank, "Daily Exchange Rates of Selected Currencies to Afghani,"
                                        2/14/2014, accessed 4/14/2014; Da Afghanistan Bank, "Daily Exchange Rates of Selected Currencies to Afghani,"
                                        5/25/2014, accessed 7/2/2014.




                                           Revenues as a percentage of GDP have also declined. The World Bank
SIGAR AUDIT                             calculated domestic revenues at 9.6% of GDP in calendar year 2013—
A SIGAR audit report published last     compared to 10.3% in 2012 and 11% in 2011—as a result of continued
quarter found that, despite the U.S.    government weakness in revenue enforcement as well as the economic
allocation of $198 million to develop   slowdown, generally.549
Afghan capacity to assess and collect      The IMF’s Chief of Mission for Afghanistan explained in May 2014 that
customs revenue, its potential as a     the government’s strategy for increasing revenues has four main pillars:
stable source of government income      improved tax compliance, implementing a value-added tax (VAT), devel-
remains uncertain.                      oping the Afghan mining sector, and imposing new taxes in addition to a
                                        VAT.550 This quarter, VAT legislation passed both houses of parliament and is




                                           154                             SPECIAL INSPECTOR GENERAL                   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  awaiting a joint commission to reconcile the legislative differences between
  them.551 Once that happens, the IMF said, Afghanistan will need one year to
  prepare for the tax’s introduction.552

  Trade
  Afghanistan’s largest trading partner is Pakistan, followed by the United
  States, the European Union, and regional neighbors.553 Trade-related taxes
  represented 45% of Afghanistan’s total tax revenues from 2006 to 2013.554                                         SIGAR AUDIT
                                                                                                                    A SIGAR audit of Afghanistan’s customs
  Afghanistan Trade and Revenue Project                                                                             revenue collection found that although
                                                                   Total Estimated   Cumulative Disbursement,       a risk-management and electronic-
   Project Title                  Start Date      End Date             Cost ($)         as of 6/30/2014             payment system are highlighted in the
   Afghanistan Trade and                                                                                            TAFA and ATAR contract documents,
                                  11/7/2013       11/6/2017          $77,754,267           $6,367,032
   Revenue
                                                                                                                    the ATAR contract does not require the
  Source: USAID, response to SIGAR data call, 7/10/2014.                                                            implementing partner to meet annual
                                                                                                                    targets for the implementation of the
  The Afghanistan Trade and Revenue (ATAR) Project is USAID’s trade-                                                systems. USAID said implementation
  facilitation program designed to (1) support Afghanistan’s accession                                              is the responsibility of the Afghan
  to the World Trade Organization (WTO), (2) support bilateral and mul-                                             government.
  tilateral regional trade agreements, and (3) improve and streamline
  the government’s ability to generate revenue.555 ATAR is supporting
  Afghanistan’s WTO accession in 2014, and while Afghanistan is posi-
  tioned to do so, USAID said the government must resolve laws that are
  inconsistent with WTO standards and improve ministerial capacity. ATAR
  is helping the government draft WTO-related legislation and with the
  market-access negotiations that are part of the WTO-accession process.
  It is also working with Afghan customs officials to modernize and stream-
  line customs processes.556


  EXTENDED CREDIT FACILITY ARRANGEMENT                                                                            The Extended Credit Facility (ECF): a
  The IMF’s $129 million Extended Credit Facility (ECF) loan agreement                                            three-year program that provides financial
                                                                                                                  assistance to Afghanistan, as well as other
  signed in November 2011 makes disbursements contingent upon completion
                                                                                                                  countries, and is the primary IMF tool for
  of program reviews, as determined by IMF management and its executive
                                                                                                                  providing medium-term assistance to low-
  board. So far, the IMF has released two disbursements of $18.2 million—one                                      income countries. ECF financial support is
  at the initial ECF approval, and the second after the first board review in                                     generally provided through loans at zero-
  June 2012. Neither the second IMF review, originally planned for December                                       percent interest rates.
  2012, nor the third, originally planned for March 2013, has been completed,
  due to missed performance targets, inadequate policy responses to eco-
  nomic shocks, and delays in structural reform.557
     Weaker-than-expected economic conditions led the IMF to revise                                             Source: SIGAR, Audit 14-16, Afghanistan’s Banking Sector:
                                                                                                                The Central Bank’s Capacity to Regulate Commercial Banks
  the ECF in May 2013 to account for lower revenues, expenditures, and                                          Remains Weak, 1/2014.

  international monetary reserves, while it adjusted money-growth targets
  to preserve macroeconomic stability. Despite these adjustments and




  REPORT TO THE UNITED STATES CONGRESS                     I   JULY 30, 2014                          155
                                                               ECONOMIC AND SOCIAL DEVELOPMENT




                                                               government-reform efforts, quantitative targets were missed, delays in
                                                               structural reform persisted, and the expectation of a newly elected govern-
                                                               ment caused further reviews to be postponed. The current ECF expires in
                                                               November 2014.558


                                                               BANKING AND FINANCE
                                                               The World Bank reported that Afghanistan’s banking and financial sector,
                                                               which has not recovered from the 2010 Kabul Bank crisis, suffers from
    SIGAR AUDIT                                                inadequate regulation and oversight, undercapitalization, and a loss of con-
    A January 2014 SIGAR audit                                 sumer confidence.559
    concluded that without U.S. assistance,                       Few Afghan banks operate in accordance with international standards.
    and with only limited World Bank and                       Audits of major banks in Afghanistan conducted in the wake of the Kabul
    IMF involvement, the banking sector                        Bank scandal have revealed “systemic fragility and vulnerability in all
    remains unstable and at risk of further                    areas of banking governance and operations,” according to a 2013 World
    instability, threatening sustainable                       Bank report.560 State said Afghanistan’s banks also suffer from political
    economic and financial growth.                             interference and lack of oversight.561 In addition, Afghanistan’s existing
                                                               controls against money laundering and terrorist financing are widely
                                                               viewed as deficient.562
                                                                  Many Afghans distrust banks, preferring to borrow and save with family
                                                               and friends, and to transfer money through informal, trust- or honor-based
                                                               hawala networks.563 Commercial loans plummeted in the wake of the Kabul
  Loan-to-Deposit Ratio: is used to assess                     Bank crisis, according to the World Bank, and the banking sector’s loan-
  a bank’s liquidity by dividing its total                     to-deposit ratio dropped from 56.8% in 2010 to 22.6% in 2013.564 Afghans
  loans by its total deposits, expressed                       also regularly use foreign currency rather than their national currency,
  as a percentage. It is used to calculate
                                                               the afghani (AFN), which is depreciating against the dollar.565 In early
  the financial institution’s ability to cover
                                                               January 2012, a U.S. dollar cost about 49 AFN; on June 30, 2014, it cost
  customer demands to withdraw funds. If
  the ratio is too high, the bank may have                     about 58 AFN, according to the Afghan central bank.566
  insufficient liquidity to cover unforeseen
  requirements. If it is too low, banks may                    Banking Law
  not be earning as much as they could.                        Afghanistan’s new banking law remains pending before parliament.567
                                                               According to Treasury, failure to enact it will likely lead to weaker financial-
                                                               sector governance and supervision: Da Afghanistan Bank (DAB) will have
                                                               less authority to enforce banking regulations, key existing vulnerabilities
Sources: Investopedia, “Loan-To-Deposit Ratio,” http://www.
investopedia.com/terms/l/loan-to-deposit-ratio.asp, accessed   will remain in the banking sector, and bank supervisors will have less pro-
9/30/2013; Finance Formulas, “Loan to Deposit Ratio,”
http://www.financeformulas.net/Loan-to-Deposit-Ratio.html,     tection and authority in the conduct of their duties. In the event of another
accessed 9/30/2013.
                                                               bank collapse, there would still be no clear legal framework in place for a
                                                               resolution process.568

                                                               Money Laundering
                                                               The State Department lists Afghanistan as a major money-laundering coun-
                                                               try and categorizes it as a jurisdiction of primary concern whose “financial
                                                               institutions engage in transactions involving significant amounts of pro-
                                                               ceeds from all serious crimes or are particularly vulnerable to such activity




                                                                156                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  because of weak or nonexistent supervisory or enforcement regimes or
  weak political will.”569 Afghanistan was also ranked as the most vulnerable              “Afghanistan is not
  country at risk for money laundering and terrorist financing, closely fol-            capable of independent
  lowed by Iran, according to a 2013 Basel Institute on Governance study.570
     Narcotics, corruption, and contract fraud are major sources of the
                                                                                       and sustainable financial
  country’s illegal revenues and laundered funds, according to State’s 2014               investigation without
  International Narcotics Control Strategy Report. The report says illegal              international assistance
  financial activities “continue to pose serious threats to the security and               at the present time;
  development of Afghanistan.” This is largely perpetuated by hawala meth-
                                                                                       additional mentoring and
  ods of transferring money without moving it. Afghans rely upon hawala
  networks because of official corruption and weakness in the banking sec-             training is needed in this
  tor. Unlicensed and unregulated hawala brokers in drug-producing areas                critical area post-2014.”
  like Helmand are responsible for much of the money laundering through
  Afghanistan’s financial system. But Afghan business consortiums that own
                                                                                     Source: DEA, response to SIGAR data call, 6/30/2014.
  hawalas and banks are also complicit.571

  Financial Action Task Force
  The Financial Action Task Force (FATF) held its latest plenary meeting               Financial Action Task Force (FATF): an
  June 25–27, 2014, noting that Afghanistan had taken steps toward improv-             intergovernmental policy-making body that
  ing its Anti-Money Laundering/Combating the Financing of Terrorism (AML/             sets standards and promotes effective
  CFT) regime. Afghanistan was moved off the list of jurisdictions not making          implementation of legal, regulatory, and
  sufficient progress—FATF’s “dark-gray” list—and placed on the Improving              operational measures for combating
  Global AML/CFT Compliance: On-Going Process or “gray” list.572                       money laundering, terrorist financing, and
     Afghanistan’s parliament passed anti-money laundering legislation                 other related threats to the integrity of the
  on June 24, just one day before FATF’s June plenary meeting deadline;                international financial system.
  President Karzai signed it into law on June 25, the first day of the plenary.573
  Parliament also passed anti-terrorist financing legislation on June 25, and          Correspondent Accounts: Accounts
                                                                                       established by a financial institution of one
  President Karzai signed it on July 3—six days after the plenary ended.574
                                                                                       country so it can take deposits or make
  Although FATF was not able to thoroughly review the legislation before
                                                                                       payments through the financial system of
  the plenary given its last-minute parliamentary passage, it determined that          another country, and make use of products
  Afghanistan had made progress. FATF will evaluate compliance standards               and services that may not be available in
  and implementation of Afghanistan’s AML/CFT laws during its next plenary             its own jurisdiction.
  in October 2014.575
     A majority of Afghan banks have been affected either by closure or
  restriction of one or more of their correspondent accounts, and are at risk
                                                                                     Sources: Financial Action Task Force website, “Who We
  of future closures due to deficiencies in Afghanistan’s AML/CFT regime             Are,” accessed 4/2/2014; Federal Financial Institutions
                                                                                     Examination Council Bank Secrecy Act/Anti-Money Laundering
  and in bank compliance processes.576 Treasury said international banks             InfoBase, “Correspondent Accounts (Foreign)—Overview,”
                                                                                     accessed 10/1/2013; Financial Crimes Enforcement
  have moved to reduce their compliance risks in response to a less forgiving        Network, Factsheet: Section 312 of the USA PATRIOT Act Final
  regulatory environment. However, Treasury expects that some key corre-             Regulation and Notice of Proposed Rulemaking,” 12/2005,
                                                                                     accessed 7/18/2014.
  spondent accounts will be maintained.577
     This quarter, Aktif Bank in Turkey reportedly closed U.S. dollar
  accounts it was holding for Afghan banks.578 Media reports also quoted
  Afghan central bank officials who said Chinese banks have halted dollar
  transactions with Afghan banks, making it difficult for businesses to pay




  REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                 157
                                                              ECONOMIC AND SOCIAL DEVELOPMENT




                                                              for imports.579 However, China’s state-owned news agency called the report
                                                              “utterly groundless.”580
                                                                 A FATF blacklisting does not trigger mandatory severance of correspon-
                                                              dent banking relationships, but in extreme cases where the international
                                                              financial system is deemed threatened—as with Iran and North Korea—
                                                              FATF members may be asked to apply financial countermeasures, such as
                                                              rejecting correspondent relationship requests from high-risk countries to
                                                              open branches and subsidiaries in their jurisdictions.581
                                                                 The loss of correspondent accounts could potentially damage the profit-
                                                              ability of Afghan banks for which international trade and transaction fees
                                                              are an important revenue source, and some banks have become more
                                                              selective in accepting new customers in the tighter regulatory environment.
                                                              Treasury said any increased difficulty for Afghan customers in gaining
                                                              access to banks with correspondent relationships could disrupt normal
                                                              trade and financing. Treasury also said the economic consequences of lost
                                                              correspondent accounts could be severe, although difficult to predict.582

                                                              The Kabul Bank
                                                              Afghanistan’s Attorney General’s Office (AGO) filed no new charges,
                                                              launched no new prosecutions, and indicted no additional beneficiaries
                                                              since the Special Tribunal of the Supreme Court issued its judgment of 21
                                                              individuals charged with fraud on March 5, 2013, despite both primary and
                                                              appellate court orders to do so or explain why it did not.583 State’s Bureau
                                                              of International Narcotics and Law Enforcement Affairs (INL) noted these
                                                              beneficiaries have millions of dollars worth of assets that could be subject
                                                              to forfeiture.584
Before its near-collapse in 2010, the Kabul                      The U.S. Department of Justice (DOJ) attaché in Kabul again raised the
Bank had been Afghanistan’s largest private                   issue of pursuing additional prosecutions with the Attorney General this
bank, distributing most civil salaries on                     quarter, to no avail. Scheduled meetings have been repeatedly cancelled—a
behalf of the Afghan government. Over 92%                     pattern that has extended to other senior U.S. Embassy officials.585
of $935 million that was stolen from the                         On March 16, 2013, the AGO appealed the verdict of all 21 cases,
bank went to 19 individuals and companies
                                                              including the two leaders of the fraud, ex-chairman Sherkhan Farnood
associated with the bank. Afghanistan’s
                                                              and ex-CEO Khalillullah Ferozi, who were given modest five-year prison
central bank, DAB, covered these losses,
                                                              sentences and required to pay only partial restitution.586 DOJ believes the
equivalent to 5–6% of Afghanistan’s GDP at
that time.                                                    primary court’s verdict revealed a fundamental misunderstanding of the
                                                              crime, most notably the mistaken belief that money laundering did not
Source: Independent Joint Anti-Corruption Monitoring and
Evaluation Committee, Report of the Public Inquiry Into the   occur.587 The appellate court’s decision is still pending.588
Kabul Bank Crisis, 11/15/2012, pp. 2, 9.
                                                                 This quarter, DOJ reported that the lead AGO prosecutor on the appeal
                                                              said he does not intend to convene the court-ordered meeting at which
                                                              uncharged shareholders—together with Farnood and Ferozi—were to
                                                              meet with prosecutors and the Kabul Bank receiver to resolve disputes
                                                              over defendants’ monetary liabilities, until after a new administration is in
                                                              place.589 In April, DOJ met with the Chief Justice of the Supreme Court and
                                                              asked what Afghan law required the appellate court to resolve accounting




                                                               158                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  issues prior to rendering a verdict of guilt or innocence. According to DOJ,     Enforcement of asset recovery and
  the Chief Justice responded as if a different question had been asked.590        accountability for those responsible for the
                                                                                   Kabul Bank crisis are Afghan commitments
  Limited Cash and Asset Recoveries                                                under the Tokyo Mutual Accountability
  During this reporting period, no new information was available on recov-         Framework and IMF agreements.
  eries of money stolen from the Kabul Bank.591 Total recoveries remain            Source: Tokyo Conference on Afghanistan, Tokyo Mutual
                                                                                   Accountability Framework, 7/8/2012, accessed 7/4/2013;
  $174.5 million—less than 20% of stolen funds—as of September 30, 2013,           IMF, 2014 Article IV Consultation–Staff Report; Press Release;
                                                                                   And Statement By The Executive Director For The Islamic
  according to Afghanistan’s central bank, which is the sole source of that        Republic Of Afghanistan, 5/2014.
  information.592 DOJ cautioned that the Afghan government may claim that it
  should be credited with recovering an additional $24 million from the sale
  of Pamir Airlines, which was owned by Kabul Bank shareholders, to Ariana
  Afghan Airlines Co. Ltd., a wholly government-owned entity.593 DOJ said
  there is no indication that Ariana actually needed the additional airplanes,
  and one of the recently transferred planes, a Boeing 737, promptly crashed
  at Kabul International Airport. There were no serious injuries, but the air-
  plane was a complete loss and the crash caused roughly $600,000 in damage
  to the airport’s flight-control equipment.594
      DOJ was not aware of any new or additional repayment plans, or of puni-
  tive measures taken by the AGO this quarter, against those who are failing
  to fulfill the terms of existing repayment plans. However, the commercial        A jetliner transferred to the Afghan
  tribunal convened to assist civil recovery efforts has reportedly issued an      government-owned airline lies wrecked at
  order to banks and municipalities to freeze the assets of 52 Kabul Bank loan     Kabul’s airport. (FAA photo)
  beneficiaries. Banks have complied with the requests, but municipalities
  have not. When Kabul Bank Receiver representatives attempted to enforce
  the order in Mazar-e-Sharif, they were driven away at gunpoint.595 Although
  some individuals within the Afghan government are serious about Kabul
  Bank accountability, DOJ said the general will among the political elite and
  senior leadership is “grossly lacking” and their efforts have been “lackluster
  at best.”596 The government has failed to take “all possible steps” to recover
  stolen assets, as called for in the “hard deliverable” indicators of the Tokyo
  Mutual Accountability Framework.597 DOJ repeatedly suggested to the AGO
  and senior government officials steps that could have been taken but were
  ignored, including:598
   •	 providing recipients of the original mutual legal-assistance requests
      with copies of the Special Tribunal’s verdict, and requesting the freezing
      of assets based on those convictions
   •	 indicting the remaining beneficiaries (as ordered by both the primary
      and appellate court) and issuing accompanying orders to freeze their
      domestic assets
   •	 designating a team of attorneys and/or specialists dedicated to asset
      tracking and recovery, and authorizing them to work freely with
      international counterparts




  REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014               159
                                           ECONOMIC AND SOCIAL DEVELOPMENT




                                           •	 identifying and confiscating all domestic assets belonging to
                                              ex-chairman Sherkhan Farnood and ex-CEO Khalillullah Ferozi, in
                                              fulfillment of the primary court’s restitution order


                                           U.S. ECONOMIC-SUPPORT STRATEGY
                                           The economic-transition strategy in Afghanistan in the 2013 U.S. Civil-Military
                                           Strategic Framework seeks to mitigate the negative economic impact of the
                                           withdrawal of most international security forces in 2014 and the expected
                                           accompanying reduction in donor assistance. It also seeks to help Afghanistan
                                           develop its resources for sustainable growth.599 The United States uses policy
                                           advocacy, provides technical assistance, and supports efforts by multilateral
                                           institutions like the IMF and World Bank to help Afghanistan increase domes-
                                           tic revenue. According to State, U.S. economic strategies are coordinated at an
                                           interagency level through the National Security Council.600
                                               Most assistance from the Economic Support Fund (ESF) goes toward
                                           USAID’s development programs. Figure 3.31 shows USAID assistance
                                           by sector.
                                           FIGURE 3.31

                                           USAID DEVELOPMENT ASSISTANCE, AS OF JUNE 30, 2014 ($ MILLIONS)


                                                 Infrastructure                                                                                        3,702
                                             Program Support                                                         2,239
                                                   Agriculture                                               1,781
                                                   Democracy                                               1,699
                                                  Stabilization                                    1,299
                                             Economic Growth                                 932
SIGAR SPECIAL PROJECT                                   Health                         709
                                                    Education                    550
This quarter, SIGAR’s Office of Special
                                                 Construction         95
Projects provided USAID with an
                                                                  0        500           1000       1500      2000       2500      3000        3500        4000
analysis of the 19 contracts USAID has
terminated in Afghanistan since 2008.      Notes: Numbers have been rounded. Program Support projects include staffing, salaries, performance metrics, results
                                           tracking, technical assistance to ministries, and funding to the ARTF.
SIGAR suggested that USAID assess
                                           Source: USAID, response to SIGAR data call, 7/10/2014.
its current process for terminating
contracts, in order to safeguard against
                                              USAID is targeting its economic and agricultural programming in four
the reflexive use of terminations for
                                           regional economic zones centered on major municipalities, markets, and
convenience in situations where a
                                           trade routes. Stabilization and subnational governance programs will focus
termination for default would be
                                           on areas in and around the zones to protect against destabilizing forces.
warranted and typically less costly
                                           Water management, education, health, and governance activities will
to the U.S. government. For more
                                           remain national in scope.601
information, see Section 2, page 43.
                                              As shown in Figure 3.32, the eastern zone stretches from the Torkam
                                           Gate, which provides access to Pakistan, through Jalalabad, and on toward
                                           Kabul. The northern zone continues north from Kabul toward Kunduz and




                                             160                             SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  FIGURE 3.32


  USAID REGIONAL ECONOMIC ZONES

                                                      UZBEKISTAN
                                                                                                                    TAJIKISTAN    CHINA



                 TURKMENISTAN                   JOWZJAN                        KUNDUZ              BADAKHSHAN
                                                               BALKH                      TAKHAR

   WESTERN ZONE
                                    FARYAB
                                                                    SAMANGAN
                                                                          BAGHLAN                                  NORTHERN ZONE
                                                SAR-E PUL                        PANJSHIR
                                                                                         NURISTAN
                          BADGHIS
                                                                         PARWAN KAPISA        KUNAR
                                                              BAMYAN                  LAGHMAN
                                                                              KABUL
               HERAT                                                 WARDAK
                                                                                        NANGARHAR
                                    GHOR                                    LOGAR
                                                 DAYKUNDI                      PAKTIYA
                                                                      GHAZNI                KHOWST


                 FARAH
                                              URUZGAN
                                                                                PAKTIKA
                                                                                                                EASTERN ZONE
                                                            ZABUL



                                                                                                        PAKISTAN
                NIMROZ
    IRAN                  HELMAND
                                           KANDAHAR

                                                                           SOUTHERN ZONE



  Source: USAID, reponse to SIGAR data call, 6/30/2014.


  Balkh, through Mazar-e-Sharif, ultimately connecting with Afghanistan’s
  northern neighbors, Tajikistan, Uzbekistan, and Turkmenistan. The western
  zone centers on Herat and is organized in a “hub and spoke” configura-
  tion that is favorable to cross-border trade. The southern zone connects
  Helmand with Kandahar, reaches into Pakistan through the Spin Boldak
  gate, and connects to Kabul and Herat via the ring road.602
     These zones already contain most economic activity in Afghanistan,
  having a skilled workforce; access to transportation, energy, and water
  infrastructure; connections to domestic and international markets; agricul-
  tural and mineral resources; and entrepreneurs and financing to expand
  small and medium enterprises. USAID programs will leverage the potential
  and comparative advantages of each zone.603

  USAID On-Budget Assistance to the Afghan Government
  SIGAR continues to be concerned about U.S. implementing agencies’ abil-
  ity to ensure adequate oversight of the U.S.-funded reconstruction effort as
  international combat forces withdraw from Afghanistan in 2014. In line with
  donor commitments made at the 2012 Tokyo Conference, the United States
  has been gradually increasing the amount of development assistance it




  REPORT TO THE UNITED STATES CONGRESS                                 I   JULY 30, 2014                                         161
                                                                  ECONOMIC AND SOCIAL DEVELOPMENT




                                                                  provides on-budget to the Afghan government, but in FY 2012 and FY 2013
                                                                  did not reach the 50% threshold pledged at Tokyo.604
                                                                     Most U.S. government agencies include as on-budget assistance both
                                                                  (1) direct, bilateral or government-to-government transfers, and (2) contri-
                                                                  butions to multilateral trust funds such as the Law and Order Trust Fund
                                                                  for Afghanistan (LOTFA), the Afghan Reconstruction Trust Fund (ARTF),
                                                                  and the Afghanistan Infrastructure Trust Fund (AITF). These funds, which
                                                                  are managed by the United Nations Development Programme (UNDP), the
                                                                  World Bank, and the ADB respectively, support the Afghan national bud-
                                                                  get. The Afghan government provides input, guidance, and oversight, and
                                                                  some projects are run through the government, but the funds are not fully
                                                                  under its control.605
                                                                     By contrast, a large part of public expenditure in Afghanistan is off-
                                                                  budget, directed entirely by international donors or nongovernmental
                                                                  organizations, with no role for the Afghan government. See page 69 for
                                                                  details about all U.S. on-budget funding to Afghanistan.
                                                                     This quarter, USAID obligated approximately $86 million and disbursed
                                                                  $279 million in on-budget assistance, including ARTF, from prior fiscal-
                                                                  year funds. Cumulatively, USAID has obligated $3.09 billion and disbursed
                                                                  $2.42 billion in on-budget assistance, as of June 30, 2014, as shown in
                                                                  Figure 3.33.606
FIGURE 3.33

USAID ON-BUDGET ASSISTANCE SUBOBLIGATED AND DISBURSED, FY 2002–FY 2013, AS OF JUNE 30, 2014 ($ MILLIONS)

 $700                                                                                                                                                 $661
                                                                                                                             $612
 $600                    Subobligated Afghanistan Reconstruction Trust Fund Total
                         Subobligated Bilateral Assistance
 $500
                         Disbursed


 $400                                                                                                                                          $378


                                                                                                                $290                                         $277
 $300


 $200                                                                                                                               $169              $218 $215
                                                                                                 $124
                                                                                                                                                                    $129
                                                      $89
 $100                                  $72                                         $72
                                                                     $48                                               $56          $105
          $38            $40                                                                            $27
                                              $14                                         $4                                                                        $14
                 $0             $0                           $2            $0.1                                        $54                                                 TBD
    $0
            2002           2003           2004           2005          2006          2007           2008           2009        2010              2011         2012a        2013b

Notes: Numbers have been rounded. Subobligation is funding for project-level agreements.
a Most FY 2012 USAID funding for on-budget assistance had not been disbursed as of June 30, 2014.
b Spending in 2013 was done from prior fiscal-year funds. Subobligations and disbursements for FY 2013 are not yet known.

Source: USAID, response to SIGAR data call, 7/10/2014.




                                                                   162                           SPECIAL INSPECTOR GENERAL                 I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  DEVELOPMENT OF NATURAL RESOURCES
  The United States, the Afghan government, and the international donor
  community count on development of Afghanistan’s natural resources to
  underpin future economic growth in the face of declining external aid.
  Although mining has contributed less than 2% to the country’s GDP to date,
  the Afghan government expects to eventually receive significant revenues
  from large-scale investments in the Aynak (copper) and Hajigak (iron-ore)
  mines, and from oil and gas fields in the Afghan-Tajik basin.607
      The World Bank estimates annual extractive-sector revenues could
  reach between $0.7 billion and $1.5 billion by 2022–2024.608 However, the
  United States Institute for Peace warned that revenue projections from
  mineral extraction are often difficult to make with any accuracy, given com-
  modity-price fluctuations and uncertainty whether identified resources can
  be fully extracted. Moreover, the government will not necessarily receive
  the full value of Afghanistan’s mineral wealth in revenues.609
     SIGAR has long cautioned that the Afghan government may not be able
  to earn substantial revenues from Afghanistan’s natural resources any time
  soon because of the considerable infrastructure investment required to
  develop them, especially given the difficult security environment.
     In addition, the Revenue Watch Institute gave Afghanistan a failing
  grade in 2013 for its minimal oversight of the mining-licensing process
  and of state-owned mining companies. It said lawmakers do not receive
  regular reports on licensing decisions, which cannot be appealed, and
  are denied access to certain major mining contracts deemed confidential.
  Allegations that members of the executive and legislative branches benefit
  from contracts won by relatives cannot be confirmed; Afghanistan’s Audit
  and Control Office does not specifically review resource revenues, and the
  reports it does prepare are not published.610
     An Integrity Watch Afghanistan report this quarter compared
  Afghanistan’s governance of its mining-industry to best practices in six
  countries in order to help highlight Afghanistan’s opportunities and chal-
  lenges. It found that corruption is a major investor concern in Afghanistan,
  and that mining-sector transparency—in licensing process, tax and royalty
  data, distribution of funds, and public access to information—along with
  good governance were essential to sustainable development that benefits
  the public.611

  New Minerals Law
  The Wolesi Jirga—Afghanistan’s lower house of parliament—passed a
  new minerals law on May 3, 2014, followed by the Meshrano Jirga—the
  upper house—on July 1.612 The president has not yet signed it. The law is
  meant to better protect Afghan resources, encourage investors, and align
  regulations to international best practices. As currently written, however,
  the law requires mining companies to give preference to Afghan labor and




  REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014              163
ECONOMIC AND SOCIAL DEVELOPMENT




to prioritize purchasing Afghan, rather than foreign goods. These provi-
sions do not comply with WTO rules and could deter private investment.613
Moreover, the World Bank assessed large gaps in the quality and availability
of local Afghan goods and services needed for the extractives sector.614
   The Task Force for Business and Stability Operations (TFBSO) previ-
ously warned that without legislative reform that includes linking investor
exploration with extraction rights, and institutes a formal and fixed royalty
rate, many companies will not bid on new tenders.615 TFBSO believes, but
cannot confirm, that the lower house-passed version includes that link-
age. Other investor concerns include the right to transfer licenses from
one company to another if the original company is purchased—a standard
practice in the mining community—and the critical ability to transfer funds
in and out of the country through a functional banking system.616
   Passing a new law is an important Tokyo Mutual Accountability
Framework benchmark to improve Afghanistan’s revenues and overall
fiscal and external sustainability.617 The law must still be approved by
the president.618

Impediments to Investment
The delayed new mining law, TFBSO notes, is not the only impediment to
investment in Afghanistan’s extractive industries.619
   Private mining companies are concerned about the country’s lack of
security. There is also a lack of available capital in the mining industry.
Commodity prices, including for copper, gold, natural gas, and other fuels,
are expected to be flat or declining over the next 12 months, giving inves-
tors less incentive to invest in riskier countries.620
   A number of contracts remain unsigned this quarter, including Shaida
(copper, awarded in November 2012); Badakhshan (gold, November 2012);
Balkhab (copper, November 2012); and Zarkashan (gold, December 2012).621
These are exploration contracts that were negotiated under the exist-
ing minerals law and do not contain extraction rights. TFBSO reported
these contracts have twice been submitted by the Ministry of Mines and
Petroleum (MOMP) for cabinet consideration, but with no action taken.622
   There is also no reported change in contract negotiations for the Hajigak
iron-ore concessions this quarter.623 The MOMP awarded three blocks to
Afghan Iron and Steel Consortium (AFISCO), a seven-member consortium
led by state-owned Steel Authority of India Ltd. in November 2011, and one
block to Canadian Kilo Iron Ore, a subsidiary of Kilo Goldmines.624 News
reports indicate that AFISCO is considering cutting its initial investment
from $11 billion to $1.5 billion, and that they are waiting for approval of the
new mining law.625
   Currently there is no work under way at the Mes Aynak copper mine in
Logar Province other than continuing archeological mitigation of cultural
relics in the area.626 TFBSO suspects other factors contributing to the delay




 164                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  include unwieldy contract terms, volatility in the minerals market, and
  China’s penchant for arranging mineral projects, then “shelving” them for
  future use.627 The Afghan government awarded the contract for extraction
  rights at Mes Aynak in 2008, but its hoped-for royalties have not yet been
  realized.628 Afghanistan’s FY 1393 national budget does not anticipate any
  revenue from Aynak; the FY 1392 budget had projected $50 million that
  never materialized.629

  Illegal Mining
  The majority of mines operating in Afghanistan, 1,400 by some estimates,
  are unlicensed and illegal.630 The lack of proper government regulations and
  licensing rules is one contributing factor. Illegal mines operate with little or
  no regard for worker health and safety, and without proper procedures for
  extraction, placing workers at tremendous risk of injury or death. Workers
  in these mines also have limited or no recourse if injured or unpaid.
  Additionally, the government misses out on royalty, tax, and land-rent rev-
  enues. Often, extracted minerals are sold on the black market to insurgent
  groups or other buyers at much lower prices than if they were sold legally.631
      The United Nations (UN) reported that Taliban income derived from
  narcotics and illegal mining allow it to resist a lasting peace settlement
  with the Afghan government, while denying the government much-needed
  revenue.632 In Helmand, for instance, the Taliban were expected to receive
  $50 million from the May 2014 poppy harvest alone and $10 million annually
  from operating 25–30 illegal marble-mining sites in the province. In con-
  trast, Afghanistan’s official marble industry generates $15 million in annual
  government revenue.633
      Combating illegal mining is difficult, given that it is often done on fam-
  ily or tribal land whose owners claim rights to its resources. Also, the
  workers employed by these mines might otherwise join the insurgency
  as a means of financial support. Moreover, TFBSO said the government’s
  limited number of capable staff is not focused on small, artisanal mining
  operations at this time.634

  Assistance to the Ministry of Mines and Petroleum,
  Afghanistan Petroleum Authority, and the Afghanistan
  Geological Survey
  The United States continued to provide technical assistance this quarter
  to the MOMP, the ministry’s Afghanistan Petroleum Authority (APA), and
  the Afghan Geological Survey (AGS), largely through TFBSO and the U.S.
  Geological Survey. These organizations are supporting mineral and hydrocar-
  bon tenders as well as oil-and-gas data management. This quarter, the U.S.
  Geological Survey continued its on-the-job training at the AGS, including data
  compilation and data packages on mining areas of interest using mapping and
  illustrative software, geophysics, and hyperspectral imaging training.635




  REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                 165
                                           ECONOMIC AND SOCIAL DEVELOPMENT




                                              TFBSO also continued its subject-matter-expert support to the APA—
                                           technical (oil and gas engineering), legal (contract implementation), and
                                           financial (accounting and analysis) services; classes on exploration and
                                           production-sharing contracts; and on-the-job training, as needed. On-the-job
                                           training topics include contractor communication (email and letter writing);
                                           work program and budget analysis; market research; and health, safety, and
                                           environment protection.636
                                              TFBSO awarded a grant to the Missouri University of Science and
                                           Technology—partnered with the University of Nebraska, Omaha, and
                                           Turkey’s Middle East Technical University—to train Kabul Polytechnic
                                           University faculty in geology and mining exploration. This grant will
                                           help Kabul Polytechnic University develop curricula and provide profes-
                                           sional development.637 Finally this quarter, TFBSO facilitated evaluation
                                           by Afghanistan’s inter-ministerial evaluation committee for two cement
                                           tenders.638 TFBSO obligated $10.7 million in FY 2014 for mining-sector
                                           development, as of June 30, 2014.639 TFBSO’s authority is scheduled to
                                           expire at the end of 2014.640
                                              USAID is funding ongoing technical assistance to the APA with train-
                                           ing this quarter focused on natural-gas processing and gas-utility business
                                           methodologies, and gas-well drilling operations and maintenance. These
                                           capacity-building efforts are expected to continue through March 2015.641

                                           Mining Investment and Development for Afghan Sustainability
                                                                                                       Total Estimated   Cumulative Disbursement,
                                            Project Title               Start Date        End Date         Cost ($)         as of 6/30/2014
                                            Mining Investment and
                                            Development for Afghan      03/31/2013        03/31/2017    $41,670,943            $7,525,325
                                            Sustainability
                                           Source: USAID, response to SIGAR data call, 7/10/2014.



                                           USAID’s only mining program, the Mining Investment and Development for
                                           Afghan Sustainability (MIDAS), has on- and off-budget components. The
SIGAR AUDIT                                $41.6 million off-budget Phase I is focusing on legal and regulatory reform,
An ongoing SIGAR audit focuses on          technical assistance to the MOMP, small- and medium-size enterprise devel-
the extent to which TFBSO and USAID        opment, and assistance in geo-science field investigation. It will provide
programs met their goals to develop        other support as needed. The $45 million on-budget Phase II has not yet
Afghanistan’s extractives industry and     begun, but is designed to strengthen the MOMP so it can procure, imple-
the challenges, if any, to creating a      ment, and monitor completion of mining tender packages.642 As of June 30,
stable and lasting source of extractives   2014, USAID had obligated $16 million and disbursed approximately
revenue for Afghanistan.                   $5.72 million to begin off-budget implementation.643
                                              This quarter, MIDAS held several workshops for MOMP, USAID, and U.S.
                                           Embassy Kabul officials on legal and regulatory reform. MIDAS also identi-
                                           fied three drilling locations in northern Afghanistan that could be ready for




                                             166                           SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  near-term exploration or extraction, and provided training to AGS geolo-
  gists and small-to-medium enterprises.644

  Capacity of the Ministry of Mines and Petroleum
  The MOMP has capacity, monitoring, and oversight weaknesses, according
  to TFBSO. A small group of knowledgeable and capable, yet overworked,
  employees do most of the work. Although several key mid-level MOMP staff
  left after months of not getting paid, TFBSO believes incremental progress
  is still being made at the ministry.645
      The MOMP has either taken the lead or is close to taking the lead in
  tender evaluation, contract negotiation, and awards. However, there is
  no formal capacity-building program in place other than the AGS training
  described on page 165. Monitoring and oversight will be crucial as mineral
  exploration contracts are signed; TFBSO recommended that USAID focus
  its MIDAS program in these areas. TFBSO views effectively managing exist-
  ing tenders as more important than offering new ones.646

  Hydrocarbons
  Afghanistan’s efforts to develop its oil and gas reserves focus on the Amu
  Darya Basin and Afghan-Tajik Basin, both in northern Afghanistan.647 Even
  with two operational refineries, Afghanistan lacks adequate refining capac-
  ity, and remains heavily import-dependent for fuels. The country imports
  10,000 tons of oil products a day from Turkmenistan, Uzbekistan, Russia,
  Pakistan, and Iran.648
      Despite 75 billion cubic meters of known natural gas reserves and
  an estimated 444 billion cubic meters in undiscovered but technically              Undiscovered, technically recoverable
  recoverable reserves, Afghanistan’s gas sector is “mired with infrastruc-          resources: model-based assessments
  ture and regulatory deficits,” according to the ADB. The ADB said capital          based on geophysical, geological,
  investments from public- and private-sector funding are needed to help             technological, and economic information.
  Afghanistan overcome its challenges and realize its resource poten-
  tial. Currently, Afghan Gas Enterprise, the national gas utility, produces
  approximately 380,000 cubic meters per day from four gas fields it owns          Source: U.S. Bureau of Ocean Energy Management,
                                                                                   “Assessment of Undiscovered Technically Recoverable Oil and
  and operates, nearly all of which is supplied to the Northern Fertilizer and     Gas Resources of the Nation’s Outer Continental Shelf, 2011,”
  Power Plant.649                                                                  11/2011, accessed 7/10/2014.



  Amu Darya Basin
  The three blocks of the Amu Darya Basin awarded to the China National
  Petroleum Corporation Watan Energy Afghanistan in 2011 are estimated to
  contain 87 million barrels of crude oil.650 One of the three blocks has infra-
  structure in place to begin producing 5,000 barrels per day. Production was
  stalled but restarted this quarter, averaging 35,000 barrels per month (or
  1,141 per day) from March to May 2014.651
     So far, the government has received $1.8 million in royalties from this
  award.652 A $500,000 royalty payment was due the Afghan government on




  REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                167
ECONOMIC AND SOCIAL DEVELOPMENT




May 31, 2014, but had not been paid as of July 1. The government expects
about $60,000 per day from the basin at full production.653
   On January 7, 2014, the MOMP officially opened a new tender for explo-
ration, development, and production in the Totimaidan block, comprising
7,131 square kilometers in the Amu Darya Basin.654 The contract area con-
tains 28 billion cubic meters of reserves in two known gas fields and more
than 50 proven and prospective subsurface structures.655 Two international/
Afghan consortiums submitted bids this quarter. The MOMP expects to
announce the winning bid and sign a contract in late summer 2014.656
TFBSO provided tender-preparation assistance to the MOMP, as well as
technical, legal, commercial, and transparency advisory services.657

Independent Power Producer Program
Seeing a need to leverage Afghanistan’s natural gas to generate domestic
power, reduce power imports, and promote economic growth, TFBSO
performed due diligence on several independent power producers this
quarter and connected them with Afghan government officials. A U.S.-based
private-investor consortium was chosen to build, own, and operate a 16 MW
capacity modern natural-gas power plant adjacent to the Northern Fertilizer
and Power Plant in Mazar-e-Sharif. The investors will buy approximately
110,000 cubic meters of natural gas per day from Afghan Gas Enterprise,
produce electricity through high-efficiency natural gas generators, and sell
the plant’s full electricity production to Afghanistan’s national utility com-
pany, Da Afghanistan Breshna Sherkat (DABS).658
   TFBSO believes in-country independent producers will reduce imported
power in the Mazar-e-Sharif region from $48 million to $34 million annually;
that the investors will be able to sell reliable electricity to DABS at prices
competitive with imports; that reliable power will promote industrial devel-
opment; and that the additional domestic power can increase Afghanistan’s
GDP by an estimated $140 million annually.659

Sheberghan Program
Gas reserves in northern Afghanistan are estimated to be capable of gen-
erating up to 10,000 MW hours per year for 25 years, according to USAID.
A study will be completed later this year.660 Sheberghan holds the potential
for cheap natural gas and could be competitive with imported power from
Uzbekistan, according to the World Bank.661 Both USAID and TFBSO have
active programs in the area.662
    USAID is supporting the Sheberghan project to help Afghanistan iden-
tify and manage gas resources to be used for power generation through
two mechanisms: the $90 million, on-budget Sheberghan Gas Development
Project (SGDP), and the $35 million, off-budget Sheberghan Gas Generation
Activity (SGGA).663 USAID will pay $30 million on budget through SGDP to
rehabilitate two wells and drill one well in the Juma and Bashikurd field in




 168                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  the Amu Darya Basin. An additional $7 million will come from Afghanistan’s
  national budget.664 Drilling is scheduled for July/August 2014.665 If the gas
  wells have sufficient capacity to fuel a 200 MW gas power plant, USAID
  will fund a gas-gathering system and gas-processing plant to fuel it with its
  remaining $60 million, on budget through SGDP.666
     The off-budget SGGA component will provide technical assistance
  to the MOMP to drill three gas wells and to help the MOMP tender the
  Engineering/Procurement/Construction contract for the gas-gathering
  system and gas-processing plant.667 As of June 30, 2014, approximately
  $23 million has been obligated, of which more than $14.8 million
  was disbursed.668
     TFBSO is helping Afghan Gas Enterprise rehabilitate the existing
  55.4 mile Sheberghan to Mazar-e-Sharif pipeline, and improve the pipe-
  line’s capacity as well as the quality of the gas flowing through it. The
  pipeline currently transports 380 million cubic meters of natural gas per
  day and is expected to increase to 680–960 million cubic meters per day
  upon project completion.669

  Compressed Natural Gas
  TFBSO is helping Afghanistan develop a compressed natural-gas (CNG)
  industry. It constructed a CNG station in Sheberghan (CNG #1), which was
  awarded to a private operator: Qashqari Oil and Gas Services began operat-
  ing CNG #1 independently on May 12, 2014. Qashqari also won the right of
  first refusal for a CNG station in Mazar-e-Sharif (CNG #2), which TFBSO is
  now developing.670


  AGRICULTURE
  Agriculture continues to be the main source of employment and sub-
  sistence for the Afghan population. Only 12% of the land is arable and
  cultivated areas are substantially less, yet the sector accounts for 31% of
  GDP and, according to the latest World Bank report, provides employment
  to about 59% of the labor force.671 Given its importance, agriculture could
  be a catalyst for GDP growth, improved food security, and more stable
  employment opportunities.672
     Between FY 2002 and FY 2012, USAID provided approximately $2.46 bil-
  lion for agricultural and alternative development funding to improve
  production, increase access to markets, and provide alternatives to poppy
  cultivation.673 Of that, USAID has obligated and disbursed $54 million in
  direct assistance to build capacity at the Ministry of Agriculture, Irrigation,
  and Livestock (MAIL).674
     USAID is currently providing on- and off-budget assistance to the agri-
  culture sector through several programs. USAID’s three highest-priority
  programs, worth nearly $350 million total, are:




  REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                 169
                                                           ECONOMIC AND SOCIAL DEVELOPMENT




                                                           •	 Agricultural Development Fund (ADF) and Agricultural Credit
                                                              Enhancement (ACE)
                                                           •	 Incentives Driving Economic Alternatives-North, East, and West
                                                              (IDEA-NEW)
                                                           •	 Commercial Horticulture and Agricultural Marketing Program
                                                              (CHAMP)

                                                           Alternative Development Programs
                                                           USAID’s Alternative Development (AD) programs aim to promote licit crop
   Five Active Projects Receive                            production where poppy has been or is currently cultivated. However, AD
   Alternative Development Funding                         efforts are not sufficient to reduce poppy cultivation directly because that
   1.	Regional Agricultural Development
                                                           would require improved security and the Afghan government’s commitment
      Program-South (RADP-S)
                                                           to eradicate poppy, especially in areas where viable economic alternatives
   2.	Regional Agricultural Development
                                                           exist. Therefore, USAID said AD projects do not directly measure changes
      Program-West (RADP-W)
                                                           in poppy-cultivation levels.675
   3.	Regional Agricultural Development
                                                              AD programs measure indicators such as the percentage increase in
      Program-North (RADP-N)
                                                           household income from licit agriculture in targeted areas; the number of
   4.	Incentives Driving Economic Alternatives-
                                                           households benefited by alternative development interventions in targeted
      North, East, and West (IDEA-NEW)
                                                           areas; and the number of farmers growing high-value crops as a result of
   5.	Commercial Horticulture and Agricultural
                                                           U.S. assistance. The Kandahar Food Zone (KFZ) does not receive AD fund-
      Marketing Program (CHAMP)
                                                           ing and uses indicators of reduced poppy cultivation in its targeted areas to
   Regional Alternative Development Programs               measure progress.676
   aim to accelerate regional economic growth                 USAID’s AD assistance is not conditioned on community or house-
   and provide alternative income sources                  hold commitments to abstain from poppy cultivation. USAID assumes
   for those who currently depend on illicit               that once alternative high-value and economically competitive licit crops
   activities. Program activities include cash-
                                                           produce income, rural households would be more willing to stop poppy
   for-work programs, developing livestock
                                                           production.677 USAID said AD interventions and poppy cultivation are not
   and horticulture, supporting business
   development, and improving infrastructure.
                                                           necessarily exclusive. For example, farmers can grow high-value vegetables
                                                           in the summer and poppy in the winter. Furthermore, converting land used
Sources: USAID, response to SIGAR data call, 6/30/2014;    for poppy to less labor-intensive crops such as wheat has had the unin-
USAID, Alternative Development Programs/Northern Region,
8/22/2013; USAID, Alternative Development Programs/        tended consequence of displacing sharecroppers and landless laborers,
Southern Region, 8/22/2013.
                                                           some of whom have migrated to areas outside of government control to
                                                           continue growing poppy.678

                                                           Agricultural Credit Enhancement and
                                                           Agricultural Development Fund
                                                                                                                        Total Estimated   Cumulative Disbursement,
                                                            Project Title                  Start Date      End Date         Cost ($)         as of 6/30/2014
                                                            Agricultural Credit
                                                                                           7/15/2010       1/15/2015    $75,175,296             $67,656,768
                                                            Enhancement
                                                            Agriculture Development
                                                                                           7/18/2010       12/31/2014   $74,407,662             $54,000,000
                                                            Fund
                                                           Source: USAID, response to SIGAR data call, 7/10/2014.




                                                             170                           SPECIAL INSPECTOR GENERAL         I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  The Agricultural Development Fund (ADF) and Agricultural Credit
  Enhancement (ACE) are two complementary activities that aim to support
  MAIL’s efforts to provide credit and build ADF staff capacity to manage
  a credit program. ADF was established to provide loans across the agri-
  cultural value chain through banks, farm stores, leasing companies, and
  food processors. Much of this credit is then extended to farmers. ACE is a
  technical-assistance component that manages all ADF lending activities and
  helps build MAIL capacity.679
     As of April 30, 2014, ADF’s loan portfolio was $91.8 million, and loans
  disbursed were $44.5 million, with $24.5 million repaid. Another 21 loans
  are in the pipeline. According to USAID, the 4.65% of its portfolio was at
  risk, which is within the standard acceptable rate in developed countries.
  ADF has provided direct loans to 23,068 farmer households through farmer
  associations and networks.680

  Incentives Driving Economic Alternatives-North, East, and West
                                                                   Total Estimated   Cumulative Disbursement,
   Project Title                  Start Date      End Date             Cost ($)         as of 6/30/2014
   Incentives Driving
   Economic Alternatives-         3/2/2009        2/28/2015          $159,878,589         $143,385,995
   North, East, and West
  Source: USAID, response to SIGAR data call, 7/10/2014.



  Incentives Driving Economic Alternatives-North, East, and West (IDEA-
  NEW) is a cooperative-agreement project that provides agricultural
  assistance to farmers and agribusinesses in eastern, northern and western
  provinces. IDEA-NEW promotes high-value, legal agricultural production
  that can serve as an alternative to poppy cultivation by increasing commer-
  cial opportunities, extending access to financial services, and promoting
  value-chain development for key regional industries and trade corridors. It
  also facilitates connections between producers, traders, and buyers through
  market-information activities and sales promotion.681

  Commercial Horticulture and Agricultural Marketing Program
                                                                   Total Estimated   Cumulative Disbursement,
   Project Title                  Start Date      End Date             Cost ($)         as of 6/30/2014
   Commercial Horticulture
   and Agricultural Marketing     2/1/2010        12/30/2014         $40,320,241          $36,489,341
   Program
  Source: USAID, response to SIGAR data call, 7/10/2014.



  The Commercial Horticulture and Agricultural Marketing Program
  (CHAMP) aims to displace poppy cultivation by helping farmers plant
  and operate more profitable orchards and vineyards, and by enhancing




  REPORT TO THE UNITED STATES CONGRESS                     I   JULY 30, 2014                          171
                                          ECONOMIC AND SOCIAL DEVELOPMENT




                                          crop quality and promoting export and trade corridors. The program also
                                          works with traders to improve harvesting, packing, cool storage, and ship-
                                          ping methods.683
                                             Under the program’s Cooperative Agreement, extended until
                                          December 2014, CHAMP has shifted to a value-chain approach that empha-
                                          sizes post-harvest handling and market activities. CHAMP carries out
                                          activities throughout five main value chains (grapes, almonds, pomegran-
                                          ates, apricots, and apples) and one subvalue chain (melons).684

                                          Kandahar Food Zone
                                                                                                      Total Estimated   Cumulative Disbursement,
                                           Project Title                  Start Date      End Date        Cost ($)         as of 6/30/2014
                                           Kandahar Food Zone             7/31/2013       7/30/2015     $18,695,804            $3,876,000
                                          Source: USAID, response to SIGAR data call, 7/10/2014.


Although the Kandahar Food Zone (KFZ)     The Kandahar Food Zone (KFZ) program is designed to identify and
program is one year into implementation   address the drivers of poppy cultivation in seven targeted districts, which
with only one year to go, less than 21%   represent 89% of total poppy cultivation.685 KFZ has two major components:
of committed funds have been disbursed,   capacity building at the Ministry of Counter Narcotics (MCN) and alterna-
raising questions about the program’s     tive-livelihood projects. The capacity-building component seeks to build up
implementation.682
                                          the MCN’s ability to create, implement, and manage alternative-livelihood
                                          projects. The alternative-livelihood component aims to improve community
                                          infrastructure and increase legal economic opportunities.686
                                             USAID reported that the KFZ office in Kandahar was closed from
                                          February 27 to March 19, 2014, because the Afghan Public Protection Force
                                          (APPF) had not fulfilled its contractual obligations to provide uniforms
                                          and weapons to its guards, forcing the Kandahar office staff to work from
                                          home.687 As noted in the Security section of this report, the APPF is currently
                                          in a state of transition; it is uncertain who will be providing these types of
                                          security services in the future. For more information, see Security, page 90.
                                             In this reporting period, the Kandahar provincial governor approved con-
                                          cept notes for 13 projects: two dams and 11 irrigation canals. By the end of
                                          May 2014, the provincial governor had approved only one of 29 alternative-
                                          development concept notes. These projects are expected to address the
                                          lack of irrigation water, which has been identified as one of the root causes
                                          of farmers’ turning to poppy cultivation.688

                                          Other Active USAID Agriculture Programs
                                                                                                      Total Estimated   Cumulative Disbursement,
                                           Project Title                  Start Date      End Date        Cost ($)         as of 6/30/2014
                                           Famine Early Warning
                                           System Network                 12/29/2011 12/28/2016         $4,375,792             $2,420,553
                                           (FEWSNET) Phase III
                                                                                                                        Continued on the next page




                                            172                           SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




                                                                   Total Estimated   Cumulative Disbursement,
   Project Title                  Start Date      End Date             Cost ($)         as of 6/30/2014
   Strengthening Afghanistan
                                                                                                                SIGAR SPECIAL PROJECT
   Agricultural Faculties         3/25/2011       12/31/2016          $7,824,209           $5,561,658
                                                                                                                This quarter, SIGAR’s Office of Special
   (SAAF)
                                                                                                                Projects wrote to the U.S. Department
   Afghan Agricultural
   Research and Extension         7/17/2012       7/16/2017           23,638,611             5,383,925          of Agriculture (USDA) about its
   Development (AGRED)                                                                                          review of USDA’s $34.4 million
   Improving Livelihoods                                                                                        Soybeans for Agricultural Renewal
   and Governance Through                                                                                       in Afghanistan Initiative (SARAI).
                                  4/10/2010       12/31/2014          14,000,000           12,023,167
   Natural Resource
   Management                                                                                                   USDA had confirmed that soybean
   IWMP-Irrigation and                                                                                          production in Afghanistan has not met
   Watershed Management           12/21/2012 12/19/2017             129,963,114            13,475,767           expectations and there are doubts
   Program                                                                                                      about the long-term sustainability of
   Regional Agriculture                                                                                         a soybean-processing factory built as
   Development Program            10/7/2013       10/6/2018         125,075,172              5,238,808
   (RADP)-South                                                                                                 part of the project. SIGAR suggested
   Regional Agriculture                                                                                         that prior to any further investment in
   Development Program            5/21/2014       5/20/2019           78,429,714                     0          SARAI, USDA implement a thorough
   (RADP)-North                                                                                                 and comprehensive evaluation of the
  Source: USAID, response to SIGAR data call, 7/10/2014.                                                        project’s future sustainability, including
                                                                                                                a review of existing research on the
  ESSENTIAL SERVICES AND DEVELOPMENT                                                                            economic viability of growing and
                                                                                                                marketing soybeans in Afghanistan.
  Since 2002, the United States has provided reconstruction funds to increase
                                                                                                                For more information, see Section 2,
  electric supply and access, electricity, build roads and bridges, and improve
                                                                                                                page 42.
  health and education in Afghanistan. This section addresses key develop-
  ments in U.S. efforts to improve the government’s ability to deliver essential
  services such as electricity, transportation, health, and education.

  Energy
  Afghanistan imports approximately 73% of its total power supply. Electricity
  imports are expected to rise in the near term, according to a recent World
  Bank report, which also noted that limited access to electricity is one of
  Afghanistan’s biggest constraints to private-sector development.689 It has
  one of the lowest rates of electrification in the world, with only 25% of
  Afghans connected to the power grid. Of those who are connected, an esti-
  mated 75% live in urban areas.690
     Because electricity is critical to Afghanistan’s development, the United
  States, in collaboration with the Afghan government and the international
  community, has made developing an integrated energy sector one of its top
  reconstruction priorities since 2002.691 From FY 2002 to FY 2012, the United
  States spent more than $2 billion on Afghanistan’s power sector.692
     From 2002 through 2012, USAID alone provided more than $2 billion
  from the ESF to build generators, substations, and transmission lines,
  and provide technical assistance to the sector. It plans to spend at least
  $814 million more over the next few years using FY 2010–2013 funds.693 In




  REPORT TO THE UNITED STATES CONGRESS                     I   JULY 30, 2014                          173
                                                                       ECONOMIC AND SOCIAL DEVELOPMENT




FIGURE 3.34

Overview of the Northeast and Southeast Power Systems


Northeast                                                                                        Southeast
                                                                             Bazarak

                                                      Charikar
                                                            Mahmood Raqi           Nejrab
                                                                                                                                        Musa Qalah
                                                                   Kabul
                                                                                                                                                  Kajaki Dam
                                                 Arghandi

                                           Sayad Abad                      Pul-e-Alam
                                           Substation
                                                            Chelozai
                                                                                                                              Gereshk           Durai Junction
                                                                                Gardez
                                                                                                                                                                 Kandahar
                                                                                                                                  Lashkar Gah
                                           Naw Abad     Ghazni                           Khost




Note: Locations and routes are approximate.
Source: DOD, response to SIGAR data call, 4/3/2014.



                                                                       addition, DOD has provided approximately $292 million for electricity proj-
                                                                       ects through the Commander’s Emergency Response Program (CERP) and
                                                                       roughly $700 million through the Afghanistan Infrastructure Fund (AIF),
                                                                       which is jointly managed by DOD and State.694
                                                                          Afghanistan currently has nine separate power systems. The primary two
  NEPS: imports electricity from the Central                           are the Northeast Power System (NEPS) and the Southeast Power System
  Asian Republics to provide power to Kabul                            (SEPS), as shown in Figure 3.34. USAID has three projects to connect and
  and the communities north of Kabul.                                  increase the electricity supply in both systems—Sheberghan (discussed on
                                                                       page 168); the Kandahar-Helmand Power Project, which includes Kajaki
  SEPS: draws most of its power from the                               Dam hydropower; and the Power Transmission Expansion and Connectivity
  Kajaki Dam and from diesel generators                                Program. DOD is contributing to both NEPS and SEPS through AIF proj-
  in Kandahar City to provide power in the                             ects. The Afghan government, coordinating closely with USAID and DOD,
  Helmand and Kandahar areas.                                          prioritized these programs to increase the availability of affordable, grid-
                                                                       based power. Connecting the power grids is intended to promote the best
                                                                       use of lowest-cost generation, reduce the need for duplicative generating
Source: DOD, Report on Progress Toward Security and Stability          reserves, and improve system reliability.695
in Afghanistan, 11/2013, accessed 12/29/2013.


                                                                       Kandahar-Helmand Power Project
                                                                       The Kandahar-Helmand Power Project (KHPP) is intended to increase
                                                                       power supply and reliability in Kandahar and Helmand Provinces. It was
                                                                       designed to support interim diesel power for critical needs, increase long-
                                                                       term sustainable hydropower from Kajaki Dam, and reduce losses while
                                                                       strengthening the SEPS transmission and distribution system.696 USAID
                                                                       has transferred responsibility for installing a third turbine at Kajaki to Da




                                                                            174                   SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  Afghanistan Breshna Sherkat (DABS), Afghanistan’s national utility. USAID
  also turned over the remaining components, two substations and two diesel
  generation plants, to DABS.697 DOD is using the AIF to fund fuel for the U.S.
  Army Corps of Engineers-installed diesel generators in Kandahar City.698
     This quarter, fighting in southern Afghanistan reportedly led to long
  power outages in Helmand and Kandahar. Power cables from Kajaki Dam
  to Lashkar Gah and to Kandahar City were damaged.699 While attempting to
  repair the broken transmission lines, the deputy head of the Sangin district
  power department was killed.700

  Power Transmission Expansion and Connectivity Program
  The U.S.-funded Power Transmission Expansion and Connectivity (PTEC)
  program was designed to strengthen and expand the power-generation,
  trans­mission, and distribution systems. This program directly supports the
  National Energy Supply Program of the Afghanistan National Development
  Strategy, which calls for improving the collection rate against energy
  billings and increasing the supply of power.701 Toward that end, PTEC’s
  commercialization and capacity-building components aim to reduce techni-
  cal and commercial losses.702 DABS is responsible for procuring all PTEC
  contracts with significant support from USAID.703
     In addition to strengthening and expanding NEPS, a key component of
  PTEC is funding 304 miles of the 329 mile transmission line between Kabul
  and Kandahar to connect NEPS with SEPS. Connecting NEPS to SEPS is
  a multi-donor effort funded through the ADB-administered Afghanistan
  Infrastructure Trust Fund (AITF), which funds projects on-budget through
  DABS or other Afghan government ministries.704 As of June 30, 2014, USAID
  has obligated $180.3 million to AITF and disbursed $105 million.705


       A USAID audit published this quarter found that the $307 million, 105                       for U.S.-funded energy projects, which rely on DABS and the Afghan
       MW-capable, USAID-funded Tarakhil Power Plant was not being operated                        government assuming responsibility for the projects. SIGAR pointed
       and maintained in a sustainable manner by DABS. The plant was still                         out that these Afghan government entities have questionable capacity
       dependent on external technical assistance even though it was turned                        and lack the resources—financial and otherwise—necessary to fulfill its
       over to DABS in June 2010. It was not being used regularly—operating                        commitments. In January 2010, SIGAR said the long-term sustainability
       only at 2.2% of its capacity—and thus not increasing Kabul’s power                          of the Kabul Power Plant—also known as the Tarakhil Power Plant—
       supply. Additionally, the plant did not track inventory, DABS did not                       depends, in part, on the Afghan government’s ability to fund the required
       provide adequate management support, and DABS had not developed                             fuel purchases and operations and maintenance costs. At that time,
       a proper operating budget for the plant. USAID has since begun building                     SIGAR predicted Afghanistan would need assistance for fuel purchases
       the capacity of DABS Tarakhil Power Plant staff under a project called                      and warned that if DABS commercialization efforts falter, the United
       DABS PTEC Commercialization Part 2 Contract for Power Generation.                           States may face the difficult decision of whether to continue funding
          Several SIGAR audits have questioned U.S. sustainment plans                              Kabul Power Plant operations or allowing it to fall into disuse.


  Sources: USAID, Review of Sustainability of Operations at Afghanistan’s Tarakhil Power Plant (Report No. F-306-14-002-S), 6/19/2014; SIGAR, Audit Report 12-12, Fiscal Year 2011 Afghanistan
  Infrastructure Fund Projects Are Behind Schedule and Lack Adequate Sustainment Plans, 7/2012; SIGAR, Audit Report 10-4, Afghanistan Energy Supply Has Increased But An Updated Master Plan
  Is Needed And Delays And Sustainability Concerns Remain, 1/15/2010; SIGAR, Audit Report 12-12, Contract Delays Led To Cost Overruns For The Kabul Power Plant And Sustainability Remains A Key
  Challenge, 1/20/2010.




  REPORT TO THE UNITED STATES CONGRESS                        I   JULY 30, 2014                                     175
                                                              ECONOMIC AND SOCIAL DEVELOPMENT




                                                                 The NEPS-SEPS connector will include eight substations located at
                                                              major population centers along the way. This con­nection, together with the
                                                              rehabilitation of the Kajaki Hydropower Plant, was identified in 2010 as the
                                                              only viable, long-term solution to displace costly and unsustainable diesel-
                                                              power generation in Kandahar. Completion of the NEPS-SEPS connector is
                                                              expected in the 2017/2018 timeframe.706

                                                              DOD-Funded Programs
Congress cut the President’s FY 2014                          This quarter, DOD continued implementing several priority energy-sector
budget request for AIF to complete DOD’s                      projects using FY 2012 and FY 2013 AIF money. On June 20, 2014, the U.S.
portion of the NEPS and SEPS from                             Army Corps of Engineers (USACE) issued a request for proposals to design
$279 million to $199 million. Congress                        and construct SEPS transmission lines from the Tangi substation near
also mandated that no more than 50%                           Kajaki Dam to the Lashkar Gah diesel power plant. This project aims to pro-
of FY 2014 AIF funds can be used until
                                                              vide a reliable source of electricity to unserved populations, underpin the
15 days after the Secretary of Defense
                                                              national grid, and allow for the grid’s expansion.707 Phase I proposals were
certifies that the United States has
signed a Bilateral Security Agreement with
                                                              due July 21, 2014.708
Afghanistan that is in the U.S. national-                        AIF projects are supposed to contribute to counterinsurgency strategy
security interest. Furthermore, FY 2014 AIF                   and development. AIF notifications to Congress describe these contribu-
funds cannot be used to plan, develop, or                     tions in detail. The most recent notification was dated August 2013.709
construct any project for which construction                  However, DOD has located no studies that explore the relationship between
did not start before the legislation’s enact-                 electrical power and reduced violence in Afghanistan. Moreover, DOD
ment (January 17, 2014).                                      explained that because AIF-funded projects are still under construction,
Sources: National Defense Authorization Act for Fiscal Year   their long-term counterinsurgency and economic development benefits
2014, Sec.1224, pp. 253-254; Consolidated Appropriations
Act, 2014, Sec. 9016, p. 344; Library of Congress, Bill       “cannot be assessed at this time.”710
Summary & Status, 113th Congress, H.R. 3547, Major
Congressional Actions; DOD, response to SIGAR data call,
                                                                 Ongoing AIF projects include:711
4/3/2014.                                                     •	 Kandahar Power Bridging Solution
                                                              •	 Kandahar–Durai Junction transmission lines
                                                              •	 Charikar–Bazirak and Charikar –Mahmood Raqi transmission lines and
                                                                 power substations
                                                              •	 Kajaki Dam to Musa Qalah transmission lines

                                                              Kandahar Power Bridging Solution
                                                              This project is providing fuel for the diesel generators in Kandahar City
                                                              until affordable, sustainable power becomes available through the joint
                                                              DOD-USAID effort to expand and connect NEPS and SEPS systems.712 The
                                                              generators at Shorandam Industrial Park and Bagh-e-Pol have a combined
                                                              average output of 8–13 MW, and were transferred to DABS in December
                                                              2013, along with six months of spare parts and consumables. DOD technical
                                                              assistance to DABS will continue throughout 2014.713 DOD plans to provide
                                                              fuel through September 2015 at a declining subsidy each month.714
                                                                 DABS officials told SIGAR that if DOD had stopped providing fuel at
                                                              the end of 2014 as previously planned, DABS might not have the money
                                                              to keep the generators fueled. The officials also cautioned that it appears
                                                              unlikely that DABS will have sufficient alternative energy sources to offset




                                                               176                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  lost diesel power. Since Kajaki Dam’s third turbine and the NEPS–SEPS
  Connector projects will take time to complete, it is possible that thousands
  of Kandahar homes and businesses will not have access to electricity in         SIGAR SPECIAL PROJECT
  early 2015.715                                                                  This quarter, SIGAR’s Office of Special
     DOD funding levels have not changed from last quarter. FY 2012 funding       Projects wrote to DOD about the U.S.
  remains at $79.8 million for fuel and operations and maintenance (O&M).         government’s plan to provide electrical
  The FY 2013 cost is $100 million, which includes $90 million for fuel and       power in Kandahar after December
  $10 million for O&M.716 Additional measures to integrate the power grid in      2014, including any interim bridging
  the area—the Kandahar Power Management project—were set aside after             solutions, the timelines for completing
  Congress reduced FY 2014 AIF appropriations.717                                 NEPS and SEPS, updates on Kajaki
                                                                                  Dam power generation, and DABS’s
  Kandahar to Durai Junction Transmission Lines                                   financial ability to sustain the two
  Part of the effort to expand SEPS, this project continues earlier efforts to    diesel generators in Kandahar after
  install or repair transmission lines from Kandahar City to Durai Junction       DOD subsidies end.
  and to construct or repair substations at Maiwand and Pashmul. The cost
  for this project, awarded in 2012, remains $40 million in FY 2012 funds. This
  transmission line constitutes a key element for the larger PTEC project
  linking SEPS and NEPS and addresses the need for reliable electricity in
  Afghanistan’s south and southeast. Completion of this project is essential
  to distribute power generated by the third turbine awaiting installation at
  Kajaki Dam, according to DOD.718

  Charikar–Bazirak and Charikar–Mahmood Raqi Transmission
  Lines and Power Substations
  This project will install 52 miles of transmission lines from Charikar to
  Bazirak and from Charikar to Mahmood Raqi. It will also build three power
  substations to expand NEPS. DOD has allocated $38 million in FY 2012
  funds and $33 million in FY 2013 funds for the project, for a total esti-
  mated cost of $71 million, according to an August 2013 DOD notification to
  Congress. Annual estimated O&M costs for the transmission lines and sub-
  stations are $580,000.719
     DABS will assume responsibility for O&M. Increased revenue from an
  expanded customer base and improved collection capabilities will help
  DABS provide long-term sustainment, according to DOD.720 However,
  SIGAR has raised questions about DABS’ capacity and said Afghanistan
  lacks the resources necessary to pay for O&M.721

  Kajaki Dam to Musa Qalah Transmission Lines
  This project is building new transmission lines from the Kajaki Dam
  hydropower plant to Musa Qalah in Helmand Province. The $12 million in
  FY 2013 funds allocated for Phase I of the project will construct approxi-
  mately nine miles of new 110kV transmission line from Kajaki to a new
  substation that will join with the existing 20kV transmission line. Phase
  II plans to use $49 million in FY 2014 funds to build 23 miles of 110kV




  REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014              177
ECONOMIC AND SOCIAL DEVELOPMENT




transmission line from the substation to Musa Qalah, build a new 110kV
substation, and rehabilitate the existing 20kV substation at Musa Qalah.
The project aims to benefit the approximately 60,000 residents of Musa
Qalah, according to DOD.722
   Other components of the project are designed to help integrate SEPS
projects into a single, interconnected system. DABS will assume respon-
sibility for O&M. Increased revenue from an expanded customer base and
improved collection capabilities will help DABS provide long-term sus-
tainment, according to DOD.723 As noted above, SIGAR audits have raised
concerns about DABS’s capacity and resources to undertake O&M.


PRIVATE-SECTOR DEVELOPMENT
Despite the uncertainty surrounding Afghanistan’s security and political
transitions in 2014, private-sector investment has not ceased and according
to USAID, the government has the political will to continue promoting pri-
vate-sector development.724 The United States is supporting private-sector
development through the ESF, TFBSO, and CERP.
   From FY 2002 to FY 2012, USAID appropriated $1.06 billion for economic
growth in Afghanistan.725 One of USAID’s major ongoing economic-growth
projects, funded through the ESF, is Assistance in Building Afghanistan by
Developing Enterprises (ABADE).

Assistance in Building Afghanistan by Developing Enterprises
                                                            Total Estimated   Cumulative Disbursement,
 Project Title              Start Date         End Date         Cost ($)         as of 6/30/2014
 Assistance in Building
 Afghanistan by         10/16/2012             10/16/2016    $104,997,656          $20,479,012
 Developing Enterprises
Source: USAID, response to SIGAR data call, 7/10/2014.



USAID’s ABADE program focuses on helping produc­tive, Afghan-
registered, small-to-medium enterprises add jobs, increase investment, and
improve sales of domestic products and services through public-private
alliances (PPAs). It does so through three components: implementing
approved public-private alliances; identifying, selecting, and supporting the
alliances; and working with the Afghan government to improve the envi-
ronment for business.726
    USAID reported that ABADE has struggled to reach its target number of
PPAs; only 13 of 90 targeted PPAs were finalized in the program’s first year.
After meeting in April 2014, USAID and ABADE set a new short-term tar-
get: 100 PPAs to be in place by July 1. As of July 1, 2014, a total of 101 PPAs
were submitted to USAID, of which 51 were approved with an additional 50
awaiting USAID action. USAID is reevaluating the overall program targets




  178                           SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  given its start-up challenges, including hiring staff, setting up offices, adver-
  tising, and lengthy partner-vetting processes.727


  TRANSPORTATION
  Afghanistan’s lack of transportation infrastructure hinders internal com-
  merce, foreign trade, and economic growth. The World Bank said restoring
  the transportation sector is imperative for economic development.728
  Afghanistan’s infrastructure shortcomings particularly constrain the ser-
  vice and agriculture sectors, currently the leading contributors to GDP.729
  They also hold back the mining industry, whose future revenues the Afghan
  government and international donor community are counting on to offset
  declining aid.730 This quarter, the United States continued its efforts to assist
  Afghanistan in developing ministry capacity, sustaining operations and
  maintenance, and complying with inter­national standards.731

  Roads
  While the United States has provided $2.2 billion cumulatively for road con-
  struction and O&M and currently spends about $5 million annually for O&M
                                                                                                                SIGAR SPECIAL PROJECT
  efforts, the World Bank said 85% of Afghan roads are in poor shape and a                                      This quarter, SIGAR’s Office of Special
  majority cannot be used by motor vehicles.732 Afghanistan does not cur-                                       Projects wrote to USAID and DOD
  rently have sufficient funding and technical capacity to maintain its roads                                   about over a billion dollars they have
  and highways, according to the U.S. Department of Transportation (DOT).733                                    invested in road projects. SIGAR
  Moreover, the lack of a functioning roads authority has significantly                                         said it was concerned that roads,
  affected road infrastructure across Afghanistan.734 Although the Cabinet and                                  built at great risk and expense by
  the President gave approval in August 2013 for the Ministry of Public Works                                   the United States and other donors,
  (MOPW) to create a roads authority and road fund, the authority has not yet                                   are not and will not be properly
  been established.735                                                                                          maintained and that roads are still
                                                                                                                being built in Afghanistan despite
  Road Sector Sustainability                                                                                    the apparent shortage of effective
                                                                                                                maintenance plans or capacity. For
                                                                   Total Estimated   Cumulative Disbursement,
   Project Title              Start Date         End Date              Cost ($)         as of 6/30/2014         more information, see Section 2, pages
   Road Sector                                                                                                  46 and 48.
                              8/1/2014           8/1/2019            $111,000,000              $0
   Sustainability
  Source: USAID, response to SIGAR data call, 7/14/2014.


  USAID’s Road Sector Sustainability (RSS) project has four main activities:736
  •	 Activity 1: Emergency O&M ($5 million). Contracts are now expected
     to be awarded in August instead of April 2014 due to delays in the
     procurement process.737
  •	 Activity 2: Technical Assistance to the MOPW for the creation of a
     Road Authority and Road Fund ($25 million phase I; $10 million phase
     II). A contract is now expected to be awarded in August instead of
     April 2014.738




  REPORT TO THE UNITED STATES CONGRESS                     I   JULY 30, 2014                         179
                                              ECONOMIC AND SOCIAL DEVELOPMENT




                                              •	 Activity 3: Capacity Building for the MOPW ($38 million). The
                                                 Statement of Work is being developed based on a needs assessment that
                                                 is under way. A contract is expected to be awarded in mid-2015.739
                                              •	 Activity 4: Road O&M Activity. ($33 million) USAID funding, proposed
                                                 for January 2015, will go through the AITF once the ADB develops an
                                                 operations-and-maintenance incentive window.740

                                              Gardez-Khowst Highway Rehabilitation Phase IV
                                                                                                          Total Estimated   Cumulative Disbursement,
                                               Project Title             Start Date          End Date         Cost ($)         as of 6/30/2014
                                               Gardez-Khowst Road        7/10/2014           12/30/2015     $32,760,000               $0
                                              Source: USAID, response to SIGAR vetting 7/14/2014.


                                              Phase IV rehabilitation of the 63-mile Gardez-Khowst highway will con-
                                              struct the remaining 15.5 miles, including two major bridges and several
                                              retaining walls, culverts, and drainage systems. This all-weather, asphalt-
                                              paved highway gives Khowst and Paktiya Provinces access to major
                                              trading routes to Pakistan, to Kabul, and to the Ring Road connecting
                                              Kabul, Kandahar, and Herat.741


                                              EDUCATION
                                              The United States aims to improve Afghan access to quality education by
                                              promoting capacity building, responding to urgent needs for learning mate-
 SIGAR AUDIT                                  rials, schools, and teacher development, as well as increasing opportunities
 An ongoing SIGAR audit is examining          in adult literacy, employment skills, and youth development.742
 the U.S. government’s efforts to assist         SIGAR is concerned about the accuracy of the data provided on
 and improve the education sector in          Afghanistan’s educational system. According to the most recent data avail-
 Afghanistan.                                 able from the Ministry of Education’s (MOE) Education Management
                                              Information System (EMIS), Afghanistan had a total of 14,166 primary,
                                              lower-secondary, and upper-secondary schools in FY 1391 (March 21, 2012–
                                              December 20, 2012).743
                                                 This quarter, USAID provided two inconsistent sets of MOE data for
Enrolled: total number of new students        the number of students enrolled in 1391. Data generated from EMIS
enrolled in an academic year                  shows approximately 7.62 million students were enrolled in primary,
                                              lower-secondary, and upper-secondary schools in FY 1391. Of the enrolled
Present: total number of students             students, 6.26 million were categorized as present, while 1.36 million stu-
attending in an academic year                 dents were considered absent.744 Another unspecified MOE source showed
                                              higher enrollment numbers—7.78 million students (an additional 160,000
Absent: number of students who have           students over EMIS data) enrolled in primary, lower-secondary, and upper-
temporarily dropped out, but still included   secondary schools in FY 1391, with 6.86 million students present and
in enrollment figures                         approximately 922,000 students absent.745 USAID also provided a third MOE
                                              source containing Afghanistan’s total enrollment in general education for
                                              FY 1392—8.2 million students enrolled. This number was not broken down




                                                180                           SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT


                                                                                                                        SIGAR’S CONCERNS
                                                                                                                        The number of students attending
                                                                                                                        school in Afghanistan is often cited
  into the numbers of students present and absent.746 The number of days of
                                                                                                                        as evidence of Afghanistan’s progress
  attendance required for a student to be counted as “present” for the entire
                                                                                                                        in education. For example, in a
  year was not known as this report went to press.
                                                                                                                        Washington Post op-ed published
      According to USAID, the MOE includes absent students in the enrollment
                                                                                                                        on May 30, 2014, Dr. Rajiv Shah,
  total until three years have elapsed, because absent students are considered
                                                                                                                        the Administrator of USAID wrote,
  to have the potential to return to school. However, a MOE Education Joint
                                                                                                                        “Education is another bright spot [in
  Sector Review from September 2013 recommended the MOE revise its regu-
                                                                                                                        Afghanistan.] Three million girls and
  lations and no longer consider permanently absent students to be counted
                                                                                                                        5 million boys are enrolled in school.”
  as enrolled.747
      In order to assess student learning achievement, this quarter USAID                                               However, the reliability of EMIS—the
  continued to design an early-grade program with assessments of student                                                only database at the MOE tracking
  performance in reading and math. USAID is also contributing to the multi-                                             education metrics—cannot be
  donor supported Education for Quality Improvement Program II, through                                                 confirmed. Data is not available on
  which the MOE is implementing a national teacher-credentialing system to                                              time, and indicators such as net
  set minimum performance standards for teachers. No data on student read-                                              enrollment ratios, repetition rate, and
  ing and math proficiency or teacher proficiency currently exists.748                                                  dropout rate are unavailable. Insecurity
      USAID’s ongoing priority education programs funded through the ESF                                                limits visits to schools. In the most
  this quarter include:                                                                                                 recent EMIS Statistical Analytical
   •	 Basic Education, Literacy, and Technical-Vocational Education and                                                 Report from FY 1390, the MOE
      Training (BELT)                                                                                                   admitted that only 1,000 schools (7%
   •	 American University of Afghanistan (AUAF)                                                                         of all general education schools) were
   •	 Afghanistan University Support and Workforce Development Program                                                  visited for data verification in FY 1390.
      (USWFD)                                                                                                           Additionally, schools may be tempted
                                                                                                                        to inflate their attendance figures
  Basic Education, Literacy, and Technical-Vocational                                                                   because access to funding (such as
  Education and Training                                                                                                EQUIP II School Grants) can be linked
                                                                                                                        to enrollment levels.
                                                                    Total Estimated      Cumulative Disbursement,
   Project Title             Start Date          End Date               Cost ($)            as of 6/30/2014             This quarter, SIGAR learned that
   Basic Education,                                                                                                     USAID’s definitions of enrollment used
   Literacy, and
   Technical-Vocational
                             11/16/2011          12/31/2014          $26,996,813                $21,955,403             in EMIS last quarter were double-
   Education-Textbooks                                                                                                  counting the number of students
   Teacher Training          3/4/2012            11/6/2014             62,000,000                 62,000,000            enrolled in Afghanistan. The previous
   BELT-Community                                                                                                       definition of total enrollment added
                             10/29/2013          10/28/2017            56,000,000                         0
   Based Education                                                                                                      three figures: enrolled, present, and
  Sources: USAID, response to SIGAR data call, 7/10/2014;USAID, response to SIGAR vetting 4/14/2014.                    absent students. However, as USAID
                                                                                                                        clarified this quarter, the number of
                                                                                                                        enrolled students is actually the sum of
  BELT aims to improve access to basic education in communities typically                                               present and absent students. Thus, the
  beyond the government’s reach. BELT has four components: capacity-build-                                              total enrollment figures reported last
  ing for the MOE, teacher training, procurement of textbooks for grades 1–6,                                           quarter counted each student twice.
  and community-based education.749
     BELT Community-Based Education (CBE) provides accelerated and
  remedial education, allowing students to attend schools in remote loca-                                           Sources: Washington Post, “Rajiv Shah: How to Keep
                                                                                                                    Afghanistan on the Right Track,” 5/30/2014; MOE, Education
  tions.750 This quarter, USAID and the MOE agreed on a rationale for                                               Joint Sector Review 2012, 9/2013; USAID, response to SIGAR
                                                                                                                    data call, 3/31/2014 and 6/30/2014; MOE, 1390 EMIS
                                                                                                                    Statistical Analytical Report, 2012; World Bank, Project Paper
                                                                                                                    for a Proposed Grant in the amount of SDR 18.9 million to
                                                                                                                    the Islamic Republic of Afghanistan for the Second Education
                                                                                                                    Quality Improvement Project, 1/4/2008; USAID, response to
                                                                                                                    SIGAR vetting, 4/12/2014 and 7/9/2014.
  REPORT TO THE UNITED STATES CONGRESS                     I   JULY 30, 2014                               181
                                            ECONOMIC AND SOCIAL DEVELOPMENT




                                            provincial allocations of CBE classes, allowing the MOE to begin finalizing
                                            the CBE annual work plan. The MOE also started delivering textbooks
                                            to provinces in the central region of Afghanistan.751 However, textbook
                                            delivery does not necessarily lead to learning. Field-visit reports in 2012
                                            indicated textbooks are sometimes stocked in district offices and not
                                            distributed to schools due to lack of funds.752 Next quarter’s nationwide
                                            textbook distribution will be audited.753
                                               BELT also continues to face delayed payments from USAID for text-
                                            books due to improper deduction of taxes on U.S. assistance by the MOF.
                                            This quarter, the MOF Budget Committee officially ruled that taxes with-
Global Partnership for Education. Mosque    held on textbook contract payments would be returned to the BELT special
Based Education Center, Pashtha Ghla
                                            account; returned funds are still pending. USAID also faces challenges with
village, Shahruk district, Ghor Province,
January 2014. (UNICEF photo)
                                            the MOE’s ability to implement on-budget activities in a timely fashion.754

                                            American University of Afghanistan
                                                                                                        Total Estimated   Cumulative Disbursement,
                                             Project Title              Start Date         End Date         Cost ($)         as of 6/30/2014
                                             American University of
                                                                        8/1/2013           7/31/2018     $40,000,000            $6,447,328
                                             Afghanistan PDI
                                            Source: USAID, response to SIGAR data call, 7/10/2014.


                                            USAID’s second, five-year cooperative agreement continues support for
                                            the American University of Afghanistan’s English-language undergraduate
                                            and continuing-education programs. The agreement aims to strengthen
                                            academic- and professional-development programs, expand programs for
                                            women, and increase financial self-sufficiency.755

                                            Afghanistan University Support and Workforce
                                            Development Program
                                                                                                        Total Estimated   Cumulative Disbursement,
                                             Project Title              Start Date         End Date         Cost ($)         as of 6/30/2014
                                             Afghanistan University
                                             Support and Workforce 1/1/2014                12/31/2018    $91,927,769            $2,330,336
                                             Development
                                            Source: USAID, response to SIGAR data call, 7/10/2014.



                                            The Afghanistan University Support and Workforce Development program
                                            (USWFD) aims to improve the management capacity of the Ministry of
                                            Higher Education and 10 public universities by training officials, funding
                                            scholarships, and facilitating partnerships between U.S. and host country
                                            universities.756
                                               USAID said that USWFD faces implementation challenges such as a lack
                                            of leadership skills among senior faculty, outdated curriculums, and inad-
                                            equate facilities. Additionally, the Universities Financial Autonomy Law,




                                              182                           SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  which would allow universities to assess student and business fees for ser-
  vices, is still stalled in the lower house of parliament.757 Insecurity and the
  elections have hindered recruitment, and inadequate staffing resources may
  be a problem as implementation moves forward.758 A performance evalua-
  tion is planned for the second year of the project.759

  Other Active USAID Education Programs
                                                                     Total Estimated   Cumulative Disbursements
   Project Title                  Start Date        End Date             Cost ($)         as of 6/30/2014
   Global Partnership for
                                  10/11/2012        3/31/2015         $2,500,000               $495,655
   Education                                                                                                          SIGAR’S CONCERNS
   Afghanistan Reads              6/1/2013          5/31/2014            380,000                380,000
   Afghanistan Technical
                                                                                                                      USAID’s Afghanistan Mortality Survey
                                  6/15/2013         6/14/2015          1,000,000                475,000               (AMS) results are frequently used
   Vocational Institute
   Strengthening Education                                                                                            as evidence that U.S. intervention
                                  8/8/2010          6/30/2014         10,225,847             10,205,932
   in Afghanistan (SEA)                                                                                               efforts have contributed to remarkable
   Strengthening Education                                                                                            improvements in Afghanistan’s health
                                  5/19/2014         5/18/2019         29,835,920                  3,265
   in Afghanistan (SEA II)
                                                                                                                      system. In a Washington Post op-ed
   Afghan Tuition Scholarship
   Program
                                  8/21/2011         7/31/2017          7,384,665              5,770,465               published on May 30, 2014, Dr. Rajiv
                                                                                                                      Shah, the Administrator of USAID, cited
  Source: USAID, response to SIGAR data call, 7/10/2014.
                                                                                                                      Afghanistan’s “largest increase in life
  HEALTH                                                                                                              expectancy” to highlight Afghanistan’s
                                                                                                                      progress in health.
  U.S. assistance to the Ministry of Public Health (MOPH) includes capacity-
  building, training, and quality-assurance activities at central and subnational                                     However, there is an enormous gap
  levels, particularly in provinces to the south and east, where services are                                         between USAID estimates and the
  largely lacking.760                                                                                                 estimates of other institutions. Table
      The Agency Coordinating Body for Afghan Relief & Development—an                                                 3.26 on the following page compares
  advocacy organization comprising 128 national and international NGOs                                                AMS results to life-expectancy models
  working in Afghanistan—recently issued a report on how the security tran-                                           of other institutions. Most institutions
  sition in 2014 has burdened health-care delivery. While civilian and military                                       estimate a two- to five-year increase
  casualties rise, Afghan troops are increasingly depending on ground evacua-                                         in life expectancy over six years, while
  tion for their injured and often must make use of civilian instead of military                                      the mortality survey finds a 20-year
  health services. Additionally, the United Nations Mission in Afghanistan                                            increase for the same time period.
  documented 32 attacks against health-care facilities and personnel in 2013,
                                                                                                                      Reasons why USAID’s estimates differ
  compared to 20 attacks in 2012. The majority of incidents involved threats,
                                                                                                                      from those of other institutions could
  intimidation, and harassment, followed by abductions and targeted killings
                                                                                                                      include factors such as AMS inability to
  of medical personnel.761
                                                                                                                      survey completely in insecure southern
                                                                                                                      provinces, and Afghan cultural
  USAID Mortality Survey Findings                                                                                     reluctance to speak about female and
  One oft-cited indicator of USAID success comes from the USAID-funded
                                                                                                                      infant mortality with strangers.
  Afghanistan Mortality Survey in 2010, which found that life expectancy in
  Afghanistan has increased by as much as 20 years to an average of 62–64
  years since 2002.762 However, other institutions suggest that gains are more                                    Sources: Washington Post, “Rajiv Shah: How to keep
                                                                                                                  Afghanistan on the right track,” 5/30/2014; USAID, Afghan
  modest, with models indicating only an increase of two or three years in life                                   Mortality Survey 2010, 11/2011.




  REPORT TO THE UNITED STATES CONGRESS                     I   JULY 30, 2014                           183
                                                                  ECONOMIC AND SOCIAL DEVELOPMENT




TABLE 3.26


USAID LIFE EXPECTANCY FINDINGS COMPARED TO OTHER LIFE EXPECTANCY MODELS (YEARS)
                                                                                             World Bank              UN Population             U.S. Census            World Health
                                                       USAID                                    (World                  Division                  Bureau              Organization
                                                    (Afghanistan           CIA World         Development           (World Population          (International         (Global Health
                                                   Mortality Survey)       Factbook           Indicators)             Prospects)                Database)             Observatory)
 Estimated Life Expectancy Increase from
                                                           20             2.2                       3.0                      2.6                      2                       5
 2004–2010 (6 years)
 Estimated Life Expectancy Increase from                                  Data not
                                                             --                                    11.0                     12.0                      7                     11
 1990–2010 (20 years)                                                     available
 Estimated Life Expectancy in 2010                         62             44.7                     59.6                     58.4                     49                     60
 Estimated Life Expectancy in 2004                         42             42.5                     56.6                     55.8                     47                     55
                                                                          Data not
 Estimated Life Expectancy in 1990                           --                                    48.6                     46.4                     42                     49
                                                                          available
Notes: Numbers have been rounded. Data as of 6/17/2014. WHO calculations based on data available from the years 1990, 2000, and 2012.

Sources: CIA, “World Factbook: Afghanistan,” accessed 6/17/2014; World Bank, World Development Indicators, accessed 6/17/2014; UN Population Division, World Population Prospects,
accessed 6/17/2014; U.S. Census Bureau, International Data Base, accessed 6/17/2014; World Health Organization, Global Health Observatory, accessed 6/17/2014; USAID, “Health
Programs, Health Snapshot,” accessed 7/6/2013; USAID, Afghanistan Mortality Survey 2010, Key Findings, 12/2011.




                                                                  expectancy from 2004 to 2010. Institutions that also find Afghan life expec-
                                                                  tancy may have increased to 60 years in 2010, but all calculate from higher
                                                                  base life expectancies. For example, the World Bank, which calculates life
                                                                  expectancy in 2010 at 59.6, starts from a base of 56.6 in 2004—a three-year
                                                                  gain. Moreover, in 1990, the World Bank determined life expectancy at 48.6
                                                                  years, showing that they measure life expectancy in Afghanistan growing
                                                                  five to six years every decade, regardless of U.S. intervention efforts.763

                                                                  USAID Funding
                                                                  From FY 2002 through FY 2013, U.S. on- and off-budget assistance to
                                                                  Afghanistan’s health sector totaled $1.2 billion.764 From FY 2014 through
                                                                  FY 2018, USAID assistance will total $477 million.765 On-budget assistance
                                                                  to the MOPH includes salary payments to workers in U.S.-funded facilities,
                                                                  supplies and equipment, in-service training, minor renovations of facilities,
                                                                  and monitoring and supervision. Off-budget assistance includes activities to
                                                                  strengthen health systems, engage the private sector, and procure pharma-
                                                                  ceuticals and contraceptives.766

                                                                  USAID Oversight
                                                                  USAID funds a team within MOPH’s Grants and Contracts Management
                                                                  Unit (GCMU), which is responsible for monitoring USAID-funded facilities
                                                                  through regular site visits and monthly reports from implementing NGOs.
                                                                  Both NGOs and GCMU staff conduct routine monitoring of health facilities
                                                                  and document the number of patients who have received key services, and
                                                                  the type and quality of health services provided.767




                                                                   184                           SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




     USAID also relies on the MOPH’s Health Management Information
  System (HMIS) for Afghan health data. The USAID Leadership,
  Management, and Governance (LMG) project is assisting the MOPH to                                                 SIGAR INVESTIGATION
  improve data quality and reporting. LMG supported the development of                                              In an ongoing investigation of MOPH’s
  data quality assessment (DQA) tools, which compare monthly reported                                               Grants and Contracts Management
  data with registers of the health facilities of the same month, measure                                           Unit, which provides oversight and
  health workers’ knowledge of HMIS definitions, and evaluate data utiliza-                                         guidance to NGOs that operate health
  tion. The DQA was conducted in 416 randomly selected health facilities                                            facilities, SIGAR is reviewing NGO
  from July to December 2013, and its results were shared with NGOs. The                                            invoices, funding for closed health
  DQA assessment will be conducted on a routine basis.768 For more informa-                                         facilities, solicitation of bribes, and
  tion about the LMG program, see page 187.                                                                         falsified timesheets.

  Polio
  Afghanistan is one of three countries—along with Pakistan and Nigeria—                                        On July 7, 2014, the Afghan Taliban
  where polio is still endemic.769 As of July 2, 2014, seven polio cases have                                   reportedly announced a ban on polio
  been confirmed in Afghanistan in 2014, down from 14 cases in 2013, 37 in                                      vaccinations in Helmand Province. The
  2012, and 80 in 2011.770 USAID said polio immunization rates have remained                                    Pakistani Taliban has banned polio
  low as a result of increasing insecurity.771 This quarter, the MOPH launched                                  vaccinations since 2012.
  the second round of its annual spring anti-polio vaccination campaign in the                                  Source: The Wall Street Journal, “Afghan Taliban Bans Polio
                                                                                                                Vaccination in Southern Province,” 7/7/2014.
  southern, southeastern, and eastern regions, excluding Helmand Province,
  which has been inaccessible since February 2014.772 Approximately 8.9 mil-
  lion children ages five years or younger were targeted for vaccination, while
  about 8 million children between the ages of six months and five years were
  to receive vitamin A tablets to strengthen their immune systems.773

  USAID Health Programs
  USAID’s highest-priority programs in the health sector this quarter include:774
  •	 Partnership Contracts for Health (PCH) Services
  •	 Health Policy Project (HPP)
  •	 Leadership, Management, Governance Project (LMG)                                                           An Afghan child receives medication
                                                                                                                through a donor-sponsored health program.
  Partnership Contracts for Health Services                                                                     (UNAMA photo by Fardin Waezi)

                                                                   Total Estimated   Cumulative Disbursement,
   Project Title              Start Date         End Date              Cost ($)         as of 6/30/2014
   Partnership Contracts
                              7/20/2008          1/31/2015           $236,455,840        $178,784,131
   for Health Services
  Source: USAID, response to SIGAR data call, 7/10/2014.



  The host-country contract PCH program supports the MOPH’s efforts to
  provide the Basic Package of Health Services (BPHS) in 13 provinces and
  the Essential Package of Hospital Services (EPHS) in five provinces.775 PCH
  supports health care at over 6,000 health posts and more than 540 facilities,
  including hospitals and health centers. It also supports tertiary health-care
  services at five provincial hospitals and one national hospital. In addition,




  REPORT TO THE UNITED STATES CONGRESS                     I   JULY 30, 2014                         185
ECONOMIC AND SOCIAL DEVELOPMENT




PCH supports the Community Midwifery Education program, which aims to
reduce maternal and child mortality.776
   This quarter, USAID reported election-related security issues closed
health facilities and threatened workers in insecure areas. Furthermore, the
lengthy procurement process of host-country contracts delayed implemen-
tation of PCH activities, and the quality of NGO-provided health services
delivering BPHS needed improvement.777
   PCH reports semiannually to USAID.778 Yet SIGAR’s September 2013
audit of the MOPH found that USAID provides advance, incremental fund-
ing to cover operational expenses every 45 days. These and other MOPH
internal-control deficiencies put U.S. funds provided under the PCH pro-
gram at risk of waste.779
   To mitigate these risks, USAID reported this quarter that PCH is now
implemented by the off-budget Grants and Contracts Management Unit
(GCMU) of the MOPH. The GCMU submits requests for advance funds
and for permission to liquidate those funds. USAID monitors this process
and has set up a dedicated, noncomingled account at the central bank, to
which it has access. PCH is also audited by independent auditors. Ernst &
Young conducted an assessment of MOPH, which is in process of imple-
menting their recommendations. USAID reviewed the MOPH’s progress
toward addressing the recommendations, and is planning a second review
after Ramadan.780

Health Policy Project
                                                          Total Estimated   Cumulative Disbursement,
 Project Title              Start Date         End Date       Cost ($)         as of 6/30/2014
 Health Policy Project      4/2012             1/2015      $28,000,000           $18,418,498
Source: USAID, response to SIGAR data call, 7/22/2014.


The Health Policy Project (HPP) builds the MOPH’s capacity through
design, negotiation, and management of hospital public-private partner-
ships. The project also aims to strengthen financing and management of
health resources, support gender roles in health-sector activities, and build
the capacity of local private organizations to partner with the Afghan gov-
ernment in changing behaviors for the benefit of individuals or society.781
   This quarter, USAID said election-related insecurity delayed arrival of
international technical assistance, and closed the HPP office for a few days.
HPP is also awaiting MOPH approval of procurement documents for hospi-
tal public-private partnerships and vetting approval for local subcontractors
to obtain materials to promote maternal and child health commodities.782
   Despite these challenges, this quarter HPP supported the MOPH’s Health
Economics and Financing Directorate (HEFD) to launch the Expenditure
Management Information System, which supports regular reporting of
national health expenditures. Following the launch, HPP supported the




  186                           SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




  HEFD to train more than 51 NGOs on the system. HPP also conducted train-
  ing sessions for hospital staff on minimum required standards, for health
  workers on gender-based violence, and for MOPH Provincial staff on behav-
  ior change/interpersonal communication training.783

  Leadership, Management, and Governance Project
                                                                    Total Estimated       Cumulative Disbursement,
   Project Title              Start Date         End Date               Cost ($)             as of 6/30/2014
   Leadership,
   Management, and
                              9/1/2012           10/31/2014          $32,000,000                 $22,826,010
   Governance/Field
   Support
  Source: USAID, response to SIGAR data call, 7/10/2014; USAID response to SIGAR vetting, 7/11/2014.




  The LMG project works with the MOPH and the MOE at the central and
  provisional levels to build governance capacity, improve accountability, and
  help manage on-budget assistance within Afghanistan’s health and educa-
  tion systems.784
     This quarter, USAID said LMG conducted several workshops regarding
  data utilization and evidence-based decision-making at central, provincial,
  and facility levels. LMG continued to train health-care staff in basic care,
  data quality, and hospital management. Seven regional training-of-trainer
  courses were conducted, with USAID stating that Community Health
  Worker (CHW) trainers and Community-Based Health Care Officers would
  cascade their training to CHWs across the country. LMG also launched the
  Health Quality Improvement Program in select provinces.785
     USAID also noted several challenges from working with the MOPH this
  quarter, including a high degree of bureaucracy, busy leadership schedules,
  and ad hoc requests that delay implementation of approved work plans.786

  Other Active USAID Health Programs
                                                                      Total Estimated    Cumulative Disbursements,
   Project Title                  Start Date        End Date              Cost ($)          as of 6/30/2014
   Strengthening
                                  8/28/2011         8/27/2015         $24,499,936                $14,365,800
   Pharmaceutical System
   Polio Eradication Activities   9/30/1996         9/30/2022          10,750,000                      9,415,102
   TB = Field Support             9/29/2010         9/28/2015            4,600,000                     1,252,370
   University Research =
                                  9/30/2009         9/29/2014          13,950,000                  12,950,000
   Field Support
  Source: USAID, response to SIGAR data call, 7/10/2014.




  REPORT TO THE UNITED STATES CONGRESS                     I   JULY 30, 2014                                  187
4   OTHER AGENCY
    OVERSIGHT




        189
                                               OTHER AGENCY OVERSIGHT




                                               CONTENTS
                                               OTHER AGENCY OVERSIGHT CONTENTS

                                               Completed Oversight Activities	                                 192
                                               Ongoing Oversight Activities	                                   196




Photo on previous page
SIGAR staff board a helicopter after a meeting with Helmand’s provincial
governor in Lashkar Gah. (U.S. Marine Corps photo)




                                                 190                       SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
               OTHER AGENCY OVERSIGHT




OTHER AGENCY OVERSIGHT
SIGAR’s enabling legislation requires it to keep the Secretary of State
and the Secretary of Defense fully informed about problems relating to
the administration of reconstruction programs, and to submit a report to
Congress on SIGAR’s oversight work and on the status of the U.S. recon-
struction effort no later than 30 days after the end of each fiscal quarter.
Each quarter, SIGAR requests updates from other agencies on completed
and ongoing oversight activities. This section contains these updates.
   The descriptions appear as submitted, with minor changes to maintain
consistency with other sections of this report: acronyms and abbrevia-
tions in place of full names; standardized capitalization, hyphenation,
punctuation, and preferred spellings; and third-person instead of first-
person construction.
   These agencies perform oversight activities in Afghanistan and provide
results to SIGAR:
•	 Department of Defense Office of Inspector General (DOD OIG)
•	 Department of State Office of Inspector General (State OIG)
•	 Government Accountability Office (GAO)
•	 U.S. Army Audit Agency (USAAA)
•	 U.S. Agency for International Development Office of Inspector General
   (USAID OIG)




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014              191
                                                               OTHER AGENCY OVERSIGHT




                                                               COMPLETED OVERSIGHT ACTIVITIES
                                                               Table 4.1 lists the eight oversight projects related to reconstruction that par-
                                                               ticipating agencies reported as completed this quarter.

TABLE 4.1	


RECENTLY COMPLETED OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF JUNE 30, 2014
 Agency          Report Number          Date Issued     Project Title
 DOD OIG         DODIG-2014-072         5/19/2014       U.S. Military and Coalition Efforts to Develop Effective and Sustainable Healthcare in Support of the Afghan National Police
 GAO             GAO-14-528C            6/13/2014       Afghanistan Transition: Observations on U.S. Forces Afghanistan's Efforts to Reduce Contractor Support
 GAO             GAO-14-680T            6/10/2014       Afghanistan: Oversight and Accountability of U.S. Assistance
 GAO             GAO-14-475C            5/16/2014       Afghanistan Transition: U.S. Force Reductions Impact DOD's Advising Mission in Afghanistan
                                                        Afghanistan Equipment Drawdown: Progress Made, but Improved Controls in Decision Making Could Reduce Risk of Unnecessary
 GAO             GAO-14-191SU           4/4/2014
                                                        Expenditures
 GAO             GAO-14-438R            4/1/2014        Afghanistan: Changes to Updated U.S. Civil-Military Strategic Framework Reflect Evolving U.S. Role
 USAID OIG       F-306-14-002-S         6/19/2014       Review of Sustainability of Operations at Afghanistan’s Tarakhil Power Plant
 USAID OIG       F-306-14-003-P         6/10/2014       Audit of USAID/Afghanistan’s Afghan Civilian Assistance Program
Sources: DOD OIG, response to SIGAR data call, 6/19/2014; State OIG, response to SIGAR data call, 6/23/2014; GAO, response to SIGAR data call, 6/19/2014; USAAA, response to SIGAR data
call 6/17/2014; USAID OIG, response to SIGAR data call, 6/16/2014.




                                                               U.S. Department of Defense Office of Inspector General
                                                               During this quarter, DOD OIG issued one report related to Afghanistan
                                                               reconstruction.

                                                               U.S. Military and Coalition Efforts to Develop Effective
                                                               and Sustainable Healthcare in Support of the Afghan
                                                               National Police
                                                               (Report No. DODIG-2014-072, Issued May 19, 2014)
                                                               DOD OIG found that the Afghan Air Force is developing casualty-evacua-
                                                               tion capabilities utilizing fixed- and rotary-wing aircraft, C-208 and Mi-17s
                                                               respectively. The Afghan Air Force made significant progress in conducting
                                                               casualty evacuation this past year, with an increased number of casualty
                                                               evacuations and improved response times. DOD OIG found examples
                                                               of improved cooperation among Government of the Islamic Republic of
                                                               Afghanistan (GIROA) organizations which have had a positive effect on the
                                                               development of the Afghan National Security Forces (ANSF) health-care
                                                               system and direct medical support to the Afghan National Police (ANP).
                                                                  Despite progress identified, DOD IG found challenges remain. DOD
                                                               IG found that U.S. and Coalition plans and advisory efforts were not
                                                               consistently focused on developing the ANP medical capability to pro-
                                                               vide effective point-of-injury and en route care for combat casualties.
                                                               Additionally, medical advisory resources were not sufficient or, in some
                                                               cases, not skilled and trained to aid in developing ANP medical capability.




                                                                  192                              SPECIAL INSPECTOR GENERAL                    I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




   Further, the ANP did not have sufficient medics or the necessary medi-
cal equipment and supplies to properly care for injured police personnel.
Additional development assistance was needed by the ANP Office of the
Surgeon General to provide effective oversight and management of medical
activities within the Ministry of Interior (MOI). Priority focus on the short-
ages of medical personnel at the ANP hospital was needed to support the
increasing number of ANP casualties and to ensure there were sufficient
pharmacists to provide effective pharmacy operations. Additionally, DOD
OIG found that the ANP medical-logistics system was marginally effec-
tive and required significant improvement to ensure that medical supplies,
including pharmaceuticals, were available as needed for patient care.

U.S. Department of State Office of Inspector General–Middle
East Regions Operations
During this quarter, State OIG did not issue any reports related to
Afghanistan reconstruction.

Government Accountability Office
During this quarter, GAO issued five reports related to Afghanistan
reconstruction.

Afghanistan Transition: Observations on U.S. Forces
Afghanistan’s Efforts to Reduce Contractor Support
(Report No. GAO-14-528C, Issued June 13, 2014)
DOD has spent billions of dollars on contract support in Afghanistan and
continues to employ many contractors to support its troops in Afghanistan.
As DOD begins its drawdown of forces, which is to be completed by
December 2014, it must also begin to draw down contractors. Key ques-
tions addressed in this report include: (1) the extent to which DOD is
applying lessons learned from Iraq as it draws down contractors and its
equipment in Afghanistan; (2) the processes established by DOD and U.S.
Forces-Afghanistan (USFOR-A) to draw down its contractor workforce and
associated equipment; (3) how DOD is considering cost for operational con-
tract support drawdown decisions; and (4) what approach USFOR-A has
taken to plan for the use of contractors post-2014.

Afghanistan: Oversight and Accountability of U.S. Assistance
(Report No. GAO-14-680T, Issued June 10, 2014)
Since 2003, GAO and others have identified numerous challenges related to
U.S. efforts in Afghanistan, including: the dangerous security environment,
the prevalence of corruption, and the limited capacity of the Afghan govern-
ment to deliver services and sustain donor-funded projects. Between fiscal
years 2002 and 2013, U.S. agencies allocated nearly $100 billion toward U.S.
efforts in Afghanistan. To assist Congress in its oversight, GAO has issued




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014               193
OTHER AGENCY OVERSIGHT




over 70 products since 2003 related to U.S. efforts in Afghanistan. This tes-
timony summarizes the key findings from those products and discusses:
(1) the challenges associated with operating in Afghanistan, (2) key over-
sight and accountability issues regarding U.S. efforts in Afghanistan, and
(3) the need for contingency planning as the U.S. transitions to a civilian-led
presence in Afghanistan. While GAO did not make new recommendations,
it has made numerous recommendations in prior reports aimed at improv-
ing U.S. agencies’ oversight and accountability of U.S. funds in Afghanistan.
U.S. agencies have generally concurred with these recommendations and
have taken or plan to take steps to address them.

Afghanistan Transition: U.S. Force Reductions Impact DOD’s
Advising Mission in Afghanistan
(Report No. GAO-14-475C, Issued May 16, 2014)
As part of the U.S. plan to end the combat mission in Afghanistan by
December 2014, DOD is reducing U.S. force levels to 34,000 troops by
February 2014. Beyond 2014, remaining U.S. forces will advise Afghan
forces, conduct counterterrorism activities, and support other U.S. agen-
cies. Key questions addressed in this report include: (1) to what extent has
DOD identified the composition and missions of U.S. forces as it makes
force reductions over the next year; (2) to what extent has DOD identified
the support and security requirements for the remaining U.S. forces that
will be engaged in the advising and additional missions as reductions occur;
and (3) what challenges, if any, does DOD face in providing support and
security for the advising and other missions, and to what extent has it taken
steps to mitigate any challenges?

Afghanistan Equipment Drawdown: Progress Made, but
Improved Controls in Decision Making Could Reduce Risk of
Unnecessary Expenditures
(Report No. GAO-14-191SU, Issued April 4, 2014)
DOD has stated that it will cost at least $5.7 billion to draw down an esti-
mated 90,000 containers of material and 50,000 vehicles from Afghanistan.
Given the large number of bases and difficult conditions in Afghanistan, an
efficient and cost-effective drawdown will likely depend on DOD’s know-
ing how much equipment it has in Afghanistan and making cost-effective
decisions about its disposition. Key questions addressed in this report
include: (1) to what extent has DOD implemented base-closure procedures,
including the accountability of equipment, to meet command-established
objectives and timelines; (2) to what extent are command-established
objectives and timelines for the Afghanistan equipment drawdown sup-
ported by DOD facilities and processes; and (3) to what extent is DOD using
cost and other information to help ensure it is making cost-effective dispo-
sition decisions?




 194                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




Afghanistan: Changes to Updated U.S. Civil-Military Strategic
Framework Reflect Evolving U.S. Role
(Report No. GAO-14-438E, Issued April 1, 2014)
This report compares the August 2013 version of the Framework with the
October 2012 version, summarizing the differences between them. Although
the October 2012 and the August 2013 versions of the U.S. Civil-Military
Strategic Framework for Afghanistan have similarities, the two versions
differ in several aspects. These differences reflect, among other things, the
U.S. government’s heightened emphasis on the transition through the end
of 2014 of security responsibility for Afghanistan to Afghan security institu-
tions and the Afghan National Security Forces, as well as the transition in
U.S. policy toward a more traditional diplomatic and development model.
Both versions of the Framework address four categories of U.S. efforts
in support of U.S. national goals in Afghanistan, with security, the first
category, as the foundation for the other three categories, or “pillars”—gov-
ernance, rule of law, and socioeconomic development. Both versions also
address the same crosscutting issues. Differences between the two versions
include the following:
 •	 In the August 2013 version, the Framework’s function and statement of
    U.S. national goals have been modified to reflect changes in U.S. civilian
    and military efforts during and after the transition. 
 •	 The August 2013 version contains new information about the U.S.-
    Afghan partnership during the transition. 
 •	 The August 2013 version includes new, transition-focused subsections
    for each of the three strategic pillars—governance, rule of law, and
    socioeconomic development—assessing the impact of reduced U.S.
    resources and presence on U.S. objectives and priorities. 
 •	 The August 2013 version provides fewer details about the future U.S.
    government footprint in Afghanistan, reflecting uncertainty affecting the
    U.S. post-2014 strategy. 
 •	 The August 2013 version replaces a section about measuring progress
    with a new section about civil-military cooperation. 
 •	 The August 2013 Framework excludes a list of strategic risks and of
    factors that could mitigate those risks.

U.S. Army Audit Agency
The USAAA did not complete any audits related to Afghanistan reconstruc-
tion this quarter.

U.S. Agency for International Development Office of
Inspector General
During this quarter, USAID OIG completed two reports related to
Afghanistan reconstruction.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014               195
                                                OTHER AGENCY OVERSIGHT




                                                Review of Sustainability Operations at Afghanistan’s Tarakhil
                                                Power Plant
                                                (Report No. F-306-14-002-S, Issued June 19, 2014)
                                                Review Objective:
                                                •	 Was Da Afghanistan Breshna Sherkat (DABS) operating and
                                                   maintaining the power plant in a sustainable manner to protect USAID’s
                                                   investment in the facility?

                                                Audit of USAID/Afghanistan’s Afghan Civilian
                                                Assistance Program
                                                (Report No. F-306-14-003-P, Issued June 10, 2014)
                                                Audit Objective:
                                                •	 Has USAID/Afghanistan assistance to Afghan civilian war victims
                                                   reached its intended beneficiaries and had the intended impact?


                                                ONGOING OVERSIGHT ACTIVITIES
                                                As of June 30, 2014, the participating agencies reported 24 ongoing oversight
                                                activities related to reconstruction in Afghanistan. The activities reported
                                                are listed in Table 4.2 and described in the following sections by agency.

TABLE 4.2


ONGOING OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF JUNE 30, 2014
 Agency     Project Number          Date Initiated Project Title
 DOD OIG    D2014-D000RE-0141.000   4/7/2014        Summary Report on Military Construction Projects in Afghanistan and Iraq
                                                    Assessment of U.S. and Coalition Efforts to Develop the Logistics and Maintenance Sustainment of the
 DOD OIG    D2014-D00SPO-0129.000   3/6/2014
                                                    Afghan National Police
 DOD OIG    D2014-D000AS-0111.000   2/12/2014       Continuation of Audit of Mi-17 Cockpit Modifications Under Task Order W58RGZ-09-D-0130-0102
                                                    Government of Islamic Republic of Afghanistan’s Internal Controls Related to Direct Assistance Funding
 DOD OIG    D2014-D000FS-0088.000   12/24/2013
                                                    Provided by the DOD
                                                    Assessment of U.S. Government Efforts to Transition Security Cooperation and Assistance Activities
 DOD OIG    D2013-D00SPO-0181.000   6/13/2013       Supporting the Government of the Islamic Republic of Afghanistan from Department of Defense Authority
                                                    to Department of State Authority
 DOD OIG    D2013-D000AS-0097.000   2/8/2013        Mi-17 Cockpit Modifications Under Task Order W58RGZ-09-D-0130-0102
                                                    Audit of Department of State Selection, Positioning, Training, and Oversight Responsibilities of Grants
 DOS OIG    14AUD034                2/11/2014
                                                    Officer Representatives
                                                    Audit of the Bureau of Diplomatic Security Worldwide Protective Services Contract Task Order 10 - Kabul
 DOS OIG    14AUD018                1/27/2014
                                                    Embassy Security Force
 DOS OIG    14AUD014                1/17/2014       Audit of Contract Closeout Process for Contracts in Afghanistan
                                                    Audit of Bureau of International Narcotics and Law Enforcement Affairs Counternarcotics Assistance to
 DOS OIG    13AUD082                6/20/2013
                                                    Afghanistan
                                                    Audit of Bureau of Diplomatic Security Worldwide Protective Services Contract Task Orders 2, 9, and 11 for
 DOS OIG    13AUD52                 2/15/2013
                                                    Movement and Static Security Services in Jerusalem and Afghanistan
 GAO        321031                  7/24/2014       Securing Soft Targets Overseas
                                                                                                                                           Continued on next page




                                                  196                         SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                        OTHER AGENCY OVERSIGHT




TABLE 4.2 (CONTINUED)


ONGOING OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF JUNE 30, 2014
 Agency         Project Number                    Date Initiated Project Title
 GAO            351951                            6/17/2014         Assessment of Army and Marines’ Extended Equipment Reset Liability Costs and Requirements
 GAO            351917                            4/11/2014         Systems Used to Track Contractors in Contingency Operations
 GAO            100012                            3/10/2014         American Contractor Preference
 GAO            100003                            2/4/2014          Mitigating Threats to Locally Employed Staff
 GAO            320997                            10/22/2013        U.S. Civilian Presence in Afghanistan
 GAO            320990                            7/24/2013         Construction Efforts at the U.S. Embassy in Kabul
 GAO            320985                            6/26/2013         Use of Foreign Labor Contractors Abroad
 GAO            320978                            5/29/2013         State Department’s Management of Grants and Cooperative Agreements
 GAO            351819                            5/9/2013          Costs of DOD’s Transition to the Afghan Public Protection Force
 GAO            351805                            3/1/2013          DOD Container Management
 USAID OIG      FF100414                          3/10/2014         Review of USAID/Afghanistan’s Financial Management Controls for Government to Government Assistance
 USAID OIG      FF101712                          10/25/2011        Follow-up on a DOD Audit of CERP Funds Provided to USAID/Afghanistan
Sources: DOD OIG, response to SIGAR data call, 6/19/2014; State OIG, response to SIGAR data call, 6/23/2014; GAO, response to SIGAR data call, 6/19/2014; USAAA, response to SIGAR data
call 6/17/2014; USAID OIG, response to SIGAR data call, 6/16/2014.




Department of Defense Office of Inspector General
The Department of Defense continues to face many challenges in execut-
ing its Overseas Contingency Operations (OCO). DOD OIG has identified
priorities based on those challenges and high-risks. In fiscal year (FY) 2014,
DOD OIG oversight focuses on overseas contingency operations with a
majority of the agency’s resources supporting operations in Afghanistan.
The DOD OIG focus in Afghanistan primarily continued in the areas of the
management and execution of the Afghanistan Security Forces Fund, mili-
tary construction, safety of personnel, and the administration and oversight
of contracts supporting Coalition forces. In addition, DOD OIG oversight in
Afghanistan includes focus on matters pertaining to the drawdown of forces
in Afghanistan and transition of operations.
   A top priority continues to be the monitoring and oversight of acquisition
and contracting processes focused on training, equipping, and sustain-
ing Afghanistan National Security Forces (ANSF). The DOD OIG planned
oversight efforts address the administration and oversight of contracts for
equipping ANSF, such as rotary-wing aircraft. DOD OIG will also continue
to review and assess the Department’s efforts to train and equip the ANSF.
   The DOD OIG-led Southwest Asia Joint Planning Group assists in the
coordination and deconfliction of federal and DOD overseas contingency
operations-related oversight activities. DOD OIG continues to execute its
portion of the FY 2014 Comprehensive Oversight Plan for Southwest Asia.
   DOD OIG’s ongoing Operation Enduring Freedom (OEF)-related oversight
addresses accountability of property; improper payments; contract adminis-
tration and management including construction projects; transition planning;




REPORT TO THE UNITED STATES CONGRESS                     I   JULY 30, 2014                                   197
OTHER AGENCY OVERSIGHT




logistical distribution within Afghanistan; retrograde operations, health care;
and acquisition planning and controls over funding for the ANSF.

Summary Report on Military Construction Projects in
Afghanistan and Iraq
(Project No. D000RE-041.000, Initiated April 7, 2014)
DOD OIG is summarizing systematic problems specific to military con-
struction projects in Afghanistan and Iraq identified in audit reports issued
by the DOD Office of Inspector General, Army Audit Agency, and Air Force
Audit Agency.

Assessment of U.S. and Coalition Efforts to Develop the
Logistics and Maintenance Sustainment of the Afghan
National Police
(Project No. D2014-D00SPO-0129.000, Initiated March 6, 2014)
DOD OIG is assessing the planning and execution of ANP logistics, sup-
ply, and maintenance systems developed and implemented by U.S. and
Coalition forces in Afghanistan. Specifically, DOD OIG plans to evaluate:
•	 whether U.S. and Coalition goals, objectives, plans, guidance, and
   resources are sufficient to effectively develop, manage, and transition
   logistics, supply, and maintenance systems to the ANP in 2014
•	 U.S. and Coalition plans to transition ANP logistics and maintenance
   processes to Afghan lead and to mitigate the impact of delays in supply
   transition
•	 whether U.S. and Coalition plans and resources will effectively support
   ANP logistics, supply, and maintenance systems sustainment and
   continued development beyond 2014

Continuation of Audit of Mi-17 Cockpit Modifications Under
Task Order W58RGZ-09-D-0130-0102
(Project No. D2014-D000AS-0111.000, Initiated February 12, 2014)
This is a continuation of Project No. D2013-D000AS-0097.000, “Follow-on
Audit of Mi-17 Cockpit Modifications Under Task Order W58RGZ-
09-D-0130-0102,” which began in February 2013. The DOD OIG is
determining whether DOD officials properly awarded and administered
indefinite-delivery, indefinite-quantity contract W58RGZ-09-D-0130, Task
Order 0102, in accordance with federal and DOD regulations and policies.
The contract was for the modification of DOD-owned Mi-17 variant aircraft.
The prior project (D2013-D000AS-0097.000) primarily addressed the con-
tract administration of Mi-17 cockpit modifications under Task Order 0102.
This project will primarily address the award of Task Order 0102.




  198                  SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




Government of Islamic Republic of Afghanistan’s Internal
Controls Related to Direct Assistance Funding Provided by
the DOD
(Project No. D2014-D000FS-0088.000, Initiated December 24, 2013)
The DOD OIG is determining whether the GIROA’s Ministries of Defense
and Interior have controls in place to ensure a transparent and account-
able fiscal process for the direct funding provided for the sustainment of
the Afghan National Security Forces. The Combined Security Transition
Command-Afghanistan (CSTC-A) requested this audit.

Assessment of U.S. Government Efforts to Transition
Security Cooperation and Assistance Activities Supporting
the Government of the Islamic Republic of Afghanistan
from Department of Defense Authority to Department of
State Authority
(Project No. 2013-D00SPO-0181.000, Initiated June 13, 2013)
DOD OIG is assessing plans and activities that have been accomplished or
implemented thus far to transfer the security cooperation and assistance
activities in Afghanistan from DOD to State Department authority, and
to make recommendations to facilitate or improve the transition of these
functions to the State Department in accordance with existing security-
cooperation guidance and security-assistance regulations that may pertain.
Specific objectives are to determine whether:
 •	 U.S. government goals, objectives, plans, and guidance are sufficient,
    issued and operative for the transition of CSTC-A security assistance
    activities in Afghanistan from DOD authority to a security cooperation
    organization under Department of State authority
 •	 ongoing efforts by U.S. forces to provide security assistance to GIROA
    are adversely impacted by the implementation of drawdown plans for
    U.S. Forces-Afghanistan (USFOR-A) and the transition of International
    Security Assistance Force (ISAF) and ISAF Joint Command (IJC) to a
    command organization under NATO authority

Mi-17 Cockpit Modifications under Task Order
W58RGZ-09D-0130-0102
(Project No. D2013-D000AS-0097.000, Initiated February 8, 2013)
DOD OIG is conducting a follow-on audit to the Audit of Task Orders
for Mi-17 Overhauls and Cockpit Modifications (Project No. D2012-
D000AS-0075.000). In this follow-on audit, DOD OIG is determining
whether DOD officials properly awarded and administered indefinite-
delivery, indefinite-quantity contract W58RGZ-09-D-0130, Task Order 0102,
for the modification of DOD-owned Mi-17 variant aircraft in accordance
with federal and DOD regulations and policies. Under the prior project,
DOD OIG reviewed the procurement of overhaul services and parts for




REPORT TO THE UNITED STATES CONGRESS    I   JULY 30, 2014              199
OTHER AGENCY OVERSIGHT




Pakistan-owned Mi-17 variant aircraft, awarded by modification to Task
Order 0102.

Department of State Office of Inspector General–Middle
East Regions Operations
State OIG has five ongoing projects this quarter related to Afghanistan
reconstruction.

Audit of Department of State Selection, Positioning,
Training, and Oversight Responsibilities of Grants Officer
Representatives
(Project No. 14AUD034, Initiated February 11, 2014)
Objective: To determine the extent to which the Department’s grant officer
representatives (GORs) are selected, positioned, and trained to successfully
perform their assigned grants-administration and oversight responsibilities.

Audit of the Bureau of Diplomatic Security Worldwide
Protective Services Contract Task Order 10 - Kabul Embassy
Security Force
(Project No. 14AUD018, Initiated January 27, 2014)
Objective: Determine whether the Department of State’s administration and
oversight of the Worldwide Protective Services (WPS) task order for the
Kabul Embassy Security Force has been effective.

Audit of Contract Closeout Process for Contracts in Afghanistan
(Project No. 14AUD014, Initiated January 17, 2014)
Objective: To determine whether the Department of State was following
prescribed procedures when closing out local and regional contracts in
Afghanistan.

Audit of Bureau of International Narcotics and Law Enforcement
Affairs Counternarcotics Assistance to Afghanistan
(Project No. 13AUD082, Initiated June 20, 2013)
The audit objective is to evaluate the management and oversight of the
Bureau of International Narcotics and Law Enforcement Affairs (INL)
counternarcotics program for Afghanistan, including whether INL has
achieved intended and sustainable outcomes and whether INL has applied
adequate internal controls over the administration of direct assistance for
the Afghanistan counternarcotics program.




  200                 SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                 OTHER AGENCY OVERSIGHT




Audit of Bureau of Diplomatic Security Worldwide Protective
Services Contract Task Orders 2, 9, and 11 for Movement and
Static Security Services in Jerusalem and Afghanistan
(Project No. 13AUD52, Initiated February 15, 2013)
The overall audit objective is to determine the effectiveness of the
Department’s management and oversight of the WPS Contract Task Orders
2, 9, and 11. Specifically, the audit team will determine whether the contrac-
tor is performing in accordance with contract terms and conditions, the
contractor’s work is adequately monitored, and invoice-review and approval
procedures are in place to ensure accuracy and completeness of costs.

Government Accountability Office
GAO has 11 ongoing projects this quarter related to Afghanistan
reconstruction.

Securing Soft Targets Overseas
(Project No. 321031, Initiated July 24, 2014)
U.S. personnel posted in diplomatic facilities overseas continue to face
threats to their safety and security, including numerous attacks in high-risk
locations in recent years. In particular, residences, recreational facilities,
and schools used by these personnel and their families may be attractive
“soft targets.” (1) How does State manage threats and risks to residences
and other soft targets under chief-of-mission authority overseas? (2) To
what extent do State’s security standards for residences and other soft
targets address the threats and risks faced by such facilities? (3) To what
extent do State’s policies and procedures address security vulnerabilities, if
any, at residences and other soft targets? 

Assessment of Army and Marine’s Extended Equipment Reset
Liability Costs and Requirements
(Project No. 351951, Initiated June 17, 2014)
As equipment is returned from Afghanistan, the U.S. Army and Marine
Corps are facing a multiyear and multibillion dollar effort to return this
equipment to combat-ready condition, known as “reset.” Congressional
defense committees are concerned about how much this will cost—the
reset liability—and asked GAO to investigate and report. Objectives: (1) The
extent to which the Army and Marine Corps are using a consistent defini-
tion of reset in estimating their reset liabilities. (2) The types and costs
included in the Army and Marine Corps reset liability estimates. (3) An
analysis of any assumptions used in developing the Army and Marine Corps
estimates, to include the planned sources of funding. (4) Any other issues
GAO determines appropriate.




REPORT TO THE UNITED STATES CONGRESS      I   JULY 30, 2014             201
OTHER AGENCY OVERSIGHT




Systems Used to Track Contractors in Contingency Operations
(Project No. 351917, Initiated April 11, 2014)
In fiscal year 2013, Congress mandated DOD, State Department, and U.S.
Agency for International Development to issue guidance about data col-
lection on contract support for future contingencies involving combat
operations outside of the U.S. Key questions: (1) What systems, if any, do
the agencies use to manage contractors and the resources needed to sustain
each system; (2) To what extent are systems interoperable, use compatible
data standards, and meet legislative requirements; (3) To what extent do
the systems provide personnel in contingency areas the necessary data to
manage contractors; (4) What steps, if any, are the agencies taking to ensure
that these systems maximize their ability to manage contractors?

American Contractor Preference
(Project No. 100012, Initiated March 10, 2014)
In fiscal year 2014, Congress directed GAO to assess the potential benefits
or problems of expanding an existing statutory preference for American
contractors for certain overseas U.S. military construction projects to
the U.S. Central Command area of responsibility. Key questions: (1) What
benefits or problems did DOD encounter or overcome in establishing a
preference for American contractors in military construction projects in
locations where the department implemented such a preference? (2) What
are the potential benefits of expanding the geographical area to countries in
the U.S. Central Command area of responsibility for American contractor
preference in military constructions programs? (3) What are the poten-
tial problems of expanding the geographical area to countries in the U.S.
Central Command area of responsibility for American contractor prefer-
ence in military constructions programs?

Mitigating Threats to Locally Employed Staff
(Project No. 100003, Initiated February 4, 2014)
U.S. agencies employ more than 44,000 locally employed staff (LES)—
Foreign Service nationals and U.S. citizens—at over 270 posts worldwide.
LES are a key element of the U.S. presence at these posts, often perform-
ing a range of programmatic, security, monitoring, maintenance, and other
duties. However, due to their association with the United States, LES can be
subject to harassment, intimidation, and death threats. Threats to LES are
particularly acute at posts in countries with active terrorist networks and
violent extremist groups, such as Afghanistan, Iraq, Pakistan, and Yemen.
Such threats can potentially hamper U.S. efforts to recruit and retain LES.
GAO was asked to review U.S. government efforts to monitor, share infor-
mation about, and mitigate threats to LES serving at high-threat posts.
Key questions: (1) What is the nature and extent of the threat that terrorist
networks and other violent extremist groups pose to LES, including the




  202                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                 OTHER AGENCY OVERSIGHT




number of threats and attacks? (2) To what extent have U.S. agencies estab-
lished mechanisms to collect and disseminate information about threats
to LES in an effective and timely manner? (3) What steps, if any, have U.S.
agencies taken to mitigate threats to LES at high-threat posts and what bar-
riers, if any, exist to mitigating such threats? (4) How have these threats and
attacks affected the recruitment and retention of LES at high-threat posts?

U.S. Civilian Presence in Afghanistan
(Project No. 320997, Initiated October 22, 2013)
U.S. civilian agencies in Afghanistan are in the process of planning for the
transition by the end of 2014 from a predominantly military presence in
Afghanistan to a civilian presence led by the Department of State. GAO
will review: (1) How U.S. civilian agencies have planned for the transition,
including post-transition programs and the staffing, security, and logistics
needed to support them; (2) the estimated costs to maintain a civilian pres-
ence in Afghanistan after the transition; and (3) the factors that could affect
these plans and any associated cost estimates.

Construction Efforts at the U.S. Embassy in Kabul
(Project No. 320990, Initiated July 24, 2013)
Since 2009 the State Department has awarded two contracts totaling about
$700 million to construct additional housing and office facilities at the U.S.
Embassy in Kabul, Afghanistan. State has since terminated the first contract
and expanded the scope, value, and timing of the second. Key questions:
(1) What progress has State made in constructing new U.S. embassy facili-
ties in Kabul since 2009, and what factors have contributed to any scope,
cost, or schedule changes? (2) To what extent does the present expansion
match projected needs? 

Use of Foreign Labor Contractors Abroad
(Project No. 320985, Initiated June 26, 2013)
The United States relies on contractors to provide diverse services over-
seas. Despite prohibiting the use of trafficked labor for all U.S. government
contracts, concerns remain about the protections afforded to foreign work-
ers recruited by U.S. contractors because prevailing practices in some host
countries diverge from U.S. standards. Key questions: (1) What are the
practices of U.S. government contractors in recruiting foreign workers for
work outside the United States? (2) What legal and other authorities do U.S.
agencies identify as providing protection to foreign workers employed by
U.S. government contractors outside the United States? (3) To what extent
do federal agencies provide oversight and enforcement of such authorities?




REPORT TO THE UNITED STATES CONGRESS      I   JULY 30, 2014             203
OTHER AGENCY OVERSIGHT




State Department’s Management of Grants and
Cooperative Agreements
(Project No. 320978, Initiated May 29, 2013)
Grants and cooperative agreements are key tools the Department of State
uses to advance foreign policy. In FY12, State awarded approximately
$1.6 billion worldwide in grants and cooperative agreements to nongov-
ernmental organizations and other implementing partners. Key questions:
(1) What policies and procedures does State have in place to administer and
oversee grant and cooperative agreement awards; and (2) To what extent
do State’s internal controls provide reasonable assurance that these funds
are being used as intended in select countries? 

Costs of DOD’s Transition to the Afghan Public Protection Force
(Project No. 351819, Initiated May 9, 2013)
The Afghan Public Protection Force (APPF) began assuming security
responsibilities in March 2012. Private security contractors (PSCs), used
to secure military bases, were to have been replaced by either the APPF
or military personnel by March 2013. Key questions: To what extent has:
(1) DOD implemented the transition of security services from private secu-
rity contractors to the APPF; (2) DOD developed cost estimates related to
the transition to the APPF and what actions are being taken to minimize
these costs; and (3) DOD assessed the current and potential security risks
to U.S. personnel and logistics as a result of the transition to the APPF and
taken measures to minimize these risks?

DOD Container Management
(Project No. 351805, Initiated March 1, 2013)
Shipping-container management has been a longstanding challenge for
DOD. GAO estimates that DOD will pay over $1 billion in detention fees
from 2003 through 2013 for using commercial shipping containers beyond
the time frame allotted in its contract with commercial shippers during
operations in Iraq and Afghanistan. Key questions: (1) To what extent has
DOD implemented corrective actions to address container management
challenges affecting shipping containers used in the Afghan theater? (2) To
what extent has DOD assessed the effect of its corrective actions on the
accumulation of detention fees?

U.S. Army Audit Agency
This quarter, the USAAA has no ongoing audits related to reconstruction
initiatives.




  204                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                 OTHER AGENCY OVERSIGHT




U.S. Agency for International Development Office of
Inspector General
This quarter, USAID OIG has two ongoing audits related to reconstruction
initiatives.

Review of USAID/Afghanistan’s Financial Management
Controls for Government to Government Assistance
(Project No. FF100414, Initiated March 10, 2014)
Review Objective:
•	 Are financial management controls associated with USAID/
   Afghanistan’s government-to-government assistance designed and
   operating effectively?

Follow-up on a DOD Audit of CERP Funds Provided to
USAID/Afghanistan
(Project No. FF101712, Initiated October 25, 2011)
Objective:
•	 To determine whether the CERP funds provided by DOD to USAID/
   Afghanistan were used for intended purposes, and in compliance with
   applicable laws and regulations.




REPORT TO THE UNITED STATES CONGRESS    I   JULY 30, 2014          205
                                     APPENDICES AND ENDNOTES CONTENTS

                                     Appendix A 	                                                  208
                                     Appendix B 	                                                  212
                                     Appendix C	                                                   214
                                     Appendix D	                                                   220
                                     Appendix E	                                                   227
                                     Endnotes	234




                                                                               The Official Seal of SIGAR
                                        The Official Seal of SIGAR represents the coordination of efforts
   between the United States and Afghanistan to provide accountability and oversight of reconstruction
activities. The phrase along the top side of the seal’s center is in Dari and means “SIGAR.” The phrase
                     along the bottom side of the seal’s center is in Pashtu and has the same meaning.




                                        206                  SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
APPENDICES
AND ENDNOTES




       207
                                   APPENDICES




                                   APPENDIX A
                                   CROSS-REFERENCE OF REPORT TO
                                   STATUTORY REQUIREMENTS
                                   This appendix cross-references the pages of this report to the quarterly
                                   reporting and related requirements under SIGAR’s enabling legislation, the
                                   National Defense Authorization Act for Fiscal Year 2008, Pub. L. 110-181,
                                   § 1229 (Table A.1).

                                   TABLE A.1

CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER PUB. L. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                                                SIGAR Action                       Report Section
Purpose
Section 1229(a)(3)      To provide for an independent and objective means of keeping           Ongoing; quarterly report          Full report
                        the Secretary of State and the Secretary of Defense fully and
                        currently informed about problems and deficiencies relating to the
                        administration of such programs and operations and the necessity
                        for and progress on corrective action.
Supervision
Section 1229(e)(1)      The Inspector General shall report directly                            Report to the Secretary of State   Full report
                        to, and be under the general supervision                               and the Secretary of Defense
                        of, the Secretary of State and the Secretary of Defense
Duties
Section 1229(f)(1)      OVERSIGHT OF AFGHANISTAN RECONSTRUCTION —                              Review appropriated/               Full report
                        It shall be the duty of the Inspector General to conduct, supervise,   available funds
                        and coordinate audits and investigations of the treatment,
                        handling, and expenditure of amounts appropriated or otherwise         Review programs, operations,
                        made available for the reconstruction of Afghanistan, and of the       contracts using appropriated/
                        programs, operations, and contracts carried out utilizing such         available funds
                        funds, including subsections (A) through (G) below.
Section 1229(f)(1)(A)   The oversight and accounting of the obligation and expenditure of      Review obligations and             SIGAR Oversight
                        such funds                                                             expenditures of appropriated/      Funding
                                                                                               available funds
Section 1229(f)(1)(B)   The monitoring and review of reconstruction activities funded by       Review reconstruction activities   SIGAR Oversight
                        such funds                                                             funded by appropriations and
                                                                                               donations
Section 1229(f)(1)(C)   The monitoring and review of contracts funded by such funds            Review contracts using             Note 1
                                                                                               appropriated and available
                                                                                               funds
Section 1229(f)(1)(D)   The monitoring and review of the transfer of such funds and            Review internal and external       Appendix B
                        associated information between and among departments,                  transfers of appropriated/
                        agencies, and entities of the United States, and private and           available funds
                        nongovernmental entities
Section 1229(f)(1)(E)   The maintenance of records on the use of such funds to facilitate      Maintain audit records             SIGAR Oversight
                        future audits and investigations of the use of such fund[s]                                               Appendix C
                                                                                                                                  Appendix D
Section 1229(f)(1)(F)   The monitoring and review of the effectiveness of United States        Monitoring and review              Audits
                        coordination with the Governments of Afghanistan and other donor       as described
                        countries in the implementation of the Afghanistan Compact and
                        the Afghanistan National Development Strategy



                                      208                          SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
                                                                    APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER PUB. L. 110-181, § 1229
Public Law Section              SIGAR Enabling Language                                                 SIGAR Action                       Report Section
Section 1229(f)(1)(G)           The investigation of overpayments such as duplicate payments            Conduct and reporting of           Investigations
                                or duplicate billing and any potential unethical or illegal actions     investigations as described
                                of Federal employees, contractors, or affiliated entities, and the
                                referral of such reports, as necessary, to the Department of Justice
                                to ensure further investigations, prosecutions, recovery of further
                                funds, or other remedies.
Section 1229(f)(2)              OTHER DUTIES RELATED TO OVERSIGHT —                                     Establish, maintain, and           Full report
                                The Inspector General shall establish, maintain, and oversee            oversee systems, procedures,
                                such systems, procedures, and controls as the Inspector General         and controls
                                considers appropriate to discharge the duties under paragraph (1)
Section 1229(f)(3)              DUTIES AND RESPONSIBILITIES UNDER INSPECTOR GENERAL ACT                 Duties as specified in Inspector   Full report
                                OF 1978 —                                                               General Act
                                In addition,. . .the Inspector General shall also have the duties and
                                responsibilities of inspectors general under the Inspector General
                                Act of 1978
Section 1229(f)(4)              COORDINATION OF EFFORTS —                                               Coordination with the              Other Agency
                                The Inspector General shall coordinate with, and receive the            inspectors general of              Oversight
                                cooperation of, each of the following: (A) the Inspector General        DoD, DoS, and USAID
                                of the Department of Defense, (B) the Inspector General of the
                                Department of State, and (C) the Inspector General of the United
                                States Agency for International Development
Federal Support and Other Resources
Section 1229(h)(5)(A)           ASSISTANCE FROM FEDERAL AGENCIES —                                      Expect support as                  Full report
                                Upon request of the Inspector General for information or                requested
                                assistance from any department, agency, or other entity of the
                                Federal Government, the head of such entity shall, insofar as is
                                practicable and not in contravention of any existing law, furnish
                                such information or assistance to the Inspector General, or an
                                authorized designee
Section 1229(h)(5)(B)           REPORTING OF REFUSED ASSISTANCE —                                       None reported                      N/A
                                Whenever information or assistance requested by the Inspector
                                General is, in the judgment of the Inspector General, unreasonably
                                refused or not provided, the Inspector General shall report the
                                circumstances to the Secretary of State or the Secretary of
                                Defense, as appropriate, and to the appropriate congressional
                                committees without delay.
Reports
Section 1229(i)(1)              QUARTERLY REPORTS —                                                     Report – 30 days after the         Full report
                                Not later than 30 days after the end of each fiscal-year quarter,       end of each calendar quarter       Appendix B
                                the Inspector General shall submit to the appropriate commit-
                                tees of Congress a report summarizing, for the period of that           Summarize activities of the
                                quarter and, to the extent possible, the period from the end of         Inspector General
                                such quarter to the time of the submission of the report, the
                                activities during such period of the Inspector General and the          Detailed statement of all
                                activities under programs and operations funded with amounts            obligations, expenditures, and
                                appropriated or otherwise made available for the reconstruction of      revenues
                                Afghanistan. Each report shall include, for the period covered by
                                such report, a detailed statement of all obligations, expenditures,
                                and revenues associated with reconstruction and rehabilitation
                                activities in Afghanistan, including the following –




REPORT TO THE UNITED STATES CONGRESS              I   JULY 30, 2014                                    209
                                    APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER PUB. L. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                                                  SIGAR Action                    Report Section
Section 1229(i)(1)(A)   Obligations and expenditures of appropriated/donated funds               Obligations and expenditures    Appendix B
                                                                                                 of appropriated/donated
                                                                                                 funds
Section 1229(i)(1)(B)   A project-by-project and program-by-program accounting of the            Project-by-project and          Funding
                        costs incurred to date for the reconstruction of Afghanistan,            program-by-program account-     Note 1
                        together with the estimate of the Department of Defense,                 ing of costs. List unexpended
                        the Department of State, and the United States Agency for                funds for each project or
                        International Development, as applicable, of the costs to com-           program
                        plete each project and each program
Section 1229(i)(1)(C)   Revenues attributable to or consisting of funds provided by              Revenues, obligations, and      Funding
                        foreign nations or international organizations to programs and           expenditures of donor funds
                        projects funded by any department or agency of the United States
                        Government, and any obligations or expenditures of
                        such revenues
Section 1229(i)(1)(D)   Revenues attributable to or consisting of foreign assets seized or       Revenues, obligations, and      Funding
                        frozen that contribute to programs and projects funded by any            expenditures of funds from
                        U.S. government department or agency, and any obligations or             seized or frozen assets
                        expenditures of such revenues
Section 1229(i)(1)(E)   Operating expenses of agencies or entities receiving amounts             Operating expenses of           Funding
                        appropriated or otherwise made available for the reconstruction          agencies or any organization    Appendix B
                        of Afghanistan                                                           receiving appropriated funds
Section 1229(i)(1)(F)   In the case of any contract, grant, agreement, or other funding          Describe contract details       Note 1
                        mechanism described in paragraph (2)* —
                        (i) The amount of the contract or other funding mechanism;
                        (ii) A brief discussion of the scope of the contract or other funding
                        mechanism;
                        (iii) A discussion of how the department or agency of the United
                        States Government involved in the contract, grant, agreement,
                        or other funding mechanism identified and solicited offers from
                        potential contractors to perform the contract, grant, agreement, or
                        other funding mechanism, together with a list of the potential indi-
                        viduals or entities that were issued solicitations for the offers; and
                        (iv) The justification and approval documents on which was based
                        the determination to use procedures other than procedures that
                        provide for full and open competition
Section 1229(i)(3)      PUBLIC AVAILABILITY —                                                    Publish report as directed at   Full report
                        The Inspector General shall publish on a publicly available              www.sigar.mil
                        Internet website each report under paragraph (1) of this subsec-
                                                                                                 Dari and Pashtu translation
                        tion in English and other languages that the Inspector General
                                                                                                 in process
                        determines are widely used and understood in Afghanistan
Section 1229(i)(4)      FORM —                                                                   Publish report as directed      Full report
                        Each report required under this subsection shall be submitted
                        in unclassified form, but may include a classified annex if the
                        Inspector General considers it necessary




                                       210                          SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                                             APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER PUB. L. 110-181, § 1229
Public Law Section                     SIGAR Enabling Language                                                     SIGAR Action                          Report Section
Section 1229(j)(1)                     Inspector General shall also submit each report required under              Submit quarterly report               Full report
                                       subsection (i) to the Secretary of State and the Secretary of
                                       Defense.
Note 1: Although this data is normally made available on SIGAR’s website (www.sigar.mil), the data SIGAR has received is in relatively raw form and is currently being
reviewed, analyzed, and organized for all future SIGAR purposes.

* Covered “contracts, grants, agreements, and funding mechanisms” are defined in paragraph (2) of Section 1229(i) of Pub. L. No. 110-181 as being—

“any major contract, grant, agreement, or other funding mechanism that is entered into by any department or agency of the United States Government that involves the use
of amounts appropriated or otherwise made available for the reconstruction of Afghanistan with any public or private sector entity for any of the following purposes:
To build or rebuild physical infrastructure of Afghanistan.
To establish or reestablish a political or societal institution of Afghanistan.
To provide products or services to the people of Afghanistan.”




REPORT TO THE UNITED STATES CONGRESS                      I   JULY 30, 2014                                    211
                                                                 APPENDICES



                                                                 APPENDIX B
                                                                 U.S. FUNDS FOR AFGHANISTAN RECONSTRUCTION ($ MILLIONS)
                                                                 Table B.1 lists funds appropriated for Afghanistan reconstruction by program,
                                                                 per year, as of June 30, 2014. Table B.2 lists fund appropriated for counternarcotics
                                                                 initiatives since 2002.
TABLE B.2                                                        TABLE B.1


  COUNTERNARCOTICS, CUMULATIVE                                    U.S. FUNDING SOURCES                                           AGENCY              TOTAL    FY 2002
  AMOUNT APPROPRIATED,                                            SECURITY
  SINCE 2002 ($ MILLIONS)
                                                                   Afghanistan Security Forces Fund (ASFF)                       DOD            57,325.44        0.00
 ASFF                                     $1,312                   Train & Equip (DOD)                                           DOD               440.00        0.00
 DOD CN                                    2,930                   Foreign Military Financing (FMF)                              State           1,059.14       57.26
 ESF                                       1,415                   International Military Education and Training (IMET)          State              14.82        0.18
 INCLE                                     1,764                   Drug Interdiction & Counter-Drug Activities (DOD CN)          DOD             2,930.44        0.00
                                                                  Total - Security                                                             61,769.85       57.44
 DEA                                          201
                                                                  GOVERNANCE & DEVELOPMENT
 Total                                  $7,623                     Commander's Emergency Response Program (CERP)                 DOD             3,669.00        0.00
Table B.2 Notes: Numbers have been rounded.                        Afghanistan Infrastructure Fund (AIF)                         DOD             1,223.00        0.00
Counternarcotics funds cross-cut both the Security and
Governance & Development spending categories; these funds
                                                                   Task Force for Business and Stability Operations (TFBSO)      DOD               809.53        0.00
are also captured in those categories in Table B.1. Figures        Economic Support Fund (ESF)                                   USAID          17,533.05      117.72
represent cumulative amounts appropriated for counternarcot-
ics initiatives in Afghanistan since 2002. Intitatives include     Development Assistance (DA)                                   USAID             885.55       18.30
eradication, interdiction, support to Afghanistan’s Special        Afghanistan Freedom Support Act (AFSA)                        DOD               550.00        0.00
Mission Wing, counternarcotics-related capacity building, and
alternative agricultural development efforts. ASFF, ESF, and       Child Survival & Health (CSH + GHAI)                          USAID             554.57        7.52
INCLE figures show the cumulative amounts appropriated for         Commodity Credit Corp (CCC)                                   USAID              31.65        7.48
counternarcotics intiatives from those funds.
                                                                   USAID (Other)                                                 USAID              54.13        0.00
Table B.2 Sources: SIGAR analysis of counternarcotics fund-        Non-Proliferation, Antiterrorism, Demining & Related (NADR)   State             649.49       44.00
ing. State, INL, response to SIGAR data call, 7/16/2014;
DOD, response to SIGAR data call, 7/3/2014; USAID,                 Provincial Reconstruction Team Advisors                       USDA                5.70        0.00
response to SIGAR data call, 7/10/2014; DOD, “Justification
for FY 2014 Overseas Contingency Operations Afghanitan
                                                                   Treasury Technical Assistance                                 Treasury            4.45        0.90
Security Forces Fund (ASFF),” 5/2013, pp. 11-12, 20, 37,           International Narcotics Control & Law Enforcement (INCLE)     State           4,414.48       60.00
86-87.
                                                                   Drug Enforcement Administration (DEA)                         DOJ               200.97        0.58
Table B.1 Notes: Numbers have been rounded. Updated data
for State and USAID Civilian Operations accounts resulted
                                                                  Total - Governance & Development                                             30,585.58      256.50
in a higher appropriation figure for FY 2014 than reported        HUMANITARIAN
last quarter. DOD reprogrammed $1 billion from FY 2011
ASFF. DOD reprogrammed $1 billion from FY 2012 ASFF. P.L.          P.L. 480 Title I                                              USDA                 5.00       0.00
113-6 rescinded $1 billion from FY 2012 ASFF. DOD repro-           P.L. 480 Title II                                             USAID              949.89     159.50
grammed $178 million from FY 2013 ASFF. DOD transferred
$101 million from FY 2011 AIF to FY 2011 ESF to fund an            Disaster Assistance (IDA)                                     USAID              545.15     197.09
infrastructure project to be implemented by USAID. Drug
Enforcement Administration (DEA) funding amounts provided
                                                                   Transition Initiatives (TI)                                   USAID               37.74       8.07
by the Congressional Research Service. The DEA receives            Migration & Refugee Assistance (MRA)                          State              925.22     135.47
funding through direct appropriations to fund salaries and
expenses in Afghanistan.                                           Voluntary Peacekeeping (PKO)                                  State               69.33      23.93
                                                                   Emergency Refugee & Migration Assistance (ERMA)               State               25.20      25.00
Table B.1 Sources: DOD, responses to SIGAR data
call, 7/18/2014, 7/17/2014, 7/8/2014, 7/3/2014,                    Food for Progress                                             USDA               109.49       0.00
10/22/2012, 10/14/2009, and 10/1/2009; State,                      416(b) Food Aid                                               USDA                95.18      46.46
responses to SIGAR data call, 7/16/2014, 7/3/2014,
4/15/2014, 6/27/2013, 10/5/2012 and 6/27/2012;                     Food for Education                                            USDA                50.49       0.00
Treasury, response to SIGAR data call, 7/10/2014; OMB,             Emerson Trust                                                 USDA                22.40       0.00
responses to SIGAR data call, 7/14/2014, 7/19/2013
and 1/4/2013; USAID, responses to SIGAR data call,                Total - Humanitarian                                                           2,835.09     595.52
7/10/2014, 10/15/2010, 1/15/2010, and 10/9/2009;
DOJ, response to SIGAR data call, 7/7/2009; USDA,                 CIVILIAN OPERATIONS
response to SIGAR data call, 4/2009; CRS, response to              Oversight                                                                        293.95       0.00
SIGAR data call, 1/8/2014; DFAS, response to SIGAR
data call, 7/17/2014; P.L. 113-76, 1/17/2014; P.L. 113-            Operations                                                                     8,620.35     155.60
6, 3/26/2013; P.L. 112-74, 12/23/2011; P.L. 112-10,
4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118,
                                                                  Total - Civilian Operations                                                    8,914.30     155.60
12/19/2009; FY 2010 Defense Explanatory Statement;                Total - Funding                                                             104,104.82     1,065.06
DEA, response to SIGAR vetting, 7/22/2014.




                                                                   212                        SPECIAL INSPECTOR GENERAL            I     AFGHANISTAN RECONSTRUCTION
                                                        APPENDICES




   FY 2003   FY 2004   FY 2005   FY 2006      FY 2007      FY 2008    FY 2009   FY 2010     FY 2011    FY 2012   FY 2013     FY 2014


      0.00      0.00   995.00 1,908.13 7,406.40 2,750.00              5,606.94 9,166.77 10,619.28      9,200.00 4,946.20    4,726.72
      0.00    150.00   290.00     0.00     0.00     0.00                  0.00     0.00      0.00          0.00     0.00        0.00
    191.00    414.08   396.80     0.00     0.00     0.00                  0.00     0.00      0.00          0.00     0.00        0.00
      0.39      0.67     0.95     0.98     1.19     1.66                  1.40     1.76      1.56          1.18     1.42        1.50
      0.00     71.80   224.54   108.05   290.97   192.81                230.06   392.27    379.83        422.96   296.37      320.79
   191.39    636.55 1,907.28 2,017.17 7,698.57 2,944.47              5,838.40 9,560.80 11,000.67      9,624.14 5,243.99    5,049.01

      0.00    40.00   136.00   215.00   209.00   488.33                 550.67 1,000.00      400.00      400.00   200.00       30.00
      0.00     0.00     0.00     0.00     0.00     0.00                   0.00     0.00      299.00      400.00   325.00      199.00
      0.00     0.00     0.00     0.00     0.00     0.00                  14.44    59.26      239.24      241.82   137.83      116.94
    223.79   906.97 1,283.00   473.39 1,224.75 1,399.51               2,077.50 3,346.00    2,168.51    1,836.76 1,623.15      852.00
     42.54   153.14   169.21   185.08   166.81   149.43                   0.40     0.30        0.00        0.35     0.00        0.00
    300.00   150.00   100.00     0.00     0.00     0.00                   0.00     0.00        0.00        0.00     0.00        0.00
     49.68    33.40    38.00    41.45   100.77    63.06                  58.23    92.30       69.91        0.00     0.25        0.00
      1.33     0.00     0.00     0.00     0.00    10.77                   4.22     4.22        3.09        0.55     0.00        0.00
      0.50     5.00     0.00     0.00     0.00    20.00                   2.81     4.90        6.26        9.22     3.93        1.52
     34.70    66.90    40.65    35.72    36.72    29.72                  59.92    70.74       69.30       65.32    52.60       43.20
      0.00     0.00     0.00     0.00     0.00     0.00                   5.70     0.00        0.00        0.00     0.00        0.00
      1.00     0.06     0.95     0.19     0.13     0.75                   0.47     0.00        0.00        0.00     0.00        0.00
      0.00   220.00   709.28   232.65   251.74   302.17                 472.09   589.00      400.00      358.75   593.80      225.00
      2.87     3.72    16.77    23.66    20.38    40.59                  18.80    19.20       18.70       18.70    17.00        0.00
   656.41 1,579.19 2,493.85 1,207.14 2,010.30 2,504.33               3,265.26 5,185.92    3,674.00    3,331.47 2,953.56    1,467.66

      5.00      0.00      0.00      0.00         0.00         0.00       0.00      0.00       0.00        0.00      0.00       0.00
     46.10     49.20     56.60     60.00        60.00       177.00      65.41     58.13     112.55       59.20     46.20       0.00
     85.53     11.39      4.23      0.04         0.03        16.90      27.13     29.73      66.39       56.51     22.54      27.65
     11.69     11.22      1.60      0.00         0.00         0.00       0.75      0.87       1.10        0.64      0.42       1.37
     61.50     63.30     47.10     41.80        53.80        44.25      76.79     80.93      64.65       99.56     76.07      80.00
      9.90     20.00     15.50      0.00         0.00         0.00       0.00      0.00       0.00        0.00      0.00       0.00
      0.00      0.00      0.00      0.00         0.00         0.00       0.20      0.00       0.00        0.00      0.00       0.00
      4.96      9.08     30.10     23.24         9.47        20.55      12.09      0.00       0.00        0.00      0.00       0.00
     14.14     34.58      0.00      0.00         0.00         0.00       0.00      0.00       0.00        0.00      0.00       0.00
      9.27      6.12     10.02     25.08         0.00         0.00       0.00      0.00       0.00        0.00      0.00       0.00
      0.00      0.00      0.00      0.00         0.00        22.40       0.00      0.00       0.00        0.00      0.00       0.00
   248.08    204.89    165.15    150.16       123.30       281.10     182.37    169.66     244.69      215.91    145.24     109.03

      0.00      0.00      0.00      0.00         2.50        14.30       25.20    34.40      37.20        59.00    58.70      62.65
     35.30    212.44    136.29    131.90       207.80       434.96    1,060.70 1,761.70     905.10     1,428.36 1,288.90     861.30
    35.30    212.44    136.29    131.90       210.30       449.26    1,085.90 1,796.10     942.30     1,487.36 1,347.60     923.95
 1,131.18 2,633.07 4,702.57 3,506.37 10,042.47 6,179.16 10,371.92 16,712.47 15,861.65 14,658.87 9,690.39                   7,549.64




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                        213
APPENDICES




APPENDIX C
SIGAR WRITTEN PRODUCTS
SIGAR AUDITS
Audit Alert Letters
NEW SIGAR AUDIT ALERT LETTERS ISSUED AS OF JULY 30, 2014
Report Identifier           Report Title                                                           Date Issued
SIGAR Audit Alert Letter
                            Afghan Air Force C-130 Aircraft                                        7/2014
14-80-AL



Completed Performance Audits
SIGAR completed three performance audits during this reporting period.

COMPLETED SIGAR PERFORMANCE AUDITS AS OF JULY 30, 2014
Report Identifier           Report Title                                                           Date Issued
                            Afghan Mobile Strike Vehicles: Contractor Met Requirements, but
SIGAR Audit 14-85-AR                                                                               7/2014
                            Long-Term Operation and Maintenance remain a Concern
                            Afghan National Security Forces: Actions Needed to Improve
SIGAR Audit 14-84-AR                                                                               7/2014
                            Weapons Accountability
                            Department of State: Nearly 75% of All SIGAR Audit and Inspection
SIGAR Audit 14-83-AR                                                                               7/2014
                            Report Recommendations Have Been Implemented


New Performance Audits
SIGAR initiated one performance audit during this reporting period.

NEW SIGAR PERFORMANCE AUDITS AS OF JULY 30, 2014
Audit Identifier           Project Title                                                           Date Initiated
SIGAR 098A                 DOD’s Afghan Local Police Program                                       7/2014


Ongoing Performance Audits
SIGAR had 14 audits in progress during this reporting period.

ONGOING SIGAR PERFORMANCE AUDITS AS OF JULY 30, 2014
Audit Identifier              Project Title                                                        Date Initiated
SIGAR 097A                    U.S. Efforts to Develop Afghanistan’s Extractives Industry           2/2014
                              U.S. Efforts to Assist Afghan Refugees and Internally Displaced
SIGAR 096A                                                                                         2/2014
                              Persons
SIGAR 095A                    U.S. Efforts to Develop Afghanistan’s Rule of Law                    2/2014
                              Status of SIGAR’s Recommendations to the Department of
SIGAR 094A                                                                                         2/2014
                              Defense
SIGAR 092A                   Status of SIGAR’s Recommendations to USAID                            2/2014
                                                                                      Continued on the next page




 214                           SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                                      APPENDICES




ONGOING SIGAR PERFORMANCE AUDITS AS OF JULY 30, 2014 (CONTINUED)
Audit Identifier           Project Title                                                       Date Initiated
                           U.S. Government Efforts to Develop and Strengthen the Capacity
SIGAR 091A                 of the Counternarcotics Police of Afghanistan’s (CNPA) Provincial   12/2013
                           Units
SIGAR 090A                 Audit of ANA National Engineer Brigade’s Engineering Equipment      11/2013
SIGAR 089A                 Audit of U.S. Support for Development of the Afghan Air Force       11/2013
                           U.S. Government Efforts to Assist in Reconstruction and
SIGAR 088A                 Commercialization of Afghanistan’s Information and                  11/2013
                           Communication Technology Sector
SIGAR 087A                 Women’s Initiatives                                                 8/2013
SIGAR 086A                 Education Sector                                                    8/2013
SIGAR 082B                 Agency Safeguards for Direct Assistance                             3/2013
SIGAR 080A                 U.S. Government Reconstruction Transition Plan                      3/2013
SIGAR 079B                 Reliability of Afghan National Security Forces Data                 2/2013



Completed Financial Audits
SIGAR completed three financial audits during this reporting period.

COMPLETED SIGAR FINANCIAL AUDITS AS OF JULY 30, 2014
Report Identifier       Report Title                                                           Date Issued
SIGAR Financial Audit   USAID’s Afghanistan Rule of Law Stabilization Program–Formal
                                                                                               7/2014
14-76-FA                Component: Audit of Costs Incurred by Tetra Tech DPK
                        USAID’s Accelerated Sustainable Agriculture Program and Afghanistan
SIGAR Financial Audit
                        Stabilization Initiative: Audit of Costs Incurred by Chemonics         7/2014
14-75-FA
                        International Inc.
                        USAID’s Afghanistan Small- and Medium-Sized Enterprise
SIGAR Financial Audit
                        Development Program and Afghanistan Stabilization Initiative           7/2014
14-74-FA
                        Program: Audit of Costs Incurred by Development Alternatives Inc.



Ongoing Financial Audits
SIGAR had 40 financial audits in progress during this reporting period.

ONGOING SIGAR FINANCIAL AUDITS AS OF JULY 30, 2014
Audit Identifier         Project Title                                                         Date Initiated
                         DOD Contract with New Century Consulting Limited for technical
F-065                                                                                          4/2014
                         support to Afghanistan Source Operation Management (ASOM)
                         DOD Contract with Raytheon Technical Services Company LLC for
F-064                                                                                          4/2014
                         ANA depot support
                         DOD Contract with DRS Technical Services Inc. for ANA
F-063                    Communications equipment service mentoring, systems                   4/2014
                         engineering, technical assistance, training, and maintenance
                         DOD Contract with Engility Corporation (L-3 MPRI) for support
F-062                                                                                          4/2014
                         services to the MOI and ANP
                         DOD Contract with Dyncorp International LLC for mentoring and
F-061                                                                                          4/2014
                         training services in support of the ANSF
                                                                                  Continued on the next page




REPORT TO THE UNITED STATES CONGRESS                I   JULY 30, 2014                               215
APPENDICES




ONGOING SIGAR FINANCIAL AUDITS AS OF JULY 30, 2014 (CONTINUED)
Audit Identifier   Project Title                                                          Date Initiated
                   State contract with PAE Government Services Incorporated for
F-060                                                                                     3/2014
                   technical support to the Justice Sector Support Program (JSSP)
                   State Grants with Global Rights for increasing access to justice for
F-059              family law clients and strengthening the capacity of civil society/    3/2014
                   young lawyers to protect human rights in Afghanistan
                   State Grants with Women for Afghan Women for technical support
F-058                                                                                     3/2014
                   for the promotion and protection of Afghan women’s rights
                   State Grants with Clear Path International (CPI) for technical
F-057              support to the Integrated Victim Assistance and Capacity Building      3/2014
                   Program
                   State Grants with Organization for Mine Clearance and Afghan
F-056              Rehabilitation (OMAR) for mine and unexploded ordnance                 3/2014
                   clearance
                   USAID Task Order with Management Systems International Inc.
F-055              (MSI) for technical support to the Measuring Impact of Stabilization   3/2014
                   Initiative (MISTI)
                   USAID Cooperative Agreement with University of Massachusetts
F-054              for technical support to the Higher Education Project (HEP) in         3/2014
                   Afghanistan
                   USAID Cooperative Agreement with Consortium For Elections
                   and Political Process (CEPPS) for support to subnational
F-053                                                                                     3/2014
                   government institutions in Regional Command-East and Regional
                   Command-South
                   USAID Contract with AECOM International Development Inc. for
F-052                                                                                     3/2014
                   technical support to Stabilization in Key Areas (SIKA)–West
                   USAID Contract with AECOM International Development Inc. for
F-051                                                                                     3/2014
                   technical support to Stabilization in Key Areas (SIKA)–East
                   USAID Contract with Tetra Tech for technical support to the Rule of
F-050                                                                                     3/2014
                   Law Stabilization–Formal Component
                   USAID Contract with International Relief and Development Inc. (IRD)
F-049                                                                                  3/2014
                   for Engineering, Quality Assurance and Logistical Support (EQUALS)
                   USAID Cooperative Agreement with Wildlife Conservation Society
                   (WCS) for technical support to the Improving Livelihoods and
F-048                                                                                     3/2014
                   Governance through Natural Resource Management Project
                   (ILG-NRMP)
                   USAID Cooperative Agreement with Democracy International for
F-047                                                                                     3/2014
                   technical support for Electoral Reform and Civic Advocacy (AERCA)
                   USAID Contract with AECOM International Development Inc. for
F-046                                                                                     3/2014
                   technical support to Stabilization in Key Areas (SIKA)–South
                   USAID Cooperative Agreement with Consortium For Elections
F-045              and Political Process (CEPPS) to support increased electoral           3/2014
                   participation in Afghanistan
                   USAID Cooperative Agreement with Internews Network for support to
F-044                                                                                3/2014
                   the Afghan Media Development and Empowerment Project (AMDEP)
                   USAID Contract with Tetra Tech to support Land Reform in
F-043                                                                                     3/2014
                   Afghanistan
                                                                            Continued on the next page




 216                  SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                                APPENDICES




ONGOING SIGAR FINANCIAL AUDITS AS OF JULY 30, 2014 (CONTINUED)
Audit Identifier   Project Title                                                         Date Initiated
                   USAID Cooperative Agreement with International Relief and
F-042              Development Inc. for technical support to the Afghanistan Civilian    3/2014
                   Assistance Program (ACAP II)
                   USAID Cooperative Agreement with International Relief and
F-041              Development Inc. for technical support to the Southern Regional       3/2014
                   Agriculture Development Program (SRADP)
                   DOD Contract with A-T Solutions for support to Freedom of
F-040                                                                                    12/2013
                   Maneuver program
                   DOD Contract with Jorge Scientific Corp. for support to Legacy East
F-039                                                                                    12/2013
                   program
                   DOD Contract with CACI Technologies Inc. for technical engineering,
F-038                                                                                    12/2013
                   logistical engineering and fielding efforts
                   USAID Task Order with Tetra Tech ARD for technical support to the
F-037                                                                                    9/2013
                   Rule of Law Stabilization Program–Formal
                   State Grant with Sayed Majidi Architecture and Design (SMAD) for
F-036              project management services for architectural and engineering         9/2013
                   design of the new national museum in Kabul
                   State Cooperative Agreement and Grant with CETENA Group for
F-035              support to the Afghan TV Content Production Manager project and       9/2013
                   the Nationwide Adult Literacy project
                   State Grants with the Mine Clearance Planning Agency to provide
F-034                                                                                    9/2013
                   support for the removal of land mines and unexploded ordnance
                   State Task Order with PAE for technical support to the Civilian Police
F-033                                                                                     9/2013
                   Program
                   USAID Task Order with IRG (now part of Engility) for technical
F-032                                                                                    9/2013
                   support to the Afghan Clean Energy Program (ACEP)
                   USAID Cooperative Agreement with ICMA for technical support to
F-031                                                                                    9/2013
                   the Afghanistan Municipal Strengthening Program (AMSP)
                   USAID Cooperative Agreement with CARE International for technical
F-029              support to the Partnership for Advancing Community-based              9/2013
                   Education in Afghanistan (PACE-A)
                   USAID Task Order with AECOM for technical support to the
F-028                                                                                    9/2013
                   Afghanistan Social Outreach Program (ASOP)
                   USAID Cooperative Agreement with PACT to strengthen the
F-027                                                                                    9/2013
                   independent media sector in Afghanistan
                   USAID Task Order with ARD (now part of Tetra Tech) to provide
F-026              technical support to the Sustainable Water Supply and Sanitation      9/2013
                   (SWSS) project
                   USAID Cooperative Agreement with IRD to implement the
F-025              Afghanistan Vouchers for Increased Production in Agriculture (AVIPA) 9/2013
                   program




REPORT TO THE UNITED STATES CONGRESS          I   JULY 30, 2014                              217
APPENDICES




SIGAR INSPECTIONS
Completed Inspections
SIGAR completed three inspections during this reporting period.

COMPLETED SIGAR INSPECTIONS AS OF JULY 30, 2014
Report Identifier   Report Title                                                          Date Issued
SIGAR Inspection    Gereshk Cold and Dry Storage Facility: Quality of Construction
                                                                                          7/2014
14-82-IP            Appears to Be Good, but the Facility Has Not Been Used to Date
SIGAR Inspection    Shindand Airbase: Use of Open-Air Burn Pit Violated Department of
                                                                                          7/2014
14-81-IP            Defense Requirement
SIGAR Inspection    Baghlan Prison: Severe Damage to $11.3 Million Facility Requires
                                                                                          5/2014
14-62-IP            Extensive Remedial Action


SIGAR SPECIAL PROJECTS
Completed Special Projects
SIGAR completed six Special Project products this reporting period. SIGAR
considers a Special Project complete when the agency does not anticipate
doing any additional work on the specific issue.

COMPLETED SIGAR SPECIAL PROJECTS AS OF JULY 30, 2014
Report Identifier   Report Title                                                         Date Issued
Special Project
                    Inquiry Letter: Safety of Spray Foam Insulation in ANA Facilities    7/2014
14-77-SP
Special Project
                    Inquiry Letter: Cancelled USAID Contracts                            7/2014
14-73-SP
Special Project
                    Inquiry Letter: USDA Response to Soybean Inquiry                     6/2014
14-69-SP
Special Project
                    Inquiry Letter: ANP Mobile Money Pilot Program Response              5/2014
14-61-SP
Special Project
                    Alert Letter: Alerting USAID on IRD’s Confidentiality Agreement      5/2014
14-56-SP
Special Project     Inquiry Letter: International Relief and Development’s Confidentiality
                                                                                           5/2014
14-55-SP            Agreement


Ongoing Special Projects
SIGAR issued 13 Special Project inquiry letters this reporting period that
related to ongoing Special Projects. A project is considered ongoing when
the Office of Special Projects does not consider an inquiry complete
because SIGAR is waiting for responses to requested information, or is in
the process of analyzing information already received.

COMPLETED SIGAR SPECIAL PROJECTS AS OF JULY 30, 2014
Report Identifier   Report Title                                                          Date Issued
Special Project     Inquiry Letter: Contractor Recruitment of Third-Country Nationals for
                                                                                          7/2014
14-78-SP            Afghan Work
                                                                             Continued on the next page




 218                   SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                                       APPENDICES




COMPLETED SIGAR SPECIAL PROJECTS AS OF JULY 30, 2014 (CONTINUED)
Report Identifier      Report Title                                                         Date Issued
Special Project
                       Inquiry Letter: Maintenance of DOD-Funded Roads                      6/2014
14-72-SP
Special Project
                       Inquiry Letter: Request for Reconstruction Program Data Information 6/2014
14-71-SP
Special Project        Inquiry Letter: Contractor Recruitment of Third-Country Nationals for
                                                                                             6/2014
14-70-SP               Afghan Work
Special Project
                       Inquiry Letter: Kandahar Bridging Solution                           6/2014
14-68-SP
Special Project
                       Inquiry Letter: ANP Patrol Boat Disposition                          6/2014
14-67-SP
Special Project
                       Inquiry Letter: CSTC-A Response to ANP Patrol Boat Inquiry           6/2014
14-66-SP
Special Project
                       Inquiry Letter: Maintenance of USAID-Funded Roads                    6/2014
14-64-SP
Special Project
                       Inquiry Letter: SBIR Study                                           6/2014
14-63-SP
Special Project
                       Inquiry Letter: IRD Whistleblower Protections Response               5/2014
14-60-SP
Special Project
                       Inquiry Letter: Professional Services Council                        5/2014
14-58-SP
Special Project
                       Inquiry Letter: UNDP LOTFA Oversight                                 5/2014
14-57-SP
Special Project
                       Inquiry Letter: ANP Patrol Boats                                     5/2014
14-54-SP

OTHER SIGAR WRITTEN PRODUCTS
The Special Inspector General for Afghanistan Reconstruction, John F.
Sopko, testified before the Congress once this reporting period.

NEW SIGAR TESTIMONY AS OF JULY 30, 2014
Testimony Identifier   Testimony Title                                                     Testimony Date
SIGAR 14-65-TY         Oversight of USAID and State Department Reconstruction Efforts in   6/10/2014
                       Afghanistan




REPORT TO THE UNITED STATES CONGRESS                I   JULY 30, 2014                           219
                                                       APPENDICES




                                                       APPENDIX D
                                                       SIGAR INVESTIGATIONS AND HOTLINE
                                                       SIGAR Investigations
FIGURE D.1                                             This quarter, SIGAR opened 26 new investigations and closed 46, bringing
                                                       the total number of open investigations to 318. Of the new investigations,
NEW SIGAR INVESTIGATIONS,
                                                       most involved miscellaneous offenses and theft, as shown in Figure D.1. Of
APRIL 1–JUNE 30, 2014
                                                       the closed investigations, most were closed due to unfounded allegations,
                                                       as shown in Figure D.2.
                        Total: 26
                                                       FIGURE D.2

                      Other/                           SIGAR INVESTIGATIONS: CLOSED INVESTIGATIONS, APRIL 1–JUNE 30, 2014
                      Miscellaneous
                      9
            Corruption
            3                    Theft
                                 6                        Unfounded Allegations                                                               23



                                                       Lack of Investigative Merit                                                 15
                    Money             Procurement/
                    Laundering        Contract Fraud
                    4                 4
                                                                    Administrative                       6
Source: SIGAR Investigations Directorate, 7/8/2014.

                                                             Criminal Declination         1



                                                                       Conviction         1


                                                                                     0             5         10               15        20      25

                                                                                                              Total: 46

                                                       Source: SIGAR Investigations Directorate, 7/8/2014.




                                                         220                             SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                                                APPENDICES




SIGAR Hotline
Of the 131 Hotline complaints received this quarter, most were received elec-
tronically, as shown in Figure D.3. In addition to working on new complaints,
the Investigations Directorate continued its work this quarter on complaints
received prior to April 1, 2014. This quarter, the directorate processed 139
complaints, most of which were closed, as shown in Figure D.4.
FIGURE D.4                                                                                                               FIGURE D.3

STATUS OF SIGAR HOTLINE COMPLAINTS: APRIL 1–JUNE 30, 2014                                                                SOURCE OF SIGAR HOTLINE COMPLAINTS,
                                                                                                                         APRIL 1–JUNE 30, 2014

      Under Review (Open)                         27
                                                                                                                                                Total: 139
Under Investigation (Open)            3

       Referred Out (Open)            3

    Closed Administratively                                                                                  133                             Electronic
                                                                                                                                             (email, web, or fax)
 Closed after Investigation               8                                                                                                  131
             Closed after         1
   Suspension/Debarment
                              0                 30                60                90              120            150
                                                                       Total: 175                                             Written
                                                                                                                              (Other)                         Phone
Source: SIGAR Investigations Directorate, 7/8/2014.
                                                                                                                                    1                         7
Note: 139 complaints received during quarter; total includes complaints made in earlier periods.


                                                                                                                         Source: SIGAR Investigations Directorate, 7/8/2014.


Suspensions and Debarments From SIGAR Referrals
SIGAR’s referrals for suspension and debarment as of June 30, 2014, are
shown in chronological order in Table D.1.

TABLE D.1


SUSPENSIONS AND DEBARMENTS AS OF JUNE 30, 2014
 Suspensions                                                    Debarments
 Al-Watan Construction Company                                  Farooqi, Hashmatullah
 Basirat Construction Firm                                      Hamid Lais Construction Company
 Brophy, Kenneth                                                Hamid Lais Group
 Naqibullah, Nadeem                                             Lodin, Rohullah Farooqi
 Rahman, Obaidur                                                Bennett & Fouch Associates LLC
 Campbell, Neil Patrick                                         Brandon, Gary
 Borcata, Raul A.                                               K5 Global
 Close, Jarred Lee                                              Ahmad, Noor
 Logistical Operations Worldwide                                Noor Ahmad Yousufzai Construction Company
 Robinson, Franz Martin                                         Ayeni, Sheryl Adenike
                                                                                            Continued on the next page




REPORT TO THE UNITED STATES CONGRESS                        I   JULY 30, 2014                                 221
APPENDICES




TABLE D.1 (CONTINUED)


SUSPENSIONS AND DEBARMENTS AS OF JUNE 30, 2014 (CONTINUED)
 Suspensions                                        Debarments
 Taylor, Zachery Dustin                             Cannon, Justin
 Aaria Group Construction Company                   Constantino, April Anne
 Aaria Group                                        Constantino, Dee
 Aaria Herai General Trading                        Constantino, Ramil Palmes
 Aaria M.E. General Trading LLC                     Crilly, Braam
 Aaria Middle East                                  Drotleff, Christopher
 Aaria Middle East Company LLC                      Fil-Tech Engineering and Construction Company
 Aaria Middle East Company Ltd. – Herat             Handa, Sidharth
 Aaria Supplies Company LTD                         Jabak, Imad
 Aaria Supply Services and Consultancy              Jamally, Rohullah
 Aftech International                               Khalid, Mohammad
 Aftech International Pvt. Ltd.                     Khan, Daro
 Alam, Ahmed Farzad                                 Mariano, April Anne Perez
 Albahar Logistics                                  McCabe, Elton Maurice
 American Aaria Company LLC                         Mihalczo, John
 American Aaria LLC                                 Qasimi, Mohammed Indress
 Barakzai, Nangialai                                Radhi, Mohammad Khalid
 Formid Supply and Services                         Safi, Fazal Ahmed
 Greenlight General Trading                         Shin Gul Shaheen, a.k.a. “Sheen Gul Shaheen”
 Kabul Hackle Logistics Company                     Espinoza-Loor, Pedro Alfredo
 Sharpway Logistics                                 Campbell, Neil Patrick*
 United States California Logistics Company         Navarro, Wesley
 Yousef, Najeebullah                                Hazrati, Arash
 Rahimi, Mohammad Edris                             Midfield International
 Wooten, Philip Steven                              Moore, Robert G.
 Domineck, Lavette Kaye                             Noori, Noor Alam, a.k.a. “Noor Alam"
 Markwith, James                                    Northern Reconstruction Organization
                                                    Shamal Pamir Building and Road Construction
 All Points International Distributors, Inc.
                                                    Company
 Cipolla, James                                     Wade, Desi D.
 Hercules Global Logistics                          Blue Planet Logistics Services
 Schroeder, Robert                                  Mahmodi, Padres
 AISC LLC                                           Mahmodi, Shikab
 American International Security Corporation        Saber, Mohammed
 Brothers, Richard S.                               Watson, Brian Erik
 David A Young Construction & Renovation Inc.       Abbasi, Shahpoor*
 Force Direct Solutions LLC                         Amiri, Waheedullah*
 Harris, Christopher                                Atal, Waheed*
 Hernando County Holdings LLC                       Daud, Abdulilah*
 Hide-A-Wreck LLC                                   Dehati, Abdul Majid*
                                                                                Continued on the next page




  222                             SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                                                                      APPENDICES




TABLE D.1 (CONTINUED)


SUSPENSIONS AND DEBARMENTS AS OF JUNE 30, 2014 (CONTINUED)
 Suspensions                                          Debarments
 Panthers LLC                                         Fazli, Qais*
 Paper Mill Village Inc                               Hamdard, Mohammad Yousuf*
 Shrould Line LLC                                     Kunari, Haji Pir Mohammad*
 Spada, Carol                                         Mushfiq, Muhammad Jaffar*
 Taylor, Michael                                      Mutallib, Abdul*
 Welventure LLC                                       Nasrat, Sami*
 World Wide Trainers LLC                              Passerly, Ahmaad Saleem*
 Young, David                                         Rabi, Fazal*
 Espinoza, Mauricio                                   Rahman, Atta*
 Long, Tonya                                          Rahman, Fazal*
 Brophy, Kenneth Michael                              Roshandil, Mohammad Ajmal*
 Rivera-Medina, Franklin Delano                       Safi, Azizur Rahman*
 Peace Thru Business                                  Safi, Matiullah*
 Pudenz, Adam Jeff Julias                             Sahak, Sher Khan*
 Elham, Yaser, a.k.a. “Najibullah Saadullah”          Shaheed, Murad*
 Everest Faizy Logistics Services                     Shirzad, Daulet Khan*
 Faizy Elham Brothers Ltd.                            Uddin, Mehrab*
 Faizy, Rohullah                                      Alam, Ahmed Farzad*
 Hekmat Shadman General Trading LLC                   Greenlight General Trading*
 Hekmat Shadman, Ltd., d.b.a. “Hikmat Shadman Ltd.” Aaria Middle East Company LLC*
 Hikmat Shadman Construction and Supply Company       Aaria Middle East Company Ltd. – Herat*
 Hikmat Shadman Logistics Services Company,
 d.b.a. “Hikmat Shadman Commerce Construction
                                                      Aaria M.E. General Trading LLC*
 and Supply Company,” d.b.a. “Hikmat Shadman
 Commerce Construction Services”
 Saif Hikmat Construction Logistic Services and
                                                      Aaria Middle East*
 Supply Co.
 Shadman, Hikmatullah, a.k.a. “Hikmat Shadman,”
 a.k.a. “Haji Hikmatullah Shadman,” a.k.a.            Barakzai, Nangialai*
 “Hikmatullah Saadulah”
 Sherzai, Akbar Ahmed                                 Formid Supply and Services*
                                                      Aaria Supply Services and Consultancy*
                                                      Kabul Hackle Logistics Company*
                                                      Yousef, Najeebullah*
                                                      Aaria Group*
                                                      Aaria Group Construction Company*
                                                      Aaria Supplies Company LTD*
                                                      Rahimi, Mohammad Edris*
                                                      All Points International Distributors Inc.*
                                                      Hercules Global Logistics*
                                                      Schroeder, Robert*
                                                                                 Continued on the next page




REPORT TO THE UNITED STATES CONGRESS              I   JULY 30, 2014                                 223
APPENDICES




TABLE D.1 (CONTINUED)


SUSPENSIONS AND DEBARMENTS AS OF JUNE 30, 2014 (CONTINUED)
 Suspensions                              Debarments
                                          Helmand Twincle Construction Company
                                          Waziri, Heward Omar
                                          Zadran, Mohammad
                                          Afghan Mercury Construction Company, d.b.a. “Afghan
                                          Mercury Construction & Logistics Company”
                                          Mirzali Naseeb Construcion Company
                                          Montes, Diyana
                                          Naseeb, Mirzali
                                          Robinson, Franz Martin*
                                          Smith, Nancy
                                          Sultani, Abdul Anas a.k.a. “Abdul Anas”
                                          Faqiri, Shir
                                          Hosmat, Haji
                                          Jim Black Construction Company
                                          Arya Ariana Aryayee Logistics, d.b.a. “AAA Logistics,”
                                          d.b.a. “Somo Logistics”
                                          Garst, Donald
                                          Mukhtar, Abdul a.k.a. “Abdul Kubar”
                                          Noori Mahgir Construction Company
                                          Noori, Sherin Agha
                                          Long, Tonya*
                                          Isranuddin, Burhanuddin
                                          Matun, Navidullah, a.k.a. “Javid Ahmad”
                                          Matun, Wahidullah
                                          Navid Basir Construction Company
                                          Navid Basir JV Gagar Baba Construction Company
                                          NBCC & GBCC JV
                                          Noori, Navid
                                          Asmatullah, Mahmood, a.k.a. "Mahmood"
                                          Khan, Gul
                                          Khan, Solomon Sherdad, a.k.a. "Solomon"
                                          Mursalin, Ikramullah, a.k.a. "Ikramullah"
                                          Musafer, Naseem, a.k.a. "Naseem"
                                          Ali, Esrar
                                          Gul, Ghanzi
                                          Luqman Engineering Construction Company, d.b.a.
                                          “Luqman Engineering”
                                          Safiullah, a.k.a. "Mr. Safiullah"
                                          Sarfarez, a.k.a."Mr. Sarfarez"
                                          Wazir, Khan
                                          Akbar, Ali
                                                                      Continued on the next page




  224                   SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                            APPENDICES




TABLE D.1 (CONTINUED)


SUSPENSIONS AND DEBARMENTS AS OF JUNE 30, 2014 (CONTINUED)
 Suspensions                               Debarments
                                           Crystal Construction Company, d.b.a. “Samitullah
                                           Road Construction Company”
                                           Samitullah (Individual uses only one name)
                                           Gurvinder, Singh
                                           Jahan, Shah
                                           Shahim, Zakirullah a.k.a. “Zakrullah Shahim”, a.k.a.
                                           “Zikrullah Shahim”
                                           Alyas, Maiwand Ansunullah a.k.a. “Alyas Maiwand,”
                                           a.k.a. “Maiwand Allias,” a.k.a. “Maiwand Aliass,” a.k.a.
                                           “Engineer Maiwand Alyas”
                                           BMCSC
                                           Maiwand Haqmal Construction and Supply Company
                                           New Riders Construction Company, d.b.a. “Riders
                                           Construction Company, ” d.b.a. “New Riders
                                           Construction and Services Company”
                                           Riders Constructions, Services, Logistics and
                                           Transportation Company
                                           Riders Group of Companies
                                           Domineck, Lavette Kaye*
                                           Markwith, James*
                                           Martinez, Rene
                                           Maroof, Abdul
                                           Qara, Yousef
                                           Royal Palace Construction Company
                                           Bradshaw, Christopher Chase
                                           Boulware, Candice a.k.a. “Candice Joy Dawkins"
                                           Dawkins, John
                                           Mesopotamia Group LLC
                                           Nordloh, Geoffrey
                                           Kieffer, Jerry
                                           Johnson, Angela
                                           CNH Development Company LLC
                                           Johnson, Keith
                                           Military Logistic Support LLC
                                           Eisner, John
                                           Taurus Holdings LLC
                                           Brophy, Kenneth Michael*
                                           Abdul Haq Foundation
                                           Adajar, Adonis
                                           Calhoun, Josh W.
                                           Clark Logistic Services Company, d.b.a. "Clark
                                           Construction Company"
                                                                      Continued on the next page




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2014                                    225
APPENDICES




TABLE D.1 (CONTINUED)


SUSPENSIONS AND DEBARMENTS AS OF JUNE 30, 2014 (CONTINUED)
 Suspensions                                                 Debarments
                                                             Farkas, Janos
                                                             Flordeliz, Alex F.
                                                             Knight, Michael T., II
                                                             Lozado, Gary
                                                             Mijares, Armando N., Jr.
                                                             Rainbow Construction Company
                                                             Sardar, Hassan, a.k.a. “Hassan Sardar Inqilab”
                                                             Shah, Mohammad Nadir, a.k.a. "Nader Shah"
                                                             Tito, Regor
                                                             Brown, Charles Phillip
                                                             Sheren, Fasela, a.k.a. “Sheren Fasela”
                                                             Anderson, Jesse Montel
                                                             Charboneau, Stephanie, a.k.a. “Stephanie Shankel”*
                                                             Hightower, Jonathan*
                                                             Khan, Noor Zali, a.k.a. "Wali Kahn Noor"
                                                             Saheed, a.k.a. "Mr. Saheed;" a.k.a. "Sahill;" a.k.a.
                                                             "Ghazi-Rahman"
                                                             Weaver, Christopher*
                                                             Al Kaheel Oasis Services
                                                             Al Kaheel Technical Service
                                                             CLC Construction Company
                                                             CLC Consulting L.L.C.
                                                             Complete Manpower Solutions
                                                             Mohammed, Masiuddin, a.k.a. “Masi Mohammed”
                                                             Rhoden, Bradley L., a.k.a. “Brad L. Rhoden”
                                                             Rhoden, Lorraine Serena
                                                             Royal Super Jet General Trading L.L.C.
                                                             Super Jet Construction Company
                                                             Super Jet Fuel Services
                                                             Super Jet Group
                                                             Super Jet Tours, L.L.C., d.b.a. “Super Jet Travel and
                                                             Holidays L.L.C.”
                                                             Super Solutions L.L.C.
                                                             Abdullah, Bilal
                                                             Farmer, Robert Scott
                                                             Kelly, Albert, III*
Note: *Indicates previously in suspended status following criminal indictment or determination of non-responsibility by
agency suspension and debarment official. Final debarment imposed following criminal conviction in U.S. federal district
court and/or final determination by agency suspension and debarment official regarding term of debarment.




  226                           SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                                                                APPENDICES




APPENDIX E
ABBREVIATIONS AND ACRONYMS
ACRONYM OR
ABBREVIATION      DEFINITION
AAA               Afghan American Army Trucking Services
AAF               Afghan Air Force
ABADE             Assistance in Building Afghanistan by Developing Enterprises
ABP               Afghan Border Police
ACAP              Afghan Civilian Assistance Program
ACC-WRN           Army Contracting Command-Warren
ACE               Agricultural Credit Enhancement
ACEP              Afghan Civic Engagement Program
ACU               Anticorruption Unit
AD                Alternative Development
ADB               Asian Development Bank
ADF               Agricultural Development Fund
AERCA             Afghanistan Electoral Reform and Civic Advocacy
AFISCO            Afghan Iron and Steel Consortium
AFN               afghanis (currency—Afghan nationals are Afghans)
AGO               Attorney General’s Office
AGS               Afghan Geological Survey
AIB               Afghanistan International Bank
AIF               Afghanistan Infrastructure Fund
AIHRC             Afghanistan Independent Human Rights Commission
AITF              Afghanistan Infrastructure Trust Fund
AKF               Aga Khan Foundation
ALBA              Assistance to Legislative Bodies of Afghanistan
ALP               Afghan Local Police
AML/CFT           Anti-Money Laundering and Combating the Financing of Terrorism
ANA               Afghan National Army
ANCOP             Afghan National Civil Order of Police
ANP               Afghan National Police
ANPO              Afghanistan National Participation Organization
ANSF              Afghan National Security Forces
AO                abandoned ordnance
APA               Afghanistan Petroleum Authority
APPF              Afghan Public Protection Force
APRP              Afghan Peace and Reintegration Plan
AROC              Afghanistan Resources Oversight Council
ARTF              Afghanistan Reconstruction Trust Fund
ASA               American Soybean Association
ASAP              Accelerated Sustainable Agriculture Program
                                                                           Continued on the next page




REPORT TO THE UNITED STATES CONGRESS          I   JULY 30, 2014                             227
APPENDICES




ACRONYM OR
ABBREVIATION   DEFINITION
ASFF           Afghanistan Security Forces Fund
ASI            Afghanistan Stabilization Initiative
ASMED          Afghanistan Small- and Medium-Sized Enterprise Development
ATAR           Afghanistan Trade and Revenue Project
ATRA           Afghanistan Telecommunications Regulation Authority
AUAF           American University of Afghanistan
AUP            Afghan Uniform Police
AWOL           Absent without leave
AYNSO          Afghanistan Youth National and Social Organization
BELT           Basic Education, Literacy, and Technical-Vocational Education and Training
BPHS           Basic Package of Health Services
BSA            Bilateral Security Agreement
CBE            Community Based Education
CCC            Community Cultural Centers
CCI            Community Cohesion Initiative
CDC            Community Development Center
CDC            Community Development Council
CENTCOM        U.S. Central Command
CERP           Commander’s Emergency Response Program
CHAMP          Commercial Horticulture and Agricultural Marketing Program
CHW            Community Health Workers
CIGIE          Council of the Inspectors General on Integrity and Efficiency
CJIATF-N       Combined Joint Interagency Task Force-Nexus
CJSOTF-A       Combined Joint Special Operations Task Force-Afghanistan
CM             capability milestone
CMS            case-management system
CNA            Center for Naval Analyses
CNCE           Counter Narcotics Community Engagement
CNG            compressed natural-gas
CNJC           Counternarcotics Justice Center
CNPA           Counternarcotics Police of Afghanistan
COM            Council of Ministers
COR            contracting officer's representative
CSSP           Corrections System Support Program
CSTC-A         Combined Security Transition Command-Afghanistan
CTA            Central Transfer Account
DA             Development Assistance
DAB            Da Afghanistan Bank
DABS           Da Afghanistan Breshna Sherkat
DAI            Development Alternatives Inc.
DCIS           Defense Criminal Investigative Service (U.S.)
DCOM MAG       Deputy Commander MTN-A, Military Assitance Group
                                                                         Continued on the next page




 228              SPECIAL INSPECTOR GENERAL              I     AFGHANISTAN RECONSTRUCTION
                                                                APPENDICES




ACRONYM OR
ABBREVIATION      DEFINITION
DEA               Drug Enforcement Administration (U.S.)
DFAS              Defense Finance and Accounting Services
DFID              Department for International Development (UK)
DI                Democracy International
DOD               Department of Defense (U.S.)
DOD CN            Department of Defense Drug Interdiction and Counter-Drug Activities fund (U.S.)
DOD OIG           Department of Defense Office of Inspector General
DODI              Department of Defense Instruction
DOJ               Department of Justice (U.S.)
DOT               Department of Transportation (U.S.)
DQA               data quality assessment
DSC               District Stability Committee
DSCA              Defense Security Cooperation Agency
ECC               Electoral Complaints Commission
ECF               Extended Credit Facility
ELECT             Enhancing Legal and Electoral Capacity for Tomorrow
EMIS              Ministry of Education's Information Management System (Afghan)
EPHS              Essential Package of Hospital Services
EQUALS            Engineering, Quality Assurance and Logistical Support
ERW               Explosive Remnants of War
ESF               Economic Support Fund
EU EAT            European Union Election Assessment Team Afghanistan
FAA               Federal Aviation Administration
FATF              Financial Action Task Force
FBI               Federal Bureau of Investigation (U.S.)
FEFA              Free and Fair Election Forum of Afghanistan
FOB               forward operating base
FRIC              Force Reintegration Cell (ISAF)
FY                fiscal year
GAGAS             Generally Accepted Government Auditing Standards
GAO               Government Accountability Office (U.S.)
GCMU              Grants and Contracts Management Unit (MOPH)
GDP               gross domestic product
GDPDC             General Directorate of Prisons and Detention Centers
GIROA             Government of the Islamic Republic of Afghanistan
GLE               Governor-Led Eradication
GOR               Grant Officer Representative
GPI               Good Performer's Initiative
GSO               General Services Office (Afghan)
HEFD              Health Economics and Financing Directorate (MOPH)
HMIS              Health Management Information System
HNT               Host Nation Trucking
                                                                          Continued on the next page




REPORT TO THE UNITED STATES CONGRESS            I   JULY 30, 2014                           229
APPENDICES




ACRONYM OR
ABBREVIATION   DEFINITION
HOO            High Office of Oversight for Anti-Corruption (aka "HOOAC") (Afghan)
HPC            High Peace Council
HPP            Health Policy Project
IBC            International Building Code
ICRC           International Committee of the Red Cross
IDEA-NEW       Incentives Driving Economic Alternatives-North, East, and West
IDP            internally displaced person
IEC            Independent Election Commission (Afghan)
IED            improvised explosive device
IJC            International Security Assistance Force Joint Command
IMF            International Monetary Fund
IMP            International Military Police
INCLE          International Narcotics Control and Law Enforcement (U.S)
INL            Bureau of International Narcotics and Law Enforcement Affairs (U.S.)
IOCC           Interagency Operations Coordination Center
IPA            Independent Public Accountant
IPACS          Initiative to Promote Afghan Civil Society
IRD            International Relief and Development (an NGO)
ISAF           International Security Assistance Force
ISR            intelligence, surveillance, and reconnaissance
JCIP           Justice Center in Parwan
JCMB           Joint Coordination and Monitoring Board
JRD            Juvenile Rehabilitation Directorate
JSSP           Justice Sector Support Program (State)
JTTP           Justice Training Transition Program (State)
KAF            Kandahar Airfield
KFZ            Kandahar Food Zone
KHPP           Kandahar-Helmand Power Project
KIA            killed in action
LBG/BV         Louis Berger Group/Black and Veatch
LES            locally employed staff
LMG            Leadership, Management, Governance Project
LOGCAP         Logistics Civil Augmentation Program
LOTFA          Law and Order Trust Fund for Afghanistan
MAIL           Ministry of Agriculture, Irrigation, and Livestock (Afghan)
MC             Media Commission
MCN            Ministry of Counternarcotics (Afghan)
MCTF           Major Crimes Task Force
MEC            Monitoring and Evaluation Committee (Afghan)
MIDAS          Mining Investment and Development for Afghan Sustainability
MISTI          Measuring Impacts of Stabilization Initiatives
MOCI           Ministry of Commerce and Industry (Afghan)
                                                                             Continued on the next page




 230              SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                                                                APPENDICES




ACRONYM OR
ABBREVIATION      DEFINITION
MOCIT             Ministry of Communications and Information Technology (Afghan)
MOD               Ministry of Defense (Afghan)
MOE               Minister of Education (Afghan)
MOF               Ministry of Finance (Afghan)
MOI               Ministry of Interior (Afghan)
MOMP              Ministry of Mines and Petroleum (Afghan)
MOPH              Ministry of Public Health (Afghan)
MOPW              Ministry of Public Works (Afghan)
MORE              Ministry of Women's Affairs Organizational Restructuring and Empowerment Project
                  (Afghan)
MRAP              Mine-Resistant Ambush-Protected
MRRD              Ministry of Rural Rehabilitation and Development
MSF               Mobile Strike Force
MSFV              Mobile Strike Force Vehicles
NAC-A             NATO Air Command-Afghanistan
NATO              North Atlantic Treaty Organization
NCO               noncommissioned officer
NDAA              National Defense Authorization Act
NDI               National Democratic Institute
NEPS              Northeast Power System
NGO               nongovernmental organization
NIU               National Interdiction Unit
NLO               New Line Organization
NSOCC-A           NATO Special Operations Component Command-Afghanistan
NSP               National Solidarity Program
NTM-A             NATO Training Mission-Afghanistan
O&M               operations and maintenance
OCO               overseas contingency operations
OEF               Operation Enduring Freedom
OHG               Omran Holding Group
OIG               Office of the Inspector General
OMA               Operations Maintenance, Army
OMB               Office of Management and Budget
OPPD              Office of Program and Project Development (USAID)
OSCE              Organization for Security and Co-operation in Europe
OVERLORD          Operational Verification of Reliable Logistics Oversight Database
PCH               Partnership Contracts for Health Services
PEC               Peaceful Election Campaign
PM/WRA            Bureau of Political-Military Affairs-Office of Weapons Removal and Abatement (U.S.)
PPA               Public-Private Alliances
PRT               Provincial Reconstruction Team
PSC               private security contractor
PSC               Professional Services Council
                                                                            Continued on the next page




REPORT TO THE UNITED STATES CONGRESS            I   JULY 30, 2014                            231
APPENDICES




ACRONYM OR
ABBREVIATION   DEFINITION
PTEC           Power Transmission Expansion and Connectivity
QNCC           Qesmatullah Nasrat Construction Company
RADP           Regional Agriculture Development Program
RASR           Regional Command ANSF Assessment Report
RC             recurrent cost
RCC            Regional Contracting Center
RC-SW          Regional Command Southwest (ISAF)
RDL            Rating Definition Level
RLS-F          Rule of Law Stabilization-Formal
RLS-I          Rule of Law Stabilization-Informal
RSS            Road Sector Sustainability
SAARC          South Asian Association for Regional Cooperation
SAO            Security Assistance Office
SAO            Supreme Audit Office
SARAI          Soybeans for Agricultural Renewal in Afghanistan Initiative
SBIR           Small Business Innovations Research
SCIP           Security Cooperation Information Portal
SDDC           Surface Deployment and Distribution Command
SEPS           Southeast Power System
SGDP           Sheberghan Gas Development Program
SGGA           Sheberghan Gas Generation Activity
SIGAR          Special Inspector General for Afghanistan Reconstruction
SIKA           Stability in Key Areas
SIU            Sensitive Investigative Unit
SMW            Special Mission Wing (Afghan)
SOF            Special Operations Forces
SPECS          Supporting Political Entities and Civil Society Program
State OIG      Department of State Office of the Inspector General
SWSS           Sustainable Water Supply and Sanitation
SY             solar year
TAFA           Trade Accession and Facilitation for Afghanistan
TCN            third-country national
TEFA           Transparent Election Foundation of Afghanistan
TFBSO          Task Force for Business and Stability Operations in Afghanistan
TMAF           Tokyo Mutual Accountability Framework
Tt DPK         Tetra Tech DPK
TVPA           Trafficking Victims Protection Act
UN             United Nations
UNAMA          United Nations Assistance Mission in Afghanistan
UNDP           United Nations Development Programme
UNHCR          UN High Commission for Refugees
UNODC          UN Office on Drugs and Crime
                                                                          Continued on the next page




 232              SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                                 APPENDICES




ACRONYM OR
ABBREVIATION      DEFINITION
USAAA             U.S. Army Audit Agency
USACE             U.S. Army Corps of Engineers
USAID             U.S. Agency for International Development
USAID OIG         USAID Office of the Inspector General
USDA              U.S. Department of Agriculture
USFOR-A           U.S. Forces-Afghanistan
USIP              U.S. Institute for Peace
USWFD             Afghanistan University Support and Workforce Development Program
UXO               unexploded ordnance
VAT               value-added tax
VSO               Village Stability Operations
WIA               wounded in action
WPS               Worldwide Protection Services
WTO               World Trade Organization




REPORT TO THE UNITED STATES CONGRESS             I   JULY 30, 2014                   233
                                                            ENDNOTES




1	     The World Bank, Afghanistan in Transition: Looking Beyond             18 	 Government of the Islamic Republic of Afghanistan, Towards
       2014, Volume 1: Overview, May 2012, p. 1. The Bank noted                   Self-Reliance: Strategic Vision for the Transformation Decade,
       that only some small entities like Liberia, Gaza, and the West             prepared for Tokyo Conference on Afghanistan, 7/8/2012, p. 6.
       Bank had at times surpassed Afghanistan in aid per capita.            19 	 USAID, ODG, response to SIGAR data call, 6/30/2014.
2	     Ministry of Finance, Afghanistan, 1393 National Budget, http://       20 	 World Bank and Afghan MOF, Transition in Afghanistan:
       www.budgetmof.gov.af/images/stories/DGB/BPRD/National%20                   Looking Beyond 2014, presentation, 11/21/2011, http://sit-
       Budget/1393/1393%20National%20Budget_English_Final.pdf, p.                 eresources.worldbank.org/INTAFGHANISTAN/Resources/
       7, accessed 5/5/2014.                                                      AFBeyond2014.pdf, slide 2.
3	     IMF, Islamic Republic of Afghanistan: 2014 Article IV Consultation–   21 	 Nader Nadery, Director, Afghanistan Research and Evaluation
       Staff Report, Country Report No. 14/128, 5/2014, p. 14.                    Unit, in Council on Foreign Relations, “Expert Roundup:
4	     Ministry of Finance, Afghanistan, 1393 National Budget, http://            Prospects for Afghanistan in 2014,” 12/18/2013, http://www.cfr.
       www.budgetmof.gov.af/images/stories/DGB/BPRD/National%20                   org/afghanistan/prospects-afghanistan-2014/p32094, accessed
       Budget/1393/1393%20National%20Budget_English_Final.pdf, pp.                5/16/2014.
       6, 8, accessed 5/5/2014.                                              22 	 CSIS, “The Post-Election Challenges to Afghan Transition: 2014-
5	     UN Security Council, Security Council Presidential Statement               2015,” presentation deck by Anthony H. Cordesman, version of
       Welcomes Bonn Declaration of ‘Transition Process’,                         5/18/2014, slide 6.
       ‘Transformation Decade’ for Afghanistan, 12/19/2011.                  23 	 Pew Research Center for the People and the Press, “More
6	     The World Bank, Afghanistan: Transition to Transformation                  Now See Failure than Success in Iraq, Afghanistan,”
       Update, slide deck from Joint Coordination and Monitoring                  1/30/2014, http://www.people-press.org/2014/01/30/
       Board meeting, slide 11, 1/29/2014.                                        more-now-see-failure-than-success-in-iraq-afghanistan/.
7	     CNA Center for Strategic Studies, Independent Assessment of           24 	 Professor Thomas J. Scotto et al., “Age and Foreign Policy
       the Afghan National Security Forces, 1/2014, p. 3.                         Beliefs: Differences that Count?” Political Insight, Political
8	     CNA Center for Strategic Studies, Independent Assessment of                Studies Association (UK), http://www.psa.ac.uk/insight-plus/
       the Afghan National Security Forces, 1/2014, p. i.                         blog/age-and-foreign-policy-beliefs-differences-count, 4/29/2014,
9	     CNA Center for Strategic Studies, Independent Assessment of                accessed 6/13/2014.
       the Afghan National Security Forces, 1/2014, p. 4.                    25 	 Reuters, “Four in five Germans want fewer foreign
10 	   Professor Stanley Hoffmann (Harvard University), “Final                    military missions: poll,” 5/20/2014, http://www.reuters.
       Remarks on the Marshall Plan,” in Stanley Hoffmann and                     com/article/2014/05/20/us-germany-foreignpolicy-idUS-
       Charles Maier, editors, The Marshall Plan: A Retrospective                 BREA4J07620140520, accessed 6/13/2014.
       (Westview Press, 1984), p. 91.                                        26 	 Ministry of Finance, Afghanistan, Tokyo Mutual Accountability
11 	   Congressional Research Service, Report 97-62, The Marshall                 Framework: Senior Officials Meeting Joint Report, 7/3/2013, p. 14.
       Plan: Design, Accomplishments, and Relevance to the Present,          27 	 IMF Country Report No. 14/128, Islamic Republic of Afghanistan:
       1/6/1997, summary, p. 8.                                                   2014 Article IV Consultation–Staff Report, 5/2014, p. 14.
12 	   Revised funding data have increased FY2002–FY2014 recon-              28 	 Asian Development Bank, Asian Development Outlook 2014:
       struction totals by nearly a billion dollars from the previously           Fiscal Policy for Inclusive Growth, 2014, p. xix.
       reported $103.2 billion, increasing the inflation-adjusted excess     29 	 Ehtisham Ahmad, London School of Economics and University
       of Afghan-reconstruction funding over Marshall Plan outlays.               of Bonn Center for Development Research, “Public Finance
13 	   SIGAR calculations based on year-end GDP deflator values,                  Underpinnings for Infrastructure Financing in Developing
       1948–1951 and 2002–2013, posted by the Federal Reserve Bank                Countries,” paper prepared for the G24 conference, February
       of St. Louis, http://research.stlouisfed.org/fred2/series/GDPDEF,          2014, http://g24.org/wp-content/uploads/2014/03/Public-Finance-
       accessed 5/28/2014. The GDP Deflator is less widely publicized             and-Infrastructure_23Feb_2014.pdf, pp. 9–10.
       than the Consumer Price Index (CPI), but is a broader mea-            30 	 Central Intelligence Agency, World Factbook, https://www.
       sure of inflation because, for example, the CPI does not track             cia.gov/library/publications/the-world-factbook/geos/af.html,
       prices of government purchases. See Bureau of Labor Statistics,            accessed 7/3/2014.
       “Consumer Price Index: Frequently Asked Questions,” http://           31 	DOD, Report on Progress Toward Security and Stability in
       stats.bls.gov/cpi/cpifaq.htm#Question_12, accessed 6/4/2014.               Afghanistan (also known as “The 1230 Report” after the section
14 	   The World Bank, Afghanistan: Transition to Transformation                  of statute that requires it), report to Congress, 11/2013, p. 85.
       Update, slide deck from Joint Coordination and Monitoring             32 	 Ministry of Finance, Afghanistan, “Revenue Department,” http://
       Board meeting, slide 5, 1/29/2014.                                         mof.gov.af/en/page/422, undated, accessed 5/15/2014.
15 	   The World Bank, Afghanistan in Transition: Looking Beyond             33 	 The World Bank, Afghanistan Economic Update, 10/2013, p. 16.
       2014, Volume 1: Overview, May 2012, p. 1. The Bank noted              34 	 IMF, “Transcript of a Conference Call on Afghanistan Article IV
       that only some small entities like Liberia, Gaza, and the West             Consultation” with Paul Ross, Mission Chief for Afghanistan,
       Bank had at times surpassed Afghanistan in aid per capita.                 Middle East and Central Asia Department, Washington, D.C.,
16 	   Asian Development Bank, Asian Development Outlook 2014,                    5/21/2014, https://www.imf.org/external/np/tr/2014/tr052114.htm,
       “Afghanistan,” 4/2014, p. 156.                                             accessed 6/30/2014.
17 	   Aqib Aslam et al., “Afghanistan: Balancing Social and Security        35 	 The World Bank, Afghanistan: From Transition to
       Spending in the Context of Shrinking Resource Envelope,” IMF               Transformation II, slide deck for Senior Officials Meeting, slide
       Working Paper WP/13/133, 5/2013, pp. 5–6.                                  8, 7/2/2013.




                                                     234                     SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                            ENDNOTES




36 	   State, response to SIGAR data call, 7/3/2014; State, response to     54 	DOD, Report on Progress Toward Security and Stability in
       SIGAR data call, 9/26/2013.                                               Afghanistan, semiannual report to Congress, 12/2013, p. 87.
37 	   The World Bank, Afghanistan: From Transition to                      55 	 The International Finance Corporation and World Bank “Ease of
       Transformation II, slide deck for Senior Officials Meeting, slide         Doing Business Index” helps explain why Afghanistan attracts
       9, 7/2/2013.                                                              little business investment. Afghanistan gets a relatively high IFC/
38 	   Trading Economics, “Afghanistan Exports,” reporting Afghan                WB mark—24th among 189 world economies—for ease of start-
       Central Statistical Organization data, http://www.tradingeco-             ing a business. But no other ranking rises higher than 98th (paying
       nomics.com/afghanistan/exports, accessed 7/8/2014.                        taxes), and some are at or near the bottom of the scale, including
39 	   CIA World Factbook, “Afghanistan,” https://www.cia.gov/                   dealing with construction permits (167th), enforcing contracts
       library/publications/the-world-factbook/geos/af.html, 6/24/2014,          (168th), and protecting investors (189th). Source: The International
       accessed 7/1/2014.                                                        Finance Corporation and The World Bank, “Ease of Doing Business
40 	   GAO testimony GAO-11-867T, Value-Added Taxes: Potential                   in Afghanistan,” 2014 edition, http://www.doingbusiness.org/data/
       Lessons for the United States from Other Countries’                       exploreeconomies/afghanistan/, accessed 7/21/2014.
       Experiences, 7/26/2011, p. 2.                                        56 	 See Appendix B of this report.
41 	   Randall G. Holcombe, “The Value Added Tax: Too Costly for the        57 	 DOD, response to SIGAR vetting, 7/20/2009.
       United States,” Mercatus Center Working Paper, George Mason          58 	 OMB, “Amendments to the President’s Fiscal Year (FY) 2015
       University, 6/2010, p. 1.                                                 Overseas Contingency Operations (OCO) Request for the
42 	   IMF, “Statement by an IMF Mission on Afghanistan,” press                  Department of Defense (DOD) and the Department of State and
       release No. 13/36, 2/4/2013.                                              Other International Programs (State/OIP),” 6/26/2014; State,
43 	   USAID, Assistance to Legislative Bodies of Afghanistan (ALBA)             response to SIGAR data call, 4/15/2014, OMB, request to SIGAR
       worksheet, “Legislation Approved,” 6/2014.                                data call, 7/16/2014.
44 	   IMF Country Report No. 14/128, Islamic Republic of                   59 	 Pub. L. 111-32, 6/24/2009.
       Afghanistan: 2014 Article IV Consultation–Staff Report, 5/2014,      60 	 DOD, response to SIGAR vetting, 7/20/2009.
       p. 27.                                                               61 	 Pub. L. 112-74, Section 9009, 12/23/2011; Deputy Secretary of
45 	   Ministry of Finance, Afghanistan, Office of the Deputy Minister           Defense, “Afghanistan Resources Oversight Council (AROC)
       for Administration, First Quarter Performance Report 1393 On              memorandum,” 8/3/2011.
       Strategic Plan, 11 Jawza 1393 (6/1/2014), p. 3.                      62 	 See Appendix B of this report.
46 	   European Commission, Tax reforms in EU Member States 2013:           63 	 DOD, response to SIGAR data call, 7/17/2014.
       Tax policy challenges for economic growth and fiscal sustain-        64 	 DOD, responses to SIGAR data call, 7/17/2014 and 4/15/2014.
       ability, 5/2013, p. 88.                                              65 	 DOD OIG, Distribution of Funds and the Validity of
47 	   GAO testimony GAO-11-867T, Value-Added Taxes: Potential                   Obligations for the Management of the Afghanistan Security
       Lessons for the United States from Other Countries’                       Forces Fund - Phase I, Report No. D-2008-012, 11/5/2007, p. 2.
       Experiences, 7/26/2011, abstract.                                    66 	 Pub. L. 112-74, Section 9009 and Deputy Secretary of Defense,
48 	   European Commission, Tax reforms in EU Member States 2013:                Afghanistan Resources Oversight Council (AROC) memoran-
       Tax policy challenges for economic growth and fiscal sustain-             dum, 8/3/2011.
       ability, 5/2013, p. 27.                                              67 	 DOD, response to SIGAR data call, 7/17/2014.
49 	   Andrews M.C. Smith et al., “Consumption Taxes in Developing          68 	 DOD, response to SIGAR data call, 7/17/2014.
       Countries—The Case of the Bangladesh VAT,” Centre for                69 	 DOD, “Commanders’ Emergency Response Program (CERP),” DOD
       Accounting, Governance and Taxation Research, Victoria                    Financial Management Regulation Vol. 12, Ch. 27, 1/2009, p. 27-3.
       University of Wellington (New Zealand) Research Working              70 	 USFOR-A, “Commander’s Emergency Response Program (CERP)
       Paper No. 82, 12/2011, pp. 3–5.                                           SOP,” USFOR-A Pub 1-06, 2/2011, p. 35; Pub. L. 112-74, 12/23/2011.
50 	   Nadeem Uz Zaman (Balochistan University) et al., “The impli-         71 	 See Appendix B of this report.
       cations of the value added tax in Pakistan: administration,          72 	 DOD, response to SIGAR data call, 7/17/2014.
       experiences and fears,” 3/2012, p. 6, posted at the Social Science   73 	 Pub. L. 112-74, Section 9009 and Deputy Secretary of Defense,
       Research Network, http://ssrn.com/abstract=2017848.                       Afghanistan Resources Oversight Council (AROC) memoran-
51 	   Department for International Development, UK Foreign                      dum, 8/3/2011; U.S. Senate Committee on Armed Services,
       Ministry, “Tax Administration Project, Afghanistan,” annual               press release, “Senate Passes Ike Skelton National Defense
       review, posted to International Aid Transparency Initiative con-          Authorization Act for Fiscal Year 2011,” 12/22/2010.
       sortium website, iati.dfid.gov.uk/iati_documents/4393215.docx,       74 	 See Appendix B of this report.
       February 2014, accessed 6/12/2014.                                   75 	 DOD, responses to SIGAR data call, 7/18/2014 and 7/17/2014;
52 	   Department for International Development, UK Foreign                      DFAS, response to SIGAR data call, 7/17/2014.
       Ministry, “Tax Administration Project, Afghanistan,” annual          76 	 DOD, responses to SIGAR data call, 7/18/2014 and 7/17/2014;
       review, posted to International Aid Transparency Initiative con-          “AR(M) 1002 Appropriation Status by FY Program and
       sortium website, iati.dfid.gov.uk/iati_documents/4393215.docx,            Subaccounts March 2014,” 4/16/2014; Department of the Army,
       2/2014, accessed 6/12/2014.                                               “Modification to Solicitation Number: W912ER-14-R-0019,”
53 	   International Monetary Fund, “Program Note: Islamic Republic              6/19/2014, https://www.fbo.gov/ndex?s=opportunity&mode=for
       of Afghanistan,” http://www.imf.org/external/np/country/notes/            m&tab=core&id=c9ef8f390fc2cc11d1b61fcecbb6f0da&_cviec=0,
       afghanistan,htm, 4/8/2014, accessed 5/15/2014.                            accessed 7/18/2014.




REPORT TO THE UNITED STATES CONGRESS            I   JULY 30, 2014                         235
                                                          ENDNOTES




77 	  TFBSO, “About TFBSO,” accessed 10/20/2011; DOD, response             106 	 UN Security Council, The Situation in Afghanistan and its impli-
      to SIGAR data call, 7/22/2011.                                             cations for international peace and security, 6/18/2014, p. 3.
78 	 See Appendix B of this report.                                        107 	DOD, Progress Toward Security and Stability in Afghanistan,
79 	 DOD, response to SIGAR data call, 7/8/2014.                                 4/2014, p. 9.
80 	 DOD, “Drug Interdiction and Counter-Drug Activities,                  108 	 U.S. SASC, “Advance Policy Questions for General John F.
      Defense FY 2009 Supplemental Request Drug Interdiction and                 Campbell, USA, Nominee to Commander, International Security
      Counterdrug Activities,” accessed 4/13/2010.                               Assistance Force and Commander, United States Forces
81 	 DOD OIG, Independent Auditor’s Report on the DOD FY                         Afghanistan,” 7/10/2014.
      2011 Detailed Accounting Report of the Funds Obligated for           109 	 DOD, “Justification for FY 2015 Overseas Contingency
      National Drug Control Program Activities, Report No. DODIG-                Operations, Afghanistan Security Forces Fund (ASFF),” 6/2014;
      2012-04, 1/30/2012.                                                        P.L. 113-76, 1/17/2014.
82 	 DOD, responses to SIGAR data call, 7/3/2014 and 4/16/2014.            110 	 DOD, “Justification for FY 2015 Overseas Contingency
83 	 USAID, “U.S. Foreign Assistance Reference Guide,” 1/2005, p. 6.             Operations, Afghanistan Security Forces Fund (ASFF),” 6/2014.
84 	 USAID, response to SIGAR data call 7/10/2014; State, responses        111 	 DOD, “Justification for FY 2015 Overseas Contingency
      to SIGAR data call, 4/15/2014 and 6/27/2013.                               Operations, Afghanistan Security Forces Fund (ASFF),” 6/2014.
85 	 USAID, responses to SIGAR data call, 7/10/2014 and 4/7/2014.          112 	 DOD, “Justification for FY 2015 Overseas Contingency
86 	 State, response to SIGAR data call, 10/13/2009.                             Operations, Afghanistan Security Forces Fund (ASFF),” 6/2014.
87 	 State, responses to SIGAR data call, 7/16/2014, 4/15/2014,            113 	DOD, Progress Toward Security and Stability in Afghanistan,
      4/11/2014, and 6/27/2013.                                                  4/2014.
88 	 State, responses to SIGAR data call, 7/16/2014 and 4/11/2014.         114 	 The Wall Street Journal, “Afghanistan Vote Signals Smoother
89 	SIGAR, Quarterly Report to the U.S. Congress, 7/30/2010, p. 51.              Relations with U.S.,” 4/7/2014.
90 	 World Bank, “ARTF: Administrator’s Report on Financial Status         115 	 U.S. Embassy Kabul, “Afghan Media Summary,” 7/9/2014.
      as of June 21, 2014 (end of 6th month of FY 1393),” p. 5.            116 	SIGAR, Quarterly Report to the U.S. Congress, 4/30/2013, p. 90.
91 	 World Bank, “ARTF: Administrator’s Report on Financial Status         117 	 CSTC-A, response to SIGAR data call, 7/1/2014; DOD response
      as of June 21, 2014 (end of 6th month of FY 1393),” p. 1.                  to SIGAR vetting, 7/11/2014.
92 	 World Bank, “ARTF: Administrator’s Report on Financial Status         118 	 CSTC-A, responses to SIGAR data calls, 3/31/2014 and 7/1/2014.
      as of June 21, 2014 (end of 6th month of FY 1393),” p. 5.            119 	 CSTC-A, response to SIGAR data call, 7/1/2014.
93 	 World Bank, “Quarterly Country Update: Afghanistan,” 4/2011, p. 16.   120 	 CSTC-A, response to SIGAR data call, 7/1/2014.
94 	 World Bank, “ARTF: Administrator’s Report on Financial Status         121 	 CSTC-A, response to SIGAR data call, 7/1/2014.
      as of June 21, 2014 (end of 6th month of FY 1393),” p. 7.            122 	 CSTC-A, response to SIGAR data call, 7/1/2014.
95 	 World Bank, “Quarterly Country Update: Afghanistan,” 4/2011, p. 16.   123 	 CSTC-A, response to SIGAR data call, 7/1/2014.
96 	 World Bank, “ARTF: Administrator’s Report on Financial Status         124 	 CSTC-A, response to SIGAR data call, 7/1/2014.
      as of June 21, 2014 (end of 6th month of FY 1393),” p. 7.            125 	 CSTC-A, response to SIGAR data call, 7/1/2014.
97 	 EC, “Afghanistan: State of Play, January 2011,” 3/31/2011, p. 7.      126 	 CSTC-A, response to SIGAR data call, 7/1/2014.
98 	 UNDP, “Law and Order Trust Fund for Afghanistan (LOTFA) 2014          127 	 CSTC-A, response to SIGAR data call, 7/1/2014.
      First Quarter Project Progress Report,” 6/9/2014, p. 28; SIGAR       128 	 ISAF News, “Denmark ends mission in Afghanistan,” 5/21/2014.
      analysis of UNDP’s quarterly and annual LOTFA reports, 7/16/2014.    129 	 ISAF News, “Romania ends combat mission in Afghanistan with
99 	 UNDP, “Law and Order Trust Fund for Afghanistan (LOTFA)                     visit from Prime Minister,” 6/30/2014.
      2013 Annual Project Progress Report,” 5/6/2014, p. 6; UNDP,          130 	 UN Security Council, The Situation in Afghanistan and its impli-
      “Law and Order Trust Fund for Afghanistan (LOTFA) 2013 First               cations for international peace and security, 6/18/2014, p. 4.
      Quarterly Project Progress Report,” 6/23/2013, p. 1.                 131 	 UN Security Council, The Situation in Afghanistan and its impli-
100 	 UNDP, “Law and Order Trust Fund for Afghanistan (LOTFA)                    cations for international peace and security, 6/18/2014, p. 4.
      2014 First Quarter Project Progress Report,” 6/9/2014, p. 28;        132 	 UN Security Council, The Situation in Afghanistan and its impli-
      SIGAR analysis of UNDP’s quarterly and annual LOTFA reports,               cations for international peace and security, 6/18/2014, p. 4.
      7/16/2014.                                                           133 	 UNAMA, “Afghanistan Midyear Report on Protection of
101 	 UNDP, “Law and Order Trust Fund for Afghanistan (LOTFA)                    Civilians in Armed Conflict: 2014,” 7/2014.
      2014 First Quarter Project Progress Report,” 6/9/2014, p. 28;        134 	 UNAMA, “Number of Afghan civilian casualties rises by 24 per-
      SIGAR analysis of UNDP’s quarterly and annual LOTFA reports,               cent,” 7/9/2014.
      7/16/2014.                                                           135 	 UNAMA, “Afghanistan Midyear Report on Protection of
102 	 DOD, response to SIGAR data call, 7/17/2014.                               Civilians in Armed Conflict: 2014,” 7/2014.
103 	 The White House, “Statement by the president on Afghanistan,”        136 	 UN Security Council, The Situation in Afghanistan and its
      5/27/2014; USFOR-A, response to SIGAR data call, 7/3/2014.                 implications for international peace and security, 6/18/2014,
104 	 The White House, “Statement by the president on Afghanistan,”              p. 4.
      5/27/2014; USFOR-A, response to SIGAR data call, 7/3/2014.           137 	 ISAF, “International Security Assistance Force”, 6/1/2014.
105 	 UN Security Council, The Situation in Afghanistan and its            138 	 Defense News, “U.S. to Reduce Afghanistan Troop Levels,”
      implications for international peace and security, 6/18/2014,              5/27/2014.
      p. 4; The Washington Post, “Afghans concerned about plan to          139 	 DOD, Operation Enduring Freedom U.S. Casualty Status,
      remove U.S. troops in 2016,” 5/29/2014.                                    7/3/2014.




                                                    236                    SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                         ENDNOTES




140 	 “Memo USFOR-A-TF 2010-CC, “Operational Contract Support           170 	 IJC, “June 2014 RASR Status Report,” Executive Summary,
      Oversight and Management Post-Shura Notes,” 1/31/2012, pro-             6/1/2014.
      vided to SIGAR. The memo by Brigadier General Ross E. Ridge       171 	 IJC, “June 2014 RASR Status Report,” Executive Summary,
      describes a January 19–20, 2012, conference at New Kabul                6/1/2014.
      Compound among DOD leaders, CENTCOM, contracting agen-            172 	 IJC, “June 2014 RASR Status Report,” Executive Summary,
      cies, ISAF Joint Command, and USFOR-A.                                  6/1/2014.
141 	SIGAR, Quarterly Report to the U.S. Congress, 4/30/2014, pp.       173 	 IJC, “March 2014 RASR Status Report,” Executive Summary,
      89–90.                                                                  4/9/2014; IJC, “June 2014 RASR Status Report,” Executive
142 	 DOD, response to SIGAR data call, 7/10/2014.                            Summary, 6/1/2014; SIGAR RASR Analysis, 7/3/2014.
143 	 CSTC-A, response to SIGAR data call, 6/30/2014.                   174 	 The Washington Post, “U.S. commander in Afghanistan warns
144 	DOD, Progress Toward Security and Stability in Afghanistan,              that full withdrawal will allow al-Qaeda to regroup,” 3/12/2014.
      12/2012, p. 56.                                                   175 	 NTM-A, response to SIGAR data call, 6/30/2014.
145 	 CSTC-A, response to SIGAR data call, 7/2/2012.                    176 	 NTM-A, response to SIGAR data call, 6/30/2014.
146 	 CSTC-A, response to SIGAR data call, 10/1/2012.                   177 	 NTM-A, response to SIGAR data call, 6/30/2014.
147 	 CSTC-A, response to SIGAR data call, 7/1/2014.                    178 	 NTM-A, response to SIGAR data call, 10/12/2012.
148 	 CSTC-A, response to SIGAR vetting, 4/10/2014.                     179 	 NTM-A, response to SIGAR vetting, 7/11/2014.
149 	 DOD OIG, DODIG-2012-058, Distribution of Funds and                180 	 LTG William B. Caldwell IV, “Security, Capacity, and Literacy,”
      Mentoring of Finance Officers for the Afghanistan National              Military Review, January-February 2011, p. 23.
      Army Payroll Need Improvement, 2/2012, p. 8.                      181 	 SIGAR, Audit Report 14-30, Afghan National Security Forces:
150 	 CSTC-A, response to SIGAR data call, 6/30/2014.                         Despite Reported Successes, Concerns Remain about Literacy
151 	 Center for Naval Analyses, “Independent Assessment of the               Program Results, Contract Oversight, Transition, and
      Afghan National Security Forces,” 1/24/2014, p. 29.                     Sustainment, 1/28/2014.
152 	 IJC, response to SIGAR data call, 9/30/2013                       182 	 NTM-A, response to SIGAR data call, 6/30/2014.
153 	 IJC, response to SIGAR data call, 6/1/2014.                       183 	 NTM-A, response to SIGAR data call, 6/30/2014.
154 	 IJC, response to SIGAR data call, 9/30/2013.                      184 	 NTM-A, response to SIGAR data call, 6/30/2014; NTM-A,
155 	 IJC, response to SIGAR data call, 9/30/2013.                            response to SIGAR vetting, 7/11/2014.
156 	 SIGAR, Audit Report 14-33, Afghan National Security Forces:       185 	 SIGAR, Audit Report 14-30, Afghan National Security Forces:
      Actions Needed to Improve Plans for Sustaining Capability               Despite Reported Successes, Concerns Remain about Literacy
      Assessments Efforts, 2/5/2014.                                          Program Results, Contract Oversight, Transition, and
157 	 IJC, response to SIGAR data call, 6/1/2014.                             Sustainment, 1/28/2014.
158 	 IJC, response to SIGAR vetting, 7/11/2014.                        186 	 NTM-A, response to SIGAR vetting, 7/11/2014.
159 	 IJC, response to SIGAR data call, 6/1/2014.                       187 	 NTM-A, response to SIGAR vetting, 7/11/2014.
160 	 Last quarter reported 83% based on all brigades versus only the   188 	 CSTC-A, responses to SIGAR data call, 7/1/2014 and 7/3/2014.
      number of assessed brigades.                                      189 	 CSTC-A, responses to SIGAR data call, 3/31/2014 and 7/1/2014.
161 	 IJC, “March 2014 RASR Status Report,” Executive Summary,          190 	 CSTC-A, responses to SIGAR data call, 3/31/2014 and 7/3/2014.
      4/9/2014; IJC, “6/2014 Regional ANSF Status Report,” Executive    191 	 CSTC-A, responses to SIGAR data call, 3/31/2014 and 7/3/2014.
      Summary, 6/1/2014; SIGAR RASR Analysis, 7/3/2014.                 192 	 USIP Special Report 322, Police Transition in Afghanistan, 2/2013.
162 	 IJC, “March 2014 RASR Status Report,” Executive Summary,          193 	 NSOCC-A, response to SIGAR data call, 6/30/2014.
      4/9/2014; IJC, “6/2014 Regional ANSF Status Report,” Executive    194 	 NSOCC-A, response to SIGAR data call, 6/30/2014.
      Summary, 6/1/2014; SIGAR RASR Analysis, 7/3/2014.                 195 	 NSOCC-A, response to SIGAR data call, 6/30/2014.
163 	 IJC, “June 2014 Regional ANSF Status Report,” Executive           196 	 NSOCC-A, “Public Perceptions of the ALP December 2013
      Summary, 6/1/2014.                                                      Focus Group Findings,” 3/2014.
164 	 IJC, “March 2014 RASR Status Report,” Executive Summary,          197 	 NSOCC-A, “Public Perceptions of the ALP December 2013
      4/9/2014, p. 2; IJC, “6/2014 Regional ANSF Status Report,”              Focus Group Findings,” 12/2013.
      Executive Summary, 6/1/2014.                                      198 	 NSOCC-A, “Public Perceptions of the ALP December 2013
165 	 IJC, “June 2014 Regional ANSF Status Report,” Executive                 Focus Group Findings,” 3/2014.
      Summary, 6/1/2014.                                                199 	 DOD, response to SIGAR data call, 4/15/2014.
166 	 Last quarter reported 71% based on all brigades versus only the   200 	 CSTC-A, response to SIGAR data call, 7/1/2014.
      number of assessed brigades.                                      201 	 CSTC-A, responses to SIGAR data calls, 1/6/2014, 3/31/2014, and
167 	 IJC, December 2013 Regional ANSF Status Report, Executive               7/1/2014.
      Summary, 12/1/2013; IJC, “March 2014 RASR Status Report,”         202 	 Center for Naval Analyses, “Independent Assessment of the
      Executive Summary, 4/9/2014; IJC, “June 2014 RASR Status                Afghan National Security Forces,” 1/24/2014, p. 28.
      Report,” Executive Summary, 6/1/2014; SIGAR RASR Analysis,        203 	 Center for Naval Analyses, “Independent Assessment of the
      7/3/2014.                                                               Afghan National Security Forces,” 1/24/2014, p. 28.
168 	 IJC, “June 2014 Regional ANSF Status Report,” Executive           204 	 CSTC-A, response to SIGAR data call, 7/1/2014; SIGAR ANA
      Summary, 6/1/2014.                                                      Analysis, 7/3/2014.
169 	 IJC, “June 2014 Regional ANSF Status Report,” Executive           205 	 The Guardian, “Afghan forces suffering too many casualties,
      Summary, 6/1/2014.                                                      says top NATO commander,” 9/2/2013.




REPORT TO THE UNITED STATES CONGRESS         I   JULY 30, 2014                        237
                                                           ENDNOTES




206 	 DOD, response to SIGAR data call, 7/17/2014.                          251 	 CSTC-A, response to SIGAR data call, 7/1/2014.
207 	 CSTC-A, response to SIGAR data call, 7/1/2014; CSTC-A                 252 	 CSTC-A, response to SIGAR data call, 7/1/2014.
      response to SIGAR vetting, 7/11/2014.                                 253 	 CSTC-A, response to SIGAR data call, 7/1/2014.
208 	 CSTC-A, response to SIGAR data call, 10/1/2013.                       254 	 CSTC-A, responses to SIGAR data calls, 7/1/2014 and 4/3/2014.
209 	 CSTC-A, response to SIGAR data call, 12/30/2013.                      255 	 CSTC-A, response to SIGAR data call, 4/3/2014.
210 	 CSTC-A, responses to SIGAR data calls, 3/31/2014 and 7/1/2014.        256 	 DOD, response to SIGAR data call, 7/17/2014.
211 	 DOD, response to SIGAR data call, 7/17/2014.                          257 	 CSTC-A, response to SIGAR data call, 6/30/2014.
212 	 CSTC-A, response to SIGAR data call, 7/1/2014.                        258 	 CSTC-A, response to SIGAR data call, 7/1/2014.
213 	 DOD, response to SIGAR data call, 7/17/2014.                          259 	 CSTC-A, responses to SIGAR data calls, 10/1/2013 and 3/31/2014.
214 	 CSTC-A, response to SIGAR data call, 7/1/2014.                        260 	 CSTC-A, response to SIGAR data call, 7/1/2014.
215 	 CSTC-A, responses to SIGAR data calls, 4/3/2014 and 7/1/2014;         261 	 CSTC-A, response to SIGAR data call, 7/1/2014.
      CSTC-A response to SIGAR vetting, 4/10/2014.                          262 	 CSTC-A, responses to SIGAR data calls, 3/31/2014 and 7/1/2014.
216 	 CSTC-A, response to SIGAR data call, 7/1/2014.                        263 	 CSTC-A, response to SIGAR data call, 7/1/2014.
217 	 CSTC-A, responses to SIGAR data calls, 7/1/2014 and 4/3/2014.         264 	 Pub. L. 113-66, National Defense Authorization Act for Fiscal
218 	 DOD, “Justification for FY 2015 Overseas Contingency                        Year 2014, Legislative Text and Joint Explanatory Statement to
      Operations, Afghanistan Security Forces Fund (ASFF),” 6/2014.               Accompany H.R. 3304, p. 273.
219 	 DOD, response to SIGAR data call, 7/17/2014.                          265 	 CSTC-A, responses to SIGAR data calls, 3/31/2014 and 6/30/2014.
220 	 CSTC-A, response to SIGAR data call, 6/30/2014.                       266 	 CSTC-A, response to SIGAR data call, 6/30/2014.
221 	 CSTC-A, response to SIGAR data call, 6/30/2014.                       267 	 CSTC-A, responses to SIGAR data calls, 3/31/2014 and 6/30/2014.
222 	 CSTC-A, response to SIGAR data call, 6/30/2014.                       268 	 CSTC-A, response to SIGAR data call, 3/31/2014 and 6/30/2014.
223 	 CSTC-A, response to SIGAR data call, 6/30/2014.                       269 	 CSTC-A, response to SIGAR data call, 6/30/2014; NTM-A,
224 	 CSTC-A, response to SIGAR data call, 6/30/2014.                             response to SIGAR vetting, 7/11/2014.
225 	 CSTC-A, response to SIGAR data call, 6/30/2014.                       270 	 State, PM/WRA, response to SIGAR data call, 6/30/2014.
226 	 P.L. 113-66, National Defense Authorization Act for Fiscal Year       271 	 State, PM/WRA, response to SIGAR data call, 6/30/2014.
      2014, p. 938.                                                         272 	 State, PM/WRA, response to SIGAR data call, 6/30/2014.
227 	 NATC-A, responses to SIGAR data calls, 7/1/2014 and 4/2/2014;         273 	 State, PM/WRA, response to SIGAR data call, 6/30/2014.
      NAC-A, response to SIGAR vetting, 7/11/2014.                          274 	 State, PM/WRA, response to SIGAR data call, 6/30/2014.
228 	 NATC-A, responses to SIGAR data calls, 7/1/2014 and 7/8/2014;         275 	 State, PM/WRA, response to SIGAR data call, 6/30/2014.
      NAC-A. response to SIGAR vetting, 7/11/2014; NSOCC-A,                 276 	 See Appendix B of this report; DEA, response to SIGAR vetting,
      response to SIGAR data call, 6/30/2014.                                     7/22/2014.
229 	 NATC-A, response to SIGAR data call, 7/8/2014.                        277 	CRS, International Drug Control Policy: Background and
230 	DOD, Progress Toward Security and Stability in Afghanistan, 4/2014.          U.S. Responses, 8/13/2013, p.19; CRS, International Drug
231 	 NSOCC-A, response to SIGAR data call, 6/30/2014.                            Control Policy: Background and U.S. Responses, 8/13/2013,
232 	 SIGAR Audit 13-3, Afghan Special Missions Wing: DOD                         p. 19; Government Accountability Office, Afghanistan Drug
      Moving Forward With $771.8 Million Purchase of Aircraft                     Control: Strategy Evolving and Progress Reported, but Interim
      that the Afghans Cannot Operate or Maintain, 6/28/2013.                     Performance Targets and Evaluation of Justice Reform Efforts
233 	 The Wall Street Journal, “Taliban Rocket Attack on Kabul Airport            Needed, 3/2010, pp. 1, 10–11.
      Damages Military Aircraft,” 7/3/2014; The Washington Post, “Suicide   278 	 DOD, response to SIGAR data call, 3/28/2014; State, INL,
      bomber kills eight Afghan air force personnel in Kabul,” 7/2/2014.          International Narcotics Control Strategy Report, Volume I:
234 	 Center for Naval Analyses, “Independent Assessment of the                   Drug and Chemical Control, 3/2014, pp. 89–90; DOD, Progress
      Afghan National Security Forces,” 1/24/2014, p. 28.                         toward Security and Stability in Afghanistan, 4/2014, p. 82.
235 	 DOD, response to SIGAR data call, 7/17/2014.                          279 	UNODC, World Drug Report, 6/ 2014.
236 	 CSTC-A, response to SIGAR data call, 7/1/2014.                        280 	 State, INL, International Narcotics Control Strategy Report,
237 	 CSTC-A, response to SIGAR data call, 7/1/2014.                              Volume I: Drug and Chemical Control, 3/2014, p. 89; State,
238 	 CSTC-A, response to SIGAR data call, 7/1/2014.                              response to SIGAR vetting, 7/11/2014.
239 	 DOD, response to SIGAR data call, 7/17/2014.                          281 	UNODC, World Drug Report, 6/2014.
240 	 CSTC-A, response to SIGAR data call, 3/31/2014.                       282 	 DOD, response to SIGAR data call, 7/3/2014; State, INL,
241 	 CSTC-A, response to SIGAR data call, 7/1/2014.                              response to SIGAR data call, 7/9/2014.
242 	 CSTC-A, response to SIGAR data call, 7/1/2014.                        283 	 State, INL, response to SIGAR data call, 7/9/2014.
243 	 DOD, response to SIGAR data call, 7/17/2014.                          284 	UN, Fourth report of the Analytical Support and Sanctions
244 	 CSTC-A, response to SIGAR data call, 3/31/2014.                             Monitoring Team submitted pursuant to resolution 2082
245 	 CSTC-A, responses to SIGAR data call, 7/2/2013 and 10/1/2013.               (2012) concerning the Taliban and other associated individu-
246 	 CSTC-A, response to SIGAR data call, 10/1/2013.                             als and entities constituting a threat to the peace, stability
247 	 CSTC-A, response to SIGAR data call, 12/30/2013.                            and security in Afghanistan, 6/10/2014.
248 	 CSTC-A, responses to SIGAR data calls, 7/2/2013, 10/1/2013,           285 	UNODC, Impacts of Drug Use on Users and Their Families in
      12/30/2013, 3/31/2014, and 6/30/2014.                                       Afghanistan, 4/2014, pp. 7, 8.
249 	 CSTC-A, response to SIGAR data call, 7/1/2014.                        286 	UNODC, Impacts of Drug Use on Users and Their Families in
250 	 DOD, response to SIGAR data call, 7/17/2014.                                Afghanistan, 4/2014, p. 9.




                                                    238                     SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                        ENDNOTES




287 	UNODC, Impacts of Drug Use on Users and Their Families in        330 	 John Kerry, “Remarks With Head of UN Assistance Mission to
      Afghanistan, 4/2014, p. 17.                                           Afghanistan Jan Kubis, Afghan Presidential Candidate Abdullah
288 	UNODC, Impacts of Drug Use on Users and Their Families in              Abdullah, and Afghan Presidential Candidate Ashraf Ghani,”
      Afghanistan, 4/2014, p. 18.                                           7/12/2014.
289 	UNODC, Impacts of Drug Use on Users and Their Families in        331 	 John Kerry, “Remarks With Head of UN Assistance Mission to
      Afghanistan, 4/2014, p. 20.                                           Afghanistan Jan Kubis, Afghan Presidential Candidate Abdullah
290 	UNODC, Impacts of Drug Use on Users and Their Families in              Abdullah, and Afghan Presidential Candidate Ashraf Ghani,”
      Afghanistan, 4/2014, p. 21.                                           7/12/2014.
291 	 State, INL, response to SIGAR data call, 7/9/2014.              332 	 Tolo News, “After Talks, Differences Arise Over Meaning
292 	 State, INL, response to SIGAR data call, 7/9/2014.                    of ‘National Unity Government,’” 7/13/2014; The Wall Street
293 	 State, INL, response to SIGAR data call, 7/9/2014.                    Journal, “Kabul Prepares to Start Huge Audit Under Kerry
294 	 State, INL, response to SIGAR vetting, 7/11/2014. State, INL,         Deal,” 7/13/2014.
      response to SIGAR data call, 4/1/2014.                          333 	 Tolo News, “Impasse Ends, But Campaign Teams Differ on
295 	 State, INL, response to SIGAR data call, 7/9/2014.                    Terms of Agreement,’” 7/14/2014.
296 	 State, INL response to SIGAR vetting, 7/11/2014.                334 	 United Nations Security Council, The situation in Afghanistan
297 	 GIROA, MCN, Report on Poppy Eradication Verification in               and its implications for international peace and secu-
      Afghanistan, Report No. 8, 5/27/2014, p. 4.                           rity, 6/18/2014, p. 1; John Kerry, “Remarks With Head of
298 	 State, INL response to SIGAR vetting, 7/11/2014.                      UN Assistance Mission to Afghanistan Jan Kubis, Afghan
299 	 State, INL, response to SIGAR data call, 7/9/2014.                    Presidential Candidate Abdullah Abdullah, and Afghan
300 	 State, INL, response to SIGAR data call, 7/9/2014.                    Presidential Candidate Ashraf Ghani,” 7/12/2014.
301 	 State, INL, response to SIGAR data call, 7/9/2014.              335 	 USAID, ODG, response to SIGAR data call, 6/30/2014.
302 	 State, INL, response to SIGAR data call, 7/9/2014.              336 	 United Nations Secretary-General’s Special Representative for
303 	 State, INL, response to SIGAR data call, 7/9/2014.                    Afghanistan, “Briefing to Security Council,” 3/17/2014.
304 	 State, INL, response to SIGAR data call, 7/9/2014.              337 	 USAID, ODG, response to SIGAR data call, 6/30/2014.
305 	 State, INL, response to SIGAR data call, 7/9/2014; State, INL   338 	 United Nations Security Council, The situation in Afghanistan
      response to SIGAR vetting, 7/11/2014.                                 and its implications for international peace and security,
306 	 State, INL, response to SIGAR data call, 7/9/2014.                    6/18/2014, p. 3; Independent Election Commission, “Frequently
307 	 State, INL response to SIGAR vetting, 7/11/2014.                      Asked Questions: Run-Off Election,” accessed 6/27/2014.
308 	 State, INL, response to SIGAR data call, 7/9/2014.              339 	 USAID, ODG, response to SIGAR data call, 6/30/2014.
309 	 State, INL, response to SIGAR data call, 7/9/2014.              340 	 United Nations Security Council, The situation in Afghanistan
310 	 State, INL, response to SIGAR data call, 7/9/2014.                    and its implications for international peace and security,
311 	 State, INL, response to SIGAR data call, 7/9/2014.                    6/18/2014, p. 3.
312 	 State, INL response to SIGAR vetting, 7/11/2014.                341 	 Afghanistan Analysts Network, “Elections (31): Afghanistan’s
313 	 DOD, response to SIGAR data call, 7/3/2014; DOD, response to          Confusing Election Maths,” 6/19/2014; The Wall Street Journal,
      SIGAR data call, 3/28/2014.                                           “Abdullah Abdullah Alleges Bias at Afghan Election Watchdog,”
314 	 DOD, response to SIGAR data call, 7/3/2014.                           6/18/2014; United Nations Security Council, The situation in
315 	DOD, Progress toward Security and Stability in Afghanistan,            Afghanistan and its implications for international peace and
      4/2014, p. 82.                                                        security, 6/18/2014, p. 2.
316 	 State, INL, response to SIGAR data call, 7/9/2014.              342 	 USAID, ODG, response to SIGAR data call, 6/30/2014.
317 	 DOD, response to SIGAR data call, 7/3/2014.                     343 	 National Democratic Institute, “Preliminary Statement of
318 	 DOD, response to SIGAR data call, 7/3/2014; DOD, response to          the National Democratic Institute’s Election Mission for
      SIGAR vetting draft, 7/11/2014.                                       Afghanistan’s 2014 Presidential Runoff Election,” 6/16/2014, p. 1.
319 	 DOD, response to SIGAR data call, 7/3/2014.                     344 	 National Democratic Institute, “Preliminary Statement of
320 	 DOD, response to SIGAR data call, 7/3/2014.                           the National Democratic Institute’s Election Mission for
321 	 State, INL, response to SIGAR data call, 7/9/2014.                    Afghanistan’s 2014 Presidential Runoff Election,” 6/16/2014, p. 5.
322 	 DOD, response to SIGAR data call, 7/3/2014.                     345 	 Tolo News, “Ghani Leads Preliminary Results,” 7/7/2014; United
323 	 State, INL, response to SIGAR data call, 7/9/2014.                    Nations Security Council, The situation in Afghanistan and its
324 	 State, INL, response to SIGAR data call, 7/9/2014.                    implications for international peace and security, 6/18/2014,
325 	 State, INL, response to SIGAR data call, 7/9/2014.                    p. 3.
326 	 See Appendix B.                                                 346 	 The New York Times, “Tentative Results in Afghan Presidential
327 	 United Nations Security Council, The situation in Afghanistan         Runoff Spark Protests,” 7/7/2014.
      and its implications for international peace and security,      347 	 The White House, “Daily Briefing by the Press Secretary,”
      6/18/2014, pp. 1, 3.                                                  7/8/2014; The White House, “Readout of the President’s
328 	 The New York Times, “Afghan Contenders Accept Results and             Calls with Afghan Presidential Candidates Dr. Ghani and Dr.
      Move On,” 5/15/2014; Agence France-Presse, “Abdullah threat-          Abdullah,” 7/8/2014.
      ens to reject Afghan election result,” 6/19/2014.               348 	 John Kerry, “Statement on Afghanistan,” 7/7/2014.
329 	 The New York Times, “Envoy to Afghanistan and Pakistan Will     349 	 Department of State, “Afghan Elections Preliminary Run Off
      Leave Post,” 7/1/2014.                                                Results,” 7/7/2014.




REPORT TO THE UNITED STATES CONGRESS        I   JULY 30, 2014                       239
                                                       ENDNOTES




350 	 The Wall Street Journal, “Kerry Says No One Should Declare        370 	 United Nations Security Council, The situation in Afghanistan
      Afghan Election Winner,” 7/11/2014.                                     and its implications for international peace and security,
351 	 John Kerry, “Remarks With Head of UN Assistance Mission                 6/18/2014, p. 4.
      in Afghanistan (UNAMA) Jan Kubis Before Their Meeting,”           371 	 National Democratic Institute, “Preliminary Statement of
      7/11/2014.                                                              the National Democratic Institute’s Election Mission for
352 	 John Kerry, “Remarks With Head of UN Assistance Mission to              Afghanistan’s 2014 Presidential Runoff Election,” 6/16/2014, p. 4.
      Afghanistan Jan Kubis, Afghan Presidential Candidate Abdullah     372 	 European Union Election Assessment Team Afghanistan, “2nd
      Abdullah, and Afghan Presidential Candidate Ashraf Ghani,”              Round Presidential Election: Preliminary Statement,” 6/16/2014,
      7/14/2014.                                                              p. 2.
353 	 UNAMA, “Press Statement: UNAMA welcomes return of Reform          373 	 United Nations Security Council, The situation in Afghanistan
      and Partnership team to electoral process,” 7/13/2014.                  and its implications for international peace and security,
354 	 Agence France-Presse, “Afghan election audit to take three              6/18/2014, p. 13.
      weeks: official,” 7/13/2014; UNAMA, “Press Statement: UNAMA       374 	 DOD, response to SIGAR data call, 6/30/2014.
      Welcomes start of audit for Afghan Presidential election run-     375 	 State, INL, response to SIGAR data call, 7/9/2014.
      off,” 7/17/2014.                                                  376 	 State, INL, response to SIGAR vetting, 4/14/2014.
355 	 Radio Free Europe, “Afghan Presidential Transition In Crisis      377 	 State, INL, response to SIGAR vetting, 4/14/2014.
      Amid Election Fraud Allegations,” 6/19/2014; Agence France-       378 	 USAID, ODG, response to SIGAR vetting, 7/14/2014.
      Presse, “Abdullah threatens to reject Afghan election result,”    379 	 USAID, ODG, response to SIGAR vetting, 7/14/2014.
      6/19/2014.                                                        380 	 USAID, ODG, response to SIGAR data call, 12/30/2013; USAID,
356 	 Radio Free Europe, “Afghan Presidential Transition In Crisis            ODG, response to SIGAR data call, 3/31/2014.
      Amid Election Fraud Allegations,” 6/19/2014.                      381 	 National Democratic Institute, “Preliminary Statement of
357 	 Tolo News, “Nuristani Rejects Claims Against Amarkhail,”                the National Democratic Institute’s Election Mission for
      6/16/2014.                                                              Afghanistan’s 2014 Presidential Runoff Election,” 6/16/2014, p. 1.
358 	 Tolo News, “Abdullah Team Releases Audio Recordings               382 	 USAID, ODG, response to SIGAR data call, 6/30/2014.
      Implicating Amarkhail,” 6/23/2014; Tolo News, “Afghan Governor    383 	 USAID, ODG, response to SIGAR data call, 6/30/2014.
      Accused of Allowing Ballot-Stuffing,” 6/27/2014; Tolo News,       384 	 USIP, “Quarterly Progress Report to OTI,” 5/2014, pp. 2–3.
      “Tapes Released by Abdullah Raise Questions,” 6/29/2014.          385 	 DOD, response to SIGAR data call, 6/30/2014.
359 	 Tolo News, “Thousands Protest in Kabul over frauds in runoff,”    386 	USAID, U.S. Foreign Assistance for Afghanistan: Post
      6/28/2014.                                                              Performance Management Plan 2011-2015, 10/2010, p. 123.
360 	 The New York Times, “Top Afghan Election Official Resigns         387 	SIGAR, Quarterly Report to the U.S. Congress, 4/30/2014, pp.
      Amid Candidate’s Claim of Vote Fraud,” 6/23/2014; Tolo News,            127–129.
      “Amarkhail Would Not Escape if Innocent: Nuristani,” 7/3/2014.    388 	SIGAR, Quarterly Report to the U.S. Congress, 4/30/2014, pp.
361 	 Tolo News, “Amarkhail Rejects Plots of Escaping Afghanistan,”           127–129.
      7/6/2014.                                                         389 	 USAID, ODG, response to SIGAR data call, 6/30/2014.
362 	 Tolo News, “Abdullah Boycotts Commissions, Accuses Karzai,”       390 	 USAID, ODG, response to SIGAR data call, 6/30/2014.
      6/20/2014.                                                        391 	 Government of Afghanistan, “Communiqué: Conference
363 	 Tolo News, “Thousands Protest in Kabul over frauds in runoff,”          Outcomes, Contributions and Participants,” 1/28/2010, p. 5; “The
      6/28/2014.                                                              Tokyo Declaration: Partnership for Self-Reliance in Afghanistan
364 	 Agence France-Presse, “Risks multiply as Afghanistan readies            from Transition to Transformation,” 7/8/2012.
      for election run-off,” 5/20/2014.                                 392 	 USAID, OPPD, response to SIGAR vetting, 7/14/2014.
365 	 European Union Election Assessment Team Afghanistan, “EU          393 	 USAID, OPPD, response to SIGAR data call, 12/30/2013.
      EAT: More in‐depth investigations needed after serious allega-    394 	 USAID, OPPD, response to SIGAR data call, 6/30/2014.
      tions on possible fraud,” 7/3/2014.                               395 	 USAID, “Afghanistan Reconstruction Trust Fund (ARTF),”
366 	 European Union Election Assessment Team Afghanistan, “EU                8/26/2013.
      EAT: Preliminary results confirm the need for a comprehensive     396 	 USAID, “U.S. government contributed $105 million to Asian
      audit,” 7/10/2014.                                                      Development Bank Infrastructure Fund for Afghanistan,”
367 	 The New York Times, “Afghan Contenders Accept Results and               3/18/2014.
      Move On,” 5/15/2014.                                              397 	 USAID, OPPD, response to SIGAR data call, 12/30/2013.
368 	 European Union Election Assessment Team Afghanistan, “2nd         398 	 DOD, CSTC-A, responses to SIGAR data calls, 4/4/2014 and
      Round Presidential Election: Preliminary Statement,” 6/16/2014,         7/1/2014.
      p. 5; United Nations Security Council, The situation in           399 	 DOD, CSTC-A, response to SIGAR data call, 4/4/2014.
      Afghanistan and its implications for international peace and      400 	 DOD, CSTC-A, response to SIGAR data call, 4/4/2014.
      security, 6/18/2014, p. 4; Independent Election Commission,       401 	 USAID, response to SIGAR data call, 6/30/2014.
      “Frequently Asked Questions: Run-Off Election,” accessed          402 	 DOD, CSTC-A, response to SIGAR data call, 7/1/2014.
      6/27/2014.                                                        403 	 USAID, OPPD, response to SIGAR data call, 12/30/2013.
369 	 European Union Election Assessment Team Afghanistan, “2nd         404 	 Wadsam, “Donors have not fulfilled their commitments made at
      Round Presidential Election: Preliminary Statement,” 6/16/2014,         the Tokyo Conference: Afghan Finance Minister,” 5/11/2014.
      p. 1.                                                             405 	 DOD, CSTC-A, response to SIGAR data call, 4/4/2014.




                                                 240                    SPECIAL INSPECTOR GENERAL         I   AFGHANISTAN RECONSTRUCTION
                                                          ENDNOTES




406 	 DOD, CSTC-A, response to SIGAR data call, 4/4/2014.                435 	 Management Systems International, Stability in Key Areas -West
407 	 DOD, CSTC-A, response to SIGAR data call, 7/1/2014.                      Mid-Term Performance Evaluation Report, 3/26/2014, p. 35.
408 	 SIGAR Audit 14-32-AR, Direct Assistance: USAID Has Taken           436 	 Management Systems International, Stability in Key Areas -West
      Positive Action to Assess Afghan Ministries’ Ability to                  Mid-Term Performance Evaluation Report, 3/26/2014, pp. 14, 30.
      Manage Donor Funds, But Concerns Remain, 1/30/2014.                437 	 Management Systems International, Stability in Key Areas -West
409 	 Management Sciences for Health, “Leadership, Management,                 Mid-Term Performance Evaluation Report, 3/26/2014, p. 31.
      and Governance Project in Afghanistan,” 7/15/2013; USAID,          438 	 Management Systems International, Stability in Key Areas -West
      OSSD, response to SIGAR vetting, 4/14/2014.                              Mid-Term Performance Evaluation Report, 3/26/2014, p. 30.
410 	USAID, Cooperative Agreement No. AID-306-A-13-00001,                439 	 USAID, OTI, response to SIGAR data call, 6/30/2014.
      Ministry of Women’s Affairs Organizational Restructuring           440 	 USAID, OTI, response to SIGAR data call, 6/30/2014.
      and Empowerment (MORE), 12/20/2012, pp. 29–30.                     441 	 Caerus Analytics, Community Cohesion Initiative (CCI) Mid-
411 	 State, SRAP, response to SIGAR data call, 6/30/2014.                     Term Performance Evaluation Report, 5/15/2014, pp. 5, 10.
412 	 State, SRAP, response to SIGAR data call, 6/30/2014; State, PRM,   442 	 Caerus Analytics, Community Cohesion Initiative (CCI) Mid-
      response to SIGAR vetting, 7/9/2014.                                     Term Performance Evaluation Report, 5/15/2014, p. 18.
413 	 Tolo News, “Lower House Approves Access to Information             443 	 Caerus Analytics, Community Cohesion Initiative (CCI) Mid-
      Law,” 6/30/2014.                                                         Term Performance Evaluation Report, 5/15/2014, pp. 9, 20.
414 	 Tolo News, “NAI, CSHRN Ask Senate to Approve Access to             444 	 Caerus Analytics, Community Cohesion Initiative (CCI) Mid-
      Information Law,” 7/2/2014.                                              Term Performance Evaluation Report, 5/15/2014, p. 24.
415 	 Tolo News, “New Mines Law Approved,” 5/3/2014.                     445 	 Caerus Analytics, Community Cohesion Initiative (CCI) Mid-
416 	 State, SRAP, response to SIGAR data call, 6/30/2014; State, PRM,         Term Performance Evaluation Report, 5/15/2014, p. 25.
      response to SIGAR vetting, 7/9/2014.                               446 	 Caerus Analytics, Community Cohesion Initiative (CCI) Mid-
417 	 DAI, “Assistance to Legislative Bodies of Afghanistan Monthly            Term Performance Evaluation Report, 5/15/2014, p. 34.
      Report: May 2014,” 6/2014, p. 6.                                   447 	 Caerus Analytics, Community Cohesion Initiative (CCI) Mid-
418 	 Tolo News, “Absences From Lower House Increase,” 5/19/2014.              Term Performance Evaluation Report, 5/15/2014, p. 26.
419 	USAID, Contract No. AID-OAA-I-12-00003/AID-                         448 	 Caerus Analytics, Community Cohesion Initiative (CCI) Mid-
      306-TO-13-00004, 3/28/2013, p. 9.                                        Term Performance Evaluation Report, 5/15/2014, p. 38.
420 	 USAID, ODG, response to SIGAR data call, 6/30/2014.                449 	 Caerus Analytics, Community Cohesion Initiative (CCI) Mid-
421 	 USAID, ODG, response to SIGAR data call, 6/30/2014.                      Term Performance Evaluation Report, 5/15/2014, p. 28.
422 	 DAI, “Options for effective parliamentary research and budget      450 	 Caerus Analytics, Community Cohesion Initiative (CCI) Mid-
      offices within the Afghanistan parliament,” 6/2014, pp. 1–3.             Term Performance Evaluation Report, 5/15/2014, p. 29.
423 	USAID, U.S. Foreign Assistance for Afghanistan: Post                451 	 Committee on Foreign Relations (Senate), Evaluating U.S.
      Performance Management Plan 2011-2015, 10/2010, pp.                      Foreign Assistance to Afghanistan, 06/08/2011, p. 26.
      9–10, 25.                                                          452 	 USAID, OPPD, response to SIGAR data call, 3/31/2014; USAID,
424 	 U.S. Special Operations Command, Fact Book, 2013, p. 29;                 OPPD, response to SIGAR vetting, 1/14/2014; USAID, OPPD,
      DOD, NSOCC-A, response to SIGAR data call, 6/30/2014.                    response to SIGAR vetting, 7/14/2014.
425 	 Department of Defense, Report on Progress Toward Security          453 	 USAID, OPPD, response to SIGAR vetting, 1/14/2014.
      and Stability in Afghanistan, 4/2014, p. 54.                       454 	 USAID, OPPD, response to SIGAR data call, 6/30/2014.
426 	 U.S. Special Operations Command, Fact Book, 2013, p. 29;           455 	 USAID, OPPD, response to SIGAR data call, 3/31/2014.
      DOD, NSOCC-A, response to SIGAR data call, 6/30/2014.              456 	 USAID Office of Inspector General, Audit of USAID/
427 	 USAID, OPPD, response to SIGAR vetting, 7/14/2014.                       Afghanistan’s Afghan Civilian Assistance Program II,
428 	 SIGAR, Audit Report 13-16, Stability in Key Areas (SIKA)                 6/10/2014, p. 1.
      Programs: After 16 Months and $47 Million Spent, USAID             457 	 USAID Office of Inspector General, Audit of USAID/
      Had Not Met Essential Program Objectives, 7/2013, p. 3.                  Afghanistan’s Afghan Civilian Assistance Program II,
429 	 SIGAR, Audit Report 13-16, Stability in Key Areas (SIKA)                 6/10/2014, pp. 2–3.
      Programs: After 16 Months and $47 Million Spent, USAID Had         458 	DOD/State, U.S. Civil-Military Strategic Framework for
      Not Met Essential Program Objectives, 7/2013, pp. 7, 12, 18.             Afghanistan: Revision 2, 8/2013, p. 12.
430 	 SIGAR, Audit Report 13-16, Stability in Key Areas (SIKA)           459 	 United Nations Security Council, The situation in Afghanistan
      Programs: After 16 Months and $47 Million Spent, USAID                   and its implications for international peace and security,
      Had Not Met Essential Program Objectives, 7/2013, p. 18;                 6/18/2014, p. 15.
      USAID, STAB-U, response to SIGAR data call, 12/30/2013.            460 	 Security Council Committee established pursuant to resolu-
431 	 Management Systems International, Stability in Key Areas -West           tion 1988 (2011), Fourth report of the Analytical Support and
      Mid-Term Performance Evaluation Report, 3/26/2014, p. 7.                 Sanctions Monitoring Team submitted pursuant to resolu-
432 	 Management Systems International, Stability in Key Areas -West           tion 2082 (2012)concerning the Taliban and other associated
      Mid-Term Performance Evaluation Report, 3/26/2014, p. 4.                 individuals and entities constituting a threat to the peace,
433 	 Management Systems International, Stability in Key Areas -West           stability and security of Afghanistan, 6/10/2014, pp. 3, 9–10.
      Mid-Term Performance Evaluation Report, 3/26/2014, p. 3.           461 	 State, SRAP, response to SIGAR data call, 6/30/2014.
434 	 Management Systems International, Stability in Key Areas -West     462 	 Agence France-Presse, “US-Taliban prisoner exchange will help
      Mid-Term Performance Evaluation Report, 3/26/2014, p. 2.                 peace: Afghan official,” 6/1/2014.




REPORT TO THE UNITED STATES CONGRESS          I   JULY 30, 2014                       241
                                                       ENDNOTES




463 	 State Department, “Daily Press Briefing,” 6/3/2014.             497 	 Pajhwok News, “We no longer recognise Kabul mayor:
464 	 Pajhwok News, “Kabul wants curbs on released Taliban men              Speaker,” 5/12/2014.
      lifted,” 6/2/2014.                                              498 	 State, INL, response to SIGAR data call, 7/9/2014.
465 	 Tolo News, “Suicide Bomber Targets Peace Council’s              499 	 State, INL, response to SIGAR data call, 7/9/2014.
      Stanekzai,” 6/21/2014.                                          500 	SIGAR, Quarterly Report to the U.S. Congress, 10/30/2013, p. 137.
466 	 State, response to SIGAR vetting, 1/14/2014.                    501 	 State, INL, response to SIGAR data call, 7/9/2014.
467 	 Ronna, “Mission of the F-RIC,” accessed 1/07/2013; DOD, FRIC,   502 	 State, INL, response to SIGAR data call, 7/9/2014.
      response to SIGAR data call, 6/30/2014.                         503 	 Independent Joint Anti-Corruption Monitoring & Evaluation
468 	 DOD, FRIC, response to SIGAR data call, 6/30/2014.                    Committee, “Afghanistan Loses a Substantial Amount of its
469 	 DOD, FRIC, response to SIGAR data call, 6/30/2014.                    Revenue due to Ineffective Custom Control,” 6/10/2014.
470 	 State, response to SIGAR vetting, 1/14/2014; DOD, FRIC,         504 	 Independent Joint Anti-Corruption Monitoring & Evaluation
      response to SIGAR data call, 12/31/2013.                              Committee, “The Independent Joint Anti-Corruption Monitoring
471 	 Afghanistan Independent Human Rights Commission, Afghan               and Evaluation Committee (MEC) considers further strength-
      People’s Dialogue on Peace, 6/2014, pp. 17–18.                        ening of the Supreme Audit Office (SAO) to be necessary,”
472 	 USAID, ODG, response to SIGAR data call, 12/30/2013; USAID,           6/1/2014.
      ODG, response to SIGAR data call, 3/31/2014.                    505 	 Independent Joint Anti-Corruption Monitoring &
473 	 Sayara Research, Performance Evaluation of the Rule of Law            Evaluation Committee, “MEC Identifies Deficiencies that
      Stabilization-Informal Component Program, 5/2014, p. 13.              Create Opportunities for Corruption within Afghanistan
474 	 Sayara Research, Performance Evaluation of the Rule of Law            Telecommunications Regulation Authority and the Afghan Red
      Stabilization-Informal Component Program, 5/2014, p. 20.              Crescent Society,” 5/6/2014.
475 	 Sayara Research, Performance Evaluation of the Rule of Law      506 	 Independent Joint Anti-Corruption Monitoring &
      Stabilization-Informal Component Program, 5/2014, p. 21.              Evaluation Committee, “MEC Identifies Deficiencies that
476 	 Sayara Research, Performance Evaluation of the Rule of Law            Create Opportunities for Corruption within Afghanistan
      Stabilization-Informal Component Program, 5/2014, p. 23.              Telecommunications Regulation Authority and the Afghan Red
477 	 Sayara Research, Performance Evaluation of the Rule of Law            Crescent Society,” 5/6/2014.
      Stabilization-Informal Component Program, 5/2014, pp. 7, 31.    507 	SIGAR, Quarterly Report to the U.S. Congress, 10/30/2013, p.
478 	 Sayara Research, Performance Evaluation of the Rule of Law            137.
      Stabilization-Informal Component Program, 5/2014, p. 32.        508 	 State, INL, response to SIGAR data call, 7/9/2014.
479 	 Sayara Research, Performance Evaluation of the Rule of Law      509 	 Pajhwok News, “Senate rejects dissolution of anti-graft body,”
      Stabilization-Informal Component Program, 5/2014, p. 39.              7/6/2014.
480 	SIGAR, Support for Afghanistan’s Justice Sector: State           510 	 U.S. Department of State, Trafficking in Persons Report,
      Department Programs Need Better Management and Stronger               6/20/2014, p. 57; U.S. Embassy Kabul, Afghanistan, “Statement
      Oversight, 1/2014, p. 1.                                              by Ambassador James B. Cunningham on the release of the
481 	PAE, JSSP Quarterly Report March - May 2014, 6/22/2014, p.3.           Department of State’s 2014 Trafficking in Persons Report,”
482 	PAE, JSSP Quarterly Report March - May 2014, 6/22/2014, pp.            6/20/2014.
      26, 29; State, response to SIGAR vetting, 7/14/2014.            511 	 U.S. Department of State, Trafficking in Persons Report,
483 	 State, INL, response to SIGAR data call, 4/1/2014.                    6/20/2014, p. 68.
484 	IDLO, IDLO Quarterly Report, 4/30/2014, p. 25.                   512 	 U.S. Department of State, Trafficking in Persons Report,
485 	 State, SRAP, response to SIGAR data call, 6/30/2014.                  6/20/2014, p. 68.
486 	 State, INL, response to SIGAR data call, 7/9/2014.              513 	 U.S. Department of State, Trafficking in Persons Report,
487 	 State, INL, response to SIGAR data call, 7/9/2014.                    6/20/2014, p. 68.
488 	 State, INL, response to SIGAR data call, 7/9/2014.              514 	 State, PRM, response to SIGAR data call, 6/30/2014; State, PRM,
489 	 Meshrano Jirga, Provincial Oversight Visit of MJ                      response to SIGAR vetting, 7/9/2014.
      Delegation to Herat Province May 17 to 20, 2014, 5/2014,        515 	 State, PRM, response to SIGAR data call, 6/30/2014.
      pp. 3, 5–6.                                                     516 	 State, PRM, response to SIGAR data call, 6/30/2014.
490 	 State, INL, response to SIGAR data call, 7/9/2014.              517 	 State, SRAP, response to SIGAR data call, 6/30/2014.
491 	 Carnegie Endowment for International Peace, Corruption: The     518 	 Afghanistan Independent Human Rights Commission, Afghan
      Unrecognized Threat to International Security, 6/2014, p. 1.          People’s Dialogue on Peace, 6/2014, p. i.
492 	 Carnegie Endowment for International Peace, Corruption: The     519 	 Afghanistan Independent Human Rights Commission, Afghan
      Unrecognized Threat to International Security, 6/2014, p. 1.          People’s Dialogue on Peace, 6/2014, p. ii.
493 	 Carnegie Endowment for International Peace, Corruption: The     520 	 Afghanistan Independent Human Rights Commission, Afghan
      Unrecognized Threat to International Security, 6/2014, p. 7.          People’s Dialogue on Peace, 6/2014, pp. iii–iv.
494 	 Carnegie Endowment for International Peace, Corruption: The     521 	 Treasury, response to SIGAR data call, 3/31/2014; FATF,
      Unrecognized Threat to International Security, 6/2014, p. 7.          “Improving Global AML/CFT Compliance: On-Going Process,”
495 	 Integrity Watch Afghanistan, National Corruption Survey               6/27/2014.
      2014, 6/2014, pp. 2–4.                                          522 	 FATF, “Outcomes From the Meeting of the FATF Plenary, Paris,
496 	 Integrity Watch Afghanistan, National Corruption Survey               25–27 June 2014,” 6/27/2014; FATF, “Improving Global AML/CFT
      2014, 6/2014, p. 22.                                                  Compliance: On-Going Process,” 6/27/2014; Meshrano Jirga,




                                                 242                  SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                         ENDNOTES




      “At the Upper House Session on Tuesday by the Presidency          545 	 World Bank, Afghanistan: Transition to Transformation
      of Fazil Hadi Muslim Yaar Scheme Laws of Preventing Money               Update, JCMB Meeting, 1/29/2014.
      Laundering Revenues Caused By Crimes Ratified by the              546 	IMF, 2014 Article IV Consultation–Staff Report; Press Release;
      Majority Votes,” 6/24/2014; Meshrano Jirga, “At the Upper House         And Statement By The Executive Director For The Islamic
      Session on Wednesday by the Presidency of Fazil Hadi Muslim             Republic Of Afghanistan, 5/2014.
      Yaar Scheme Laws of Preventing Financing Terrorism Ratified       547 	 MOF, “Monthly Fiscal Bulletin, Month 4, 1393,” 6/15/2014.
      by the Majority Votes,” 6/25/2014.                                548 	 MOF, “Monthly Fiscal Bulletin, Month 4, 1393,” 6/15/2014.
523 	 Treasury, response to SIGAR data call, 3/31/2014; Treasury,       549 	 World Bank, Afghanistan: Transition to Transformation
      response to SIGAR vetting 7/11/2014; FATF, “High-Risk and Non-          Update, JCMB Meeting, 1/29/2014.
      Cooperative Jurisdictions, FATF Public Statement,” 2/14/2014.     550 	 IMF, “Transcript of a Conference Call on Afghanistan Article IV
524 	UN, Fourth Report of the Analytical Support and Sanctions                Consultation” with Paul Ross, Mission Chief for Afghanistan,
      Monitoring Team, 6/10/2014, p. 3.                                       Middle East and Central Asia Department, Washington, DC,
525 	 UN Security Council, The Situation in Afghanistan and its               5/21/2014, https://www.imf.org/external/np/tr/2014/tr052114.htm,
      Implications for International Peace and Security, 6/18/2014,           accessed 6/30/2014.
      p. 11.                                                            551 	 USAID, response to SIGAR data call, 6/30/2014.
526 	UN, Fourth Report of the Analytical Support and Sanctions          552 	IMF, 2014 Article IV Consultation–Staff Report; Press Release;
      Monitoring Team, 6/10/2014, p. 3.                                       And Statement By The Executive Director For The Islamic
527 	 FATF, “Improving Global AML/CFT Compliance: On-Going                    Republic Of Afghanistan, 5/2014.
      Process,” 6/27/2014; State, response to SIGAR data call,          553 	 European Commission, Directorate-General for Trade,
      7/3/2014.                                                               “European Union, Trade in Goods with Afghanistan,” 4/16/2014,
528 	 State, response to SIGAR data call, 6/30/2014; TFBSO, response          accessed 1/10/2014.
      to SIGAR data call, 7/1/2014.                                     554 	IMF, 2014 Article IV Consultation–Staff Report; Press Release;
529 	 Treasury, response to SIGAR data call, 6/30/2014.                       And Statement By The Executive Director For The Islamic
530 	 MOF, “1393 Monthly Fiscal Bulletin, Month 4, 1393,” 6/15/2014.          Republic Of Afghanistan, 5/2014.
531 	IMF, 2014 Article IV Consultation–Staff Report; Press Release;     555 	 USAID, “Afghanistan Trade and Revenue Project,” 12/30/2013.
      And Statement By The Executive Director For The Islamic           556 	 USAID, response to SIGAR data call, 6/30/2014; USAID,
      Republic Of Afghanistan, 5/2014.                                        response to SIGAR vetting, 7/14/2014.
532 	 DOJ, response to SIGAR data call, 6/1/2014.                       557 	 IMF, “IMF Executive Board Completes First Review Under the
533 	ADB, Outlook 2014, p. 155, 3/31/2014; World Bank,                        Extended Credit Facility Arrangement for the Islamic Republic
      Afghanistan: Country Snapshot, 3/2014, p. 1; IMF, 2014 Article          of Afghanistan, Approves US$18.2 Million Disbursement,”
      IV Consultation–Staff Report; Press Release; And Statement              6/29/2012; IMF, Islamic Republic of Afghanistan-First Review
      By The Executive Director For The Islamic Republic Of                   Under the Extended Credit Facility Arrangement, Request
      Afghanistan, 5/2014.                                                    for Waiver of Nonobservance of a Performance Criterion,
534 	 World Bank, Afghanistan: Transition to Transformation                   Modification of Performance Criteria, and Rephasing of
      Update, JCMB Meeting, 1/29/2014.                                        Disbursements, 6/19/2012; IMF, 2014 Article IV Consultation–
535 	 World Bank, Afghanistan: Country Snapshot, 3/2014.                      Staff Report; Press Release; And Statement By The Executive
536 	IMF, 2014 Article IV Consultation–Staff Report; Press Release;           Director For The Islamic Republic Of Afghanistan, 5/2014.
      And Statement By The Executive Director For The Islamic           558 	IMF, 2014 Article IV Consultation–Staff Report; Press Release;
      Republic Of Afghanistan, 5/2014.                                        And Statement By The Executive Director For The Islamic
537 	IMF, 2014 Article IV Consultation–Staff Report; Press Release;           Republic Of Afghanistan, 5/2014.
      And Statement By The Executive Director For The Islamic           559 	 World Bank, Afghanistan Economic Update, 4/2013, p. 12.
      Republic Of Afghanistan, 5/2014.                                  560 	 World Bank, Afghanistan Economic Update, 4/2013, p. 12.
538 	 World Bank, South Asia Economic Focus, Fall 2013.                 561 	 State, response to SIGAR data call, 9/26/2013.
539 	 World Bank, South Asia Economic Focus, Fall 2013.                 562 	 Treasury, response to SIGAR data call, 12/30/2013; FATF,
540 	 World Bank, Afghanistan: Transition to Transformation                   “Improving Global AML/CFT Compliance: On-Going Process,”
      Update, JCMB Meeting, 1/29/2014.                                        2/14/2014.
541 	 MOF, “1393 Monthly Fiscal Bulletin, Month 4, 1393,” 6/15/2014;    563 	 State, response to SIGAR data call, 9/26/2013.
      World Bank, Afghanistan Partnership: Country Snapshot,”           564 	 World Bank, Afghanistan Economic Update, 4/2013, p. 11;
      8/29/2013.                                                              IMF, 2014 Article IV Consultation–Staff Report; Press Release;
542 	 MOF, Afghanistan, First Quarter Performance Report 1393 on              And Statement By The Executive Director For The Islamic
      Strategic Plan, executive summary, 11 Jawza 1393 [6/1/2014].            Republic Of Afghanistan, 5/2014.
543 	 World Bank, Afghanistan Partnership: Country Snapshot,            565 	 World Bank, Afghanistan Economic Update, 4/2013, p. 12.
      8/29/2013; IMF, 2014 Article IV Consultation–Staff Report;        566 	 Da Afghanistan Bank, “Daily Exchange Rates of Selected
      Press Release; And Statement By The Executive Director For              Currencies to the afghani,” 1/3/2012; Da Afghanistan Bank,
      The Islamic Republic Of Afghanistan, 5/2014.                            “Daily Exchange Rates of Selected Currencies to the afghani,”
544 	IMF, 2014 Article IV Consultation–Staff Report; Press Release;           6/30/2014.
      And Statement By The Executive Director For The Islamic           567 	 Treasury, response to SIGAR data call, 6/30/2014.
      Republic Of Afghanistan, 5/2014.                                  568 	 Treasury, response to SIGAR data call, 3/31/2014.




REPORT TO THE UNITED STATES CONGRESS         I   JULY 30, 2014                       243
                                                        ENDNOTES




569 	State, International Narcotics Control Strategy Report, Vol. II,    593 	 DOJ, response to SIGAR data call, 6/1/2014; Independent Joint
      3/2014, accessed 6/20/2014.                                              Anti-Corruption Monitoring and Evaluation Committee, Report
570 	 The Basel Institute on Governance, The Basel AML Index                   of the Public Inquiry Into the Kabul Bank Crisis, 11/15/2012.
      2013, 6/10/2013, accessed 6/20/2014; The Basel Institute on        594 	 DOJ, response to SIGAR data call, 6/1/2014.
      Governance, The Basel AML Index 2013 vs. 2012 Public               595 	 DOJ, response to SIGAR data call, 6/1/2014.
      Edition Final Scores, 7/17/2013, accessed 6/20/2014.               596 	 DOJ, response to SIGAR data call, 6/1/2014.
571 	State, International Narcotics Control Strategy Report, Vol. II,    597 	 DOJ, response to SIGAR data call, 6/1/2014; Tokyo Mutual
      3/2014, accessed 6/20/2014.                                              Accountability Framework, “Special Joint Coordination &
572 	 FATF, “Improving Global AML/CFT Compliance: On-Going                     Monitoring Board Meeting, Joint Report,” 1/29/2014.
      Process,” 6/27/2014; FATF, “High-Risk and Non-Cooperative          598 	 DOJ, response to SIGAR data call, 6/1/2014.
      Jurisdictions, FATF Public Statement,” 2/14/2014; FATF,            599 	DOD/State, U.S. Civil-Military Strategic Framework for
      “Outcomes From the Meeting of the FATF Plenary, Paris, 25–27             Afghanistan, 8/2013.
      June 2014,” 6/27/2014; State, response to SIGAR data call,         600 	 State, response to SIGAR data call, 6/30/2014.
      6/30/2014.                                                         601 	 USAID, response to SIGAR data call, 6/30/2014.
573 	 FATF, “Outcomes From the Meeting of the FATF Plenary, Paris,       602 	 USAID, response to SIGAR data call, 6/30/2014.
      25–27 June 2014,” 6/27/2014; The Economist, “Afghanistan           603 	 USAID, response to SIGAR data call, 6/30/2014.
      Avoids FATF Blacklisting,” 7/1/2014; State, response to SIGAR      604 	 Tokyo Mutual Accountability Framework, “Special Joint
      data call, 6/30/2014.                                                    Coordination & Monitoring Board Meeting, Joint Report,” 1/29/2014.
574 	 Reuters, “Afghan President Signs Terror Law Needed to Avoid        605 	 State, response to SIGAR vetting, 1/14/2014.
      Blacklist,” 7/3/2014; FATF, “Outcomes From the Meeting             606 	 USAID, responses to SIGAR data call, 3/31/2014 and 6/30/2014.
      of the FATF Plenary, Paris, 25–27 June 2014,” 6/27/2014;           607 	 World Bank, Afghanistan Economic Update, 4/2013, p. 4; World
      Meshrano Jirga, “At the Upper House Session on Wednesday                 Bank, “Competitiveness and Inclusive Growth for Sustainable
      by the Presidency of Fazil Hadi Muslim Yaar Scheme Laws of               Jobs,” 5/7/2013, p. 20; MOF, “H.E. Finance Minister’s Speech for
      Preventing Financing Terrorism Ratified by the Majority Votes,”          Misrano Jirga Regarding Submission of 1392 National Budget,”
      6/25/2014.                                                               11/6/2012, accessed 10/14/2013.
575 	 State, response to SIGAR data call, 6/30/2014; FATF, “Improving    608 	 World Bank, “Afghanistan, From Transition to Transformation
      Global AML/CFT Compliance: On-Going Process,” 6/27/2014;                 II,” Senior Officials Meeting, 7/2/2013.
      Treasury, response to SIGAR vetting, 7/11/2014.                    609 	USIP, Extractive Industries and Peacebuilding in
576 	 Treasury, response to SIGAR data call, 6/30/2014.                        Afghanistan, The Role of Social Accountability, Special Report
577 	 Treasury, response to SIGAR vetting, 7/11/2014.                          339, 10/30/2013.
578 	 State, response to SIGAR data call, 6/30/2014.                     610 	 Revenue Watch Institute, The 2013 Resource Governance
579 	 Reuters, “Exclusive: Afghanistan Suffers Trade Blow as China             Index, 6/6/2013.
      Halts Dollar Deals With Its Banks,” 5/22/2014; RFE/RL, “China      611 	 Integrity Watch Afghanistan, Comparative Study Of Mining-
      Halts Dollar Transactions With Afghan Commercial Banks,”                 Sector Governance, 6/30/2014.
      5/23/2014.                                                         612 	 Wolesi Jirga, “The Wolesi Jirga National Assembly of
580 	 Xinhua News Agency, “Halting Dollar Transaction With Afghan              Afghanistan Approves a Landmark Bill on Mines and
      Banks Baseless: Chinese Embassy,” 6/1/2014.                              Petroleum,” 5/3/2014; State, response to SIGAR data call,
581 	 FATF, “FATF Public Statement,” 6/27/2014; Treasury, response             7/3/2014.
      to SIGAR vetting, 7/11/2014.                                       613 	 State, responses to SIGAR data call, 7/3/2014 and 9/26/2013;
582 	 Treasury, response to SIGAR data call, 12/30/2013 and 6/30/2014;         State, response to SIGAR vetting 7/11/2014.
      Treasury, response to SIGAR vetting, 7/11/2014.                    614 	 World Bank, “Competitiveness and Inclusive Growth for
583 	 DOJ, responses to SIGAR data call, 6/1/2014 and 6/29/2013;               Sustainable Jobs,” 5/7/2013.
      State, response to SIGAR data call, 3/25/2013; State, INL,         615 	 TFBSO, responses to SIGAR data call, 9/30/2013 and 12/30/2013.
      responses to SIGAR vetting, 4/1/2014 and 4/12/2014.                616 	 TFBSO, response to SIGAR data call, 7/1/2014.
584 	 State, INL, response to SIGAR vetting, 4/12/2014.                  617 	 Tokyo Conference on Afghanistan, Tokyo Mutual
585 	 DOJ, response to SIGAR data call, 6/1/2014.                              Accountability Framework, 7/8/2012, accessed 7/4/2013.
586 	 State, response to SIGAR data call, 3/25/2013; Treasury,           618 	 State, response to SIGAR data call, 9/26/2013.
      response to SIGAR data call, 4/1/2013; DOJ, response to SIGAR      619 	 TFBSO, response to SIGAR data call, 4/1/2014.
      data call, 6/29/2013.                                              620 	 TFBSO, response to SIGAR data call, 4/1/2014; IMF,
587 	 DOJ, response to SIGAR data call, 6/1/2014.                              “Commodity Price Outlook and Risks,” 5/21/2014.
588 	 State, response to SIGAR data call, 4/1/2014; DOJ, response to     621 	 MOMP, “Preferred Bidder for Current Mineral Tenders,”
      SIGAR data call, 6/1/2014.                                               12/6/2012; MOMP, “Preferred Bidder for Zarkashan Project,”
589 	 DOJ, responses to SIGAR data call, 1/4/2014 and 6/1/2014.                12/16/2012; TFBSO, response to SIGAR data call, 7/1/2014.
590 	 DOJ, response to SIGAR data call, 6/1/2014.                        622 	 TFBSO, response to SIGAR data call, 7/1/2014.
591 	 State, response to SIGAR data call, 6/30/2014; DOJ, response to    623 	 TFBSO, response to SIGAR data call, 7/1/2014; State, response
      SIGAR data call, 6/1/2014.                                               to SIGAR data call, 6/30/2014.
592 	DAB, Report on Kabul Bank Asset Recovery, 9/30/2013 (pub-           624 	 MOMP, “Afghanistan Ministry of Mines Announces the Winning
      lished, after approval, on 11/1/2013).                                   Bidders for the Hajigak Iron Ore Project Tender,” 6/23/2012.




                                                  244                    SPECIAL INSPECTOR GENERAL         I   AFGHANISTAN RECONSTRUCTION
                                                         ENDNOTES




625 	 Bloomberg News, “SAIL-led Consortium to Cut Spend on              660 	 USAID, response to SIGAR data call, 9/30/2013; USAID,
      Afghan Iron-Ore Mine,” 11/11/2013; Foreign Policy, “What’s to           response to SIGAR vetting, 4/14/2014.
      become of Afghanistan’s Mines?” 4/2/2014; TFBSO, response to      661 	 World Bank, Afghanistan: Country Snapshot, 3/2014.
      SIGAR data call, 7/1/2014.                                        662 	 USAID, responses to SIGAR data call, 9/30/2013 and 12/31/2013;
626 	 TFBSO, response to SIGAR data call, 7/1/2014.                           TFBSO, response to SIGAR data call, 7/1/2014.
627 	 TFBSO, response to SIGAR data call, 4/1/2014.                     663 	 USAID, responses to SIGAR data call, 9/30/2013 and 12/31/2013.
628 	 State, response to SIGAR data call, 9/26/2013.                    664 	 MOMP, “The Contract for the Rehabilitation and Drilling of
629 	 MOF, “1393 National Budget,” accessed 4/2/2014; MOF, “1392              Gas Wells in Juma and Bashikord Signed,” 12/14/2013; USAID,
      National Budget,” accessed 4/2/2014.                                    response to SIGAR data call, 12/31/2013.
630 	 TFBSO, response to SIGAR data call, 7/1/2014; Global Witness,     665 	 USAID, response to SIGAR data call, 6/30/2014.
      “Afghan Election Must Respect and Strengthen the Rule of          666 	 MOMP, “The Contract for the Rehabilitation and Drilling of
      Law,” 4/4/2014; Ariana News, “1400 Mines Being Operated                 Gas Wells in Juma and Bashikord Signed,” 12/14/2013; USAID,
      Illegally in Afghanistan,” 5/8/2014.                                    response to SIGAR data call, 12/31/2013.
631 	 TFBSO, response to SIGAR data call, 7/1/2014.                     667 	 USAID, response to SIGAR data call, 12/31/2013.
632 	UN, Fourth Report of the Analytical Support and Sanctions          668 	 USAID, response to SIGAR vetting, 7/14/2014.
      Monitoring Team, 6/10/2014, p. 3; Global Witness, “The Case for   669 	 TFBSO, response to SIGAR data call, 7/1/2014.
      Human Rights Due Diligence,” 5/26/2014.                           670 	 TFBSO, response to SIGAR data call, 7/1/2014; TFBSO,
633 	UN, Fourth Report of the Analytical Support and Sanctions                response to SIGAR vetting 7/11/2014.
      Monitoring Team, 6/10/2014, pp. 19–20.                            671 	 World Bank, Afghanistan: Country Snapshot, 3/2014.
634 	 TFBSO, response to SIGAR data call, 7/1/2014.                     672 	NSC, Report in Response to Section 1535(c) of the Ike Skelton
635 	 TFBSO, response to SIGAR data call, 7/1/2014.                           National Defense Authorization Act for Fiscal Year 2011
636 	 TFBSO, response to SIGAR data call, 7/1/2014.                           (Pub. L. 111-383).
637 	 TFBSO, response to SIGAR data call, 7/1/2014.                     673 	 USAID, response to SIGAR data call, 6/30/2014.
638 	 TFBSO, response to SIGAR data call, 7/1/2014.                     674 	 USAID, response to SIGAR data call, 6/30/2014.
639 	 TFBSO, response to SIGAR data call, 7/7/2014.                     675 	 USAID, response to SIGAR data call, 6/30/2014; USAID,
640 	 TFBSO, response to SIGAR data call, 4/1/2014.                           response to SIGAR vetting, 7/14/2014.
641 	 USAID, response to SIGAR data call, 6/30/2014.                    676 	 USAID, response to SIGAR data call, 6/30/2014.
642 	 USAID, response to SIGAR data call, 3/31/2014.                    677 	 USAID, response to SIGAR data call, 6/30/2014; USAID,
643 	 USAID, response to SIGAR vetting, 7/14/2014.                            response to SIGAR vetting, 7/14/2014.
644 	 USAID, response to SIGAR data call, 6/30/2014.                    678 	 USAID, response to SIGAR data call, 6/30/2014; USAID,
645 	 TFBSO, response to SIGAR data call, 7/1/2014.                           response to SIGAR vetting, 7/14/2014.
646 	 TFBSO, response to SIGAR data call, 7/1/2014.                     679 	 USAID, response to SIGAR data call, 9/30/2013; USAID,
647 	 MOMP, “Oil and Gas Resources,” accessed 7/14/2014; MOMP,                response to SIGAR vetting, 7/14/2014.
      “Contracts, Hydrocarbons,” accessed 7/14/2014.                    680 	USAID, Agricultural Credit Enhancement (ACE) Program,
648 	 ACCI, “The First Afghanistan’s Refinery Opened,” 8/25/2013;             Monthly Report No. 44, April 1-30, 2014, 4/2014.
      State, response to SIGAR vetting, 10/11/2013.                     681 	 USAID responses to SIGAR data call, 12/31/2013 and 3/31/2014.
649 	 ADB, “Afghanistan, Gas Development Master Plan, Project Data      682 	 USAID, response to SIGAR data call, 7/10/2014.
      Sheet,” 4/17/2014.                                                683 	 USAID, response to SIGAR data call, 9/30/2013; USAID,
650 	 MOMP, “10 Reasons to Invest In Afghanistan’s Mining Sector,”            “Commercial Horticulture and Agriculture Marketing Program,
      accessed 4/2/2014; GIROA, “Contract on Amu Darya Oil Enjoys             Factsheet,” 1/2013; USAID response to SIGAR data call, 12/31/2013.
      Highest Degree of Transparency and Fairness: U.S. and UK          684 	 USAID, “Commercial Horticulture and Agricultural Marketing
      Ambassadors in Meeting with President Karzai,” 6/23/2012.               Program, April 2014 Monthly Report,” 4/2014.
651 	 TFBSO, responses to SIGAR data call, 4/1/2014 and 7/1/2014;       685 	 USAID, “Kandahar Food Zone Program, Quarterly Report
      State, response to SIGAR data call, 4/1/2014.                           October-December 2013,” 1/31/2014; USAID, response to SIGAR
652 	 TFBSO, response to SIGAR data call, 7/1/2014.                           data call, 6/30/2014.
653 	 TFBSO, responses to SIGAR data call, 4/1/2014 and 7/1/2014.       686 	 USAID, response to SIGAR data call, 12/31/2013; USAID,
654 	 MOMP, “Afghanistan Announces Third Oil and Gas Tender                   “Cooperative Agreement No. AID-306-A-13-00008, Kandahar
      in Three Years,” 1/7/2014; MOMP, “Request for Expression                Food Zone,” 7/31/2013; USAID, KFZ Quarterly Report July-
      of Interest-Oil and Gas Exploration and Production Tender,”             September 2013, 10/31/2013.
      9/27/2013.                                                        687 	 USAID, responses to SIGAR data call, 3/31/2014 and 6/30/2014.
655 	 MOMP, “Afghanistan Announces Third Oil and Gas Tender in          688 	USAID, KFZ Monthly Report May 2014, 5/2014; USAID,
      Three Years,” 1/7/2014.                                                 response to SIGAR vetting, 7/14/2014.
656 	 MOMP, “Afghan and International Firms Competing for Valuable      689 	 World Bank, Islamic State of Afghanistan, Pathways to
      Hydrocarbon Blocks,” 6/21/2014.                                         Inclusive Growth, Report No: ACS8228, 3/2014.
657 	 TFBSO, response to SIGAR data call, 12/30/2013.                   690 	 World Bank, Afghanistan: Country Snapshot, 3/2014.
658 	 TFBSO, response to SIGAR data call, 7/1/2014; TFBSO,              691 	DOD, Report on Progress Toward Security and Stability
      response to SIGAR vetting 7/11/2014.                                    in Afghanistan, 11/2013, p. 106; USAID, “Factsheet:
659 	 TFBSO, response to SIGAR data call, 7/1/2014.                           Infrastructure,” 2/2013, accessed 9/10/2013.




REPORT TO THE UNITED STATES CONGRESS         I   JULY 30, 2014                        245
                                                       ENDNOTES




692 	 USAID, response to SIGAR data call, 3/31/2014.                         Update, 4/2013; World Bank, Islamic State of Afghanistan,
693 	 USAID, response to SIGAR vetting, 7/14/2014.                           Pathways to Inclusive Growth, Report No: ACS8228, 3/2014.
694 	 USAID, response to SIGAR vetting, 1/15/2014; DOD, response to    730 	 World Bank, Afghanistan: Country Snapshot, 3/2014.
      SIGAR vetting, 7/11/2014.                                        731 	 DOT, response to SIGAR data call, 7/5/2014.
695 	 USAID, response to SIGAR data call, 7/1/2013; USAID,             732 	 USAID, response to SIGAR data call, 6/30/2014; USAID,
      responses to SIGAR vetting, 1/15/2014 and 7/14/2014; DOD,              response to SIGAR vetting, 7/14/2014; World Bank,
      response to SIGAR vetting, 1/16/2014.                                  Afghanistan: Country Snapshot, 3/2014.
696 	 USAID, response to SIGAR data call, 7/1/2013. USAID, response    733 	 DOT, response to SIGAR data call, 7/5/2014.
      to SIGAR vetting, 1/15/2014; DOD, Report on Progress Toward      734 	 DOT, responses to SIGAR data call, 3/31/2014 and 7/5/2014.
      Security and Stability in Afghanistan, 11/2013.                  735 	 USAID, response to SIGAR data call, 12/31/2013; DOT, response
697 	 USAID, response to SIGAR vetting, 7/14/2014.                           to SIGAR data call, 7/5/2014.
698 	 USAID, response to SIGAR vetting, 4/15/2013.                     736 	 USAID, responses to SIGAR data call, 12/31/2013 and 3/31/2014.
699 	 AFP, “Taliban Launch Major Offensive in Afghanistan’s Helmand    737 	 USAID, responses to SIGAR data call, 3/31/2014 and 6/30/2014.
      Province,” 6/25/2014.                                            738 	 USAID, responses to SIGAR data call, 3/31/2014 and 6/30/2014.
700 	 Pajhwok News, “Senior Sangin Power Official Dies in Blast,”      739 	 USAID, response to SIGAR vetting, 7/14/2014.
      7/12/2014.                                                       740 	 USAID, response to SIGAR vetting, 7/14/2014.
701 	 USAID, response to SIGAR vetting, 1/15/2014.                     741 	 USAID, response to SIGAR vetting, 7/14/2014.
702 	 USAID, response to SIGAR data call, 6/30/2014.                   742 	USAID, U.S. Foreign Assistance for Afghanistan PMP
703 	 USAID, response to SIGAR data call, 3/31/2014.                         2011–2015.
704 	 USAID, response to SIGAR vetting, 1/15/2014.                     743 	 MOE, Education Management Information System (EMIS)
705 	 USAID, response to SIGAR vetting, 7/14/2014.                           Generated Report, Summary of Schools By Different Education
706 	 USAID, response to SIGAR vetting, 1/15/2014.                           Type Year 1391, accessed 6/19/2014.
707 	USACE, Solicitation No. W912ER-14-R-0028, 6/20/2014.              744 	 MOE, Education Management Information System (EMIS)
708 	USACE, Solicitation No. W912ER-14-R-0028, Amendment/                    Generated Report, Summary of Students Attendance Year
      Modification No. 0001, 6/24/2014.                                      1391, accessed 6/18/2014; USAID, response to SIGAR vetting,
709 	 DOD, response to SIGAR data call 1/13/2014.                            7/14/2014.
710 	 DOD, response to SIGAR data call, 7/8/2014.                      745 	 USAID, response to SIGAR vetting, 7/14/2014; MOE, Enroll,
711 	 DOD, responses to SIGAR data call, 9/30/2013 and 1/13/2014.            Present & Absent Students by Province for General Education
712 	 DOD, responses to SIGAR vetting, 10/16/2013 and 7/11/2014.             for year 1391.
713 	 DOD, response to SIGAR data call, 9/30/2013; DOD, response to    746 	MOE, Enrollment by Grade and Province for General
      SIGAR vetting, 7/11/2014.                                              Education 1392.
714 	 DOD, response to SIGAR data call, 7/8/2014; DOD, response to     747 	 USAID, response to SIGAR vetting, 4/12/2014; MOE, Education
      SIGAR vetting, 7/11/2014.                                              Joint Sector Review 2012, 9/2013.
715 	 SIGAR, Inquiry Letter 14-68-SP, 6/10/2014.                       748 	 USAID, response to SIGAR data call, 6/30/2014; USAID,
716 	 DOD, responses to SIGAR data call, 9/30/2013 and 4/1/2014;             response to SIGAR vetting, 7/14/2014.
      DOD, response to SIGAR vetting, 7/11/2014.                       749 	 USAID, responses to SIGAR vetting, 4/14/2014 and 7/14/2014.
717 	 DOD, response to SIGAR vetting, 7/11/2014.                       750 	 USAID, Afghanistan, “Our Work, Education,” 3/24/2014,
718 	 DOD, responses to SIGAR data call, 9/30/2013, 1/13/2014, and           accessed 4/10/2014.
      4/3/2014; DOD, response to SIGAR vetting, 10/16/2013.            751 	 USAID, response to SIGAR data call, 6/30/2014.
719 	 DOD, response to SIGAR vetting, 10/16/2013; DOD, response to     752 	MOE, Education Joint Sector Review 2012, 9/2013.
      SIGAR data call 1/13/2014.                                       753 	 USAID, response to SIGAR data call, 6/30/2014.
720 	 DOD, response to SIGAR data call, 6/27/2013; DOD, response       754 	 USAID, response to SIGAR data call, 6/30/2014.
      to SIGAR data call, 9/30/2013; DOD, response to SIGAR vetting,   755 	 USAID, response to SIGAR data call, 3/31/2014; USAID,
      10/16/2013.                                                            Quarterly Report November 1, 2013 To January 31, 2014,
721 	 SIGAR, Audit Report 12-12, Fiscal Year 2011 Afghanistan                American University of Afghanistan, 1/31/2014.
      Infrastructure Fund Projects Are Behind Schedule and Lack        756 	 USAID, response to SIGAR data call, 3/31/2014.
      Adequate Sustainment Plans, 7/2012.                              757 	 USAID, response to SIGAR data call, 6/30/2014; USAID,
722 	 DOD, responses to SIGAR data call, 9/30/2013, 1/13/2014, and           response to SIGAR vetting, 7/14/2014.
      4/3/2014; DOD, response to SIGAR vetting, 10/16/2013.            758 	USAID, University Support and Workforce Development
723 	 DOD, response to SIGAR vetting, 10/16/2013.                            Program Quarterly Report, 3/2014.
724 	 USAID, response to SIGAR data call, 6/30/2014.                   759 	 USAID, response to SIGAR data call, 6/30/2014.
725 	 USAID, response to SIGAR vetting, 7/14/2014.                     760 	USAID, U.S. Foreign Assistance for Afghanistan PMP
726 	 USAID, response to SIGAR data call, 3/31/2014.                         2011–2015.
727 	 USAID, response to SIGAR data call, 6/30/2014; USAID,            761 	 ACBAR, “Impact of Transition on Health Care Delivery,”
      response to SIGAR vetting, 7/14/2014.                                  accessed 7/1/2014; ACBAR, “Press Release,” 6/9/2014.
728 	 World Bank, Afghanistan Transport Sector, accessed 7/8/2013.     762 	 USAID, “Health Programs, Health Snapshot,” accessed 7/6/2013;
729 	 World Bank, “Competitiveness and Inclusive Growth for                  USAID, Afghanistan Mortality Survey 2010, Key Findings,
      Sustainable Jobs,” 5/7/2013; World Bank, Afghanistan Economic          12/2011.




                                                 246                   SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                       ENDNOTES




763 	 World Bank, World Development Indicators, accessed              774 	 USAID, response to SIGAR data call, 3/31/2014.
      6/17/2014.                                                      775 	 USAID, response to SIGAR vetting, 7/14/2014.
764 	 USAID, response to SIGAR vetting, 7/14/2014.                    776 	USAID, Partnership Contracts for Health Fact Sheet, 1/2014.
765 	 USAID, response to SIGAR data call, 6/30/2014.                  777 	 USAID, response to SIGAR data call, 6/30/2014.
766 	 USAID, response to SIGAR data call, 4/11/2013; USAID,           778 	 USAID, response to SIGAR data call, 3/31/2014.
      responses to SIGAR vetting, 10/13/2013 and 7/14/2014.           779 	 SIGAR, Audit Report 13-17, Health Services in Afghanistan:
767 	 USAID, response to SIGAR data call, 12/31/2013.                       USAID Continues Providing Millions of Dollars to the
768 	 USAID, response to SIGAR data call, 6/30/2014.                        Ministry of Public Health Despite the Risk of Misuse of Funds,
769 	 MOPH, “Anti-Polio Drive Launched Across The Country,”                 9/2013.
      5/4/2014.                                                       780 	 USAID, response to SIGAR vetting, 7/14/2014.
770 	 USAID, response to SIGAR vetting, 7/14/2014; MOPH,              781 	 USAID, response to SIGAR data call, 12/31/2013; USAID,
      Afghanistan Polio Eradication Initiative, Surveillance Update         “Health Policy Project: Factsheet,” 1/2013; USAID, responses to
      Week 12, 3/25/2014.                                                   SIGAR vetting, 10/13/2013 and 4/14/2014.
771 	 USAID, response to SIGAR data call, 6/30/2014.                  782 	 USAID, response to SIGAR data call, 6/30/2014.
772 	 MOPH, “Anti-Polio Drive Launched Across The Country,”           783 	 USAID, response to SIGAR data call, 6/30/2014.
      5/4/2014; Global Polio Eradication Initiative, “Infected        784 	 USAID, “Leadership, Management, Governance: Fact Sheet,”
      Countries, Afghanistan,” 7/4/2014.                                    1/2013.
773 	 MOPH, “Anti-Polio Drive Launched Across The Country,”           785 	 USAID, response to SIGAR data call, 6/30/2014; USAID,
      5/4/2014; MOPH, National Polio Eradication Initiative of              response to SIGAR vetting, 7/14/2014.
      Afghanistan 2013-2014, accessed 6/20/2014.                      786 	 USAID, response to SIGAR data call, 6/30/2014.




REPORT TO THE UNITED STATES CONGRESS       I   JULY 30, 2014                       247
                             The National Defense Authorization Act for FY 2008 (P.L. 110-181)
                             established the Special Inspector General for Afghanistan
                             Reconstruction (SIGAR).
                             SIGAR’s oversight mission, as defined by the legislation, is to provide for the
                             independent and objective
                             •	 conduct and supervision of audits and investigations relating to the programs
                                and operations funded with amounts appropriated or otherwise made available
                                for the reconstruction of Afghanistan.
                             •	 leadership and coordination of, and recommendations on, policies designed
                                to promote economy, efficiency, and effectiveness in the administration of the
                                programs and operations, and to prevent and detect waste, fraud, and abuse
                                in such programs and operations.
                             •	 means of keeping the Secretary of State and the Secretary of Defense fully
                                and currently informed about problems and deficiencies relating to the
                                administration of such programs and operation and the necessity for and
                                progress on corrective action.                                                                                        A landfill containing furniture and other materials from the facilities at Camp
                             Afghanistan reconstruction includes any major contract, grant, agreement,                                                Leatherneck, Helmand Province, that are not being returned to the USA or transferred to
                             or other funding mechanism entered into by any department or agency of the                                               the government of Afghanistan. (SIGAR photo by Greg Bauer)
                             U.S. government that involves the use of amounts appropriated or otherwise made
                             available for the reconstruction of Afghanistan.

                             Source: P.L. 110-181, “National Defense Authorization Act for FY 2008,” 1/28/2008.


                             (For a list of the congressionally mandated contents of this report, see Section 3.)




                                                                                                                         Quarterly Report Staff

                                                                                                                         Michael Bindell, Economic and Social Development Subject Matter Expert   Emmett Schneider, Senior Data Analyst/Senior Auditor
                                                                                                                         Meredith Chen, Student Trainee                                           Deborah Scroggins, Director of Research and Analysis Directorate/Editor
                                                                                                                         Clark Irwin, Senior Writer/Editor                                        Solange Toura Gaba, Research Assistant
                                                                                                                         Vong Lim, Visual Information Specialist                                  Daniel Weggeland, Governance Subject Matter Expert
                                                                                                                         Jennifer Manzullo, Program Manager                                       Genevieve Wilson, Security Subject Matter Expert
                                                                                                                         Olivia Paek, Visual Information Specialist                               Joseph Windrem, Deputy Director of Research and Analysis Directorate/Editor
                             Cover photo:
                                                                                                                         Thomas Scherer, Student Trainee
                             A Coalition soldier looks over a valley in Kabul Province, Afghanistan. (U.S. Army photo)




FINAL_Jul2014_Cover.indd 2                                                                                                                                                                                                                                                      7/16/2014 1:22:14 PM
                                                                                                                                                                                            sigar
        SIGAR
        Special Inspector General                                                                                                                                                                            Special Inspector General for    Jul 30




                                                                                                                   SIGAR | Quarterly Report to the United States Congress | July 30, 2014
        for Afghanistan Reconstruction
                                                                                                                                                                                                             Afghanistan Reconstruction        2014
        2530 Crystal Drive
        Arlington, VA 22202

        www.sigar.mil




        FRAUD, WASTE, OR ABUSE MAY BE REPORTED TO SIGAR’S HOTLINE
                                                                                                                                                                                             Quarterly Report to the United States Congress
        By Phone: Afghanistan
        Cell: 0700107300
        DSN: 318-237-3912 ext. 7303
        All voicemail is in Dari, Pashto, and English.

        By Phone: United States
        Toll Free: 866-329-8893
        DSN: 312-664-0378
        All voicemail is in English and answered during business hours.

        FRAUD,      WASTE, OR ABUSE MAY BE REPORTED TO SIGAR’S HOTLINE
        By Fax: 703-601-4065
        By E-mail: sigar.hotline@mail.mil
        By  phone:
        By Web        Afghanistan
                Submission:    www.sigar.mil/investigations/hotline/
        Cell: 0700107300
        DSN: 318-237-3912 ext. 7303
        All voicemail is in Dari, Pashto, and English.

        By phone: United States
        Toll-free: 866-329-8893
        DSN: 312-664-0378
        All voicemail is in English and answered during business hours.

        By fax: 703-601-4065
        By e-mail: sigar.hotline@mail.mil
        By Web submission: www.sigar.mil/investigations/hotline/report-fraud.aspx




                                                                                                                   3
                                                                                    sigar
                                                                                    Report Fraud, Waste or Abuse




FINAL_Jul2014_Cover.indd 1                                                                                                                                                                                                                        7/16/2014 1:22:13 PM
